<html>
<title> - DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2002</title>
<body><pre>[Senate Hearing 107-402]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-402
 
        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2002
=======================================================================



                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   on

                           H.R. 2944/S. 1543

  AN ACT MAKING APPROPRIATIONS FOR THE GOVERNMENT OF THE DISTRICT OF 
 COLUMBIA AND OTHER ACTIVITIES CHARGEABLE IN WHOLE OR IN PART AGAINST 
THE REVENUES OF SAID DISTRICT FOR THE FISCAL YEAR ENDING SEPTEMBER 30, 
                      2002, AND FOR OTHER PURPOSES

                               __________

                 Child and Family Services Receivership
                          District of Columbia

                               __________

         Printed for the use of the Committee on Appropriations






 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate
                                 ______

                        U.S. GOVERNMENT PRINTING OFFICE
70-715                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









                    COMMITTEE ON APPROPRIATIONS \1\

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
                                     MARY L. LANDRIEU, Louisiana
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
                 Terry Sauvain, Minority Staff Director
                                 ------                                

                Subcommittee on the District of Columbia

                      MIKE DeWINE, Ohio, Chairman
KAY BAILEY HUTCHISON, Texas          MARY L. LANDRIEU, Louisiana
TED STEVENS, Alaska, (ex officio)    RICHARD J. DURBIN, Illinois
                                     ROBERT C. BYRD, West Virginia (ex 
                                         officio)
                           Professional Staff

                    Mary Beth Nethercutt (Majority)
                       Charles Kieffer (Minority)
                        Kate Eltrich (Minority)

    \1\ Committee and subcommittee memberships--January 25, 2001 to 
June 6, 2001.

    Note.--From January 3 to January 20, 2001 the Democrats held the 
majority, thanks to the deciding vote of outgoing Democratic Vice 
President Al Gore. Senator Thomas A. Daschle became majority leader at 
that time. Starting January 20, 2001, the incoming Republican Vice 
President Richard Cheney held the deciding vote, giving the majority to 
the Republicans. Senator Trent Lott resumed his position as majority 
leader. On May 24, 2001, Senator James Jeffords of Vermont announced 
his switch from Republican to Independent status, effective June 6, 
2001. Jeffords announced that he would caucus with the Democrats, 
changing control of the evenly divided Senate from the Republicans to 
the Democrats. Senator Thomas A. Daschle became majority leader once 
again on June 6, 2001.
                    COMMITTEE ON APPROPRIATIONS \2\

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             TED STEVENS, Alaska
ERNEST F. HOLLINGS, South Carolina   THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            ARLEN SPECTER, Pennsylvania
TOM HARKIN, Iowa                     PETE V. DOMENICI, New Mexico
BARBARA A. MIKULSKI, Maryland        CHRISTOPHER S. BOND, Missouri
HARRY REID, Nevada                   MITCH McCONNELL, Kentucky
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
PATTY MURRAY, Washington             RICHARD C. SHELBY, Alabama
BYRON L. DORGAN, North Dakota        JUDD GREGG, New Hampshire
DIANNE FEINSTEIN, California         ROBERT F. BENNETT, Utah
RICHARD J. DURBIN, Illinois          BEN NIGHTHORSE CAMPBELL, Colorado
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              MIKE DeWINE, Ohio
                     Terry Sauvain, Staff Director
                 Charles Kieffer, Deputy Staff Director
               Steven J. Cortese, Minority Staff Director
            Lisa Sutherland, Minority Deputy Staff Director
                                 ------                                

                Subcommittee on the District of Columbia

                 MARY L. LANDRIEU, Louisiana, Chairman
RICHARD J. DURBIN, Illinois          MIKE DeWINE, Ohio
JACK REED, Rhode Island              KAY BAILEY HUTCHISON, Texas
ROBERT C. BYRD, West Virginia (ex    TED STEVENS, Alaska, (ex officio)
    officio)
                           Professional Staff

                       Charles Kieffer (Majority)
                        Kate Eltrich (Majority)

    \2\ Committee and subcommittee memberships--July 10, 2001.

    Note.--From January 3 to January 20, 2001 the Democrats held the 
majority, thanks to the deciding vote of outgoing Democratic Vice 
President Al Gore. Senator Thomas A. Daschle became majority leader at 
that time. Starting January 20, 2001, the incoming Republican Vice 
President Richard Cheney held the deciding vote, giving the majority to 
the Republicans. Senator Trent Lott resumed his position as majority 
leader. On May 24, 2001, Senator James Jeffords of Vermont announced 
his switch from Republican to Independent status, effective June 6, 
2001. Jeffords announced that he would caucus with the Democrats, 
changing control of the evenly divided Senate from the Republicans to 
the Democrats. Senator Thomas A. Daschle became majority leader once 
again on June 6, 2001.
                            C O N T E N T S

                              ----------                              
                                                                   Page

                        Thursday, March 15, 2001

Child and Family Services Receivership...........................     1

                        Wednesday, May 16, 2001

District of Columbia: D.C. Superior Court........................    77

                         Tuesday, July 10, 2001

District of Columbia: Courts.....................................   129

                        Wednesday, July 11, 2001

District of Columbia.............................................   173













        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2002

                              ----------                              


                        THURSDAY, MARCH 15, 2001

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:37 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Mike DeWine (chairman) presiding.
    Present: Senators DeWine and Landrieu.

                 CHILD AND FAMILY SERVICES RECEIVERSHIP


                opening statement of senator mike dewine


    Senator DeWine. Our hearing will come to order. This is the 
first for me as chairman, and the first for Senator Landrieu as 
the Ranking Member of this subcommittee, so we are delighted to 
be here.
    Let me remind all of our witnesses that the full text of 
your statements will, in fact, be made part of the record. We 
ask you to limit your initial comments to 5 minutes apiece, but 
your whole testimony will be submitted for the record, and let 
me just thank each one of you. It is a rarity we had your 
testimony early. It is not a rarity for you, but it is a rarity 
in Congress to get everyone's testimony before the hearing 
starts, and we appreciate it very, very much.
    Without objection, the record will remain open until 5 p.m. 
on Wednesday, March 21, for the submission of any additional 
testimony or responses to questions members have for your 
witnesses.


                       d.c. child welfare system


    We are here today because the District of Columbia child 
welfare system is at a crossroads. It is at a crossroads. It is 
at a crossroads both in terms of responsibility and 
accountability. We are here today to begin to determine if this 
system, a system which, for over a decade has been wrought with 
dysfunction, chaos, tragedy, is finally committed to turning 
itself around.
    We are here to examine what strides, if any, the District 
has made in correcting its laundry list of deficiencies, and 
finally, we are here today to analyze from a budgetary point of 
view what the District's needs are in terms of resources, and 
how those investments can play a part in helping the District 
create a child welfare system that puts the safety and health 
of children first, above all else.
    The simple fact is that every child in foster care, whether 
it is a child here in the District of Columbia, or in 
Cincinnati, or in New Orleans, or anywhere in America deserves 
to live in a safe, stable, loving, and permanent home, with 
loving and caring adults. All children deserve no less.
    Unfortunately, many, too many of our children in this 
country are not getting what they deserve. Tonight, more than 
half a million children in this country will go to bed in homes 
that are not their own homes. Many of these children are at 
risk.
    I first learned this sad fact back in the early 1970's, 
when I was an assistant county prosecuting attorney in Green 
County, Ohio. One of our duties was to represent Green County 
Children's Services in cases where children were going to be 
removed from their parents' custody. I witnessed then that too 
many of these cases drag on endlessly, leaving children trapped 
in temporary foster care placements which often entail multiple 
moves from foster home to foster home to foster home for years 
and years.


                            at-risk children


    At-risk children here in the District of Columbia are no 
exception. In fact, it would appear that these children may be 
at even more risk because of the systemic dysfunction in the 
District's child welfare bureaucracy. Let me explain. Over 10 
years ago, the District's child welfare system was considered 
among the worst in the Nation. In 1989, the American Civil 
Liberties Union filed a class action lawsuit against the city, 
LaShawn A. v. Barry, arguing that the District was failing to 
protect neglected and abused children.
    In 1991, the case went to trial, where the court ultimately 
found that the District was liable. Following this decision, 
the parties involved in the case developed a remedial action 
plan. The court used this plan as the basis for its modified 
final order, which required the District by law to correct the 
vast deficiencies in its child welfare system.


                              receivership


    By 1995, however, little had changed, prompting U.S. 
District Judge Thomas Hogan to install a receiver to oversee 
the system and appoint the Center for the Study of Social 
Policy to monitor the District's performance. Today, the 
receivership is still in place, though the city is preparing to 
regain control.
    In order to get that control back, the District must meet 
the terms of the consent order, which was entered by the court 
this past October. The question now is this: Is the District 
ready and able to take control back?


                               gao report


    A recent GAO report provides us with the most current 
snapshot of the system, which, from all appearances, remains 
below national averages, and far from meeting the goals 
outlined in the consent order. Just listen to a few examples, 
and they do, regrettably, paint a very disturbing picture.
    In 1991, the average stay for children in the District's 
foster care system was 4.8 years. According to the GAO report, 
the average stay for children is 3.7 years. This certainly 
represents progress. It also represents an average foster care 
stay in the District that is twice as long as the national 
average.
    Over 10 years ago, the District continuously failed to 
initiate investigations into reports of neglect or abuse within 
24 hours and complete these investigations within 2 weeks. Now, 
the GAO found that for the recent time period, October 1999 to 
July of the year 2000, still 37 percent, over one-third of 
investigations were still not initiated within 24 hours, while 
52 percent, over one-half of investigations were not completed 
within 30 days.
    Ten years ago, the District consistently failed to ensure 
that children in its custody received timely judicial 
administrative reviews regarding the continued necessity and 
appropriateness of placement. According to the GAO report, the 
District made some progress between 1998 and July 1999 in 
reducing the number of cases with no review at all. However, 
the GAO also found the city made no progress in reducing the 
number of cases with untimely reviews. Moreover, of the cases 
with untimely reviews in July 1999, about half--yes, about 50 
percent--had not been reviewed in more than 1 year.
    Ten years ago, the District's automated information system 
was wholly inadequate for keeping track of the number and 
location of children in the District's custody and their needs. 
Today, the District has a new, automated information system, 
FACES. However, according to the GAO, that system, now a year 
old, cannot produce all the reports required by the modified 
final order. The GAO also found that staff do not fully use the 
system. While District officials estimated that, as of 
September 2000, about half of all case plans had been entered 
into FACES, a superior court judge has indicated that this 
estimate may well overstate the accurate rate of data entry.
    Ten years ago, the cases handled by social workers 
consistently exceeded reasonable professional standards, 
preventing the District from carrying out its responsibilities 
under both Federal and District law. District social workers 
today in 6 of 10 child welfare programs are carrying actual 
case loads that exceed the limit put in place by the court's 
modified final order. Let me repeat that. District social 
workers today in 6 of 10 child welfare programs are carrying 
actual case loads that exceed the limits put in place by the 
court's final order.
    For example, the GAO reports that social workers in the 
District's traditional foster care programs have been carrying 
case loads that range from 13 to 55, as high as 55. That 
compares with the modified final order that sets a limit at 16.
    Now, though some may argue that the District's child 
welfare system is at least in better shape than it was 10 years 
ago, I am not convinced necessarily that it is anywhere close 
to where it should be. A couple of very disturbing recent 
events involving the District's handling of child protective 
matters have fueled everyone's concern. First, there is the 
tragic, well-known case involving 2-year-old Brianna Blackman.


                     adoption and safe families act


    In Brianna's case, she had been placed in foster care for 4 
months due to her mother's consistent neglect and reports of 
abuse. However, a D.C. Superior Court judge ordered Brianna and 
her sister back to their mother on December 23, 1999, despite 
the fact that Brianna's mother, who is mentally retarded, did 
not want Brianna and her sister back. Rather, she only wanted 
her older children returned, because with her limited capacity 
she found them easier to care for.
    Two weeks after being united with her mother, Brianna died 
of severe head injuries. She had been bludgeoned with a belt. 
As stated in the law that I sponsored, and that went into 
effect in November 1997, the Adoption and Safe Families Act, 
which incidentally was in effect for at least 2 years before 
Brianna's death, according to that law, when determining 
reasonable efforts to preserve and reunify children with their 
families, the law now states the health and safety of the child 
shall be the paramount concern. The health and safety of the 
child shall be the paramount concern. That is the language in 
the law that went into effect in November of 1997.
    In Brianna's case, from the facts we know, it does not 
appear that this tiny little girl's security, this tiny little 
girl's life was a high priority for the District, nor even a 
priority at all.
    In passing the Adoption and Safe Families Act, which has 
helped increase adoptions, by the way, nation-wide by 30 
percent, it was my hope that children like Brianna would be 
protected, but as Brianna's case tragically demonstrates, the 
District still has a long way to go before that goal is 
reached. As the facts of this case continue to come out, it 
appears that virtually ever agency in the District that 
interacted with this family made a mistake.
    The guardian ad litem assigned to protect Brianna did not 
visit her or the home where she was living. The social worker 
assigned to Brianna did not file her report with the judge in 
time, and had this been done, the judge would have known that 
the social worker did not recommend sending Brianna back to her 
mother.
    The social worker also did not closely inspect the home 
where Brianna would be living, or find out that Brianna's 
mother was illegally living in subsidized housing. Had this 
been done, it would have been clear that Brianna's mother had 
no legal residence, which would have prevented the children 
from being returned to her mother.
    Furthermore, the Mental Retardation and Development 
Disabilities Administration failed to provide Brianna's mother 
with the housing and assistance she needed.
    Next, the judge made the decision to send Brianna back to 
her mother without holding a hearing.
    The Health Department lost track of Brianna and her mother, 
routinely closing the case, rather than providing assistance.
    And finally, the neighborhood health clinic failed to 
follow up on a call that Brianna might be in trouble, and 
waited a full day before notifying authorities.
    All of these errors, all of these unbelievable lapses in 
judgment indicate a total collapse of the system, a complete, 
unquestionable, inexcusable breakdown.


                        reports of sexual abuse


    In a more recent incident, the Washington Post reported 
just last week that at least 150 filed reports of child sexual 
abuse from the years 1999 and 2000 fell through the cracks, 
going uninvestigated by police until they were alerted to a box 
containing a stack of these reports.
    Apparently, the reports went through the District's Child 
and Family Service Agency, but it does remain unclear whether 
they were ever transmitted directly to the city's seven 
district police stations. According to the Washington Post, law 
enforcement sources believe that since the police became aware 
of these missing reports last year, some of the original 
victims have been molested again.
    Stories like this should make us all sick. We, as a 
society, must not tolerate this kind of incompetence, utter 
incompetence. We cannot allow blatantly irresponsible acts like 
this to continue.
    Now, I recognize that the District child welfare system did 
not collapse overnight, and we are well aware that it will not 
be fixed overnight, either, but our oversight responsibility, 
as members of this subcommittee, is to determine if the 
District has adequate resources available to meet its needs so 
that the city can repair itself and can comply with the court-
ordered consent agreement. We have, I believe, an obligation to 
ensure that budgetary resources are sufficient, and are being 
used effectively and appropriately to get the job done.
    We have an obligation, further, to review the District's 
proposed budget with close congressional scrutiny to ensure 
that any dollars that flow into this system are used for the 
proper protection of the children involved, so yes, a part of 
this hearing is about money. It is about resources. The system 
was broken. The court stepped in and said, in essence, fix it.
    Now, we are here to determine if the District has fixed it, 
and if the city has not, we want to know why not. Is it because 
of a lack of resources? Is it because of the ineffective use of 
resources? Are there sufficient funds available for the city's 
component parts to function together effectively? What are the 
District's goals for the future? Can those goals be met from a 
budgetary perspective? Can additional resources help prevent 
another Brianna from dying? Can additional resources prevent 
cases of sexual molestation from falling through the cracks, 
from going uninvestigated for periods of well over a year?


                          reforming the system


    We are anxious to hear our witnesses and hear the answers 
to these questions. However, this hearing must go beyond 
questions of resources. The fact is that resources are no 
substitute for the kind of responsible management required to 
make the systemic reforms necessary for the District's child 
welfare system to function effectively. In my view, the reform 
of the system should be the District's number 1 priority. Let 
me repeat that. Considering budget, in considering 
responsibility, in considering public policy, there should be 
nothing more important than the protection of the children whom 
this District has in its power, has under its control, and has 
an obligation to protect.
    As the new chairman of this subcommittee, I want to make it 
vividly clear that protecting at-risk children in the District 
is also my number 1 priority, and I intend for the next 2 years 
at least to focus on the children of this District, and I 
intend to focus particularly on those children that are most at 
risk, and many of those children who are most at risk are the 
children who are part of our social system and our child 
protection system.
    This should come as no surprise for anyone. For years, 
especially since coming to the U.S. Senate, I have devoted my 
attention to institutional reform in the foster care and child 
welfare systems across our Nation. The adoption of the Safe 
Families Act essentially was about making the necessary reforms 
to move children from foster care to permanency, and more 
importantly to make the health and welfare of these children 
paramount. I believe it is necessary to see how these reforms 
are impacting the District's child welfare system specifically, 
and to examine how the goals of this important law will work to 
the benefit of all children in our Nation's capital.
    Let me at this point turn to the Ranking Member of this 
committee, Senator Landrieu, someone whom I have worked with, 
and worked with on the Safe Families Act that I have been 
referencing, someone who has really been a leader in the 
protection of children and a leader in the issue of foster care 
and adoption. Senator Landrieu.


                 statement of senator mary l. landrieu


    Senator Landrieu. Thank you, Mr. Chairman, and welcome, 
all, to our first hearing today, and I want to begin by 
commending the chairman for his extraordinary work and focus in 
this area during the time that he has been in the Senate, and I 
have had the privilege to join him on many bills, particularly 
the Adoption and Safe Families Act as an original cosponsor, 
and so his leadership has just been an extraordinary help to 
us.
    He is the father of eight children. He comes at this issue 
from a lot of real personal experience, and so I want to 
commend him. I have a lengthy statement for the record, but I 
would like to associate myself with the remarks of the 
chairman. He and I think very much along the same lines in this 
regard, so it is not necessary for me to repeat all of the 
statistics and history, which he did in an excellent and 
wonderful way.
    I would just like to note, however, having worked in this 
area of child welfare for many, many years, that many of the 
issues that the District is facing today are not necessarily 
unique to the District, that communities and States around the 
Nation are really struggling with this problem. We are well 
aware of that. In my own State of Louisiana, we are also faced 
with overburdened case workers, backlogs in reports, too many 
children in care for too long, a disappointing, in my opinion, 
lack of focus on permanency and adoption, minimizing options 
for families, and I could go on and on.
    So we must keep our focus in this hearing through our 
budget process on the budget of D.C., and I also want to join 
the chairman in saying that this will be my number one 
priority, as a new member of the Appropriations Committee, to 
keep my focus on helping the District, that it is not 
necessarily only unique to the District of Columbia.
    I also want to bring out, and I am so pleased that the 
chairman will not let us forget the tragedy surrounding Brianna 
Blackman's death. I also note that just a few months ago, not 
too far from here, in the State of Virginia, Caitlin Frasier 
suffered the same horrible fate, and I could give hundreds of 
examples.
    So let us just remember that this really is a national 
crisis. It really is going to require a national focus and 
national solutions. We will continue, as we have done in the 
past several years, to sponsor bills and amendments and new 
approaches in giving new tools to local officials as we work 
through these difficulties, but it is important for us to stay 
focused, to know that we have made some incremental progress 
here, but there is a lot to do.
    I will only say this, that while it is a complicated 
problem, in this Senator's opinion there are solutions. There 
are clearly solutions that work. There have been turn-arounds, 
success stories all over this Nation. We know what works. There 
are some wonderful best practices out there, and it is my hope 
that as I listen and learn more about what you all have been 
through in the last couple of years, that I can help to get 
those tools into your hands to help shape a solution so that 
the thousands of children that the chairman has pointed our 
attention to can receive help quickly.


                           prepared statement


    Their needs are urgent, their needs are real, and I for one 
am not going to be one of the people that says it is just too 
much, we just cannot do it, there are no solutions. I know 
there are, and I am looking forward to working with you to find 
them.
    Thank you so much, and thank you, Mr. Chairman.
    [The statement follows:]

             Prepared Statement of Senator Mary L. Landrieu

    Good Morning. I would like to begin my remarks by thanking the 
witnesses for giving of their time to come and share with us the 
progress they have made and the remaining challenges they still face in 
the child welfare system in the District of Columbia. I sincerely 
believe that there is no greater accomplishment one can achieve in this 
world than making a difference in the life of a child. Yet, I also 
understand that this type of work is uniquely demanding, with little 
thanks and even less glory. So, I thank you.
    It has been said that there is no such thing as a simple solution 
to a complex problem. For a number of reasons, I think that that maxim 
applies to the topic of this hearing today. To think that one hearing, 
one bill, one reform, one court order or one person can single handedly 
solve the problems facing the child welfare system in DC would be a 
mistake. The solution to this very complex problem lies in system wide 
reform, led by the Mayor and those he sees fit to appoint. This process 
will require continued support and financial investment by the federal 
government. And above all else, it will require that the district be 
willing to do what, quite truthfully, is hard for many governments to 
do--to put their children's needs first instead of last.
    It has also been said that an undefined problem has an infinite 
number of solutions. For me, exploration is the best use of this 
hearing, and perhaps future hearings on this issue. To encourage the 
district to explore their challenges, assist them in developing real 
short term and long term solutions and most importantly, determine what 
the federal government, through its appropriation power, can do to 
supplement and support those reforms. In my view, this is not a 
situation in which it would be prudent for us to give ``unfunded 
mandates.'' Rather, we should use our unique relationship and 
responsibilities to the district to help them to help themselves.
    Child Welfare experts from across the country have been a part of 
drafting their plans for reform. Others have reviewed this plan and 
agree that it is based on the best practices of other successful reform 
efforts. What the District needs now is the freedom to implement this 
plan and the tools necessary to make it work.
    As a child welfare advocate, I think it is important to note that 
many of the child welfare issues faced by the district are not unique 
to this city. In my own state of Louisiana, they are also faced with 
overburdened caseworkers, back logs in the courts, and too many 
children in care for too long. While we must keep our focus on the 
tragic death of the little girl from DC foster care, Brianna Blackmond, 
we must also remind ourselves that two months ago a little girl from 
Virginia, Katelyn Frazier, suffered the same horrible fate. The foster 
care crisis is a national crisis. Reforms made in DC can and should be 
coordinated with nationwide reform for children in care.
    This is not to say that there are not issues here that are unique 
to DC. There are and that is why it is so important to allow the Mayor 
and the newly created agency to have the flexibility necessary to 
address the challenges. DC suffers from a more desperate lack of 
qualified caseworkers. The national shortage in these types of 
professionals is hardest felt here. In addition, their inability to 
recruit foster parents far exceeds the national scope of this problem. 
Finally, the demographics of their children pose unique challenges that 
need to be addressed.
    I look forward to hearing from the officials present about their 
renewed vision for the future of the child welfare system in DC.

    Senator DeWine. We will now turn to our first panel. Deputy 
Mayor Carolyn Graham is currently the Deputy Mayor for 
Children, Youth, and Families, formerly serving as the Senior 
Policy Advisor to the Mayor for Children and Youth. She has had 
an extensive career in the field of human services and 
nonprofits, at one time serving as the Director of the Human 
Services Department of Broward County, Florida. She has a 
master's of education degree from Antioch College, and a master 
of public administration, City University of New York, and a 
master of divinity from New York Theological Seminary.
    Sondra Jackson currently is the interim receiver for the 
Department of Child and Family Services, and we welcome her as 
well.
    Judith Meltzer is the senior associate at the Center for 
the Study of Social Policy. The Center for the Study of Social 
Policy is a nonprofit policy research and technical assistance 
organization located in the District of Columbia. From 1992 to 
1995, and from January 1997 to the present, the Center for the 
Study of Social Policy has served as the court-appointed 
monitor of the District's child welfare system under LaShawn A. 
v. Barry.
    Eric Thompson, our fourth panel member, is currently with 
Children's Rights, Incorporated, formerly of the American Civil 
Liberties Union's Children's Rights Project, who brought the 
class action lawsuit of LaShawn A. v. Barry.
    Welcome, all of you. We thank you very much for coming. I 
think what we will do is start from my right, which would be 
your left, with Ms. Graham, and we will just work our way right 
down the list. As I indicated to the panel members, Congressman 
DeLay is on his way, and when he gets here we will put him on 
because of his schedule, and we will interrupt the testimony at 
that point. If you could limit your comments to about 5 
minutes, then we will go from there, and in fact I see Mr. 
DeLay at this point. Congressman, thank you for joining us. We 
are going to put you right on, and the timing could not have 
been better. You have not been subjected to my lengthy opening 
statement----
    Senator Landrieu. Which was excellent, though long.
    Senator DeWine. But I will send you a copy of it.
    Mr. DeLay. Thank you, sir.
    Senator DeWine. Let me introduce Hon. Tom DeLay, who in 
addition to his leadership in the House of Representatives in 
general has been a real leader in this whole area of adoption 
and foster care, and anything that has to do with children, you 
can bet Congressman DeLay is going to be involved in it.
    He brings a personal interest to this as well as a public 
policy interest. He is someone who has acted on that personal 
interest, and someone who has taken his leadership position in 
the House of Representatives and used that as a bully pulpit 
for children. Congressman, thank you very much for joining us, 
and the floor is yours.
STATEMENT OF CONGRESSMAN TOM DeLAY, MAJORITY WHIP, U.S. 
            HOUSE OF REPRESENTATIVES
    Mr. DeLay. Thank you, Senator, and Mr. Chairman, and 
Senator Landrieu. I greatly appreciate your holding this 
hearing. It is a very important issue that you are looking at 
today, and I appreciate your remarks, Mr. Chairman, but what 
you failed to say is, I am very direct, and I am going to be 
direct this morning.
    What has been going on in Washington, DC, although a lot of 
people are working right now and doing a great job, including 
the mayor, this is an issue that is a travesty. We need to 
focus on the best interests of the children, so I am glad to be 
here with you this morning, and I am glad that we share a 
commitment to demand accountability from the system that 
protects children in the District of Columbia.
    Both the foster care system and the city's court system 
have to change before the District's children will begin 
receiving the protection that they so urgently need. Resolving 
the problems plaguing the District's foster care system will 
require a very thorough and probing analysis, and frankly some 
very hard decisions.
    We begin with an unavoidable consensus: the current system 
is flawed, and that system is flawed because some abused 
children are still languishing in foster care for almost 4 
years. Other children lose their lives because people in the 
District's systems did not do their jobs.

                     Adoption and safe families act

    Many of us were concerned by the plight of children trapped 
in the District's child welfare system long before public 
attention focused on its shortcomings. In 1997, we passed in 
Congress the Adoption and Safe Families Act. Senator DeWine, 
thanks to you, with your hard work in passing this legislation, 
our goal was to make the child's health and safety the 
paramount concern, while deciding where to place abused 
children.
    We hoped that this legislation would finally begin a 
transformation to a system that places the best interest of the 
children within that system first. That is certainly not 
happening today, because the current system still does not 
work. I think that is intolerable, and we should not accept it.
    We now know that the benefits of the foster care reform 
legislation have not been realized in Washington, DC, because 
the District simply did not move aggressively enough to embrace 
the required changes. That will only happen if the District 
takes the concrete steps needed to create an effective system. 
These include but are not limited to putting children's 
interests first, making timely judicial decisions, shortening 
the time in foster care, and establishing a safe, permanent 
placement as priority.

                          reforming the System

    Unfortunately, it took the death of yet another innocent 
child to expose the lamentable state of the District's foster 
care system to the public eye. It will only be through the 
sustained attention of men and women in the District that the 
system will be reformed, and only reform will ensure that 
children will not be further harmed by the system tasked with 
protecting them.
    Those of us calling for accountability have taken some 
criticism of late. Opponents of reform claim that the catalyst 
of our attention has been the headlines surrounding Brianna 
Blackman's death. Well, I, for one, am still upset by the 
filings that killed Brianna, but her tragic death only 
exacerbated concerns we already had with shortcomings in many 
foster care systems around this country.
    The truth is that we are trying to prevent the additional 
deaths that will inevitably flow from a system that is 
recklessly incompetent and unaccountable. We have also got to 
make certain that the District does not continue allowing 
children to linger endlessly in foster care. We need to speed 
their transition to permanent placement.
    We are here today to get a status report on the steps the 
District is taking to meet these unmet needs, and I am glad 
that Mayor Williams shares our frustration, and has done an 
incredible job in standing up to some incredible opposition. I 
also think he shares our determination to mandate the changes 
that will protect children in Washington, DC.
    We can only hope that the people empowered to protect 
children will put aside parochial concerns and make the 
children's best interests their sole overriding criterion. When 
that happens, I think the District will finally be on the right 
track, and I want to work closely with those of you in the 
Senate to move the District's foster care system from 
receivership to a successful program that can be a model for 
reform, and I thank you, Mr. Chairman, for holding this 
hearing.
    Senator DeWine. Congressman, thank you very much. We really 
appreciate your testimony. We will let you go back to the other 
side, and we just appreciate your commitment. We know that this 
is the first of probably several hearings that we are going to 
hold, and we look forward to working with you to help the 
District resolve these issues.
    Mr. DeLay. Thank you, Mr. Chairman.
    Senator DeWine. Thank you. We appreciate it very much.
    Ms. Graham, thank you.
STATEMENT OF CAROLYN N. GRAHAM, DEPUTY MAYOR, OFFICE OF 
            THE MAYOR, DISTRICT OF COLUMBIA
    Ms. Graham. Good morning, Senator DeWine, and Senator 
Landrieu. I am Carolyn Graham, Deputy Mayor for Children, 
Youth, and Families in the District of Columbia, and on behalf 
of Mayor Anthony A. Williams I welcome the opportunity to 
testify at this oversight hearing today, and wish to commend 
each of you for the work that you have done on the Adoption and 
Safe Families Act.

                             Receiverships

    As you know, the quality of our child welfare system in the 
District of Columbia has been a longstanding concern for the 
city. In September of last year, I testified before the House 
of Representatives Committee on Government Reform Subcommittee 
on the District of Columbia, that it was time for the Child 
Welfare Agency to return to the control of the Mayor. I told 
the committee that although some improvements had been made 
during the receivership in terms of infrastructure within CFSA, 
substantial improvements have not been seen in terms of case 
practice and better permanency outcomes for children.
    I also testified at that time that receiverships are not 
intended as permanent solutions, and further, that this 
administration has clearly demonstrated a commitment to 
improving the child welfare system in the city. I am thus 
pleased to report to you today that, following that hearing, a 
consent order was approved by the U.S. District Court on 
October 23, 2000, in the LaShawn case.
    In this order, the Federal court approved the parties' 
agreement to terminate the receivership and return the agency 
to the control of the District of Columbia upon the 
satisfaction of four specific conditions. The first is the 
enactment of legislation to unify the child welfare system, and 
to establish the CFSA as a Cabinet-level agency. The second is 
the promulgation of regulations for foster and group homes, the 
third is the selection of a Director, and the fourth is the 
Director's selection of a senior management team for the 
agency. We are well on our way to satisfying each of these 
conditions.
    The legislation to unify the agency and to establish it as 
a Cabinet-level was developed and is now in Congress, going 
through its 30-day approval process. We would expect that, by 
the end of this month, that process will have been completed. 
The regulations for foster homes and group homes will be 
published in the District Register within the next 30 days. A 
search firm has nearly completed its work in the identification 
of a director for the agency. We expect to select this 
individual by next month, and anticipate that the senior 
management team will be in place in May 2001.
    Based on our progress to date, we expect the receivership 
to terminate, and the Child Welfare Agency to return to the 
control of the Mayor before the end of the current calendar 
year. We also are aggressively moving to implement the 
emergency child welfare reform plan that was submitted to the 
House of Representatives following the September 2000 hearing.

                          Mayor's reform plan

    This reform plan was developed by the Mayor, and has six 
major areas of foci. One is the unification of the child 
welfare system, development of an integrated approach to the 
investigation and prosecution of child abuse and neglect, the 
development of a neighborhood-based service delivery system, 
augmentation and reconfiguration of the legal staffing in the 
Office of Corporation Counsel in order to more expeditiously 
process abuse and neglect and adoption cases, the collaboration 
with the D.C. Superior Court, and the Council for Court 
Excellence, to address the backlog of adoption and foster care 
cases, and to explore family court models.

                  CFSA's information management system

    Finally, the integration of CFSA's information management 
system into the District's newly developed safe passages 
information system. Here again, I am pleased to report that 
significant progress has been achieved. Regarding the systems' 
unification, we are working with the American Humane 
Association to train staff and to move that program component 
of abuse that the Court currently have into the Child Welfare 
Agency. With respect to the interstate compact for the 
placement of children, we are also moving that into the Child 
Welfare Agency. The agency will assume responsibility for this 
function as of April 1.
    Child abuse investigations. On March 7, we took major 
strides towards improving our system for investigating and 
prosecuting child abuse cases. An MOU was signed by all of the 
agencies responsible for the investigation, and prosecution of 
child abuse. This agreement will ensure that children are 
interviewed only once during a child abuse investigation.
    The neighborhood based service delivery system, we are 
exploring ways to expand that network now. Chapin Hall, a 
premier child welfare research and technical assistance 
organization, conducted an initial assessment of the current 
private service provider's capacity, and a follow-up assessment 
is currently being planned. With respect to legal resources, we 
are substantially increasing the legal resources for the child 
welfare agency. The Office of Corporation Counsel is now 
beginning the process of hiring more than 30 new legal and 
paralegal staff to process abuse and neglect complaints, as 
well as termination of parental rights petitions and adoptions.
    With respect to the family court, as you perhaps know, the 
Superior Court is currently undertaking an internal assessment 
to determine the best strategy to pursue for establishing such 
a court. It should be noted that resources still appear to be a 
significant issue for the court. The Mayor has met on several 
occasions to discuss his support of the court's adoption of a 
family court model. While not being prescriptive, Mayor 
Williams has stressed the need for such a court, and his 
willingness to support the court's adequate resourcing in order 
to bring a family court to the District of Columbia.

                                 Faces

    With respect to the information system, work has begun to 
integrate CFSA's information system, FACES, into the District's 
Safe Passages information system. Safe Passages will ultimately 
combine information from all of the agencies in the city that 
serve children, including child welfare, juvenile justice, 
mental health, the Department of Health, early intervention, 
and the public school system.
    This system will allow us to look across agencies and 
identify the services the children are receiving, as well as 
determine spending on a per-child basis. Safe Passages will 
also facilitate interagency communication and a coordinated 
case management approach to addressing the needs of our 
children in the city.
    The child welfare system is, indeed, a top priority for 
this administration. Among other things, this is reflected in 
this administration's fiscal year 2002 budget submission. The 
Mayor has requested $188 million in funding for the Child 
Welfare Agency. This constitutes full funding of the consent 
order. It represents 11.8 percent over the fiscal year 2001 
approved budget. In dollars, this translates into approximately 
$20 million new dollars over fiscal year 2001's approved 
budget.
    Senator DeWine. Ms. Graham, could we ask you to wrap up, 
please?
    Ms. Graham. Yes, sir.
    Senator DeWine. We would appreciate it.

                           prepared statement

    Ms. Graham. In closing, the administration looks forward to 
regaining responsibility for the full functions of this agency 
on a day-to-day basis. We are committed to working with all 
stakeholders to better protect our children from abuse and 
neglect, and to quickly find permanent homes for those children 
who cannot live safely with their parents.
    I thank you for this opportunity.
    [The statement follows:]

                Prepared Statement of Carolyn N. Graham

    Good morning Senator DeWine, Senator Landrieu and members of the 
Committee. I am Carolyn N. Graham, Deputy Mayor for Children, Youth and 
Families in the District of Columbia. On behalf of Mayor Anthony A. 
Williams, I welcome the opportunity to testify at this oversight 
hearing today.
    As you know, the quality of our Child Welfare System has been a 
longstanding concern for the City. The City has been under a Federal 
court order since 1991 and the Child and Family Services Agency (CFSA) 
has been in some form of receivership since 1994.
    In September of last year, I testified before the House of 
Representatives (Committee on Government Reform, Subcommittee on the 
District of Columbia) that it was time for the Child Welfare Agency to 
return to the control of mayor. I told the Committee that, although 
some improvements have been made during the receivership in terms of 
infrastructure within CFSA, substantial improvements have not yet been 
seen in terms of case practice and better permanency outcomes for 
children.
    I also testified at that time that receiverships are not intended 
as permanent solutions and, further, that this administration has 
clearly demonstrated a commitment to improving the Child Welfare System 
in this city.
    I am thus pleased to report to you today that, following that 
hearing, a consent order was approved by the United States District 
Court on October, 23, 2000 in the Lashawn case. In this order, the 
Federal court approved the parties' agreement to the terminate the 
receivership and return the agency to the control of the District 
Government upon the satisfaction of four specific conditions:
  --First, the enactment of legislation to unify the Child Welfare 
        System and establish CFSA as a Cabinet-Level Agency with 
        independent personnel, procurement and licensing authority, 
        consistent with District of Columbia Law;
  --Second, the promulgation of regulations for Foster and Group Homes;
  --Third, the selection of a CFSA Director; and
  --Fourth, the selection, by the new Director, of a Senior Management 
        Team for CFSA.
    We are well on our way to satisfaction of each of these conditions:
  --The legislation to unify the Child Welfare System and establish 
        CFSA as a Cabinet Level Agency was developed by the Mayor and 
        approved by the District Council. It was forwarded to Congress 
        for the 30-day Congressional review period and should be 
        enacted on March 30, 2001.
  --Regulations for Foster Homes and Group Homes have been drafted 
        (with extensive stakeholder input) and will be published in thE 
        DC register within the next 30 days.
  --A Search firm has been engaged through George Washington 
        University's Center for excellence in Municipal Government to 
        help us with conducting a national search for a CFSA Director. 
        This work is being supported by a generous grant from the Annie 
        E. Casey Foundation. The first round of candidate interviews 
        for the position of Child Welfare Agency Director has been 
        completed. We expect to select a Director by next month and 
        anticipate that the senior management team will be in place 
        during May 2001.
    Based on our progress to date, we expect the receivership to 
terminate and the Child Welfare Agency to return to the control of the 
Mayor before the middle of the current calendar year.
    We are also aggressively moving forward to implement the emergency 
Child WeLfare Reform Plan that was submitted to the U.S. House of 
Representatives following the September 2000 hearing. This reform plan 
was developed by the Mayor and has six major areas of focus:
  --Unification of the Child Welfare System, the functions of which are 
        currently split among CFSA, the Metropolitan Police Department 
        and the Social Services Division of the District of Columbia 
        Superior Court;
  --Development of an integrated approach to the investigation and 
        prosecution of child abuse and neglect;
  --Development of a neighborhood-based service delivery system through 
        expanded partnerships with community service providers;
  --Augmentation and reconfiguration of legal staffing in order to more 
        expeditiously process abuse and neglect and adoption cases and 
        in order to provide more direct legal support to CFSA Social 
        Workers;
  --Collaboration with the D.C. Superior Court and the Council for 
        Court Excellence to address the backlog of adoption and foster 
        care cases and to explore family court models; and
  --Integration of CFSA'S information management system into the 
        District's newly developing safe passages information system.
    Here again, I am pleased to report significant progress.
  --System Unification.--As I noted above, the Legislation to unify the 
        Child Welfare System was passed by the Council and is under 
        Congressional review. In addition, we have contracted with the 
        American Humane Association--a nationally renowned expert in 
        Child Welfare System Reform--to assist with ending bifurcation 
        and to manage the process of transferring Court Social Services 
        (CSS) staff and cases to the Child and Family Services Agency. 
        Indeed, planning for the transfer is underway. We negotiated a 
        Memorandum of Understanding (MOU) with the Superior Court that 
        establishes the conditions that must be met in order to 
        transfer CSS' staff to CFSA. We are currently negotiating terms 
        for the transfer of the CSS employees with the personnel 
        director at the Superior Court. The American Humane Society is 
        working with Representatives from CFSA and CSS to develop the 
        programmatic aspects of the transfer, which we hope to 
        accomplish by October 1, 2001.
  --ICPC.--The Interstate Compact for the Placement of Children--known 
        as ICPC--is also being transferred to CFSA pursuant to the 
        October 23, 2000 consent order and the new enabling 
        legislation. this function is required when children from the 
        District are placed in other states. previously, the function 
        was handled by the District's Department of Human Services. 
        CFSA staff are currently being trained by the American Public 
        Human Services Association (APHSA) to assume this function. The 
        agency will assume the responsibility on April 1, 2001.
  --Child Abuse Investigation.--On March 7, 2001, we took major strides 
        toward improving our system for investigating and prosecuting 
        child abuse. An MOU was signed by all of the agencies 
        responsible for the investigation and prosecution of child 
        abuse. this agreement will ensure that children are interviewed 
        only once during a child abuse investigation and that this 
        interview will be conducted in a place that is friendly to 
        children by someone who is an expert in working with children. 
        Previously, children had to endure multiple interviews with 
        multiple agencies, further traumatizing them. This agreement 
        was signed by the Mayor, the United States Attorney, the 
        Superior Court, the Child and Family Services Agency, the 
        Office of Corporation Counsel, the Safe Shores Children's 
        Advocacy Center, Children's National Medical Center, the 
        Commission on Mental Health Services, and the D.C. Public 
        Schools. The MOU establishes a clear process that will 
        facilitate appropriate communication and collaboration amongst 
        these agencies.
  --Neighborhood-Based Services.--We are continuing to partner with 
        community-based organizations, which are working in our 
        neighborhoods with families. We are exploring expanding our 
        partnerships with private service providers. Chapin Hall--a 
        premiere Child Welfare Research and Technical Assistance 
        Organization--conducted an initial assessment of current 
        private service provider capacity and a follow-up assessment is 
        now being planned. Once this work is complete, we will be able 
        to determine the degree to which we might increase our use of 
        these agencies.
  --Legal Resources.--We are substantially increasing legal resources 
        for the Child Welfare Agency. The Office of Corporation Counsel 
        is now beginning the process of hiring more than 30 new legal 
        and paralegal staff to process abuse and neglect complaints as 
        well as termination of parental rights petitions and adoptions. 
        The Mayor's fiscal year 2002 budget request for the Office of 
        Corporation Counsel includes approximately $1.9 million in 
        additional funding in order to maintain these new positions.
  --Family Court.--As you perhaps know, the Superior Court is currently 
        undertaking an internal assessment to determine the best 
        strategy to pursue. It should be noted that resources still 
        appear to be a significant issue for the court. The Mayor has 
        met on several occasions to discuss his support of the court's 
        adoption of a family court model. While not being prescriptive, 
        Mayor Williams has stressed the need for such a court and his 
        willingness to support the court's adequate resourcing in order 
        to bring a Family Court to scale in the District.
  --Information System.--Work has begun to integrate CFSA's information 
        system--``FACES''--into the District's safe passages 
        information system. Safe passages will ultimately combine 
        information from all of the agencies in the city that serve 
        children, including Child Welfare, Juvenile Justice, Mental 
        Health, Department of Health, Early Intervention and the Public 
        School System. This system will allow us to look across 
        agencies and identify the services children are receiving as 
        well as determine spending on a per child basis. Safe passages 
        will facilitate interagency communication and a coordinated 
        case management approach to addressing the needs of children.
    Child Welfare is a top priority for this administration. Among 
other things, this is reflected in this administration's fiscal year 
2002 budget submission. The Mayor has requested $188 million in funding 
for the Child Welfare Agency. This constitutes full funding.
    We are taking every opportunity to ensure that there is a seamless 
transition of CfSA back to the Mayor's control through the development 
of linkages between the Child Welfare System and our Health and Human 
Service Agencies.
  --The CFSA receiver participates in twice-monthy meetings with the 
        Directors of all our Human Service Agencies. This provides an 
        opportunity to identify and resolve cross-agency issues.
  --CFSA participates in several interagency work groups coordinated by 
        the Mayor's Office, including one focusing on developing 
        community-based services for children with mental health needs. 
        This group is focusing on bringing foster children who are in 
        out-of-state mental health facilities home to the District by 
        developing the needed services here in the city. This work is 
        being supported by the Casey Family Program.
  --A Memorandum of Understanding was signed between CFSA and the 
        Department of Health's Addiction Prevention and Recovery 
        Administration (APRA). Under this MOU, APRA will be developing 
        and implementing detoxification and Substance Abuse Treatment 
        Services and Programs for children and families in the Child 
        Welfare System.
    In addition to initiatives directly related to the Child Welfare 
System, this administration is also taking a very proactive and 
preventive approach to improving child well-being as evidenced by the 
following:
  --Establishmnent of Neighborhood based Parent Development Centers;
  --Implementation of home visits to families with newborns and young 
        children; and
  --Significant expansion of after school programs for children and 
        youth.
    Indeed, the Child Welfare Agency returns to the city at an exciting 
time as we embark upon a major initiative to rebuild our Human Services 
Network in the District. We are now developing a plan to establish a 
system of ``Neighborhood Places'' throughout the City. These 
neighborhood places will be centers in neighborhoods where public 
services for children and families will be available and integrated 
across agency lines. In other words, there will be one place in a 
neighborhood where you can go to get child care, medicaid, food stamps, 
SSI, TANF, and employment information and services. Ultimately, Child 
Welfare, Juvenile Justice, Health and Mental Health Services will be 
aliged with these neighborhood places. These centers will also be 
closely linked to existing private and faith-based networks, ensuring 
that families benefit from the range of community partners who are 
already working in these neighborhoods. The vision is of a seamless 
system of Human Services that families can access in the neighborhoods 
where they live. A primary focus of these centers will be on supporting 
families so that child abuse and neglect does not occur in the first 
place.
    In closing, this administration looks forward to regaining 
responsibility for the full functions and the day-to-day operations of 
the Child Welfare Agency. We are committed to working with all 
stakeholders to better protect children from abuse and neglect and to 
quickly find permanent homes for those children who cannot live safely 
with their parents. The City's children deserve no less than this. I 
thank you for the opportunity to testify before the distinguished 
members of this committee and am happy to answer any questions that you 
may have.

    Senator DeWine. Thank you very much. We appreciate it.
    Ms. Jackson.
STATEMENT OF SONDRA JACKSON, ACTING CHIEF, CHILD AND 
            FAMILY SERVICES AGENCY, DISTRICT OF 
            COLUMBIA
    Ms. Jackson. Good morning, Senator DeWine and Senator 
Landrieu. My name is Sondra Jackson, and I am the court-
appointed interim general receiver for the Child & Family 
Services Agency. I was appointed in December 2000. However, I 
have worked with the agency in an effort to bring the agency 
into compliance with the modified final order for 3\1/2\ years 
now. I thank you for this opportunity to provide testimony on 
the status of the Child and Family Services Agency, 
particularly as the agency begins the transition back into the 
District of Columbia.
    I would like to begin my testimony by highlighting some of 
the accomplishments CFSA has made that I believe make 
transitioning possible at this time.

                               Challenges

    The District of Columbia has been confronted with many 
challenges over the past 3 years. There have also been some 
successes. We have exceeded our performance goals in areas of 
the child welfare system such as increasing the number of 
adoptions by about 49 percent, increasing the number of foster 
homes by about 16 percent, and improving Federal reimbursement 
by 22 percent from last year.
    We have also developed D.C. Kids, our health care program, 
which is designed to provide comprehensive health services for 
children. In other words, we are doing mental health 
screenings, physical health screenings, comprehensive exams, 
and now over 80 percent of all of these children have been put 
into a health care tracking system.
    We also want to expand our family preservation and support 
services by the use of community based partners, and I think it 
is going to be important that we continue that effort in the 
District of Columbia.
    The fastest-growing population in child welfare today is 
relative care. We have over 2,545 children in the city in our 
system placed with relatives. The agency will need to continue 
to develop supports for relatives. So far, we have a 4(e) 
demonstration project that works with the community to try to 
enhance the services for relatives.
    We also have a kinship-guardianship program, subsidized 
guardianship program, which starts within a month. The 
automated system that you referenced, Faces, is undergoing 
modifications this year, and enhancements. We are excited to 
work with the Mayor's office on integrating our system into the 
city's child information system.
    The agency continues to work to achieve greater interagency 
cooperation with other agencies in the city. The Superior Court 
is important, the Corporation Council, the Metropolitan Police 
Department are all important agencies in terms of coming into 
compliance with the Adoptions and Safe Families Act.
    In addition, the agency must form a better relationship 
with other District agencies that offer specialized services 
for children, such as D.C. Public Schools, the Mental Health 
Commission, and the Addictions Prevention Recovery 
Administration. We are funding several initiatives with these 
agencies to develop specific services for children in the child 
welfare population.
    Appropriate staffing levels continue to be a major concern 
for CFSA, and we have put in incentive packages which have 
recently been approved by the Mayor and the city council. CFSA 
also continues to recruit individuals with bachelor level 
degrees in social work to augment the service delivery. As you 
know, all of our social workers are master's level people.
    A major challenge, though, has been in retaining workers, 
and there are several problems with that. The one that I think 
we are going to try to find a solution to is to get adequate 
legal representation for our social workers in the court to 
help prepare workers as they go into their hearings. The agency 
is transferring $1 million to the Corporation Counsel to make 
this happen.
    CFSA wants to improve and recruit foster parents. We have 
several projects with foundations to help us accomplish this.
    Senator DeWine. Ms. Jackson, if you could just wrap up 
please, we would appreciate it.
    Ms. Jackson. Okay. Finally, CFSA is working with the city 
and plaintiffs in transitioning the agency back. We have had 
satisfactory relations as we attempt to do this.

                           prepared statement

    In conclusion, I want the committee to know that we are 
very concerned about our children, that we continue to work 
closely to provide better services, and I thank the committee 
for hearing me.
    [The statement follows:]

                  Prepared Statement of Sondra Jackson

    Good morning Chairman Dewine and members of the Subcommittee. My 
name is Sondra Jackson and I am the court-appointed Interim General 
Receiver for the Child and Family Services Agency. I have served in the 
capacity of Interim General Receiver since December 2000. Thank you for 
the opportunity to provide testimony on the status of the Child and 
Family Services Agency, particularly as the Agency begins the 
transition back into the District of Columbia government.
    The Child and Family Services Agency operates under the mandates of 
the Modified Final Order (MFO) issued by U.S. District Court Judge 
Thomas F. Hogan in January 1994. For the past three (3) years, I have 
been a part of the Agency's efforts to bring this Agency into 
compliance with the requirements of the Modified Final Order. Although 
there are areas that still need improvement, I believe that we have 
made significant progress.
    I would like to begin my testimony today by highlighting some of 
the accomplishments CFSA has made under the current Receivership that 
make transitioning back into the District of Columbia government 
possible at this time, and conclude by providing the Subcommittee with 
an update on CFSA's role in the transition.
                          cfsa accomplishments
    While the Child Welfare system in the District of Columbia has been 
confronted with many challenges this past year, there has also been 
significant improvement and progress over the last three years. I am 
pleased to report briefly on a number of accomplishments for fiscal 
year 2000, and the status of the Agency's performance goals and targets 
contained in our fiscal year 2001 budget document.
Fiscal year 2000 Performance Goals and Targets
    CFSA targeted a 32 percent increase in the availability of 
neighborhood based services to children and families through the 
Healthy Families collaboratives. A 33 percent increase was achieved; 
from 987 to 1,316 families.
    CFSA targeted a 100 percent rate of safely protecting children 
within their families. A rate of 97 percent was achieved; 7,435 out of 
7,641.
    CFSA targeted a 40 percent increase in the number of finalized 
adoptions. A 37 percent increase was achieved; from 250 to 343.
    CFSA targeted a 15 percent reduction in the length of time between 
the decision to pursue adoption and finalized adoption. A 44 percent 
reduction was achieved; from 2.36 to 1.32 years.
    CFSA targeted a 33.6 percent increase in federal reimbursement 
under titles IV-E, XVI (SSI), and XIX (Medicaid). A 22.6 percent 
increase was achieved; from $45.6 to $55.8 million.
    CFSA targeted a 10 percent increase in the number of licensed 
foster care homes. A 16 percent increase was achieved; from 437 to 507.
DC KIDS
    The DC KIDS Health Care Program was implemented in fiscal year 
2000. This health system was developed to ensure that children entering 
the care and supervision of the Agency receive a full health screening 
and follow-up health care. Approximately 80 percent of all foster care 
children were enrolled in DC Kids. We are currently in the process of 
reviewing the existing contract, which expires September 30, 2001, and 
re-negotiating a new contract to ensure that this system of services 
continues to meet the needs of the children we serve. In addition, we 
are also in discussions with Children's Hospital to provide a full 
range of health care services for all children, including those 
currently served by Court Social Services, and to expand services 
specifically for child victims of sexual abuse.
Community-Based Services
    Expanding family preservation and supportive services in the 
community is critical to achieving compliance with the Adoptions and 
Safe Families Act, regardless of whether a child resides in the home, 
with a relative, with an adoptive parent, or in foster care. Using 
neighborhood supports and the professional help of social workers from 
the Agency, we have been able to augment the strengths of the families 
in their own communities. It is not good practice to remove children 
from everything they know and love if a nurturing, safe, and supportive 
home can be found where they live.
Kinship Care
    In fiscal year 2000, CFSA provided services to 986 families with 
2,545 children living with kin in their communities. The number of 
children in kinship care, who might otherwise have been removed from 
their community, increased 22 percent from fiscal year 1999. 
``Connecting Families'' is a five year Title IV-E Child Welfare 
Demonstration Program which was launched in fiscal year 2000. This 
project will assist CFSA in documenting the effectiveness of a service 
delivery system that relies on community-based partners to provide 
concrete support and services to kinship families.
    In addition, CFSA is in the process of launching a kinship 
guardianship subsidy program for relative caregivers. The regulations 
needed to implement this program are being reviewed by the Office of 
Corporation Counsel and are expected to be published in the D.C. 
Register by April 2001.
Policy Manual
    The Agency has developed and updated policies for all major 
components of child welfare service delivery, including Intake and 
Investigations, Foster Care Services, Placement, Kinship and Family 
Services, and Monitoring Homes. These policies have been converted to 
an online format for easy staff use and regular updates.
FACES/Child Welfare Information System
    The Agency's automated system, FACES, was succesfully implemented 
in fiscal year 2000. Its functionality includes the critical components 
to support service delivery, tracking and financial management. To 
date, interfaces between FACES and the District's SOAR and ACEDS 
systems have been completed. Interface requirements for the DC KIDS 
program and the Office of Paternity and Child Support Enforcement 
remain under development. Modifications and enhancements to the FACES 
system will continue during fiscal year 2001. In addition, CFSA has 
actively participated in the Mayor's Safe Passages Child Information 
System project with the expectation that FACES information will be 
integrated into the District-wide system.
Training and Staff Development
    In 1999 the Agency contracted with Virginia Commonwealth University 
(VCU) to deliver comprehensive training. During fiscal year 2000, the 
CFSA/VCU Training Project held 50 training courses, conducted 110 days 
of training, and trained 887 CFSA staff.
                      fiscal year 2001 highlights
Inter-Agency Initiatives
    The Agency continues to work to achieve greater inter-agency 
cooperation between CFSA and the D.C. Superior Court, Corporation 
Counsel, and the Metropolitan Police Department in fulfilling the 
mandates of the Adoptions and Safe Families Act. In addition, CFSA has 
initiated memoranda of understanding and issued requests for proposals 
to improve the Agency's ability to ensure mental health and substance 
services to the children and families currently served by the child 
welfare system. In this regard, CFSA has worked very closely with the 
Commission on Mental Health Services and the Addiction Prevention 
Recovery Administration to expedite this process. As a result of those 
discussions the Agency has also made funding available to ensure that 
our clients receive specialized treatment and services through programs 
administered by those agencies.
Staffing/Recruitment and Retention
    Appropriate staffing levels continue to be a major concern. CFSA 
submitted a recruitment and retention compensation incentive package to 
the Mayor that included a hiring bonus and an additional income 
allowance designed primarily as a retention incentive. The Mayor and 
the D.C. Council have approved this incentive package on an emergency 
basis.
    CFSA has implemented other compensation incentive programs. An 
employee referral program and a program to reimburse new hires for 
relocation expenses are designed to enhance recruitment and to 
recognize employee contributions in the hiring of social workers. The 
Agency's recruitment plan envisions the hiring of an additional 50 new 
social workers who will be graduating this Spring from social work 
programs. In addition, CFSA continues to recruit and hire individuals 
with bachelor-level degrees in social work to augment the caseload 
responsibilities of existing workers. It is anticipated that prior to 
the end of this fiscal year new tangible programs proposed by our 
retention committee will positively impact our recruitment and 
retention needs.
Legal Representation
    A major challenge the Agency has experienced in retaining qualified 
social workers has been the absence of adequate legal preparation and 
representation in court hearings. To address this particular area of 
concern, and to improve the Agency's working relationship with the D.C. 
Superior Court in achieving compliance with the Adoption and Safe 
Families Act, the Agency is transferring $1 million to the Office of 
the Corporation Counsel for the hiring of additional attorneys and 
paralegal staff to be co-located within CFSA.
Foster Home Recruitment Incentives
    CFSA's campaign to approve and recruit foster and adoptive parents 
has faced a number of challenges. However, in an effort to create 
additional homes in the District of Columbia, the Agency has commenced 
the My Community My Children Initiative in collaboration with the Annie 
E. Casey Foundation. This initiative will involve community partners in 
recruiting new homes and resources in the District of Columbia. In 
addition, the Modified Final Order requires CFSA to pay a board rate 
equal to the full cost of raising a child in the urban southeast. The 
Agency recently increased these rates to comparable levels in fiscal 
year 2000 and fiscal year 2001. It is the Agency's expectation that 
these recent increases will also improve the Agency's ability to 
recruit more foster homes in the District of Columbia.
                update on cfsa's role in the transition
    As you may be aware, under the terms of a Federal Court Order 
entered on October 23, 2000, there are four (4) requirements that must 
be fulfilled before the LaShawn Receivership will terminate. The first 
requirement includes passage of legislation creating a separate 
department with independent personnel and procurement authority, 
licensing responsibility for child welfare related facilities, and 
consolidation of the abuse and neglect case responsibility in the new 
department. Second, the District must promulgate licensing regulations 
for both group and foster homes, and maintain Interstate Compact on the 
Placement of Children (ICPC) responsibility for children currently in 
the care of CFSA. Third, the District must hire a Director of the new 
department. Finally, the Director must assemble a management team for 
the new Department. CFSA has been working very closely with the Deputy 
Mayor for Children, Youth and Families to satisfy these transition 
requirements so that the Receivership will end this Spring.
Transition Legislation
    Legislation establishing the Department of Child and Family 
Services and otherwise meeting the requirements of the Order was passed 
in December 2000, was signed by the Mayor and forwarded to Congress, 
and is awaiting the completion of the congressional review period. This 
Receivership has always advocated for legislation that would establish 
a single-State child welfare agency in the District of Columbia with 
primary responsibility for investigating child neglect and abuse cases. 
In fact, prior to the submission of the Mayor's emergency reform plan, 
the Agency requested the American Humane Association (AHA) to study the 
issue of bifurcation. This report, which was completed in November, 
2000, provided the impetus for the plans now underway for the 
unification of child abuse and neglect responsibilities. Presently, 
representatives of the D.C. Superior Court, the Office of the Deputy 
Mayor for Children, Youth and Families and CFSA are working with AHA to 
coordinate this effort.
Licensing Regulations for Foster Homes and Group Homes
    CFSA drafted the initial foster home licensing regulations and is 
working very closely with the District to develop regulations for the 
licensure of group homes. Over the last several months, working groups 
have been meeting to develop the regulations, and both sets of proposed 
regulations are in final draft form.
Interstate Compact on the Placement of Children Transfer
    The October 23rd Order and enabling legislation also require the 
transfer of responsibilities related to the Interstate Compact for 
Placement of Children (ICPC) from the Department of Human Services to 
the new Department of Child and Family Services. I have signed a 
Memorandum of Understanding (MOU) with the Deputy Mayor for Children, 
Youth and Families to effect this transfer. The American Public Human 
Services Association (APHSA) has agreed to train staff and to notify 
all other states of the transfer of responsibilities. Under the terms 
of the MOU, the Receivership will absorb all costs related to the 
transfer during this fiscal year. This transfer is expected to take 
place April 2001.
Selection of CFSA Director and New Management Team
    With respect to the search for a new Director, a national search is 
underway. The process for selection includes input from a committee 
comprised of the Deputy Mayor for Children, Youth and Families, the 
District's Director of Personnel, Plaintiff's Counsel, the Court 
Monitor, the Director of the District's Youth Services Administration, 
and the Chair of the D.C. Council's Human Services Committee. I also 
serve on this committee. The Director of the District's Office of 
Personnel is coordinating the search.
                               conclusion
    In conclusion, Mr. Chairman, while the Child Welfare System in the 
District of Columbia has been confronted with many challenges this past 
year, there has also been significant improvement and progress. 
Ensuring the safety and well being of the children in our care 
continues to be the responsibility we take most seriously. Thank you 
for the opportunity to address the Senate Appropriations Subcommittee 
on the District of Columbia. I would also like to thank the 
Congressional staffers who visited our offices this month to observe 
first hand the positive things the Agency is doing to support children 
and families in the District of Columbia. I ask for your continued 
support in our efforts to achieve compliance with the requirements of 
the Modified Final Order and the return of the Agency to the District 
of Columbia government. I will be happy to answer any questions you may 
have.

    Senator DeWine. We thank you very much.
STATEMENT OF JUDITH MELTZER, DEPUTY DIRECTOR, CENTER 
            FOR THE STUDY OF SOCIAL POLICY
    Senator DeWine. Ms. Meltzer, thank you for joining us.
    Ms. Meltzer. Thank you. Good morning. I want to thank you 
for inviting me, and I especially want to thank both of you for 
your opening statements, and the importance that you have given 
to this issue in those statements.
    I am Deputy Director of the Center for the Study of Social 
Policy, and the center, as you mentioned previously, serves as 
the independent monitor of the District's system under the 
LaShawn decree.

                             LaShawn decree

    As monitor, I am responsible for independently and 
objectively assessing the progress of the Government and the 
receivership in implementing the decree. We do this in as 
collaborative a way as possible, working with the receiver, 
with District government officials, with outside advocacy 
groups, and with the plaintiffs. We review administrative and 
case load data provided by the agency on a monthly basis, we 
perform independent case record reviews, we do case studies, 
and we perform special studies as needed. We have recently 
commissioned an independent audit of the agency's financial 
activity for fiscal year 2000, and we expect to have that audit 
completed by June 15.
    We are near completion of an in-depth review of children in 
group care facilities, which involved us doing on-site visits 
at these facilities, as well as focus groups with the children 
and youth who attended the facilities. We have also just 
initiated an in-depth review of the quality of care provided 
under the DC Kids health care initiative.

                          Child welfare system

    It is important for you to know that the child welfare 
system has, in fact, improved since 1992, when I first began as 
monitor, and some of the clear improvements have been in the 
development of capacity to support families in neighborhoods 
through the Healthy Families, Thriving Communities 
Collaboratives, the creation of a staff training capacity, 
which never existed before, multiyear increases in numbers of 
adoptions, and significant increases in the agency's ability to 
draw down Federal funds under title 4(a) and title 19 of the 
Social Security Act.
    Saying this, however, is not meant to imply that the system 
is anywhere near where it should be in terms of compliance, and 
it has been extremely frustrating for me as monitor, for the 
leadership of the agency, and for the public at large to 
understand why it has been 10 years and the agency is still so 
far from where it needs to be.
    Early on in Mayor Wiliams' tenure he made it clear that he 
was committed to reassuming responsibility, and effectuating a 
transition. A first test of his commitment was his deliverance 
on the fiscal year 2000 budget, which he did deliver on in the 
budget for fiscal year 2000 for the agency at $184 million, 
representing about a $30 million increase from the prior years.
    That was the first time that that agency ever had enough 
money to adequately carry out its mandates, and we actually do 
not even know at this point whether it is significant, but at 
this point they now have enough money that they have properly 
budgeted to put in place some of the resources for children and 
families that have been so sorely absent.
    The fiscal year 2001 budget is going to enable the 
development of substance abuse resources, mental health service 
resources, increase in foster parents' rate, and additional 
specialized placement resources. Those are just absolutely 
essential.

                            Transition order

    Having delivered on the fiscal 2001 budget process, we 
entered into negotiations of this October 23, 2000 transition 
order, which everybody has mentioned. The order lays out 
prerequisite requirements for ending receiverships and for 
monitoring progress during a transitional period. It also 
provides some clear commitments to address some of the 
structural issues which have really impeded progress over these 
last 2 years, and that is why the inclusion in that order of 
the requirements for bringing abuse and neglect together and 
for dealing with the Superior Court and for providing lawyers 
and corporation counsel is so significant.
    I want to underscore, though, that the receivership has not 
yet ended, although we are engaged with the District in meeting 
with the prerequisite requirements in an expeditious way. 
Attached to my written testimony is a report that I just filed 
with the court on where we are with all those transition 
requirements.

                      prerequisite for Transition

    It is my best estimate that if things proceed as they are 
now, the prerequisites for a transition will be accomplished in 
June or July of this year. At that point, the receivership will 
end, and a probationary period will begin. During the 
probationary period, the agency will be expected to meet 
certain performance benchmarks related to remedial order 
requirements, and these are really children-related 
requirements. They are things like timely completion of 
investigations, placement of children in licensed foster homes, 
placement of children with siblings, reduction of children 
experiencing multiple placements.
    We have set benchmarks for improvement over a 6-month 
period. These progress benchmarks were set deliberately low, or 
I would say conservatively, because we are not trying to set 
the bar so high that the agency has to go back into 
receivership, but we are trying to make sure that progress 
continues.

                             LaShawn order

    It is important also to emphasize, though, that at the end 
of the receivership, when the probationary period ends, the 
LaShawn order is still in effect, and the LaShawn order remains 
in effect until it is complied with. Under current 
circumstances we will continue to monitor the District's 
progress in complying with the agency's order.

                           prepared statement

    I wanted to briefly indicate what some of the challenges 
are that I think exist going forward, but I know I am out of 
time, so I will do whatever you want.
    Senator DeWine. We will do that in questions, and when we 
get a chance in the questions just jump in at some point. We 
will make sure that gets covered, because we want to hear that.
    [The statement follows:]

                  Prepared Statement of Judith Meltzer

    Good morning. I want to thank the Committee for inviting me to 
testify this morning and for your interest in improving the child 
welfare system in the District of Columbia. I am Judith Meltzer, Deputy 
Director of the Center for the Study of Social Policy. The Center has 
been appointed by U.S. District Court Judge Thomas Hogan as the 
independent monitor of the District's child welfare system under the 
LaShawn A. v. Williams lawsuit. We have served in that capacity from 
1992-1995, and from 1997 to the present, with a brief hiatus when the 
system was first placed in Receivership.
    As Monitor, I am responsible for independently and objectively 
assessing the progress of the District of Columbia government and the 
Receivership in implementing the LaShawn decree. The decree establishes 
the framework and requirements for a child welfare system that operates 
in compliance with District and federal law and that adequately 
protects children and supports and preserves families. I carry out the 
monitoring function in as collaborative a way as possible, working 
closely with the Receiver, District government officials, outside 
advocacy groups and the plaintiffs in the lawsuit. We review 
administrative and case flow data provided by the Agency on a monthly 
basis, do independent case record reviews and case studies and perform 
special studies as needed. For example, we have commissioned an 
independent audit of the Agency's financial activity which is underway, 
and expected to be complete by no later than June 15, 2001. We are near 
completion of an in depth review of children in group care facilities, 
which included on-site reviews to half of the facilities under contract 
to care for children as well as focus groups with the children and 
youth residing in the facilities. We have also just initiated an in 
depth review of the quality and adequacy of health care services 
provided to children in the foster care system under the DC KIDS 
initiative.
    It is important for you to know that the child welfare system has 
in fact improved since 1992, when I first began as Monitor. Some clear 
improvements have been the development of the capacity to support 
families in the neighborhoods through the eight Healthy Families, 
Thriving Communities Collaboratives; the creation of a staff training 
capacity through Virginia Commonwealth University and local schools of 
social work; a multi-year increase in the numbers of children adopted; 
and significant increases in the Agency's ability to properly draw down 
available federal revenue to support its work. Saying this, however, is 
not meant to imply that the system is anywhere near where it should be 
in terms of compliance with the LaShawn Remedial Order. There are many 
problems that have proven intractable to reform efforts and there are 
some things that have gotten better for awhile, only to move backward 
over time. The pace of progress and the ability to fix problems 
permanently has been extremely frustrating for me as Monitor, and is 
equally frustrating for leadership and staff within the Agency and for 
the public at large.
    Early on in Mayor Williams's tenure, he made it clear that he was 
committed to re-assuming responsibility for child welfare functions in 
the District and that he was prepared to provide the leadership 
required to effectuate a transition from Receivership. A first test of 
his Administration's commitment was the funding of the fiscal year 2001 
budget for the Receivership. Despite the rhetoric over the years which 
has implied that the Receivership has been free to establish its own 
budget and operate independently, the Receivership has always had to go 
through the regular budget and appropriations process of the District 
and until this year, was never adequately funded. The fiscal year 2001 
budget included an infusion of approximately $30 million which should 
enable the Agency to fund many previously unavailable resources such as 
substance abuse treatment, mental health services for children and 
families, as well as foster parent rate increases and additional 
specialized placement services.
    Having delivered on the Mayor's budget promise for fiscal year 
2001, we recently completed negotiations with the District and the 
plaintiffs which resulted in Judge Hogan's October 23 Transition Order. 
This Order lays out a series of prerequisite requirements for ending 
the Receivership and for monitoring progress during a transitional 
period. It provides clear, lasting commitments to address some of the 
structural issues that have inhibited compliance over these many years, 
and builds in long-term protections on such things as the budget and 
staffing for the Agency. I want to underscore that the Receivership has 
not yet ended but that we are engaged with the District in meeting the 
prerequisite requirements in an expeditious way. Attached to my 
testimony is a written report to Judge Hogan dated March 13, 2001 which 
assesses the current status of efforts to meet the transition 
requirements.
    It is my best estimate that if things proceed as they are now, the 
prerequisites for transition will be accomplished in June or July, 
2001. At that point, the Receivership will end and a probationary 
period will begin. During the probationary period, the Agency will be 
expected to meet certain performance benchmarks related to Remedial 
Order requirements. These are, for example, benchmarks regarding timely 
completion of investigations, placement of children in licensed foster 
homes that do not exceed licensed capacities, placement of children 
with siblings, reduction of children experiencing multiple placements, 
etc. Progress will be measured according to agreed-upon levels of 
improvement over a six-month period. As Monitor, we will establish the 
baseline performance at the point of transition and measure again at 
six months. The improvement targets were set extremely conservatively 
because the Court did not want to set the bar unrealistically high, 
thereby insuring District failure. The intent of the probationary 
benchmarks is to assure that progress will steadily continue after the 
Agency is removed from Receivership. It is important to emphasize that 
the end of the Receivership and the end of the probationary period does 
not mean the end of the LaShawn Order. The underlying Court Order and 
its requirements will remain in effect until substantial compliance is 
achieved. As Monitor, I will be working with the new Administrator to 
develop a revised implementation plan to achieve compliance with the 
LaShawn Order. Until compliance is demonstrated, there will be ongoing 
Court oversight of this agency's functioning.
    I want to briefly indicate what some of the most important 
systematic and programmatic challenges for this agency in the next 
year.
    The first and most important is to develop a stable workforce. Over 
the year 2000, the Agency hired 132 social workers but lost 128 
workers, thus leaving them in much the same place, characterized by 
severe understaffing, high caseloads, worker burnout and inadequate 
service provision. The current staffing situation with a vacancy of 
almost 50 social workers is a crisis requiring immediate attention. I 
have asked the Agency to develop an emergency plan for utilizing BSW as 
well as MSW social workers and to reenergize their recruitment 
activities, utilizing hiring bonuses, incentive payments, payments to 
current workers to identify and recruit new staff, relocation 
allowances and reciprocity on licensure.
    A second challenge is to improve the functioning and accountability 
of the front door of the system--that is the intake and investigation 
process--for both child neglect and child abuse cases. This will 
involve implementing joint investigations with the police, the transfer 
of Court Social Services staff currently serving families with 
substantiated child abuse, and working in greater partnership with the 
Healthy Families/Thriving Communities Collaborative and their community 
partners.
    A third challenge is to comply with ASFA requirements on 
permanency. This will require vast improvement in assessment and case 
planning, developing a functional working relationship with the Office 
of Corporation Counsel, insuring that Corporation Counsel has the 
budget authority to hire a sufficient number of attorneys and that they 
outstation them to work closely with CFSA workers, and making 
structural improvements at the DC Superior Court.
    A fourth challenge is to greatly accelerate the identification, 
study and support of foster and adoptive parent resources in the 
District of Columbia. This will require partnerships with communities, 
faith organizations, private agencies, the media as well as enhanced 
internal capacity to study and approve potential families.
    The fifth challenge is a leadership challenge. The new 
Administrator must have the ability to create a common vision for child 
welfare services in the District and to heal the fractures and finger-
pointing among stakeholders that have made this job even harder than it 
should be. The Administrator must be experienced, talented, tough and 
bold and will need to be able to operate the Agency with a fair amount 
of independence. At the same time, the Administrator will need the 
clear support and backing from the Mayor, as unpopular decisions that 
rock the status quo must be made and sustained. The Administrator must 
demonstrate a commitment to outcomes and a willingness to work in new 
ways with communities and neighborhoods which break down the isolation 
of the child welfare agency. If children are to be protected, CFSA must 
make the community at large a real partner in their work on behalf of 
vulnerable children and families.
    Thank you and I will be glad to answer any questions you may have.

  Progress Report on Implementation of October 23, 2000 Consent Order 
            Governing Transition of the LaShawn Receivership

    This is the second report prepared by the Monitor on the progress 
made to fulfill the conditions of the October 23, 2000 Consent Order 
governing the termination of the LaShawn Receivership.
    Under the terms of the October 23, 2000 Consent Order, there are 
several actions that need to occur prior to the termination of the 
LaShawn Receivership. The District government is moving forward to 
accomplish the pre-termination requirements of the Consent Order. 
Current progress in each of these areas is described below:
    1. Enactment of legislation to end the bifurcation of abuse and 
neglect and to establish the Child and Family Services Agency as a 
cabinet-level agency with independent personnel authority, independent 
procurement authority, and authority to license foster and group homes. 
The legislation also is to provide for the transfer of responsibility 
and authority for child abuse cases currently vested in the Director of 
the Superior Court Social Services to CFSA.
    Status: Legislation was passed by the District Council on December 
19, 2000 and was subsequently signed by the Mayor and approved by the 
Control Board. It was forwarded to the U.S. Congress on February 7, 
2001 for required Congressional review and approval. If no objections 
are raised, it will become law after 30 legislative days which should 
be March 30, 2001. The bill established the child welfare agency as an 
independent cabinet level agency with responsibility for personnel 
functions and independent procurement authority consistent with 
District law. It also places responsibility for the licensing of foster 
homes and groups homes as well as for the Interstate Compact for the 
Placement of Children (ICPC) approval process within the child welfare 
agency. Finally, the bill requires joint investigation of abuse cases 
by CFSA and the Metropolitan Police Department and the transfer of 
Court Social Services' responsibility to CFSA for serving families in 
which there is child abuse.
    Planning is underway for the transfer of Court Social Services 
staff, functions and responsibilities so that child abuse and neglect 
functions in the District can finally be merged. The American Humane 
Association is facilitating the planning activities and is coordinating 
the work of the many involved agencies including the Mayor's Office, 
the Office of Corporation Counsel, the Superior Court of the District 
of Columbia, the Metropolitan Police Department and the Child and 
Family Services Agency. There is much work that must be accomplished 
for this transition to be smoothly completed by October 1, 2001 (which 
is the planning target for the complete transfer of responsibility). In 
order for this to happen, interim milestone and performance benchmarks 
must be met and staff must be hired and trained. Despite some initial 
reluctance, all parties are now working together to make this happen. 
In the short term, Court Social Services is experiencing some attrition 
of existing staff. This is creating caseload pressures at Court Social 
Services which parallel the caseload pressures at CFSA. Discussion has 
begun about expediting the hiring of additional workers at CFSA who can 
be detailed to Court Social Services in this interim period. This will 
accelerate cross-training and ensure that the critically important 
abuse caseloads are not underserved.
    2. Development and Promulgation of Licensing Standards for Foster 
and Group Homes
    The October 23, 2000 Order requires that foster and group home 
licensing standards be developed and promulgated prior to the 
termination of the Receivership.
    Status: Neither of these two conditions is accomplished yet but 
substantial progress has been made.
    The proposed foster home regulations were sent this last week to 
the Office of Corporation Counsel for final legal review. They should 
be published for comment in the District Register within two weeks. The 
comment period is 30 days after which the regulations can be finalized. 
If all goes as planned, the regulations can be completed by mid-May.
    Draft group home regulations were developed by the Office of the 
Deputy Mayor for Children, Youth and Families with outside assistance 
from Holland and Knight. Two drafts of the regulations have been sent 
out for stakeholder comment and a series of stakeholder focus groups 
have been conducted. The regulations are currently under final revision 
after which they will be sent to the Office of Corporation Counsel for 
final legal review and publication in the District Register. This 
process will take somewhere between three weeks to one month. The 
comment period will be another 30 days after which the regulations will 
be finalized. It is the Monitor's hope that all of these steps will be 
accomplished by June, 2001.
    3. Recruitment and Selection of an Agency Director
    A Director for CFSA, selected and appointed by the Mayor with 
concurrence of Plaintiffs and the Monitor, must be in place prior to 
termination of the Receivership.
    Status: There has been continuing activity to recruit a new 
administrator for the Agency. The Director of the District's Office of 
Personnel (DCOP) is coordinating this work with the help of an outside 
search firm, Bennett and Associates. The Annie E. Casey Foundation has 
underwritten this process through a grant to the George Washington 
University Center for Excellence in Municipal Government to provide 
assistance with the process of recruiting a new Director, as well as 
for recruiting, developing and training the new leadership team.
    The selection process has not gone as quickly as was originally 
anticipated. At this time, an initial round of candidates has been 
identified and interviewed by a small committee composed of the Deputy 
Mayor for Children, Youth and Families, the District's Director of 
Personnel, Plaintiff's Counsel, the Mayor's Special Counsel, the Court 
Monitor, the Interim Receiver and the Director of the District's Youth 
Services Administration. The search firm has been compiling reference 
material and it is hoped that the selection of final candidates will be 
made shortly. Finalists will be invited back for a fuller range of 
interviews with key stakeholders in government and the community after 
which a recommendation for selection will be made to the Mayor. It is 
the Monitor's hope that a candidate will be identified and recommended 
to the Mayor within a month. Given this timetable, it is unlikely that 
the new Administrator would be available to begin work much before 
June, 2001. Sondra Jackson, the Interim Receiver, has indicated her 
willingness to remain until an Administrator is hired, assuming it is 
accomplished expeditiously.
    4. Recruitment and Selection of a Management Team
    Prior to termination of the Receivership, the new Director must 
have an acceptable management team in place.
    Status: Progress on this requirement will need to await the 
selection of a Director. As noted above, the Annie E. Casey Foundation 
grant can be used for help in recruiting a qualified management team 
and for a strategic planning retreat or other activities designed to 
develop the agency's senior leadership team.
    In addition to the four areas discussed above, where action must be 
completed prior to termination of the Receivership, the October 23 
Consent Order required action to begin in several other areas. These 
include:
    5. All responsibility for the Interstate Compact for the Placement 
of Children (ICPC), currently carried out by an office within DHS, is 
to be transferred to CFSA.
    Status: The Memorandum of Agreement governing the transition of the 
ICPC function to the Child and Family Services Agency was signed on 
February 6, 2001. The originally scheduled date for the transfer of 
this responsibility was March 1, 2001. The transfer date has been 
postponed pending completion of training of the new staff at CFSA who 
have been hired to carry out these functions. That training is underway 
with the expectation that the function will be transferred in April, 
2001.
    6. Employment of BSW and Paraprofessional Staff
    The October 23 Consent Order allows CFSA to employ staff with BSW 
degrees as well as paraprofessional staff under appropriate 
circumstances to deliver services required under the MFO with agreement 
by Plaintiffs. The Order further stated that within 30 days, the 
parties were to negotiate the specific circumstances under which these 
staff are to be used.
    Status: Upon agreement of the parties, the Monitor was to request 
and review a proposal from CFSA for the uses of BSW and 
paraprofessional staff. An initial proposal was developed by the 
Receivership and forwarded to the Monitor on November 21, 2000. One of 
the Monitor's comments on the initial proposal was that it did not go 
far enough, particularly in light of the hiring crisis at CFSA. 
Currently, there are close to 50 social worker vacancies at CFSA. The 
experience over the past few years has been that every spring and 
summer, the Agency hires as many MSWs as they can, primarily new 
graduates of schools of social work. Over the course of the year 
however, the rate of hiring slows and monthly turnover continues. Thus, 
by spring of the subsequent year, the Agency finds itself in roughly 
the same place with respect to hiring goals as the prior year. In fact, 
during the calendar year 2000, CFSA hired 132 social workers but lost 
128 workers due to resignation or termination.
    It has been the Monitor's belief that the staffing pattern ought to 
include a combination of MSW and BSW trained social workers as well as 
a range of paraprofessional support staff. With proper training and 
supervision as well as clarity in job function and expectations, staff 
other than MSWs can properly carry out the case management and social 
work functions of the Agency. As a result of recent discussions with 
the Monitor, the Receivership is in the process of preparing a more 
ambitious plan for diversification of staff which will rely on both MSW 
and BSW social workers. Both the District and Plaintiffs support this 
approach. It is expected that a revised plan will be submitted to the 
Monitor within the next week and forwarded to the Defendant's Counsel 
and to Plaintiffs for their review and approval.
    7. Fiscal Year 2002 Budget
    The October 23 Consent Order stipulates that the Mayor will take 
all reasonable steps within his authority to obtain passage of the CFSA 
budget using the fiscal year 2001 budget of $184 million as a baseline, 
with required adjustments for implementing the new legislation, 
providing for foster parent rate increases, and providing additional 
staff necessary to meet MFO caseload standards.
    Status: The District's fiscal year 2002 budget process is just 
beginning and the Mayor's proposed budget is expected to be complete by 
mid-March. The Mayor's Office has verbally indicated the CFSA budget 
will include the $184 million baseline, as agreed upon in the Consent 
Order, plus the necessary additions to cover the costs associated with 
implementing the new legislation, principally the assumption of 
responsibility by CFSA for investigation of abuse cases; the costs 
associated with assuming the licensing function; the transfer of ICPC 
responsibilities; the costs associated with the transfer of the Court 
Social Services responsibilities and caseload; and required increases 
in foster parent rates. These initiatives will cost approximately $4 
million in fiscal year 2002 (assuming that the Superior Court Social 
Services staff are transferred under an Intergovernmental Personnel Act 
(IPA) agreement and their salary costs do not need to be in the CFSA 
fiscal year 2002 budget).
    In addition to commitments on the CFSA budget, the Office of 
Corporation Counsel has indicated that the OCC budget will include the 
funds required to provide additional staff attorneys and paralegal/
support staff to properly carry out child welfare functions. Because of 
the urgency of this need, the Receiver is transferring funds from 
CFSA's fiscal year 2001 budget to OCC to enable the immediate hiring of 
32 additional positions (25 attorneys and 7 support staff). It is the 
Monitor's expectation, based on verbal assurances by OCC staff, that 
continued funding for these positions, as well as funds to meet 
additional hiring commitments contained in a proposed OCC staffing plan 
currently being negotiated by the parties (see Point 8 below), are 
expected to be included and clearly identifiable in the fiscal year 
2002 budget request for OCC.
    8. Adequate Legal Staff
    The October 23 Consent Order requires that CFSA be provided 
adequate legal staff to enable the agency to meet its legal obligations 
under the MFO. The Order did not detail what constitutes ``adequate 
staffing,'' but there was an agreement that this would be determined 
based on an independent staffing study which would take into account 
the requirements of the Adoption and Safe Families Act (ASFA), the MFO 
requirements, and relevant professional standards. In addition, the 
Order requires that OCC attorneys assume an attorney-client 
relationship with CFSA and that there be a plan for co-location of 
staff.
    Status: As previously shared with the Court, the staffing study 
prepared for the Office of Corporation Counsel met neither the 
Monitor's nor the Plaintiffs' expectations for this requirement. 
Discussions have been ongoing since December to address this issue. The 
Office of Corporation Counsel developed a revised proposal in early 
March which details their commitments to hire additional staff and to 
outstation a considerable portion of those staff with CFSA. Discussions 
on the acceptability of that plan are continuing. Issues that remain to 
be resolved are adequacy of staffing commitments for certain functions 
and lines of authority and accountability between OCC and CFSA. It is 
the Monitor's hope that differences in these areas can be resolved. In 
the interim, CFSA is transferring funds to OCC to enable the immediate 
hiring of 32 new positions (attorneys and support staff) to meet the 
immediate legal needs of CFSA staff and clients.
    9. Performance Standards
    The October 23 Consent Order requires the Monitor to establish the 
baseline against which performance standards during the post-
termination probationary period will be assessed. The Monitor will 
conduct the baseline study on performance using data from the month 
prior to the termination of the Receivership. At this point, as 
mentioned previously, it is not possible to precisely determine when 
that will occur.
    During this interim period, CSSP is continuing its ongoing 
monitoring activities with respect to the requirements of the LaShawn 
Order. These include monthly review of administrative data and 
preparation of formal progress reports for the Court and the public; 
informal monitoring meeting with the Agency Receiver and staff; 
completion of work in progress on a review of children in congregate 
care facilities; initiation of a targeted study of the DC Kids Health 
Care Program for Children in Foster Care; monthly convening of case 
reviews by an independent Practice Development Case Review Committee; 
and contracting for an independent fiscal audit of CFSA for fiscal year 
2000. The audit firm of Williams, Adley and Company, LLP was engaged by 
the Monitor in early February and is currently doing an independent 
audit of the Agency for fiscal year 2000. The audit should be completed 
by no later than June 15, 2001.
STATEMENT OF ERIC THOMPSON, STAFF ATTORNEY, CHILDREN'S 
            RIGHTS, INC.
    Senator DeWine. Mr. Thompson. Thank you very much.
    Mr. Thompson. Good morning, Chairman DeWine, Senator 
Landrieu. My name is Eric Thompson and, along with Marsha 
Robinson Lowrey from Children's Rights, I represent the 
plaintiff children in the LaShawn class action lawsuit which 
was intended to reform child welfare services in the District 
of Columbia.
    On behalf of those abused and neglected children we 
represent, I appreciate this opportunity to appear before the 
committee to present our perspective on the current status of 
the District's child welfare system. I am also very gratified 
to hear that the needs of these children are a priority in this 
committee.

                     transition out of Receivership

    Senators, as you know, we are now entering a new phase. We 
have negotiated, transitioned out of receivership based on the 
District satisfying certain conditions, after which 
administration of the child welfare system will be returned to 
the District control. However, it is important to emphasize 
that although the receivership will end if the District meets 
these specified conditions, court oversight over this agency 
does not end.
    In addition, the agreement provides for a 6-month probation 
period after the receivership ends, and the likelihood is that 
a receivership will be reimposed if the District fails to meet 
certain standards.
    Throughout the receivership, those aspects of the District 
government not under the control of a receiver have been 
enormously resistant to reforms in the agency, and cooperation 
from other branches of the District government was nonexistent. 
Nevertheless, the agency is now better organized. It has better 
systems in place than before it went into receivership. 
Unfortunately, it is still not functioning as an agency that 
can provide appropriate care and protection for children.

           steps to regaining administration of Child welfare

    The Mayor's interest in regaining District administration 
of child welfare has provided an opportunity and an agreement 
that we have heard about this morning to remedy many of the 
problems that have long been impediments to the provision of 
appropriate services to children. The key provisions to which 
the District has recently agreed, and which the Federal court 
has ordered, are, first, adequate funding. The fiscal year 2001 
budget amounting to $184 million was the first compliance 
budget ever submitted to Congress since the court's remedial 
order almost a decade ago.
    Second, the transition order also establishes the agency as 
a Cabinet-level agency, reporting directly to the Mayor.
    Third, CFSA will have authority over agency-related 
functions such as independent personnel procurement authority, 
and licensing authority for foster homes and group homes.
    Fourth, as required by the transition order, legislation 
has been passed by the Council of the District of Columbia to 
consolidate all abuse and neglect investigations and services 
under CFSA. This will finally end bifurcation and bring the 
District in line with the rest of the country.
    Fifth, the transition order requires the Office of 
Corporation Counsel to hire additional attorneys until there is 
adequate legal staffing for the agency. This will need to be 
reflected in a significant increase in the budget for the 
Office of the Corporation Counsel next year.

                             LaShawn order

    In conclusion, the District's child welfare system will 
continue to function under the LaShawn remedial order, and the 
court-ordered monitor will remain in place to report on whether 
the system is improving.
    We, as plaintiff's counsel, welcome the desire by the 
District government to take responsibility for a Government 
system so critical to the live's of the city's most vulnerable 
children and their families. We are, however, mindful that the 
city's government has not in the past made good on its promises 
to children.
    We are also well aware that the District government did not 
take steps necessary to cooperate with the receivership and 
help strengthen this agency until very recently. We hope that 
the city's goal in seeking an end to the receivership has not 
been limited to realizing its desire for autonomy, and that 
when the agency does revert to city control the District 
government will exercise the commitment and competence 
necessary to operate an adequate child welfare agency and 
protect abused and neglected children in this city.

                           prepared statement

    While plaintiff's counsel will not hesitate, should it 
become necessary, to bring the District back into court with 
the possibility of new Federal court sanctions should city 
government not make good on its commitments, we are guardedly 
optimistic.
    Thank you.
    [The statement follows:]

                  Prepared Statement of Eric Thompson

    On behalf of the abused and neglected children we represent, I 
appreciate the opportunity to appear before this Committee to present 
our perspective on the current status of the District's child welfare 
system, and the implementation of the court-ordered reform plan that 
grew out of the lawsuit, LaShawn v. Barry. My name is Eric Thompson, 
and along with Marcia Robinson Lowry from Children's Rights, we 
represent the plaintiff children in LaShawn, the class action lawsuit 
intended to reform child welfare services in the District of Columbia.
    That case was filed in 1989, was tried in 1991, and resulted in a 
sweeping court order mandating necessary changes. When District 
government failed to comply with that court order, and demonstrated its 
inability to do so, we asked the federal court to find the District in 
contempt of court and to place the agency in receivership, which it did 
in 1995. We are now entering a new phase: we have negotiated a 
transition out of receivership, based on the District satisfying 
certain conditions, after which administration of the child welfare 
system will be returned to District control. However, it is important 
to emphasize that although the receivership will end if the District 
meets these specified conditions, court oversight over this agency--and 
the possibility of future contempt findings--does not. In addition, the 
agreement provides for a six month probation period after the 
receivership ends, and the likelihood that a receivership will be re-
imposed if the District fails to meet certain standards.
    Throughout the receivership those aspects of District government 
not under the control of the receiver had been enormously resistant to 
reforms in the agency, including the Metropolitan Police Department and 
Corporation Counsel, and insofar as the receiver was dependent on 
cooperation from other branches of District government, that 
cooperation was non-existent. Nevertheless, the agency is now better 
organized, and has better systems in place than it did when it went 
into receivership--but it is still not functioning as an agency that 
can provide appropriate care and protection for children.
    The agreement to move the agency out of receivership remedies many 
of the problems that have long been impediments to the provision of 
appropriate services to children. The key provisions to which the 
District has agreed, and which the federal court has ordered, are:
                            adequate funding
    The child welfare system in the District has never been adequately 
funded. Even during the receivership, the agency was dependent on a 
very convoluted and unrealistic budgeting process that made it 
impossible to plan ahead, and to fund the many reforms required under 
the federal court order. Each year the District's fiscal office has 
sought to impose a baseline budget on the agency far below what the 
agency had actually spent the year before, and one that never took into 
account the many enhancements that were necessary to comply with the 
court order. Each year the receivership has had to wage a pitched 
battle with the District in order to bring the budget request for the 
agency up to a reasonable level even to maintain an inadequate status 
quo.
    As a result of the negotiations over the transition, the baseline 
budget has been established as $184 million, the amount estimated as 
necessary to comply with the court order, with an agreement that the 
baseline will be adjusted upward annually to meet certain specified 
additional expenses.
                        structure of the agency
    Prior to the receivership, the agency responsible for child welfare 
services, the Child and Family Services Agency (``CFSA'') was under the 
authority of the Department of Human Services, and did not report 
directly to the mayor.
    The transition order establishes CFSA as a cabinet-level agency, 
reporting directly to the mayor.
                authority over agency-related functions
    Many functions on which the child welfare agency is dependent have 
been under the control of other District agencies, which have had their 
own operating problems and to which child welfare has not necessarily 
been a priority. This has made it very difficult to hire personnel 
expeditiously, enter into contracts, or ensure that foster homes and 
other facilities that care for children are licensed promptly. Some of 
those functions came under CFSA agency control during the receivership, 
but would have reverted to external control, once again making CFSA 
dependent on other governmental entities with differing priorities.
    The transition order gives CFSA independent personnel and 
procurement authority, including contracting and contract oversight, 
and licensing authority for foster and group homes. In addition, the 
Interstate Compact on the Placement of Children, under which many D.C. 
children are placed in neighboring states, will now operate under CFSA 
control.
                    consolidating abuse and neglect
    The District of Columbia has been the only jurisdiction in the 
country in which responsibility for abuse and neglect cases has been 
handled by separate governmental entities; abuse complaints have been 
investigated by the Metropolitan Police Department, and services 
provided under the auspices of Court Social Services; neglect cases and 
foster care services have been under the auspices of CFSA. This 
bifurcation has long been considered a major problem and one that has 
contributed to the fragmentation and disorganization of services.
    As required by the transition order, legislation has been passed by 
the Council of the District of Columbia to consolidate all abuse and 
neglect investigations and services under CFSA, and to transfer 
responsibility for abuse cases to CFSA.
                         adequate legal counsel
    The child welfare agency has long been hampered in its ability to 
protect children, and to facilitate the adoption process, by the lack 
of adequate legal counsel, by the lack of coordination with that legal 
counsel, and by unclear lines of authority with regard to supervision 
of the legal staff. The lack of appropriate and vigorous counsel for 
CFSA was a contributing factor, among several others, in the Brianna 
Blackmond tragedy.
    The transition order mandates a reorganization of legal support for 
CFSA, requires the Office of Corporation Counsel to hire additional 
attorneys until there is adequate legal staffing for CFSA, and also 
requires that many of these attorneys be physically located in the same 
offices as the case workers who are their clients.
    In addition, the receivership will not end until a strong 
administrator has been selected to head the agency, and that 
administrator has enlisted an experienced and competent management 
team. Only after these conditions are satisfied will the receivership 
terminate. We must emphasize that the receivership will not end unless 
these conditions are met and although progress is being made, there are 
still problems with the provision of adequate legal counsel, about 
which the parties are still in negotiation, and a new administrator to 
run the agency has not yet been identified. When such a person is 
identified, it is likely that the transition will still take several 
months.
    Assuming that these conditions are satisfied, and the receivership 
is terminated, after the agency moves back into District control, the 
agency will move into a six month probationary period, during which it 
must show improvement on a number of child-related criteria. The 
Monitor will be collecting the information necessary to determine 
whether these improvements have taken place. Failure to demonstrate 
this improvement could lead to the reimposition of the receivership by 
the federal court.
    Even after the probationary period ends, the District's child 
welfare system will continue to function under a far-reaching federal 
court order, designed to reform a child welfare system that has failed 
to protect this city's children for far too long. The court-ordered 
Monitor remains in place to report on whether the system is improving.
    We welcome the desire by District of Columbia government to take 
responsibility for a government system so critical to the lives of the 
city's most vulnerable children and their families. We are, however, 
mindful that this city's government has not, in the past, made good on 
its promises to these children. We are also well aware that the 
District government has not, until only very recently, cooperated with 
the receivership that has been in charge of this agency and responsible 
for the city's children, and did not take the steps necessary to 
cooperate with the receivership and help strengthen this agency.
    Since the receivership has not yet been terminated, and may 
continue for several more months, the agency--and the city's children--
need the support of this city's political leadership now.
    We hope that the city's goal in seeking an end to the receivership 
has not been limited to asserting its control and realizing its desire 
for autonomy, and that when the agency does revert to city control, 
District government will exercise the commitment and competence 
necessary to operate an adequate child welfare agency and protect the 
abused and neglected children of this city.
    However, the neglected and abused children of this city will not be 
left on their own. The child welfare system will continue to function, 
for the foreseeable future, under the supervision of the federal court, 
under the careful oversight of the court-appointed Monitor, and with 
vigilant counsel for the children who will not hesitate, should it 
become necessary, to bring the District back into court, with the 
possibility of new federal court sanctions, should city government not 
make good on its commitments.

    Senator DeWine. Thank you very much. Let me thank our 
panel.
    One of the things that we are trying to accomplish today is 
to get a snapshot of where the system is, and how children are 
being cared for today, and your opening statements, your 
comments, and your written testimony are certainly helpful in 
that regard.
    I want to start my questioning, however, by asking you all 
some very specific questions, and I would invite anybody on the 
panel to respond who can respond. I think there are certain 
basic questions that you have to ask about any child protection 
system, certain things you have got to know. If you do not know 
these things, or if the system does not know it and the public 
does not know it, then we really do not know how well we are 
doing. It is not that these statistics tell you the total 
story. They do not, but I think they are a good place to start.
    Let me first ask what the average length of time children 
are in foster care today. Does anybody know that figure, what 
the mean is?
    Ms. Meltzer. Based on a case record we did about 1\1/2\ 
years ago, and which from my perspective is probably the most 
recent accurate data, because I do not trust the data that 
comes out of the information system since then, it is about 3.7 
years.
    Senator DeWine. It is about 3.7.
    Ms. Meltzer. Right.
    Senator DeWine. And it is significant that what you are 
saying is, the only statistics that we have are statistics that 
you have provided, really, as an outside monitoring group. In 
other words, there is no one on the panel who can tell me that, 
internally, the District of Columbia's statistics show that the 
average time spent in foster care is, blank, am I correct, or 
is that wrong?
    Ms. Meltzer. That is my perception.
    Senator DeWine. That is your perception. Is there anybody 
else that can give me the figure?
    Ms. Jackson. You know, these information systems take a 
while to get accurate data, but what I have now is 3.5, which 
is not that great of an increase, but we are retrieving data 
from that system now, and we know that it is not 100 percent 
accurate----
    Senator DeWine. We have got everybody in the system?
    Ms. Jackson. We have 70 percent of the people in.
    Senator DeWine. Okay, so we have got 70 percent of the 
people----
    Ms. Jackson. Well, with good data. All of the children are 
in the system.
    Senator DeWine. All of the children are in the system, but 
only 70--so for 30 percent of the children, the data is not 
good for them, is that what you are telling me?
    Ms. Jackson. It is not complete.
    Senator DeWine. It is not complete. Can you break it out 
beyond the average, or the mean? In other words, can you tell 
me how many children have been in foster care longer than 3 
years, how many have been in longer than 5 years, how many have 
been in foster care longer than 8 years, if we wanted to know 
that?
    Ms. Jackson. Yes. The system will give you that. I do not 
have that right now.
    Senator DeWine. Okay. You do not have that today. Can you 
supply that to me?
    Ms. Jackson. Yes, sir.
    Senator DeWine. Can you give me a breakout of, let us say, 
2 years, 4 years, anything above 5 years, what percentage, 
because those are very relevant statistics. The average is 
interesting. That tells you something, but what you really want 
to see is, where do these kids really break out, and how many 
we have got there a long time.
    Let me ask another question. Do you know the average age of 
your children in the system today? I am not trying to embarrass 
anybody. I am not trying to give everybody a hard time, so if 
you all do not know, just tell me and we will move on.
    Ms. Meltzer. They have data, but that average does not tell 
you much.
    Senator DeWine. It does not tell you much. Let us start 
with that, and then you can tell me any other breakouts you 
have got.
    Ms. Meltzer. The system can provide information on the age 
distribution of the children in foster care, and they should be 
able to provide you that.
    Senator DeWine. Okay, and you think that your system can 
give me that figure?
    Ms. Jackson. Yes, it can.
    Senator DeWine. Okay. We would like that, and I agree that 
the average is interesting, but it is probably not the most 
important. What you need to see is the age breakouts, what 
percentage are 8 years old, what percentage are 10 years old, 
et cetera.
    Understanding that a third, 30 percent of the children do 
not have complete files in the system--and by the way, when do 
you think that will be finished? When will you be able to say 
that the children have completed files in the system that are 
retrievable?
    Ms. Jackson. 2002.
    Senator DeWine. 2002. When in 2002?
    Ms. Jackson. Early.
    Senator DeWine. Early 2002.
    Ms. Jackson. We have hired a team of people.
    Senator DeWine. Have you got enough money to do that? I 
mean, do you, or don't you?
    Ms. Jackson. We have enough money for this year, until 
2002, yes.
    Senator DeWine. All right. Do you know what the breakout is 
in regard to what the plans are, the case goal plan for each 
child? In other words, the national statistics from the 
Adoption and Foster Care Analysis and Reporting System--
AFCARS--would show that--just as an example, 42 percent of the 
children nation-wide have a goal of reunification, 19 have a 
goal of adoption, 7 have long-term foster care, 5 emancipation, 
4 percent guardianship, and 19 percent have no goal 
established, at least those are the figures that I have nation-
wide. Do you have comparable figures?
    Ms. Jackson. Yes. I do not have them here, but I can get 
them to you.
    Senator DeWine. Do you have any idea what they are?
    Ms. Meltzer. I do.
    Senator DeWine. You do.
    Ms. Meltzer. They provide them to me monthly. About a third 
of the children in this system have a goal of adoption. It is 
not the same pattern as the national data.
    Senator DeWine. About a third have a goal of adoption.
    Ms. Meltzer. About 900 children in this system right now 
have a goal of adoption.
    Senator DeWine. Okay, so the total number of children is--
--
    Ms. Meltzer. The total number of children--well, this is an 
interesting figure. For the last year we have been told it is 
between 3,100 to 3,300 children. This last month, the data 
coming off of the automated system is down to 2,800 children. 
That is a huge change. This is the first month that the data 
has been produced off the automated system.
    Senator DeWine. So we do not know why that is?
    Ms. Meltzer. No. I still think that there are about 3,000 
children in care, and the agency is trying to figure out 
exactly, so about a third of them have a goal of adoption.
    Some significant number of them, a couple of hundred, and I 
can give you the exact figure, have a goal of independent 
living, or emancipation, and the rest have goals of either 
return to a parent or a relative. There are a couple of hundred 
children in the most recent month's data who did not have a 
permanency goal assigned.
    Senator DeWine. Analyze for me, then, those statistics. 
What does that tell you? What does that mean to a lay person, 
someone who is listening to this and who is not an expert and 
does not understand all the terms, what does that mean?
    Ms. Meltzer. What it means to me is that there are still 
too many children in the system who have been in foster care 
for too long. The large number of children with the goal of 
adoption means that ASFA is not being implemented adequately. 
They need to be moved into permanent----
    Senator DeWine. The law is not being implemented.
    Ms. Meltzer. Right, so----
    Senator DeWine. The law that applies to every child in this 
country today, basically. I mean, the overall Federal law does. 
We have implementing laws at the State level and the District, 
but Federal law applies to everything.
    Ms. Meltzer. So what it suggests to me are all the problems 
we have been talking about in terms of adequate lawyers to move 
these cases, number of judges to hear these cases, and making 
sure about the 900 children with the goal of adoption. The 
agency indicates that about half of them are in homes that are 
willing to adopt them, so for those children the actions have 
to be taken to move those children and to finalize those 
adoptions. For the other children, there are a whole range of 
steps that have to be taken, including adoption recruitment.
    Senator DeWine. Now, my time is up, and I have a whole 
bunch, as you can imagine, more questions about statistics. I 
am going to flip it to you. This is a logical place I think to 
do it, Mary, but in regard to adoption, how does it work in the 
District of Columbia?
    I know that in Ohio and in most States we terminate 
parental rights, which is a separate proceeding. Once that is 
done, if the system is working right, following the Federal 
guidelines, following what the State has, we move quickly into 
making that child available for adoption, and then we hope that 
that child is ultimately adopted.
    How does it work in the District? What is the process? Is 
that a separate process? Do you terminate parental rights 
first?
    Ms. Jackson. No.
    Senator DeWine. No.
    Ms. Jackson. We have to have an adoptive place before the 
court will terminate parental rights in the District.
    Senator DeWine. Where else does that exist in this country? 
Is that a common thing?
    Ms. Meltzer. No, it is not.
    Senator DeWine. It is not common.
    Ms. Meltzer. The remedial order requires that rights be 
terminated for children with the goal of adoption within a very 
short period of time after the goal of adoption is established. 
The District has never implemented that provision of the order. 
The court and other people here can comment on that. The court 
has been reluctant, and basically what workers are told is that 
there have been two problems. The Office of Corporation Counsel 
has never brought TPR proceedings routinely for a combination 
of reasons.
    Senator DeWine. TPR meaning?
    Ms. Meltzer. Meaning termination of parental rights.
    Senator DeWine. Sometimes I know, sometimes I do not know. 
I just want to make sure.
    Ms. Meltzer. It has been a combination of adequate staffing 
and a sense that the court will not approve it unless there is 
an adoptive placement, and that, of course is a chicken and egg 
problem.
    Senator DeWine. Well, that is right. If you are an adoptive 
parent, you are sitting there, you have no clue whether this 
child is eligible for adoption or not. I mean, what in the 
world is going on? Why does the District do it this way? Does 
anybody else in this world do it this way?
    Ms. Graham. Not to my knowledge, Mr. DeWine.
    Senator DeWine. Well, for heaven's sake, isn't it about 
time the District caught up with the 21st Century----
    Ms. Graham. Yes.
    Senator DeWine [continuing]. And got with the program about 
protecting kids and getting kids adopted?
    Ms. Graham. Absolutely, Mr. DeWine. One of the things that 
we found--the Williams administration has been in place 2 
years. Last year, we began to work very aggressively with this 
agency. So much had not been done, and actually the Adoption 
and Safe Families Act in the District was just passed this past 
February.
    Senator DeWine. Which is again a shocking thought.
    Ms. Graham. Absolutely.
    Senator DeWine. We passed that when? November 1997 it 
became law.
    Ms. Graham. Absolutely. It certainly did. That was one of 
our first findings. As we did further research into the 
challenges of the agencies, we found that there was no 
communication with the other Departments. Actually the Office 
of Corporation Counsel was so grossly understaffed that there 
was no way that it could begin to implement the requirement not 
only of the order but also of the Adoption and Safe Families 
Act.
    Senator DeWine. Let me at this point--I want to come back 
to this, but this is a good segue to Senator Landrieu, because 
Senator Landrieu is probably in Congress one of the most, if 
not the most foremost expert on the whole issue of adoption and 
has really taken a lead in this whole area, and has tremendous 
knowledge and great passion for this, and we apparently have a 
vote that is going on.
    I will turn it over to Senator Landrieu at this point, and 
we will then break for the vote. Does anybody know if we have 
one or two? We have two votes, so you can relax once we leave. 
It is probably going to be 25 minutes until we get back, I 
would suspect.
    Senator Landrieu. There are so many questions I have I do 
not know where to start, but I would say that at least from 
what I have learned this morning, the consent agreement has 
outlined at least five important steps that need to take, or 
five important foundations that should be laid down, the 
consolidation of the agency, the selection of a new Director, 
and I am most heartened to learn about the specific directive 
to have a senior management team.
    Because even the best, most outstanding Director could be 
brought in, and if that Director is not given latitude to have 
their own senior management team, in my opinion, when you are 
trying to fix a situation like this, which is a serious turn-
around situation--I would fall on the side of giving not only 
the Director and senior management team even broader latitude 
to hire and fire, to reorganize, and to rearrange, and I think 
that the Senator will agree with me that, as passionate as we 
are about trying to help you fix this, that it would not be in 
our interest to micromanage this turn-around, that what we need 
to do is try and get good data, good, solid measurements, and 
then give you all as much flexibility within what the courts 
will allow, and this is an additional safeguard, perhaps, to 
actually get this done sooner than later.
    The other point I just want to make is, regardless of 
whether this system stays, quote, in receivership, or moves to 
the mayor's office, which I have great confidence and respect 
and regard for the Mayor, and frankly think there could be no 
better mayor suited to take this on, since he himself is a 
product of a foster care system that in his case worked for him 
and for his family beautifully, so I most certainly understand 
his passion to try to get this system to work for other 
children that were in his similar circumstance.
    But even with his great abilities, unless we help to 
fashion and give him the budget and the tools and the 
flexibility, I am afraid, Mr. Chairman, we are going to be 
many, many more years, so my questions would be to all of you, 
what are some of the obvious barriers, even let us say this 
receivership moves to the Mayor, assuming we get an excellent 
Executive Director, a wonderful management team in place, which 
I think could be done, what are some of the sort of barriers 
that jump out at you that you think will even prevent us from 
making great strides quickly, and I will just ask each of you 
to identify one that comes to your mind, and perhaps we can 
direct our resources and attention there.
    Ms. Jackson. I think one of the huge barriers has to do 
with the court system, the fact that there are 59 judges, the 
fact that we have to listen to each one, the fact that the 
Council for Court Excellence put out a report that shows how 
long it takes to get these cases through the system. We have a 
very adversarial relationship with the courts, and it makes it 
very hard to effect permanent plans for children.
    Senator Landrieu. Just in response to that, there are a 
number of us, and I think Senator you actually have a bill that 
I am going to be joining you in helping to fashion if it is not 
already introduced, that is going to basically mandate that 
that court identify a specific number of judges, whatever we 
could agree would be a good number, that would focus and be 
permanently seated on these cases, so that the judges 
themselves become familiar with the cases, and with the case 
work team, and with the child advocates involved, so that there 
is more of a collaborative team effort to move some of these 
cases.
    And just let me say for the record that I am very 
respectful of what the judges might think about the way the 
system operates. We are going to move forward with mandating 
this court to do this, and unless they can come up with some 
extraordinary reason which I cannot imagine, I think that is 
one of the immediate steps that needs to be taken, so in 
fashioning how many judges and how it should work, I would 
appreciate that input.
    What, Judith, would you say is in your mind, even with a 
great Director and adequate budget, a good management team in 
place, which I am certain that the mayor could actually 
deliver, what do you think the biggest barrier is?
    Ms. Meltzer. I think that recruiting and retaining a stable 
workforce has got to be one of the highest priority challenges 
for them, because even in this last year they recruited 132 
workers, and then they lost 128 of them.
    Senator Landrieu. So for the record, we successfully 
recruited 132 workers, and lost 128.
    Ms. Meltzer. So they are back where they started from, 
basically, and it is a crisis.
    Now, let us talk about the three reasons why, and anybody 
jump in, what was the number one reason for losing them, what 
was the number two, and what was the number three reason, in 
your opinions?
    Ms. Jackson. In terms of our exit interviews--in fact, we 
did not lose 120 of the 130.
    Ms. Meltzer. Well, they are not the same people.
    Ms. Jackson. Not the same people, okay. What we get from 
exit interviews is poor supervision, number one.
    Senator Landrieu. Poor supervision, not enough supervision 
and support.
    Ms. Jackson. Exactly. Number two, working with the courts, 
and the third one is just for a different experience, or a 
different professional experience. We hire all master-level 
licensed MSW's. That is what we, according to the modified 
final order, had to hire. Now we are looking at hiring 
bachelor's level.
    Senator Landrieu. You were originally required to hire 
master's, but now you have had some relaxation of that?
    Ms. Jackson. Yes.
    Senator Landrieu [continuing]. And you can take those with 
bachelor's degrees?
    Ms. Jackson. Yes.
    Senator Landrieu. Let me ask this, given that number 1, 
according to exit interviews, was lack of proper supervision, 
do we have anything in our plan that allows us to fire managers 
that are not doing--I am not talking about senior management. I 
am talking about the supervisory level. Do we have any way to 
either give additional help and training to those managers that 
could use it, or ways that we can ask or require managers to 
leave that are not doing their job?
    Ms. Graham. The agency has invested in training, but this 
past year the city adopted the management supervisory service 
and that has allowed us to move mid-management into that core. 
We are now able to require performance plans and then, based on 
performance, terminate immediately, without going through the 
elaborate processes that one had to go through previously with 
the Civil Service System.
    Senator Landrieu. Let me ask you this, in the last, maybe 
to be fair in the last 12 months, how many managers have been 
terminated for lack of performance?
    Ms. Graham. None has been terminated in the agency for lack 
of performance. This plan has just really been adopted, and is 
in the process of being implemented this fiscal year, so we are 
all monitoring our management processes very closely now.
    Senator Landrieu. And I know I am treading on sort of the 
sacred cow here, because every State and city has Civil Service 
rules and regulations, and they can in many instances become 
barriers to reform, with all due respect to the Civil Service 
and those that work for the Government, but when you are in a 
crisis situation, which I would declare that this is, I think 
that there are some extraordinary steps that should and could 
be taken to get the turn-around on, and then maybe you could 
put the sort of old system back in place, is what I am moving 
towards.
    I would like to explore that, not today, but to think 
about, and I know it is going to take negotiations between 
unions and agreements and everything, but I just think in a 
crisis just the old rules sometimes need to be lifted to get 
not only new management at the top, but sort of a new culture, 
if you would, throughout the organization, and then perhaps, 
and I think your good--and most all are well-intentioned, would 
embrace that sort of new approach, because in the long run 
everyone would be benefitted.
    Now, let me ask this just for the record. What is the 
starting salary that we are able--and salary was not mentioned. 
I am surprised. It was not salary that was mentioned, it was 
supervision, courts, and----
    Ms. Meltzer. I think it is just hard work and a desire to 
leave.
    Ms. Jackson. We have comparable salaries. The starting 
salary is about $38,000.
    Senator Landrieu. $38,000, okay. Let me ask this, and I am 
going to have to leave in just a second. Could you all 
describe--when you say, children and out-of-home care, and in 
Louisiana we think of that in a foster care situation, like a 
substitute family, where there is a single parent, or two 
parents, they may have biological children of their own, and 
they take in one or two or three children, because ideally you 
want to reflect that secondary family to be as much like a 
family as possible, as opposed to congregate living, or group 
homes, et cetera.
    Can you break down in general terms the 3,000 approximate 
children? What percentage do you think, that are not with their 
biological parents, are in what you would describe, whether 
they are with relatives or not--you can include that, because I 
actually think relative care and kinship care is a very common 
sense place for children who cannot be with their biological, 
but could you just sort of outline in broad terms what 
percentage are in atmospheres like that, as opposed to group 
homes where there would be 8 or 10 or 12 children in a group 
setting?
    Ms. Meltzer. Based on the data that----
    Senator Landrieu. The data that you have just generally.
    Ms. Meltzer. It is about 25 percent of children are in 
congregate care.
    Senator Landrieu. And 75 percent are in more traditional 
foster homes.
    Ms. Meltzer. And it is mostly--most of the children in the 
congregate settings are teens, although there are some young 
children which we are constantly trying to get them to move out 
of congregate care settings into family care settings, as well 
as a lot of the children in congregate care could be cared for 
with families if they were available, which leads to what I 
would say is the other challenge I would have put--it was hard 
to choose, which is the recruitment and support of foster 
families and adoptive families is another huge challenge for 
this agency going forward.
    Senator Landrieu. How many children do you think are in 
congregate care?
    Ms. Meltzer. I have those figures, but it is not----
    Senator Landrieu. Just send it in.
    Ms. Meltzer. Yes.
    Senator Landrieu. And there is no barrier to foster care 
recruitment in the sense, we look for foster care parents in 
this region. We are not limited to just within the District. We 
have no barriers to trying to recruit foster families 
regionally?
    Ms. Jackson. Yes, we do.
    Senator Landrieu. Or do you just look in the District? Go 
ahead.
    Ms. Graham. The agency did have a major barrier, the ICPC, 
the Interstate Compact Process for the Placement of Children 
had been underfunded. There were two individuals staffing that 
office, responsible for carrying a tremendous case load in 
support of about four agencies' work.
    The agency moved swiftly to arrange placements in Maryland. 
About 60 percent of our children are in Maryland. Many of them 
are, indeed, in family homes, but they still require the same 
kind of scrutiny as the other professional foster homes, so one 
of the things that we have done is to move that function, 
beginning April 1, over to the agency for its own placement. 
That was a major barrier, because it was a tremendous backlog 
and lack of processing papers, just a complete lack of 
cooperation.
    One of the issues, Senator Landrieu, for agencies when they 
go into receivership--I think the ideals that they are pursuing 
are wonderful, but it isolates agencies from other agencies 
that they need to have interactive relationships with. When we 
came into office we found that this agency had been completely 
isolated. Nothing was moving.
    Senator Landrieu. The agency to try to identify foster 
homes is what you are talking about?
    Ms. Graham. That is exactly right. It had no real--it did 
what it wanted to do basically for the agency, and there was a 
tremendous backlog, and the agency, in order to get children 
placed in Maryland, just simply moved out, made its own 
determinations, and placed children.
    We have a great working relationship with the State of 
Maryland, and they are working with us to bring those files up 
to date. The children are in, we believe, safe placements 
there, and there is the ongoing monitoring happening now.
    This has been a major issue that has plagued the agency.
    Senator Landrieu. So we are making progress in terms of 
trying to recruit foster care families regionally. We are not 
limited to looking for them within the District.
    Ms. Graham. Right.
    Senator Landrieu. We can find families, if we try to help 
staff up that agency. There are many, as you know, hundreds of 
families willing to be foster care families, if their 
applications could be processed in a timely manner.
    Ms. Graham. Let me speak to the District, and I am going to 
allow my colleague here to say something.
    In the District, our housing stock is quite old, and it has 
lead in it. The city has not offered subsidies for families to 
do lead abatement, which can be fairly expensive.
    When the agency just recently, I think, or about a month or 
two ago released what was an RFP for foster homes, 50 percent 
of those homes came back ineligible because of lead. We have 
got to do a massive abatement program here in the District in 
order to make homes here available. Regionally we can and do 
recruit, but we have got a major issue here in the District.
    Senator Landrieu. Let me ask this, and I know it is touchy, 
but are you suggesting that if a sister of a biological mother, 
a biological mother unable to care for her two children, 
petitioned the D.C. system to take care of those children 
temporarily until her sister could get it together, or maybe 
take the children permanently, if that sister has lead paint in 
the house, those children would not be allowed to go?
    Ms. Graham. That is exactly right.
    Senator Landrieu. Now, I would like to just for the record 
explore this situation, because while I think lead paint is a 
serious problem, and you do not want to put people in danger, I 
also think that children who are traumatized, having to be 
moved for good reasons, need to be with relatives whenever 
possible, particularly if the relatives are responsible and 
caring and loving, particularly if there are other children in 
that house.
    Unless you are prepared to remove every child out of every 
house with lead in it--which you may want to do. I do not know 
if we can afford to do that--then it does not seem to me that 
we can--I mean, there would be a question in my mind as to 
that, but I do not want to go into more detail, but I just 
raise it because we just--you know, put it this way.
    I grew up in a house with nine children. My father was once 
the Secretary of HUD. Some people came to his office one day 
and said that he did not think children should be placed in 
homes where they did not have their own individual bedrooms. 
Well, he laughed and sent him out of his office, because we 
grew up with four kids in a bedroom our whole life, and shared 
one bathroom, and he said, you know, how can I put Government 
rules and regulations in when that is not even how it happens 
in my house.
    So sometimes in our efforts to do the best, we overlook 
some of the simple things. These kids need to try to be first 
with responsible relatives, and if we cannot find responsible 
relatives, then we go and place them in the most family-like 
setting possible for a short time until we can determine--so I 
will revisit this lead paint issue with you all, and I have 
just got to go vote, so let us take a break for maybe 10 
minutes.
    Senator DeWine may be back before I do, but let us take a 
break--and does the staff know how long we are going to go? 
Until 1:00, probably another round of questions until 1:00, so 
thank you, and I know you all could use a break, too.
    We will resume the hearing.
    Let me just direct the first question to you. You state 
that the Child and Family Service Agency is still not 
functioning as an agency that can provide appropriate care and 
protection for children. You go on to state that the consent 
order moving the agency out of receivership does remedy many of 
the problems that impede the provision of services to children.
    In your opinion, what more needs to be done to ensure that 
children are protected, and adequately cared for? That is an 
open-ended question that maybe will give you the opportunity to 
spell out for us in more detail than you did in your 5 minutes 
that we initially gave you.
    Mr. Thompson. Thank you, Mr. Chairman. What I will do is 
echo one of the points that was made a bit earlier by the 
deputy mayor, which is that the agency became very isolated 
during the receivership. I think it was clearly difficult to 
get any cooperation with other District agencies who had 
responsibilities for some of the functions that were related to 
providing adequate services or protecting children, and I touch 
upon some of those in my written submission.
    But the one that comes most clearly to mind in the context 
of the Brianna Blackman case and some of the other cases that 
have been cited is the relationship with Corporation Counsel. 
Unfortunately, there is one. There has been a severe staffing 
shortage for representation, particularly to this agency, but 
also there was a real lack of any communication, whether it was 
between social workers who were going into court without 
adequate preparation, and then were not able to be adequately 
represented on a legal basis on actual abuse and neglect 
petitions, or petitions to terminate parental rights.
    But also the agency as a whole did not have an ability to 
get on a daily basis legal advice that would enable the agency 
to determine whether a court order that was entered, which the 
agency was disputing or did not think was an appropriate order 
to be entered, could be appealed, for example.
    There was in all aspects no ability for the agency to 
appeal any of these orders, and one of the unfortunate 
consequences of the Brianna Blackman case is that the agency 
received an order from the court to return this child, and 
instead of aggressively questioning that order and seeking 
legal counsel, going back into court and at least seeking to 
revisit the issue before the judge, who had not even held a 
hearing on it, and then if unsuccessful appealing the order, 
nothing of the sort was done because it just was not part of 
the process that was in place.
    Clearly, as part of the agreement, this consent order, 
there is a specific requirement for adequate legal staffing at 
Corporation Counsel. I think I highlight the fact that in next 
year's budget submission from the District there certainly will 
have to be a very significant increase in the budget for the 
Office of Corporation Counsel to be able to meet the ASFA 
requirements which are not being met right now.
    So that is a process that unfortunately is only now being 
negotiated with the District, and we have not come on a final 
number of additional attorneys, but certainly everybody 
recognizes and should have recognized years ago that the Office 
of Corporation Counsel is grossly understaffed and cannot 
adequately represent this agency. That is a fundamental 
necessity here, and a roadblock to getting these children to 
move forward through the legal process.
    Senator DeWine. Do you feel comfortable that there are the 
additional funds now set aside to do this, and the process is 
in place to get this done?
    Mr. Thompson. Well, as an interim measure, the receiver has 
actually made available $1 million out of its budget to fund 
the immediate hiring of a number of Corporation Counsel 
attorneys. Now, it remains to be seen whether the amount that 
is proposed for fiscal year 2002 is adequate, in fact, to meet 
all the requirements. There really has not yet been a full, 
detailed staffing study of what the actual need is.
    Certainly this is a step in the right direction. 
Corporation Counsel and the District have acknowledged and 
committed to providing additional attorneys. It is an open 
question as to whether the numbers that are being considered 
are going to be adequate to the task. There is an enormous 
backlog in petitions to terminate the parental rights that need 
to be filed.
    Senator DeWine. How many people work full time now on this, 
as far as lawyers? How many are assigned full-time to deal with 
this?
    Mr. Thompson. Well, I defer to my colleagues.
    Senator DeWine. Does anybody know, on the panel?
    Ms. Jackson. They tell us that they are only able to handle 
20 percent of our cases.
    Senator DeWine. They are only able to handle 20 percent of 
your cases, meaning, what do you rely on them to do?
    Ms. Jackson. Well, to represent us----
    Senator DeWine. In court?
    Ms. Jackson [continuing]. And to be in court with us, yes.
    Senator DeWine. So in only 20 percent of the cases do you 
have counsel with you in court.
    Ms. Jackson. Yes, Corporation Counsel.
    Senator DeWine. And what are the plans to hire additional 
lawyers and how will the District ensure that there is that 
close working relationship between the counsel and the case 
worker, whoever is involved?
    For example, in Ohio what they do is, or in some cities, 
they literally, physically put them in the same building. They 
are right there. You just go see them. They are there.
    Ms. Jackson. We have a plan that Mr. Rigsby, who is the 
head of the Corporation Counsel, submitted to us, particularly 
for the $1 million, that we are transferring, so we should be 
getting attorneys, paralegals, and additional staff to 
represent us. Most of them will be colocated in our building, 
so that they will be accessible to the workers to help them 
prepare for court and to represent them in court.
    Senator DeWine. What is the goal as far as your 
representation? You cited the figure that in only one-fifth of 
the cases do you have counsel. How many cases do you need 
counsel? Do you need them 100 percent, do you need them in 50 
percent? I mean, it is one thing to have a full-fledged trial, 
when you are presenting evidence. You clearly need counsel 
there. It might be something else in another hearing that you 
might not need counsel. I do not know. What is the goal here?
    Ms. Jackson. The goal is to have representation really when 
we need it. It is my experience that when the agency has its 
own representation a lot of things are worked out. The lawyers 
work out and a lot of cases you do not even have to go to 
court.
    Senator DeWine. Sure.
    Ms. Jackson. So it would really help how we work with the 
Superior Court. I think it will limit the number of cases. It 
would help the time frames that we need, and we do need agency 
representation.
    Ms. Graham. Mr. DeWine, there are 16 attorneys in 
Corporation Counsel assigned to the agency that work on these 
issues.
    Senator DeWine. So you have 16 full-time people?
    Ms. Graham. Full-time attorneys working on these issues.
    The goal is to hire between 25 and 30. In the 2002 budget 
the mayor is requesting $1.9 million to fund that attorney 
corps for the agency.
    Ms. Meltzer. I am concerned that the $1.9 million may not 
be enough. I think it needs some close analysis, because the $1 
million that they are transferring this year is only for half 
of the year, and it was supposed to be for the startup group of 
attorneys with the understanding that an additional increment 
would come on next year, plus the funding for all of the ones 
that were started with this money. The first time I had seen 
the $1.9 million is in your testimony today. I think that bears 
some close looking at, because I do not think it is going to be 
sufficient to meet the needs.
    Senator DeWine. Well, I think that certainly needs to be 
looked at, and you also have the whole issue of how this is 
implemented, how you recruit these lawyers. These are things we 
do not have to go into today, but we all know from a practical 
point of view that is a lot of lawyers to get on very quickly. 
That is certainly going to be a challenge.
    Let me ask about another issue, and that is the issue of 
guardian ad litems. How is that worked in the District? How is 
that working? If we look at the Brianna case, we have got a 
horror story there that includes the guardian ad litem failure.
    Ms. Meltzer. I am not sure I understand the legal 
underpinnings of it, but the guardian ad litems are private 
counsel that are paid through an office of the Superior Court 
called the Counsel for Child Abuse and Neglect, and they 
recruit people for this job, and they train them. My experience 
is that there is wide variability in the quality and 
consistency of the services offered by these lawyers. I know 
there was an effort early last year where the court was trying 
to develop practice standards that they would impose on people 
that were assigned as guardian ad litems. I believe that got 
stalled and has not actually gone forward.
    Senator DeWine. Well, we need to look at that, I think, as 
well.
    The related issue of the case representation, how does that 
work in the District? I know in some counties and some States, 
in some jurisdictions it works very well. In some they are 
hardly there at all. How is it in the District, does anyone 
know?
    Ms. Graham. I would suggest that it is hardly there at all, 
primarily because of resources. We do have an infrastructure 
and a very dedicated team of volunteers, but they have 
constantly not had the resources. We recently, or are in the 
process of transferring some funding over to them because we 
support their work. It really needs to be an integral part of 
the system.
    Senator DeWine. It seems to me this would be a logical 
place for a foundation or some private money to become 
involved. I mean, in some jurisdictions you have private 
resources involved that work on that to help. Of course, then 
you obviously have the issue of finding the people to do it. 
You have got to find the people who are willing to spend the 
time to do that.
    Let me get back to some other kind of snapshot questions. 
Let me ask about the training of social workers and where we 
are in regard to that, and if anyone can give me any statistics 
in regard to a snapshot of these people who are out there 
dealing with these kids every day. How long have they been with 
you, how many years experience they have on the average, what 
is their educational background. You did talk about that, I 
believe a master's, but what additional training do they get 
once they start? Do you want to give me some statistics on 
that?
    Ms. Jackson. Yes. Our training contract is with the 
Virginia Commonwealth University. When we came, there was no 
training, or a training program, but we were able to do an RFP 
and get Virginia to come in using Howard and Catholic to train 
our staffs, so they are located in our building, and they 
provide the training.
    Now, they do some 110 days of training a year, with 50 new 
courses. Because they are all master social workers with 
licenses, they try to make the training appropriate. Most of 
our social workers are new, our new master's level. Most of 
them I would say do not have a lot of experience, but we do 
have a core in the agency of social workers who have 
experience.
    Senator DeWine. I know Senator Landrieu got into this a 
little bit in her questioning as well. In addition to the other 
questions I would like for you to respond to, we can either do 
it orally or in writing, but I would like the profile, if you 
could give me the profile, particularly of the experience 
level, how many years experience in this field, actually in the 
field working, what you average.
    Ms. Jackson. I would like to give you that in writing.
    Senator DeWine. That would be fine. Let me talk for a 
minute, or ask questions in regard to the training of foster 
care parents, and what you do in that regard.
    Ms. Jackson. We have regular training that goes with new 
foster parents, but we also have in-service training. We 
average about 30 foster parents attending that each month. I 
think there are probably around 16 courses that are provided.
    Senator DeWine. What is the minimum, or is there a minimum? 
I want to be a foster parent. What happens?
    Ms. Meltzer. The modified final order requires that the 
pre-service training for foster parents be a minimum of 30 
hours of training. The agency has been using the MAP 
curriculum, which is a fairly recognized curriculum for pre-
service training for foster parents.
    The order also requires that there be a minimum of 15 hours 
of in-service training a year for every foster parent, and that 
that be actually tracked and monitored according to the needs 
of the foster parent.
    Senator DeWine. Is that taking place?
    Ms. Meltzer. What they have recently just begun is offering 
some courses, but from the standpoint of complying with the 
requirement that every foster parent knows that they have to do 
15 hours and gets 15 hours, my current assessment is no, it is 
not where it needs to be.
    Senator DeWine. Let me ask another kind of snapshot 
question, and that has to do with case load. What can you tell 
me about that? What is the average case load, or what is the 
range--both?
    Ms. Meltzer. We get case load figures monthly from the 
agency, and they are not very helpful because the range is 
quite large, so that in one unit, which is Family Services, 
they are pretty close, or they have been pretty close to 
complying.
    Senator DeWine. Family Services would do what?
    Ms. Meltzer. Those would be service to children and 
families where there has been a substantiated neglect, but the 
children are still at home, so in those units case loads have 
been running anywhere from 12 to 15 cases per worker, which is 
a family.
    Senator DeWine. Which is acceptable.
    Ms. Meltzer. Right, which is acceptable. When you go over 
on the foster care side, you have huge variability, so you will 
have some workers with case loads that are 15, 16, some workers 
with case loads of 50, and some uncovered--well, not 
technically uncovered, because what happens is, they do not 
have a social worker assigned, but a supervisor or somebody 
else is filling in.
    Senator DeWine. Why would you have such a variation with 
people who are doing basically the same work, or are they doing 
the same work?
    Ms. Jackson. No.
    Senator DeWine. They are not doing the same work. Let us 
take foster care, for example.
    Ms. Jackson. Foster care is a very difficult service right 
now, and so a lot of workers ought not to go to foster care, 
ought to get out of there after a period of time, so the degree 
of difficulty has a lot to do with the staffing patterns in 
those services.
    They are perceived as more difficult, and the teen services 
are even more difficult, so we have a very difficult time 
keeping our foster care staffed up. What we have done to 
address that is to give foster care cases to Family Services 
workers, and some of the areas in the agency where we have 
lower case loads, we are just giving them a few foster care 
cases to help out.
    Senator DeWine. So a case worker might have 12 or 13 cases 
in regard to neglect cases, for example, where the child is 
still in the home, and they might have three or four foster 
care----
    Ms. Jackson. That is what we are doing currently, yes.
    Senator DeWine. So it is hard to compare the statistics, 
because you are comparing apples and oranges to some extent.
    Ms. Jackson. We know how many children are placed in our 
home placement, but we just have had to move them to different 
workers when people leave. We hired 19 social workers 
yesterday. This is a good time for hiring social workers 
because the schools are graduating social workers.
    Senator DeWine. Sure.
    Ms. Jackson. So what has happened is, we staffed up this 
summer, and we will begin to look at that, but I think the 
ultimate goal for the new Director would probably be to make 
more generic case loads, because you cannot have this imbalance 
where you feel punished if you have to work with these children 
all the time, runaways, and the more difficult child.
    Senator DeWine. In foster care.
    Ms. Jackson. In foster care, and then you feel like, if you 
are working with families you feel less stressful, or if you 
are working an adoption.
    Senator DeWine. So one of the issues is, you do have quite 
a variation in a case load.
    Ms. Jackson. Yes.
    Senator DeWine. It is huge, and you said one person could 
have 50 different families to deal with.
    Ms. Jackson. Children.
    Senator DeWine. Children in that home, right. They are 
dealing with 50 kids who are in foster care. Each one is in a 
home somewhere, so 50 kids.
    Ms. Meltzer. My last estimate from the last data that I 
received, there are 50 vacancies, 50 line social worker 
vacancies in the agency.
    Senator DeWine. The last figure that I saw is either last 
year or the year before. You got a whole bunch of new people 
in, you lost a whole bunch of people. You were basically 
treading water, the last figures I saw.
    Ms. Jackson. We have 375 social worker positions, master's 
level social worker positions. We have probably 59 vacancies, 
but yesterday I hired 19, so that cuts that down, and we will 
have no problem--what we have got to really work on is how to 
retain, the retention issues.
    Senator DeWine. Well, I am very curious to know about your 
retention. Can you get me some statistics on that?
    Ms. Jackson. I will.
    Senator DeWine. It would be pretty easy to give you a 
statistic that said, the average length of service with the 
District of the people who you have, the 300-and-some people 
you have working today, what is it, what is the range? Those 
would be statistics that I assume are not very hard to get. It 
would tell you something about your turnover.
    Ms. Jackson. The turnover, yes. We can get a rate for you.
    Senator DeWine. Let us go through this again, then. What is 
the goal? How are you going to deal with the turnover? You are 
always going to have turnover, and it is a tough business, we 
understand that, but what are you going to do to have some 
consistency?
    It is a problem for two reasons, obviously, to state the 
obvious. One is experience level, and if you are always dealing 
with people who have got less than 2 years of practical 
experience, you have got a problem, the system has got a 
problem.
    The other problem is continuity. If you have a tremendous 
turnover, every family, every child is being jerked around from 
one case worker to another case worker--to state the obvious, 
these are problems. What is the plan to deal with this turnover 
issue?
    Ms. Graham. Mr. DeWine, we recently just a week or so ago 
introduced legislation for retention incentive and signing 
bonuses for new workers coming on board, so those are 
preliminary steps that have been taken. We are asking the 
candidates who we are interviewing for the directorship 
questions having to do with the retention strategies, proven, 
known about, and those that they themselves have, in fact, 
implemented, so that is an area of great focus.
    I believe that with the right legal support that we have 
got to put in place to support these workers when they go into 
court, and the other kinds of supports, moving the 
transformation or reformation in the courts that will allow 
these cases to move quickly through the system, those are the 
kinds of things that will ensure that we are able to augment 
and retain a good workforce in the system.
    Right now, these workers are pretty exposed when they go 
into court, and often go in unrepresented, and not certain of 
who the lawyers are there to represent, whether they are 
representing the LaShawn case that many of them feel they are 
still arguing, or whether they are representing the agency 
itself, and so these are young workers, many of them, coming 
out of graduate school, and feel very exposed in that 
environment. We have got to support them.
    Senator DeWine. It just seems to me that in this whole 
area, that continuity and consistency is certainly something 
that is very, very important, and I think not only important to 
get more lawyers, but you have to make sure that those lawyers 
have time to talk to the case worker more than 2 minutes before 
they walk into court.
    It is a perennial problem that anybody who has practiced 
law has had, or anybody who has been a case worker has had. 
There is never enough time, but if you are going to have that 
assurance that you are talking about, it is clear that there 
has to be enough time, which is a function of numbers, and 
there is some continuity in the relationship between that case 
worker and that individual lawyer.
    I would say, frankly, it is also important that there be 
continuity in the type of case that the judge deals with, which 
is the reason that I believe we have to have a family court 
system, and that the District absolutely has to move to this, 
and has to move to it I think very, very quickly. I think one 
thing is related to the other, and that shifting around and 
handing cases off and handing kids off throughout the system 
has to be absolutely minimized, certainly as much as possible.
    You have cited some statistics about the increase in 
adoptions. I want to make sure I understood what your testimony 
was about--which is where we left off before I went to vote--
having to do with the fact the District only goes through an 
adoption and at the same time they simultaneously apparently 
are filing the motion to terminate parental rights, and you do 
not do it that way.
    Tell me what the plans are to change that. Are there plans 
to change that? When are we going to see that changed, do we 
know?
    Ms. Meltzer. I do not know the answer to that.
    Senator DeWine. I have got to ask somebody else? Okay, we 
will, because I just do not see how you ever do what you need 
to do. I know your adoption figures are up, but I do not know 
how you ever do what you need to do unless you do what 
everybody else does, which is make a decision when you are 
going to terminate the parental rights. You terminate the 
parental rights, and then the child is eligible for adoption, 
and then you can move aggressively.
    Ms. Meltzer. These additional lawyers that the Office of 
Corporation Counsel is hiring, some number of them are supposed 
to be in a TPR unit. Conceptually they are now making the 
commitment that they will file, that they will do this work, 
but one of the issues that we have been negotiating is whether 
that number is sufficient to deal with both the backlog of 
cases as well as new children being newly identified, so that 
is why that is still an outstanding issue in terms of the 
adequacy of the staffing.
    Ms. Graham. Mr. DeWine, let me say that the Office of 
Corporation Counsel is currently under the close supervision of 
the City Administrator, Mr. John Koskinen, who has looked at 
the Appleseed report that was done assessing that particular 
function in Government. Indeed, the report does identify a 
number of issues that the office must deal with, and this whole 
issue of the termination of parental rights in a timely manner 
will be focused on.
    I will indeed talk to Mr. Koskinen as soon as I get back 
about this and the committee's interest in this, and the need 
to do this as a part of just best practice in this area.

                     Additional committee questions

    Senator DeWine. Well, because of the lateness of the hour, 
I am going to stop at this point. I will submit some written 
questions for you all, and who should those be submitted to?
    Ms. Graham. I will take them.
    Senator DeWine. We will submit them to you, and we 
appreciate it very much.
    I believe that the child protection system in the District 
of Columbia should be a model for the Nation, and I think that 
is what our goal should be. Clearly, it is not a model for the 
Nation. Clearly, it has huge problems. Clearly, there is some 
progress being made, but the progress that is being made, at 
least for this impatient person, is not fast enough. I suspect 
there is no one in this room who thinks it is fast enough. We 
want to make sure that we do what we can do from this 
committee's point of view and the subcommittee's point of view 
to be of assistance.
    If that assistance is sometimes prodding and using the 
bully pulpit of the Senate to talk about these issues, I am not 
adverse to doing that, and I will do that. If it is a question 
of trying to highlight where the resources need to be put, we 
will do that as well, but I intend to continue to spend a lot 
of time on this, my own time and my staff's time.
    [The following questions were not asked at the hearing, but 
were submitted to the witnesses for response subsequent to the 
hearing:]

                Questions Submitted to Carolyn N. Graham

            Questions Submitted by Senator Mary L. Landrieu

    Question. You testified that the District has drafted and is hoping 
to publish regulations for foster and group homes. In its study 
released this year, the Government Accounting Office found that despite 
orders, regulations and recommendations to the contrary, that there are 
still a significant number of children, particularly children under 6, 
are in group or un-licensed homes. Can you identify for me if and how 
these regulations address these concerns?
    Answer. The District has drafted regulations governing the 
licensing and monitoring of foster and group homes. These regulations 
will be published for the formal 30-day public comment period within 
the next month.
    The foster home regulations provide detailed requirements that 
foster homes and foster parents must meet in order to be licensed. 
Below is a selected list of issues covered in these regulations:
  --foster parent qualifications, characteristics and background (age, 
        health, maturity, etc.);
  --criminal records and child protection register checks;
  --foster parent responsibilities (provide supervision, be sensitive 
        to the child, participate in case planning, participate in 
        training, etc.);
  --agency responsibility to foster parents (provide adequate 
        information to foster parent about child, include foster parent 
        in case planning, etc.);
  --foster home capacity (limits on number of children in foster 
        homes);
  --general physical environment of foster homes (fire, safety, health, 
        etc. requirements);
  --health care, education and transportation of foster children;
  --foster parent training; and
  --approval and re-evaluation of foster homes.
    Similarly, the group home regulations provide detailed requirements 
that group home providers must meet in order to be licensed. Below is a 
selected list of issues covered in these regulations:
  --required staff qualifications (educational background);
  --criminal records and child protection register checks for staff;
  --personnel policies;
  --general physical environment of group home (fire, safety, health, 
        etc.);
  --health, education, transportation, mental health and other services 
        for children in group homes; and
  --initial licensure and re-evaluation of group homes.
    These regulations will provide an important framework for ensuring 
the quality of foster and group home placements for children as the 
City moves forward to reform and improve the child welfare system. 
However, these regulations will not, in and of themselves, address the 
problems of children placed in unlicensed facilities and children under 
the age of six placed in group care. These problems occur due to a 
variety of factors including delays in processing ICPC (Interstate 
Compact on the Placement of Children) agreements, delays in lead paint 
inspections and lack of adequate numbers of placements for children.
    There are a significant number of older homes in the District that 
have lead paint and are thus not appropriate for younger children. CFSA 
is working to expedite lead paint inspections by contracting directly 
for these services. Ideally, we would like to establish a fund in order 
to provide families with small grants (approximately $3,000-$5,000) for 
lead paint abatement.
    CFSA is also spearheading a process to recruit more foster homes 
through the My Community, My Children initiative that is funded by the 
Annie E. Casey Foundation. As an adopted child himself, foster and 
adoptive parent recruitment has been an area of focus for the Mayor; 
thus, he created the Bring Our Children Home Campaign, which is a 
public education effort about the need for foster and adoptive parents. 
The recruitment of more foster and adoptive homes will continue to be a 
priority for the Mayor. This Administration will work closely with 
community and faith-based organizations to increase the number of 
placement resources for children in foster care.
    Question. One provision of the Emergency Plan is to transfer the 
responsibilities under the Interstate Compact on the Placement of 
Children from the federal Department of Health and Human Services to 
the CFSA. When you say that staff is currently being trained to handle 
this new responsibility, which staff are you referring to? How does 
this transfer comport with your current struggles with staffing 
shortages and overburdened case loads?
    Answer. To clarify, the transfer of responsibilities for ICPC is 
from the District of Columbia's Department of Human Services (DHS) to 
the Child and Family Services Agency, NOT from the federal Department 
of Health and Human Services. Currently, CFSA staff--three staff and a 
supervisor--are being trained to handle the ICPC function. CFSA will 
assume this function on April 1, 2001.
    It should be noted that the ICPC function does not require licensed 
social workers. The staffing shortages discussed at the hearing are 
most prominent in the agency's foster care unit--the unit that manages 
the cases of children in foster care. To address staffing shortages, 
the Mayor and the City Council have approved a plan to provide hiring 
incentives and relocation allowances for staff recruited from outside 
the District. Current agency staff that recruit and refer new staff 
will also receive bonuses. In addition, a plan has been developed to 
utilize BSWs in certain social work functions previously performed only 
by MSWs. It is expected that the Monitor and the plaintiffs will 
approve this plan. The hiring of BSWs to serve some social work 
functions will reduce the staffing shortages.
    Question. I want to commend you for your work on what you call a 
system of ``neighborhood places''. Many experts believe that the key to 
providing more effective services to children and families lies in the 
ability to integrate these services across agency lines. Can you 
identify for me specific steps that have been taken to move in this 
direction?
    Answer. The Mayor has issued a paper on the Neighborhood Places 
concept, which is included in his 2001-2002 Policy Agenda. This 
document lays out a vision for an integrated human services system with 
a single point of entry--rather than having to access six different 
agencies to get needed services. Work to implement this concept is 
proceeding on a few fronts. We are currently working with a private 
contractor to conduct an assessment of all our social services programs 
and develop a prototype to align these services. This work will 
ultimately lead to the creation of a centralized intake system--one 
place where a resident can get information and apply for benefits and 
services in all health and social services programs. The notion is that 
these centralized intake systems will be located at Neighborhood 
Places.
    We are also developing the Safe Passages Information System which 
will combine data from all the agencies in the District that serve 
children--child welfare, juvenile justice, mental health, schools, 
health, etc. This system will provide a comprehensive picture of all 
services provided to children and youth and will support and promote 
coordinated case management across agencies. We will need certain 
federal agency exemptions, e.g., HCFA, Department of Education, etc., 
in order to link these databases at the local level. I would welcome 
the opportunity to talk with you and your staff further about this 
piece because it is so critical to tracking the health and safety of 
our children and facilitating early intervention. This information 
system will support our work as we increase the types of services 
provided in neighborhoods.
                                 ______
                                 

                 Questions Submitted to Sondra Jackson

               Questions Submitted by Senator Mike DeWine

    Question. Please provide a breakdown by age of where children in 
the DC foster care system are currently placed. (In other words, where 
are children less than one year of age, for example, placed?)
    Answer. See the attached report ``Children Currently in Foster Care 
by Age and Placement Type'' (APPA 14051-1) that shows 2,723 children 
who are currently placed as of April 18, 2001.

                CHILDREN CURRENTLY IN FOSTER CARE BY AGE AND PLACEMENT TYPE AS OF APRIL 18, 2001
----------------------------------------------------------------------------------------------------------------
                                                                   Age In Years
             Placement Type              ---------------------------------------------------------------  Total
                                            0-2      3-4      5-7      8-12    13-15    16-17     18+
----------------------------------------------------------------------------------------------------------------
Adolescent & Pre-Natal..................        1        0        0        0        0        1        0        2
Correctional Facility/Non-Paid..........        0        0        0        0        0        1        0        1
Hospital................................        0        0        0        2        0        2        2        6
Independent Living Group Home...........        0        0        0        0        0        4      100      104
Kinship Foster Care.....................        9       33       79      191       84       43       38      477
Kinship Unlicensed (Non-Paid)...........        0        3        3        3        0        0        0        9
Medically Fragile & Mental Retardation..        1        0        6       20       14        4        9       54
Non-Relative Unlicensed (Non-Paid)......        0        0        0        2        1        0        0        3
Pre-Finalized Adoptive Family...........        8        4        8        3        2        2        0       27
Proctor Foster Care.....................        0        0        0        0        1        1        3        5
Psychiatric Hospital....................        0        0        0        0        0        1        0        1
Refugee Minor Foster Family.............        0        0        0        4        2        3        5       14
Residential Treatment Facility..........        0        0        3       10       36       37       28      114
Specialized Infant Care.................       31       26       31       19        7        0        0      114
Teen Mothers Group Home.................        2        0        2        0        2        3       24       33
Therapeutic Foster Family...............        0        6       35      160       86       63       53      403
Traditional Foster Family...............       98      145      274      411      130       53       77     1188
Traditional Group Home..................        3        4        5       18       50       50       38      168
                                         -----------------------------------------------------------------------
      Total.............................      153      221      446      843      415      268      377    2,723
----------------------------------------------------------------------------------------------------------------

    Question. What are the case goals for children in the DC foster 
care system? (What percentages of these children between the age of 12 
and 18, for example have a goal of independent living?)
    Answer. See attached report ``Children Currently in Foster Care by 
Age and Permanency Goal'' (APPA 14051-2): Although the following 
permanency goals (Family Stabilization, Legal Custody, Relative 
Placement and Independence) are currently allowed to be selected in the 
system, steps are underway to close them out and map them to other 
goals that closely comply with permanency goals as described by the 
Adoption and Foster Care Data Analysis System (AFCARS) regulations. Of 
the 2,723 children identified, 495 are recorded in the system without 
permanency goals. The Agency has prepared a listing of these children 
to be distributed to management for staff to update the records. As 
previously stated, the records counted with ``No Goal'' are being 
identified so staff can update the records appropriately.

 
 
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                  Age in years
                                              --------------------------------------------------------------------------------------------------------------------------------------------------
                                                       0-2                  3-4                  5-7                  8-12                13-15                16-17                 18+
                Permanency goal               --------------------------------------------------------------------------------------------------------------------------------------------------
                                                Number               Number               Number               Number               Number               Number               Number
                                                  of    Percentage     of    Percentage     of    Percentage     of    Percentage     of    Percentage     of    Percentage     of    Percentage
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Adoption.....................................       12        .44        85       3.12       218       8.01       420      15.42       131       4.81        31       1.14         7        .26
Emancipation.................................  .......  ..........  .......  ..........  .......  ..........  .......  ..........  .......  ..........  .......  ..........        2        .07
Family Stabilization.........................        1        .04         5        .18        13        .48        17        .62        14        .51         4        .15         4        .15
Guardianship.................................  .......  ..........        1        .04         4        .15        11        .40        10        .37         1        .04         4        .15
Independence.................................  .......  ..........  .......  ..........  .......  ..........  .......  ..........        5        .18        68       2.50       276      10.14
Legal Custody................................  .......  ..........        4        .15         7        .26        16        .59         6        .22         4        .15         2        .07
Long Term Foster Care........................        1        .04   .......  ..........        4        .15        34       1.25        83       3.05       105       3.86        40       1.47
Relative Placement...........................        4        .15         4        .15        14        .51        41       1.51        26        .95         3        .11         5        .18
Reunification................................       30       1.10        60       2.20        96       3.53       181       6.65        83       3.05        21        .77        10        .37
No Goal......................................      105       3.86        62       2.28        90       3.31       123       4.52        57       2.09        31       1.14        27        .99
                                              --------------------------------------------------------------------------------------------------------------------------------------------------
      Total..................................      153       5.62       221       8.12       446      16.38       843      30,96       415      15.24       268       9.84       377      13.85
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

                         children in the system
    Question. How many children currently in Foster care have been in 
the system longer than 3 years; longer than 5 years, and longer than 8 
years?
    Answer. See attached report, ``Children Currently In Foster Care by 
Age and Number of Years Receiving Services (APPA 14051-3). The total 
number of children in the system longer than 3 years is 1,581 while the 
number of children in care longer than 5 years is 998 and the number of 
children in care longer than 8 years is 513. This information is 
detailed in the attached report and includes the number of children in 
care less than 3 years. In addition, three (3) individuals were 
excluded from this count (2,720) due to incorrect birth dates recorded 
in the system. Their calculated ages were less than the number of years 
receiving services.

      CHILDREN CURRENTLY IN FOSTER CARE BY AGE AND NUMBER OF YEARS RECEIVING SERVICES AS OF APRIL 18, 2001
----------------------------------------------------------------------------------------------------------------
                                                                   Age In Years
        Years Receiving Services         ---------------------------------------------------------------  Total
                                            0-2      3-4      5-7      8-12    13-15    16-17     18+
----------------------------------------------------------------------------------------------------------------
0-0.9 years.............................       83       40       67      108       48       27       16      389
1-1.9 years.............................       55       55       77      126       53       30       27      423
2-2.9 years.............................        9       63       72      108       38       20       17      327
3-4.9 years.............................        0       61      147      172       92       47       64      583
5-7.9 years.............................        0        0       79      203       67       48       88      485
8+ years................................        0        0        0      128      121       90      174      513
                                         -----------------------------------------------------------------------
      Total.............................      147      219      442      845      419      262      386    2,720
----------------------------------------------------------------------------------------------------------------

    Question. What is the average number of different homes a child is 
placed while in the foster care system? (Please provide a comparison by 
age: In other words, are school age children placed in more or less 
foster homes than pre-school age children)
    Answer. See attached report ``Number of Placements and Average 
Number of Placements by Age from October 01, 1999 to April 17, 2001'' 
(APPA 14051-4) that shows the number of placements and the number of 
children (by age) who had continuous placements during the report 
period. This total includes an unduplicated count of children who 
exited care during this period. The total placements for each age group 
divided by the total number of children in the specified age grouping 
was calculated to provide the average number of placements for each age 
group.

       NUMBER OF PLACEMENTS AND AVERAGE NUMBER OF PLACEMENTS BY AGE FROM OCTOBER 01,1999 TO APRIL 18, 2001
----------------------------------------------------------------------------------------------------------------
                                                                   Age In Years
     Number of Continuous Placements     ---------------------------------------------------------------  Total
                                            0-2      3-4      5-7      8-12    13-15    16-17     18+
----------------------------------------------------------------------------------------------------------------
1.......................................      176      236      442      793      319      191      238    2,395
2.......................................       30       67      146      206      109       68      127      753
3.......................................        3       20       50       65       27       21       34      220
4.......................................        2        3       11       27       17        4       17       81
5.......................................        0        1        6       18        9        1        2       37
6+......................................        1        1        3       17        4        5        1       32
                                         -----------------------------------------------------------------------
      Total.............................      212      328      658    1,126      485      290      419    3,518
                                         =======================================================================
Average Number of Placements............     1.22     1.38     1.49     1.53     1.56     1.53     1.63  .......
----------------------------------------------------------------------------------------------------------------

    Question. What is the average duration of time that children are in 
foster homes? (Please provide a comparison by age: in other words do 
younger children typically live with the same foster family for a 
longer or shorter duration of time than teenagers?) Please provide data 
on the age distribution of children currently in foster care.
    Answer. See attached report ``Length and Average Duration of Time 
in Foster Homes by Age'' (APPA 14051-5) that details the years a child 
resides in a foster home by age. Foster Homes are defined as 
Therapeutic Foster Family, Traditional Foster Family Kinship Foster 
Family (Paid), and Proctor Foster Care.

               LENGTH AND AVERAGE DURATION OF TIME IN FOSTER HOMES \1\ BY AGE AS OF APRIL 18, 2001
----------------------------------------------------------------------------------------------------------------
                                                                   Age In Years
       Length of Time in Placement       ---------------------------------------------------------------  Total
                                            0-2      3-4      5-7      8-12    13-15    16-17     18+
----------------------------------------------------------------------------------------------------------------
0-0.9 years.............................       78       77      160      320      155      106       91      987
1-1.9 years.............................       36       69       99      240       96       56       68      664
2-2.9 years.............................        3       45       81      157       64       32       44      426
3-4.9 years.............................        0       37      116      162       84       39       67      505
5-7.9 years.............................        0        0       38      132       53       44       68      335
8+ years................................        0        0        0       39       48       44       91      222
                                         -----------------------------------------------------------------------
      Total.............................      115      208      423      810      376      234      347    2,513
                                         =======================================================================
Average Duration of Time in Foster Home      0.73     1.64     2.13     2.53     3.00     3.44     4.62
 in Years...............................
----------------------------------------------------------------------------------------------------------------
\1\ Foster homes are Therapeutic Foster Family, Traditional Foster Family, Kinship Foster Care and Proctor
  Foster Care.

    Question. Once the goal of adoption is established, what is the 
average duration of time that children are in care before being placed 
in a pre-adoptive home?
    Answer. We have 931 children in foster care with the goal of 
adoption. The average number of years children are in care before being 
placed in a pre-adoptive home is 1.39 years while the average number of 
years children are in care awaiting pre-adoptive homes is 1.82 years. 
The two charts below provide details of the average number of years for 
children who are currently in pre-adoptive homes and those with the 
goal of adoption but have not yet been placed in a pre-adoptive home. 
Of the total number of children with the goal of adoption, twenty-eight 
percent (28 percent) are currently in pre-adoptive homes as detailed in 
Chart 6.1 below. The remaining seventy-two percent (72 percent) are 
awaiting placement in pre-adoptive homes as detailed in Chart 6.2 
below.

               CHART 6.1.--CHILDREN IN PRE-ADOPTIVE HOMES
                    [Average Number of Years = 1.39]
------------------------------------------------------------------------
 Time from Adoption Goal is established to    Number
     child being placed in Pre-Adoptive         of       Percentage of
                 Placement                   Children       Children
------------------------------------------------------------------------
0-3 months.................................        46              17.49
3-6 months.................................        40              15.21
6-9 months.................................        30              11.41
9-12 months................................        25               9.51
1-2 years..................................        55              20.91
2-3 years..................................        34              12.93
3-4 years..................................        17               6.46
More than 4 years..........................        16               6.08
                                            ----------------------------
      Total................................       263             100.00
------------------------------------------------------------------------


            CHART 6.2.--CHILDREN AWAITING PRE-ADOPTIVE HOMES
                    [Average Number of Years = 1.82]
------------------------------------------------------------------------
 Time from Adoption Goal is established to    Number
     child being placed in Pre-Adoptive         of       Percentage of
                 Placement                   Children       Children
------------------------------------------------------------------------
0-3 months.................................        83              12.43
3-6 months.................................        75              11.23
6-9 months.................................        73              10.93
9-12 months................................        59               8.83
1-2 years..................................       158              23.65
2-3 years..................................        94              14.07
3-4 years..................................        47               7.04
More than 4 years..........................        79              11.83
                                            ----------------------------
      Total................................       668             100.00
------------------------------------------------------------------------

    Question. Once the goal of adoption is established, what is the 
average duration of time that children are in the foster care system 
before the adoption is finalized?
    Answer. There were 343 finalized adoptions during fiscal year 2000. 
The Average Length of Time Between Establishing Goal of Adoption and 
Adoption Finalization is 1.7 years and indicated in the chart below. 
(Based on Children Whose Adoptions Were Finalized in Fiscal Year 2000)

                     [Average Number of Years = 1.7]
------------------------------------------------------------------------
 Time from Adoption Goal is established to    Number
     child being placed in Pre-Adoptive         of       Percentage of
                 Placement                   Children       Children
------------------------------------------------------------------------
0-3 months.................................        87              25
3-6 months.................................        12               3
6-9 months.................................        19               6
9-12 months................................        23               7
1-2 years..................................        75              22
2-3 years..................................        55              16
3-4 years..................................        34              10
More than 4 years..........................        38              11
                                            ----------------------------
      Total................................       343             100
------------------------------------------------------------------------

    Question. What percentages of children who are identified as having 
a goal of adoption have had parents' rights terminated (TPR)?
    Answer. The percentage of children with a goal of adoption who have 
had parents' rights terminated is seventy-three percent (73 percent).

Chart 8.1

Number of Children With Goal of Adoption and Both Parents' Rights 
    Terminated....................................................   681
Total Number of Children With Goal of Adoption....................   932

    Question. How many foster children are currently placed in homes 
without properly licensed foster parents?
    Answer. Children Currently Placed in Foster Homes Without Valid 
Permits or Licenses. The Agency is currently hiring additional staff to 
process Foster Home Licensing after Licensing Authority becomes the 
full responsibility of the CFSA.

Chart 9.1

Number Of Children................................................   895
Number Of Facilities..............................................   529
                       caseworkers/social workers
    Question. What is the average length of time most caseworkers/
social workers stay with CFSA?
    Answer. Of the 248 caseworkers currently employed, the longest 
service period is thirty four (34) years, and the shortest is that of 
the most recent appointee whose entrance on duty date was April 2, 
2001.
    Question. What is the range most caseworkers/social workers stay 
with CFSA?
    Answer. Information was compiled for 100 employees who separated 
during the period of July 22, 1999 through a projected resignation 
effective April 20, 2001. The range for the length of stay was three 
(3) months to nine (9) years.
    Question. How many years of prior experience as a caseworker or 
social worker did most caseworkers/social workers have when they 
started working at CFSA?
    Answer. Using the social worker selection criteria, it may be 
possible to extrapolate the information requested from the agency's 
current social work staff. For example, CFSA hires social workers as 
follows:
    DS-9 grade level.--Recent graduates of an accredited school of 
social work who are licensed graduate social workers (LGSW) and either 
have no professional experience or less than one year of professional 
experience.
    DS-11 grade level.--Social Workers with a minimum of one year of 
professional experience at the LGSW level.
    DS-12 grade level.--Social Workers who are Licensed Independent 
Clinical Social Workers (LICSW). To obtain the LICSW, a social worker 
must have approximately three years of professional work experience.
    Based on the agency's selection criteria and its present workforce 
of forty-two (42) social workers at the grade 9 level, one hundred 
forty-five (145) at grade 11 and sixty-one (61) at grade twelve (12), 
the data supports a finding that most of the social workers hired at 
CFSA have at least one year of prior professional social work 
experience in a case carrying capacity.
    Question. What is the retention rate for caseworkers/social workers 
at CFSA?
    Answer. During fiscal year 2000, CFSA experienced an attrition rate 
of twenty-seven and one-half percent (27.5 percent).
    Question. Please provide a breakdown of the reasons why social 
workers/caseworkers left CFSA in the past five years. (For example, 
what percentage of social workers cited poor supervision?)
    Answer. The primary reason cited for leaving CFSA was job 
opportunity/career change. For a detailed breakdown, please see the 
attached Exit Interview Report and the accompanying Social Work Staff 
Exit Report Key.
                   social work staff exit report key
Reason for Leaving Codes
    I--No Reason Provided
    II--Terminated During Probationary Period
    III--Job Opportunity/Career Change
    IV--Transfer to Another DC Agency (DCPS, etc.)
    V--High Caseload
    VI--Poor Supervision/Management Issues
    VII--Stressed/Overwhelmed
    VIII--Court/Attorneys/Judges
    IX--Lack of Support and/or Appreciation
    X--No Involvement in Management Decisions
    XI--Family/Personal Reasons/Retiring

                     EXIT INTERVIEW REPORT SYNOPSIS
------------------------------------------------------------------------
                                                                Percent
------------------------------------------------------------------------
Total Number of employees included in this               100         100
 report.........................................
Number of exit interviews completed.............          76          76
Total Number of reasons for leaving submitted...         120     ( \1\ )
Number of employees citing Job Opportunity/               34          34
 Career Change..................................
Number of employees supplying no reason.........          18          18
Number of employees citing Poor Supervision/              15          15
 Management Issues..............................
Number of employees citing Transfer to another            11          11
 DC Agency......................................
Number of employees citing High Caseload........           9           9
Number of employees citing Stress/Overwhelmed...           7           7
Number of employees citing Family/Personal                10          10
 Reasons/Retiring...............................
Number of employees citing Lack of Support and/            5           5
 or Appreciation................................
Number of employees citing No involvement in               4           4
 Management Decisions...........................
Number of employees terminated during probation.           5           5
Number of employees citing Court/Judges/                   2           2
 Attorneys......................................
------------------------------------------------------------------------

    Many workers who left CFSA employment submitted more than one 
reason for leaving. As a result, CFSA received a total of 120 reasons 
from the one hundred people who left between July 1999 and April 2001. 
These 120 reasons have been reduced to eleven main reasons, which are 
identified in the ``Reasons for Leaving Codes'' chart above.
    The above percentages reflect the percent of employees from the 
total number who left (100), who identified one of the eleven reasons 
from the list in the ``Reason for Leaving Code'' chart identified 
above. For example, the number of employees citing court/judges/
attorneys is two (2). These two employees are obviously reflected in 
the two percent appearing at the end of the ``Number of employees 
citing Court/Judges/Attorneys'' column. These employees may have also 
cited high caseload as another reason for leaving. That being the case, 
both employee would also be reflected in the ten percent at the end of 
the ``Number of employees citing High Caseload'' column on the ``Exit 
Interview Report Synopsis'' chart.
                      reporting and investigation
    Question. How many cases of child abuse and neglect were 
investigated per year in the last calendar year (2000)?
    Answer. The number of reported abuse and neglect allegations 
investigated are listed below by calendar years 1999 and 2000 is listed 
in Charts 10.1 and 10.2.

Chart 10.1.--Number of Referrals for Calendar Year 1999

Accepted for Investigation........................................ 4,934
Not Accepted for Investigation (Screened Out).....................    85
                                                                  ______
      Total....................................................... 5,019

Chart 10.2.--Number of Referrals for Calendar Year 2000

Accepted for Investigation........................................ 4,156
Not Accepted for Investigation (Screened Out).....................   203
                                                                  ______
      Total....................................................... 4,359

    Question. In 1999 and 2000, how many reported cases of abuse or 
neglect resulted in the removal of the child/children?
    Answer. Number of Reported Abuse/Neglect Cases That Were Accepted 
for Investigation and Resulted in the Removal of the Child(ren) during 
Calendar Years 1999 and 2000 are reflected in Charts 11.1 and 11.2

Chart 11.1.--Calendar Year 1999 Investigations Resulting In Removals

Investigations Resulting in the Removal of At Least One Child.....   117
Investigations That Did Not Result in The Removal of Children from 
    Their Home.................................................... 4,902
                                                                  ______
      Total Referrals............................................. 5,019

Chart 11.2.--Calendar Year 2000 Investigations Resulting In Removals

Investigations Resulting in the Removal of At Least One Child.....   544
Investigations That Did Not Result in The Removal of Children from 
    Their Home.................................................... 3,612
                                                                  ______
      Total Referrals............................................. 4,156

    Question. In 1999 and 2000, what was the average length of time 
between when an initial report was filed and when the actual 
investigation began?
    Answer. See report ``Average Length of Time Between Intake Date and 
Investigation Initiative For Referrals Created Between January 1, 2000 
and December 31, 2000'' (APPA 14501.12). (Note: The CFSA child welfare 
information system was implemented on Oct. 1, 1999, therefore only 2000 
data has been provided)

Average Length of Time Between Intake Date and Investigation Initiation 
For Referrals Created Between January 1, 2000 and December 31, 2000

                                                               Number of
        Length of Time to Initiate                             Referrals

1 Day.............................................................   516
2 Days............................................................   155
3 Days............................................................    64
More than 3 Days..................................................   709
Not Initiated \1\................................................. 2,712
                                                                  ______
      Total Referrals............................................. 4,156

\1\ Not Initiated means not documented properly in the electronic 
record.

Average time taken (for initiated referrals)--19.71 days.
---------------------------------------------------------------------------
    Question. In 1999 and 2000, on average how many days did it take to 
investigate a case?
    Answer. The Average Number of Days to Investigate a Case is 57.2 
days as indicated in Chart 13.1. (Of Investigations Completed in 
Calendar Year 2000)

                    [Average Number of Days = 57.27]

        Num. Of Days to Num. Of Complete Investigation Investigations
0-30 days......................................................... 1,431
31-45 days........................................................   484
46-60 days........................................................   296
61 + days......................................................... 1,004
                                                                  ______
      Total....................................................... 3,215

Note: Prior to the implementation of the Agency's information system, 
FACES, this information was not tracked and is unavailable for calendar 
year 1999. Implementation of the FACES system was effective October 1, 
1999.

    Question. What are the ``typical'' reasons for removal of a child/
children following an investigation? (Example: Parental drug use, 
domestic violence, incest, etc.)
    Answer. The complete values for ``Reasons for Removal'' of a Child/
Children following an Investigation are:

1. Abandonment
2. Alcohol Abuse (Child)
3. Alcohol Abuse (Parent)
4. Caretaker Ill/Unable to Cope
5. Child's Behavior Problem
6. Child's Disability
7. Death of Parent(s)
8. Drug Abuse (Child)
9. Drug Abuse (Parent)
10. Inadequate Housing
11. Incarceration of Parent(s)
12. Non-Committed Child of Teen
13. Physical Abuse (Alleged/Reported)
14. Relinquishment
15. Sexual Abuse
16. Voluntary

    Question. Please provide a summary of how the investigative process 
works. Typically, what does CFSA do when a child abuse or neglect 
allegation is made? What is CFSA's role in the investigation? Will this 
change as a result of the consent order?
    Answer. All reports are made to the single reporting hotline (202-
671-SAFE). Subsequent to a child abuse or neglect report, the Hotline 
Supervisor assigns the referral to an Intake Unit, based on Wards in 
the District of Columbia. If the referral contains allegations of 
physical or sexual abuse, a worksheet is forwarded to the Metropolitan 
Police Department (MPD)--Youth & Preventive Services Division (YSPD). 
The hotline worker conducts a search to determine if the family has 
been previously known or is currently active with CFSA. This 
information is then relayed to the investigating unit. The Intake 
Supervisor then assigns the investigation to a licensed social worker 
in the unit to conduct the assessment. Prior to the initial assessment, 
closed case records and FACES (CFSA management information system) are 
reviewed if the case has ever been known to the agency.
    If the report contains allegations of physical or sexual abuse, the 
social worker will conduct a joint investigation with MPD-YSPD. An 
initial assessment is attempted within 24 hours or immediately if the 
referral is considered an emergency. Upon responding, the social worker 
conducts a safety and risk assessment (food, clothing, shelter, 
education, medical care, supervision, and parenting skills) to 
determine if the child can remain in the home or if removal is 
warranted. Reasonable efforts are made to prevent removal by providing 
crisis intervention, referrals, and emergency services. If the child 
cannot safely remain in the home, the social worker conducts a removal 
in conjunction with MPD. The child is medically screened through DC 
Kids (neglect) or at the Children's National Medical Center (physical 
or sexual abuse) and a foster care placement recommendation is made. 
The Placement Unit then searches for the most appropriate facility or 
home according to the child's needs. The removal of a child requires 
legal action within 24 hours, therefore, a Police Hold is requested and 
the case is presented before the DC Superior Court.
    If the child can remain safely in the home, but the allegations are 
substantiated, the social worker opens the case and transfers it for 
further assessment, supportive services, and ongoing monitoring. If the 
allegations are unsubstantiated, the social worker closes the 
investigation.
    The Consent Order is expected to create certain changes regarding 
the investigation process and the role of CFSA: the responsibility and 
authority for child abuse cases will be transferred form the DC 
Superior Court Social Services to CFSA and CFSA Intake staff will 
acquire direct legal services. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 

            Questions Submitted by Senator Mary L. Landrieu

    Question. Your written testimony stated that CFSA has achieved a 33 
percent increase in the availability of community based services to 
children, raising the number of children served from 987 to 1,316. What 
percentage of the total number of families ``eligible'' or ``in need'' 
of such services does that number represent?
    Answer. As a point of clarification, there was a 33 percent 
increase in the number of families served by community-based partners 
(from 987 to 1,316). The actual number of children served during the 
same period increased from 2,220 to 3,677. 100 percent of the total 
number of children and families who came to the attention of the Child 
and Family Services Agency as eligible or in need of community-based 
services were referred and received those services.
    Question. In regard to your 97 percent success rate in safely 
protecting children within their families, how exactly is that number 
determined? What does it represent?
    Answer. Of the total number of children safely protected by the 
Agency within their own homes (7,641), 206 of these children had to be 
removed from their homes and committed to the Agency's custody 
following case intervention for a period of time in which the social 
worker attempted to prevent the out-of-home placement.
    Question. As to the length of time in care, how was this reduction 
in time achieved? Also, do you have any information as to the length of 
time children are in care before adoption is identified as the 
permanency plan? In other words, the total time in care?
    Answer. This reduction was achieved as the Child and Family 
Services Agency has continued to make a concerted effort to increase 
the number of internal permanency staffs to identify appropriate 
permanency goals for children in care. In addition, the Agency has 
increased the number of diligent search investigators who search for 
missing/absent parents earlier in the process so that a permanency 
hearing does not need to be delayed due to the lack of information 
regarding the child's birth parent(s). The Agency is also working very 
closely with the Adoptions Judge of the D.C. Superior Court to ensure 
adoptions are finalized as soon as practicable. Currently, the average 
length of time in care to the establishment of the permanency goal of 
adoption is 2.44 years (28.77 months). However, as I stated at the 
March 15th hearing, termination of parental rights does not typically 
occur in the District until an adoptive home has been identified.
    Question. Can you help to expose some of the reasons why the 
district is not able to obtain the full level of Federal reimbursement 
to which they are entitled?
    Answer. The Administration for Children and Families (ACF) of the 
Department of Health and Human Services published 70 percent as the 
District's maintenance payment rate for the 1st quarter of fiscal year 
1998, and ACF Office of General Counsel questioned the interpretation 
resulting in a revocation of the initial interpretation. ACF then 
determined that the District is not entitled to 70 percent Title IV-E 
reimbursement.
    The Agency does not fee it is recovering the federal revenues to 
which it is entitled. We believe that Title IV-E should be reimbursed 
at the same rate as Medicaid, as it is in all other jurisdictions 
except the District of Columbia and Alaska.
    Question. You have increased the number of children in foster care 
homes to 507. Can you provide me with a breakdown in the types of 
placements for the remaining children. For example, what percentage are 
in group homes, congregate care, therapeutic facilities etc.
    Answer. The 507 figure actually represents an increase in the 
number of foster homes not children. Provided below is a breakdown of 
the number of foster care children by type of placement as of February 
2001.
                                                                 Percent
Traditional Foster Care...........................................   -46
Therapeutic Foster Care...........................................   -14
Kinship Care Foster Care.........................................\1\ -17
Group Homes.......................................................    -9
Residential Treatment Facilities..................................    -5
Special Infant Program............................................    -4
Other.............................................................    -5

\1\ The remaining kinship care givers are not receiving the foster care 
board rate.

    Question. Are the 2,545 children living with kin counted in your 
numbers of children in out of home placement?
    Answer. Yes, however of the 2,545 children placed with kinship care 
givers in fiscal year 2000 approximately 500 were in paid foster care 
placement status. In fiscal year 2001, approximately 1,907 children are 
placed with kinship care givers (both in paid and non-paid status).
    Question. The hearing highlighted the fact that the District is not 
in compliance with ASFA in some areas. There are two requirements 
regarding time that I am aware of (1) within 12 months a hearing must 
be held--how long is that time frame currently in the District? (2) 
that any child who is in care for 15 of the past 22 months must be the 
subject of a hearing to terminate parental rights--again, what is the 
time frame currently in the district?
    Answer. The Family Division of the Superior Court of the District 
of Columbia is the entity statutorily responsible for holding a 
permanency hearing after a child has been in care for 12 months. On 
April 28, 1998, Chief Judge Eugene N. Hamilton issued Administrative 
Order No. 98-13 which required all judges to review their neglect and 
abuse cases and to conduct permanency hearings for all cases where 
eighteen months had passed since the entry of the order of abuse or 
neglect.
    The Council for Court Excellence recently released a report 
describing the status of the Court's compliance with the new time 
frames under the Adoptions and Safe Families Act. A copy of that report 
is attached.
                                 ______
                                 

                  Questions Submitted to Eric Thompson

               Questions Submitted by Senator Mike DeWine

    Question. What is your perception of the District of Columbia's 
child welfare system? Are the problems plaguing the DC child welfare 
system similar to those across the country?
    Answer. The problems in the District's child welfare system are 
similar to those in other troubled systems around the country but these 
problems were exacerbated for many years by the problems within 
District government itself and then by the government's resistance to 
working with the receivership that had been imposed by the federal 
court. We hope those more general problems are abating, with recent 
improvements within the government and with the transition plan to end 
the receivership. And although there are still significant problems in 
the District's child welfare system, the receiver has succeeded in 
making many structural changes that should lay the groundwork for 
better services. Nevertheless, many reform initiatives have up to this 
point been stymied by system-wide barriers both within and without 
CFSA.
    Within CFSA, there is a critical dearth of competent, experienced 
supervisory staff, so that many caseworkers are quitting as fast as 
they can be hired. Under the best of circumstances, child welfare is a 
demanding field. When there is a critical and chronic shortage of 
casework staff, as there has been now for years at CFSA, caseworkers 
covering inordinately high caseloads are bound to only perform 
emergency tasks, if that. This jeopardizes service delivery and child 
safety. Current initiatives to recruit and retain competent staff must 
be continued and fully funded, and non-performing supervisory staff 
should be aggressively replaced.
    Outside CFSA, there has been a lack of cooperation and coordination 
between CFSA and the many other District entities responsible for child 
welfare, including the Office of Corporation Counsel, the Metropolitan 
Police Department, and the Superior Court of the District of Columbia. 
In many instances, these agencies have even been openly antagonistic to 
CFSA and its staff to the detriment of the LaShawn plaintiff class of 
children. As part of the recent LaShawn consent decree, the District 
has now agreed to the full staffing of Corporation Counsel for CFSA 
representation, which will be a first. Full funding for these 
additional positions will be necessary. The District has also agreed 
that abuse and neglect investigations and case management must finally 
be consolidated in CFSA instead of being artificially distributed 
between CFSA, the Police Department and the Superior Court. Reforms at 
the Superior Court will also be needed to assure the continuity and 
competence of judicial oversight over contested child welfare cases. 
Finally, the District has agreed that other child welfare functions, 
such as foster home licensing and caseworker hiring, be transferred to 
CFSA from other understaffed and underperforming District agencies. 
With full funding and staffing of these functions within CFSA, the 
Agency will no longer be at the mercy of unresponsive District 
bureaucracies for these critical child welfare functions.
    Question. What role has the Adoption and Safe Families Act (ASFA) 
played in making systemic changes in child welfare and foster care 
systems throughout America? What are the positive and/or negative 
effects of this new law? Would you recommend any changes to the law?
    Answer. ASFA has forced child welfare agencies, the courts, and 
legal advocates to pay far more attention to children's best interests 
and safety in planning for children. In addition, by requiring that the 
states take action to free children for adoption after they have been 
in foster care custody for 15 out of the last 22 months, the 
legislation also puts the states on notice that children should not 
remain in foster care indefinitely, and provides advocates with an 
important new tool for combating foster care drift. Unfortunately, many 
of the states are out of compliance with the requirements of the 
statute.
    Children's Rights is doing a study on the progress various 
jurisdictions have made in improving permanency outcomes for children 
since the enactment and implementation of the Adoption and Safe 
Families Act. Specifically with regard to adoption, we have found mixed 
results so far. Some jurisdictions, such as the District of Columbia, 
have significantly increased the numbers of children for whom adoptions 
are finalized and have sustained the increase on a yearly basis (in DC, 
increasing from 47 finalized adoptions in 1992 to 279 in 2000). Other 
jurisdictions (such as Kansas and Connecticut), however, reported an 
initial increase in the number of finalized adoptions and a subsequent 
slowing in these rates. This trend suggests that the initial increases 
reflected success in finalizing the adoptions of children who were 
already placed with adoptive families and where legal steps were all 
that remained to finalize the adoptions.
    It may be that the current population of children in foster care 
waiting to be adopted is increasingly comprised of children with 
significant special needs and/or who are members of sibling groups. If 
so, these children are likely to need specialized and focused efforts 
to ensure that adoptive families are identified for them. Absent these 
efforts, compliance with ASFA provisions to file petitions to terminate 
parental rights and free children for adoption will lead to a new group 
of children for whom permanency has not been achieved--children who may 
become ``legal orphans.'' Efforts to free children for adoption must be 
accompanied by aggressive efforts to recruit and support permanent new 
families for them. In addition, another concern about the ASFA 
provision that requires the filing of petitions to free children for 
adoption is whether the states will direct all of their attention to 
that aspect of permanence, and neglect the other important aspect of 
permanence, that of reuniting children with their birth families 
whenever it is appropriate and safe to do so. So far, there is very 
little information about exactly how this statute is being implemented.
    The greatest strength of ASFA is that it requires timely state 
action to determine and implement a permanent goal of adoption for 
children who remain in foster care for 15 out of the last 22 months, if 
an exception does not apply. 42 U.S.C. Sec. 675(5)(E). ASFA's emphasis 
on termination of parental rights provides support for the first 
critical step toward ensuring permanency for children who will not be 
reunited with their biological parents. ASFA also provides guidance to 
states in maximizing their use of resources to recruit adoptive parents 
for waiting children in foster care.
    One weakness of the current statute is that there is no explicit 
requirement that the election of an exception justifying the non-filing 
of a termination of parental rights (TPR) petition be contemporaneously 
made and documented. States can therefore defeat the provisions of 42 
U.S.C. Sec. 675(5)(E) by failing to pursue timely permanency and then 
seeking to justify their non-action years later with an exception that 
may only apply by then because of their previous non-action. For 
example, if a state does not file a TPR petition for a child in foster 
care for 15 out of the last 22 months who should be adopted at that 
time, the state may be able to justify years later that it is no longer 
in the best interests of the child to be adopted because they have been 
allowed to bond in an non-adoptive foster home for years. Unless the 
states are required to elect and document that an exception applies at 
the 15 month mark when a TPR petition is not filed as otherwise 
required, then the exceptions can swallow the rule by allowing the 
states to seek to justify their non-action years hence to the detriment 
of the children.
    Also, ASFA did not provide additional funding to states to expand 
their recruitment efforts for adoptive homes for the growing number of 
children who are being freed for adoption. Nor did ASFA address the 
post-adoption needs of families who adopt children with physical 
disabilities, mental health problems and developmental difficulties (a 
significant percentage of children in foster care). Research and 
practical experience have demonstrated repeatedly that successful 
adoptions of children in foster care depend to a significant degree on 
the availability of post-adoption services and supports for children 
with special needs and their adoptive families. Absent such support, 
the risk of adoptions disrupting and children returning to foster care 
is significant. To further ASFA's goal of ensuring permanency for 
children through adoption, emphasis must be placed on the development 
of and support for post-adoption services for children and their 
families.
                                 ______
                                 

            Questions Submitted by Senator Mary L. Landrieu

    Question. Both yourself and Ms. Jackson identified the lack of 
legal representation as a major barrier to improvement. While I 
understand that it is the intent to hire additional attorneys and have 
them be located within the agency itself, I am wondering if any thought 
has been given to ensuring that: (1) these attorneys are appropriately 
trained to handle these cases and (2) It is clearly established what 
their role as attorneys for the agency will in fact be?
    Answer. This question raises important questions because, as the 
Senator recognizes, simply having an adequate number of attorneys does 
not ensure adequate legal representation, and adequate legal 
representation is absolutely critical to ensuring protection for the 
District's children. In the past, the Office of Corporation Counsel in 
the District has been extremely resistant to either the question of 
additional numbers of attorneys, or to the role they play with regard 
to representing the Child and Family Services Agency. As a result of 
the negotiations concerning ending the receivership and returning the 
agency to the District's control, the District has agreed to 
appropriate staffing ``to assist CFSA staff to effectively present 
their cases in court,'' and the provisions concerning adequate equal 
representation will be carefully monitored, given how important they 
are and how much of a problem this has been. However, plaintiffs are 
not yet satisfied that the role of these lawyers, and their 
supervision, has adequately been addressed by the District. Therefore, 
our negotiations with the District on the details surrounding this very 
important issue continue, and plaintiffs will oppose an termination of 
the receivership until the details on legal representation are 
satisfactorily resolved.
    Question. As a lawyer, I am sure that you recognize that even the 
most perfect of social service systems can ultimately have their 
permanency and safety goals impeded by a overburdened and unspecialized 
court system? Can you expound for us the role of the courts in this 
transformation?
    Answer. We agree that the courts play a very important role in 
ensuring the protection of children. In the past, we do not think that 
the courts, CFSA and District government have worked together as 
collaboratively as necessary. The separation of responsibility for 
abuse and neglect has created a serious problem and the recently passed 
legislation to end that separation is a critical step toward improving 
services for children. We also believe that there are important steps 
toward reforming the courts themselves that should be taken. These 
steps include: better, more efficient scheduling of cases, so that case 
workers do not have to spend hours waiting in court, and not serving 
children, for brief court appearances; a specialized bench, as is the 
case in many jurisdictions, so that the judges will have the 
opportunity for specialized training, and have a better and more 
sophisticated understanding of the issues that are presented before 
them; and far better cooperation and liaison between the court and the 
administration of CFSA to address and resolve problems cooperatively 
that interfere with each system doing the best possible job for 
children. The court also needs greater expanded technology so that it 
can ensure accountability, track permanency for children and keep far 
better track of the cases.
                                 ______
                                 

                 Questions Submitted to Judith Meltzer

            Questions Submitted by Senator Mary L. Landrieu

    Question. You have provided us with some startling numbers which 
demonstrate the depth of workforce issues facing CFSA. I am encouraged 
by your testimony that a plan is being developed to increase 
recruitment and retention of social workers. Are there any specific 
areas of the that plan you would like to highlight?
    Answer. As indicated in my written testimony, addressing the 
workforce issues is one of the most important challenges that the child 
welfare agency (CFSA) faces as it seeks to comply with the LaShawn 
Remedial Order requirements to operate a high quality child welfare 
system. Until fairly recently, the workforce problems were in part 
budgetary, in that (1) there were not enough budgeted positions to 
bring caseloads to required levels, and (2) social worker salaries were 
non-competitive with surrounding jurisdictions. This is no longer the 
problem. The biggest barriers have been the single reliance on MSW 
social workers for all of the frontline social work functions and the 
difficulties that the agency has had in retaining social workers.
    On the MSW issue, the LaShawn Remedial Order includes a requirement 
that all social workers be licensed MSWs unless the District develop 
and the plaintiffs approve an alternative plan. This requirement was 
put in the decree at the recommendation of District government in 1991 
because of a long-standing view that District licensing law requires 
anyone practicing social work to have an MSW degree. Plaintiffs and the 
Court Monitors' review of the District statute suggests that either a 
licensed BSW or MSW can provide social work services. However, for many 
years, the District's Social Work Licensing Board and the professional 
association (the Metropolitan Chapter of the National Association of 
Social Workers) have vigorously opposed any efforts by the Receiver to 
implement a plan to use licensed BSW staff. As Monitor, we have always 
indicated that we believe that such a plan needs to be developed and 
would be approved by plaintiffs. Given the current hiring crisis, I 
have strongly recommended that the agency move forward with a plan to 
immediately hire BSW as well as MSW staff. That plan is currently in 
the final stages of development by CFSA and assuming that it clearly 
identifies the functions that BSW staff will perform; how they will be 
supervised, and how they will be trained, both the Monitor and 
plaintiffs should approve it.
    Assuming the agency goes forward to aggressively recruit both MSW 
and BSW staff this spring, they should be able to hire a sufficient 
number of workers to fill all current vacancies. The Mayor and the 
District Council have finally approved a plan developed by the Receiver 
last year to allow the agency to provide hiring incentives and 
relocation allowances for staff recruited from other states. Bonuses to 
current staff who recruit and refer newly hired staff will also be 
provided. These incentives will help with the recruitment. In addition, 
I am encouraging the agency to over-hire, that is to commit to hire new 
workers at a level at least 10 percent above current vacancies, so that 
there is always a pool of available trained workers to fill new 
vacancies.
    The biggest issue facing CFSA is social worker retention. As 
indicated in my testimony, in the year 2000, the agency hired 132 new 
social workers and lost 128 workers, leaving a net gain of only 4 
workers. Resolving retention issues will involve a creative leader, who 
can increase the morale of workers at the agency. Also imperative are 
efforts to improve front-line supervision; to provide workers access 
needed resources for families and children, and to provide workers with 
continuous opportunities for job satisfaction and professional 
development. In addition, current efforts to improve the adversarial 
relationship with the Superior Court and the lack of effective 
representation for social workers by Office of Corporation Counsel 
attorneys should positively impact retention (assuming these problems 
are successfully resolved).
    Question. You mentioned that you are also faced with serious 
challenges in identifying prospective foster and adoptive placements? 
What are some of the specific barriers to securing these placements?
    Answer. As Monitor, I have continually expressed concern about the 
need to identify, recruit and support foster and adoptive parents. As 
is true with the staffing problems, the shortage of appropriate 
placement is as much a retention issue as it is a recruitment problem.
    The District faces difficult and special challenges in recruiting 
families because it is such a small jurisdiction in a large 
metropolitan area. Although the District is committed to intensifying 
its efforts to identify homes in the District of Columbia, the majority 
of children are currently placed in Maryland and Virginia. Recruiting 
and approving homes in the surrounding jurisdictions involves the 
District in the Interstate Compact for the Placement of Children (ICPC) 
process which makes an already difficult task more complex. As Monitor, 
we have advocated that the District enter into a ``Border State 
Agreement'' with Maryland and Virginia. This will allow the District to 
study, and approve homes within a 50-mile radius of the District 
without going through the ICPC process. Several states with cross-
jurisdictional placement issues have ``Border Agreements,'' and it is 
clearly a sensible solution for the District of Columbia. However, 
until such time as the District is able to persuade Maryland and 
Virginia to negotiate such an agreement, the District must make sure 
that it devotes the necessarily resources to comply with ICPC 
requirements in a timely and professional way. In the past, this has 
not been done and this has made cooperation with the surrounding 
jurisdictions more difficult.
    One promising initiative is the work of the My Community, My 
Children project which is funded by the Annie E. Casey Foundation and 
which is supporting neighborhood-based foster care recruitment and 
support in the District. This work is being carried out by CFSA in 
collaboration with the Healthy Families/Thriving Communities 
Collaboratives. It is designed to recruit families from District 
neighborhoods and to put in place a range of community-based supports 
for foster and adoptive families so that these placements are 
successful.
    Experience across the country has shown that the ability to 
effectively support foster and adoptive parents through training, 
support groups, respite and day care, among other things, is essential. 
In addition, foster parents must have ready access to social workers 
when problems arise and must be respected for their work; foster 
parents must also be included as partners in appropriate case planning 
for the children in their care. Effectuating these changes will also 
help with recruitment and retention.
    Question. In your testimony you stated that the ASFA is not being 
complied with in the District. There are two requirements regarding 
time that I am aware of (1) within 12 months a hearing must be held--
how long is that time frame currently in the District? (2) that any 
child who is in care for 15 of the past 22 months must be the subject 
of a hearing to terminate parental rights--again, what is the time 
frame currently in the district?
    Answer. I am unable to provide compete information to the Committee 
on the District's compliance with ASFA time lines. The agency's data 
system does not yet produce this information on a regular basis. 
However, as Court-appointed Monitor, CSSP last conducted a case record 
review of statistically valid samples of foster care and adoption cases 
in 1998. At that time, over half of the children in foster care with a 
goal of return home had had that permanency goal for over twelve 
months. In addition, the average length of time in foster care for 
children awaiting adoption was five years and only forty percent of the 
children awaiting adoption were legally free, either through 
relinquishment or termination of parental rights. More recent data 
compiled by the Council for Court Excellence suggests ongoing problems 
in meeting Court time frames for case fact-finding and disposition 
which will ultimately inhibit the system's ability to meet ASFA time 
lines.
    As part of the October 23, 2000 Consent Order governing transition 
of the LaShawn Receivership to District government, CSSP will conduct 
another case record review at the point of transition and again 6 
months later in order to determine if there is sufficient progress to 
warrant exit from a probationary status. There are several ASFA-related 
indicators and time lines that we will be assessing as part of those 
reviews.

    [Clerk's Note.--The subcommittee received the following 
letter from Carolyn N. Graham in response to questions posed in 
a letter of April 4, 2001, which will be inserted in the record 
at this point.]
                                                       May 9, 2001.
The Honorable Mike DeWine,
United States Senator, 140 Russell Senate Office Building, Washington, 
        DC.
    Dear Senator DeWine: Thank you for the opportunity to testify 
before the Subcommittee on the District of Columbia on March 15, 2001. 
Below I have attempted to respond to the questions posed in your letter 
of April 4, 2001.
    As you may know, on April 30, 2001, Mayor Williams announced the 
selection of Dr. Olivia Golden as Director of the Child and Family 
Services Agency (CFSA). We are extremely pleased that Dr. Golden has 
accepted the position as she brings with her a wealth of experience in 
child welfare and human services more broadly. Dr. Golden will begin 
working at CFSA for transition purposes on May 14, 2001. She will 
assume full operating responsibility for the agency upon termination of 
the receivership which is expected to occur before the end of June 
2001.
    In your letter, you inquired about what accountability systems are 
being put in place to ensure proper implementation of child welfare 
functions and reforms. The Mayor and I will work closely with Dr. 
Golden to establish a high quality child welfare system. Specifically, 
there are a number of supports and checks and balances that are or will 
be put in place by the Mayor's Office including the following:
    Monthly Meetings.--I will meet with Dr. Golden once a month for the 
following purposes: (1) to receive a status report on agency progress; 
(2) to identify and troubleshoot any issues that present themselves; 
(3) to review Dr. Golden's achievement of goals identified in her 
performance contract (discussed below); (4) to review progress against 
the November 30, 2001 Memorandum of Understanding between the District 
and the Superior Court which lays out the process for transferring the 
child abuse responsibilities of the Court's Social Services Division to 
CFSA; and (5) to review monthly data on case practice, e.g., 
investigations completed within 30 days, cases with current case plans, 
length of time children in foster care, etc.
    Among other data, I will review with Dr. Golden CFSA's monthly 
reports on the multiple performance measures included in Appendix A of 
the October 23, 2000 Consent Order in the LaShawn Case. Our review will 
be focused on measuring and tracking CFSA's compliance with the orders 
in LaShawn and with the Adoption and Safe Families Act (ASFA). I will 
work closely with Dr. Golden and provide the necessary supports to 
improve the reliability of data contained in FACES, CFSA's automated 
information system. I will also review data produced by the Superior 
Court on compliance with ASFA.
    In addition to data on case practice, I will also request and 
review monthly data on social worker and foster parent training, social 
worker vacancies and social worker caseloads. I plan to work very 
closely with Dr. Golden to develop and implement effective social 
worker recruitment and retention strategies.
    Review of LaShawn Monitor reports.--I will review with Dr. Golden 
all reports issued by the LaShawn Monitor, including the Monitor's 
reports evaluating the agency's compliance with the performance 
standards set in Appendix A of the October 23, 2000 consent order.
    Integration of CFSA with other DC Health and Human Service 
Agencies.--Dr. Golden will attend the monthly meetings convened by my 
office of the Children, Youth and Families Cluster, which includes the 
directors of the Department of Health, Department of Mental Health, 
Department of Parks and Recreation, DC Public Libraries and the Office 
on Aging. The CFSA Receiver already attends these meetings. These 
meetings provide a forum to ensure that CFSA is fully integrated with 
and utilizing the services and resources of our other health and human 
services agencies.
    CFSA Director Performance Contract.--Dr. Golden will be required to 
develop a Performance Contract. A performance contract is required of 
all department directors and is used by the Mayor to assess and rate 
the director's performance. The performance contract will set 
expectations in several areas including, but not limited to, outcomes 
for children in CFSA, financial management of CFSA and responsiveness 
of CFSA to judicial orders. Dr. Golden will also be required to develop 
a ``scorecard'' which highlights three to five goals that she will work 
to achieve by the end of the year. All cabinet members have scorecards; 
these can be viewed on the web at www.washingtondc.gov.
    Integration with Mayor's Strategic Plan.--We are implementing a 
city-wide, interagency, strategic plan to strengthen children, youth 
and families. This plan is known as Safe Passages because the goal is 
to ensure that all children in the District experience a safe passage 
into adulthood. The Safe Passages plan includes and tracks 
approximately 100 specific performance goals to be achieved by the end 
of fiscal year 2001. Listed below are the performance goals included in 
Safe Passages that specifically relate to the child welfare system:
  --1. Reduction of children in out-of-state placements
  --2. Reduction of children in institutional settings
  --3. Reduction in disruption of kinship placements resulting in entry 
        into foster care
  --4. Increase in children placed in relative custody
  --5. Reduction in children experiencing multiple foster care 
        placements
  --6. Increase in adoptions
  --7. Increase in clients receiving substance abuse services
  --8. Increase in children receiving community-based support services
  --9. Increase in children maintained in their communities.
    Your letter also inquired about improving services at the ``front 
door'' when an investigation begins, identified the transfer of Court 
Social Services (CSS) to CFSA as one possible solution and inquired as 
to the Mayor's position on such as transfer. A few clarifications are 
necessary.
    Investigations of child abuse and neglect are conducted by CFSA and 
the Metropolitan Police Department (MPD). Court Social Services does 
not conduct investigations. Court Social Services case manages those 
families in which abuse has been substantiated, but children have not 
been placed in foster care. This function of CSS is already in the 
process of being transferred to CFSA as required by the October 23, 
2000 Consent Order in the LaShawn case and the November 30, 2000 
Memorandum of Understanding (MOU) between the Mayor and the Superior 
Court, which lays out in detail the process for transferring CSS' child 
abuse responsibilities to CFSA by October 1, 2001.
    The American Humane Association Child Welfare Division has been 
retained by CFSA to coordinate and support the transition process, 
which involves transfer of cases, staff, resources and data. This work 
is proceeding on schedule.
    In addition to being legally obligated by the federal court to 
carry out this transfer, the Mayor fully supports this course of 
action, as it will put an end to the District's so-called bifurcated 
child welfare system in which responsibilities are split between CFSA 
and Court Social Services, contributing to a fragmented response to 
children and families.
    The District is also, in fact, taking steps to improve the ``front 
door'' of the child welfare system by moving to establish a state-of-
the-art child assessment center which will co-locate and integrate all 
of the agencies involved in the investigation and prosecution of child 
abuse and neglect. We are currently working to identify a physical site 
for the facility. In the meantime, in March 2001, an MOU was signed by 
the Mayor, the US Attorney, Children's Hospital, the Safe Shores 
Children's Advocacy Center, DC Public Schools, CFSA, Court Social 
Services, the Office of Corporation Counsel and the Commission on 
Mental Health Services. In this MOU, each of these agencies committed 
to working together to implement a coordinated and child-friendly 
process for investigating and prosecuting child abuse. As a result of 
this agreement, these agencies now meet on a regular basis to review 
cases and take steps to ensure that children are properly protected and 
receiving appropriate services and that investigations and prosecutions 
are proceeding as they should. My staff participate in these meetings 
and apprise me of issues that require intervention or resolution at the 
Mayoral level.
    Your letter inquired about the steps necessary for developing a 
stable and sufficient workforce. Indeed, this has been one of the 
greatest challenges faced by the child welfare agency. Assessments of 
the problem indicate that it is worker retention, not recruitment of 
new workers, that is the primary challenge. In addition to financial 
incentives for staff--which will continue--stabilization of the 
workforce requires that social workers have the resources they need to 
serve children and families as well as proper supervision and support 
from their superiors. Thus, our strategy to address the issue is multi-
faceted and includes, but is not limited to, the following:
    Increasing legal resources.--CFSA will have an additional 25 
dedicated Corporation Counsel attorneys to process abuse, neglect, 
foster care and adoption cases as well as appropriate legal support 
staff. Legal staff will be located on-site at CFSA.
    Increasing staff resources.--The District is developing a plan and 
criteria for the hiring and use of staff with Bachelor of Social Work 
(BSW) degrees as well as paraprofessionals. These staff will support 
the work of those in CFSA with Master of Social Work (MSW) degrees.
    Increasing availability and accessibility of services for children 
and families.--CFSA has signed a Memorandum of Understanding (MOU) with 
the Department of Health's Addiction Prevention and Recovery 
Administration (APRA) to ensure that CFSA clients receive necessary 
substance abuse treatment. CFSA is also working closely with the 
Department of Mental Health to establish diagnostic and counseling 
resources for children and families on the CFSA caseload.
    Implementing Performance-Based Evaluations of Supervisors and 
Managers.--A significant number of CFSA supervisors and managers have 
elected to participate in the Mayor's Management Supervisory Service 
(MSS). Under this system, supervisors and managers are subject to 
performance-based evaluations and no longer benefit from civil service 
protections. I am committed to working closely with Dr. Golden to 
maintaining a rigorous performance review process as well as providing 
ongoing training and professional development opportunities for 
supervisors and managers.
    Your final questions related to the Mayor's position on the 
establishment of a separate family court and its potential impact on 
the investigation process and the stability of the workforce. The Mayor 
supports the general concept of the recent proposal by the D.C. 
Superior Court to Letter to the Honorable Mike DeWine Page Five augment 
and enhance the Family Division of Court (through extending the tenure 
of judges) rather than creating a separate family court which may 
ultimately suffer the fate of having to compete with other ``more 
prestigious'' courts for resources, as has happened in other 
jurisdictions. We have some concerns with the Superior Court proposal 
and are actively working with the Court to resolve them in order to 
ensure that CFSA and the Court can work effectively together to comply 
with local and federal law. Strengthening and rationalizing the Family 
Division will indeed have a positive impact on virtually all functions 
of the child welfare agency as the planned changes will serve to 
improve the working relationships between the Court and CFSA.
    Thank you for your commitment to the District of Columbia and its 
child welfare system in particular. I am available to discuss these and 
any other questions you may have.
            Sincerely,
                                                 Carolyn N. Graham.

                          subcommittee recess

    Senator DeWine. We will hold additional hearings to monitor 
what is going on. Frankly, as a result of today's hearing I 
have got in my mind some additional witnesses that I would like 
to bring in and to further focus on what is going on.
    So we appreciate your testimony very much, we appreciate 
your patience with the crazy schedule of the U.S. Congress 
going back and forth with votes, and we look forward to working 
with all of you in the future. Thank you very much.
    Ms. Meltzer. Thank you.
    Ms. Jackson. Thank you.
    Ms. Graham. Thank you very much.
    [Whereupon, at 12:59 p.m., Thursday, March 15, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

















        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2002

                              ----------                              


                        WEDNESDAY, MAY 16, 2001

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:08 a.m., in room SD-116, Dirksen 
Senate Office Building, Hon. Mike DeWine (chairman) presiding.
    Present: Senators DeWine, and Landrieu.

                          DISTRICT OF COLUMBIA

                          D.C. Superior Court

STATEMENT OF HON. RUFUS G. KING, III, CHIEF JUDGE, D.C. 
            SUPERIOR COURT
ACCOMPANIED BY:
        HON. REGGIE WALTON, PRESIDING JUDGE, FAMILY DIVISION, D.C. 
            SUPERIOR COURT
        HON. DAVID E. GROSSMAN, COURT OF COMMON PLEAS, JUVENILE COURT 
            DIVISION, CINCINNATI, OHIO

                OPENING STATEMENT OF SENATOR MIKE DEWINE

    Senator DeWine. Good morning. Let me welcome you all today 
and welcome Delegate Norton, who is here. Always glad to see 
her, and also members of the D.C. bench and the D.C. Bar who 
are here. We would like to welcome them as well. Thank you very 
much for coming. Good to see you. Let me begin by thanking 
Ranking Member Mary Landrieu for joining me in holding today's 
hearing. This is a great opportunity. An opportunity for us to 
learn, learn and discuss the District of Columbia Superior 
Court Judge's proposal for the Family Court Division. I 
certainly appreciate the Judge's efforts, and I know they have 
spent a great deal of time and effort on this, and I believe 
that our hearing today will be constructive and will give us 
the opportunity to ask a lot of the questions, and find out 
what we can do, what this subcommittee can do, what this 
Congress can do to help bring about reform in the District's 
court system.
    As I said at the first hearing of this committee, and I'll 
probably say it at every hearing of this committee, there are 
many things going on in the District of Columbia. There are 
many areas where this committee has jurisdiction, but there is 
nothing that is more important than the children of the 
District of Columbia, and we will continue to spend our time 
and concentrate on this, and our goal is to be as helpful as we 
can in the areas where we have some responsibility.
    Let me also thank and acknowledge Judge King and Judge 
Walton for their work in putting together this proposal. Let me 
also thank Judge Grossman, who I have known for many years who 
presided over the Hamilton County Juvenile Court in Cincinnati 
in 1976, until he retired in 1998. His extensive experience 
with juvenile courts will add considerably to our hearing 
today.
    Let me also remind all of our witnesses that the full text 
of your statements will be made a part of the record. Without 
objection, we will do that. We would like to limit your opening 
statements to about 5 minutes. We are not going to hold you to 
that completely, but if you could aim for 5 minutes, then that 
will give us a good opportunity to have some questions. Without 
objection, the record will remain open until 5:00 p.m. on 
Thursday, May 24th for the submission of any additional 
testimony or responses to questions that members have for our 
witnesses.
    All of us who are here today know that family court judges 
are making tough, life-changing decisions every day. These are 
very, very difficult under the best of circumstances. I learned 
this firsthand nearly 30 years ago, when I was serving as an 
assistant county prosecuting attorney in my home county in 
southwest Ohio, Green County, and my job was to represent the 
local children's services, and we have some very, very 
difficult and very heart-wrenching cases. I witnessed then that 
frankly too many of the cases drag on and drag on endlessly and 
needlessly, leaving children trapped in temporary foster care 
placements which often entail multiple moves from foster home 
to foster home to foster home for years and years and years.
    Such multiple placements and the lack of permanency for 
these kids is abuse really in its own right. And while children 
in the social welfare system come in contact with many 
individuals from social workers, lawyers, probation officers, 
and many others, it is really the judges who ultimately are 
responsible for the safety and security of these children. It 
is the court system. It is the judges, who have the ultimate 
responsibility. And they really are the key player, the player 
that has to bring all the other elements in the system 
together.
    And one of the things that we are going to look at in this 
plan is that particular aspect, and whether or not the judges 
will have the ability to be the dominant player to pull 
everybody together and to get good results. Judges certainly 
have an obligation, an obligation to make sure that no child 
ever becomes entrenched in the system, that no child is 
reabused by the very system designed to protect him or her.
    We, too, in Congress have an obligation, and that is to 
ensure that these judges are trained properly and have the 
resources to do that, and that they can feel confident about 
their decisions. That is one of the reasons we are holding this 
hearing today. We are here to examine the judges' proposal to 
determine what they see as best practices, and to find out more 
about the resources that they need to do their jobs and improve 
the Family Division of the court.
    Nothing illustrates more vividly the need for a properly 
functioning child welfare system and court process than the 
tragic case involving Brianna Blackmund. This is a familiar 
case and illustrates the persistent problem plaguing the 
District's child welfare system and the court division. Could 
this tragedy have been prevented? Well, we think it could have. 
In the aftermath of Brianna's death, D.C. Superior Court judges 
told The Washington Post about the agony they feel in making 
child welfare decisions. One of the judges quoted in an article 
said this, and I quote, ``These cases are for me the most 
difficult thing we do. We feel the least trained and skilled at 
it.''
    We have to do something about that. We must do whatever it 
takes to make sure that the District has the best court system 
possible so that Brianna's death is not in vain. One of the 
reasons I fought so hard to get Senate passage of the Adoption 
and Safe Families Act, which became law in 1997, was to ensure 
that the safety and interest of children in the court system, 
like Brianna, are always paramount.
    While this law represented a fundamental change in the 
culture of child welfare law as we knew it, we also knew at the 
time that this law was not a quick nor a complete fix. We knew 
that a law that simply tells judges that the health and safety 
of children must be paramount and that sets certain time frames 
would not necessarily mean that every decision would be a 
correct decision, and we knew that to get the right decision, 
the judges would have to have the right resources.
    To get where we wanted to go, proper training must be 
available, so the law can become an effective part of a judge's 
decision making process. That is why last year I introduced the 
Strengthening Abuse and Neglect Courts Act which is also now 
law. This new law invests in computerized case tracking systems 
and programs to reduce pending backlogs of abuse in neglect 
cases. The law also allows judges, attorneys, and court 
personnel to qualify for existing training programs, and would 
expand the CASA program to underserved and urban areas, so that 
more children are able to benefit from its services.
    Today, part of our oversight responsibility as members of 
this subcommittee is to determine if the District has the 
resources necessary to meet its training needs. Does the 
District have what it needs so that the courts cannot only 
comply with the goals of the Adoption and Safe Families Act, 
but also can have the ability to make additional changes in the 
Family Division? That is the question for us.
    It is my hope that we can answer that question today, and 
discuss whether current budgetary resources are sufficient, and 
if they are being used effectively and appropriately to get the 
job done. We must review the District's proposed budget with 
close Congressional scrutiny to ensure that any dollars that 
flow into the Family Division are used for the proper 
protection of the children involved.
    Ultimately, I believe that we all share, we all share the 
common objective ensuring that children and families in contact 
with the judicial system are not traumatized by this 
experience. The wonderful thing about family law is its focus 
on rehabilitation. More importantly, the rehabilitation of 
families. Where there are families going through a divorce or 
dealing with a troubled teenager in the juvenile system, or 
bringing in a new family member through child adoption, the 
Family Division must have the resources and the expertise to 
address all issues in a timely, accurate, and supportive 
manner. In the process, we must never, ever lose sight of our 
responsibility to the children involved. Their needs and their 
best interests must always come first. And today I believe we 
are putting children first in taking a step forward on their 
behalf.
    Let me thank our witnesses and let me turn now to the 
Ranking Member of our subcommittee, Senator Landrieu.

                 STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Thank you, Mr. Chairman, and welcome to 
all of our panelists and to Congresswoman Norton and I want to 
thank you, Mr. Chairman, for your--for your focus and your work 
in this area. I don't know if everyone here gathered realizes 
that besides being the chairman and most able member, he is 
also a father of eight children, which is quite, by any 
standard, a large family, and continues in his work in the 
Senate, to be so focused on these issues that help not only his 
own State, but all of our States, and the District. So I really 
appreciate your leadership, Mike, and look forward to working 
with you on this.
    I also want to especially recognize the leadership of 
Representative Eleanor Holmes Norton, who is here this morning, 
and Majority Whip Tom DeLay, who have dedicated a tremendous 
amount of time and passion to this issue. Their combined 
efforts have helped to move us a great deal toward achieving 
our common goal, protecting the best interests of our children 
here in D.C., and I want to thank them for their outstanding 
leadership on this issue.
    I also want to recognize that the shadow Senator of D.C. is 
here, Senator Strauss. We welcome you and with your background 
as an attorney who practices family law, I know that you will 
have a great deal to offer in this endeavor, so I want to thank 
you for being here.
    It is my hope that we can continue to move forward with the 
help of the District. We must attempt to fashion a plan that is 
built upon some of the best practices in the country on family 
courts throughout the country. This is not to say that what 
works elsewhere must also work in D.C., because D.C., like 
every other State, is unique. Their residents, their system, 
their challenges, their strong points, make them distinct from 
other jurisdictions in the country.
    Recognizing this, Mr. Chairman, and members here, I think 
we should attempt to use examples set by other jurisdictions as 
a blueprint, not a boilerplate, for effective reform. It is 
also important to note that there is more than one approach to 
court reform. Successful family courts have been found 
incorporated within the jurisdiction of trial courts, as well 
as stand-alone family courts. Instituting reform should take 
into account the varied examples in other cities, the needs and 
desires of the District and the critical needs of the families 
in D.C.
    The court must have thoughtful practices and support 
mechanisms in place to provide for the newly created family 
court branches. This, the judges' proposal, and I thank you all 
for being here to present that proposal today, marks an 
important step in this process. Having reviewed this proposal, 
I believe it reflects a genuine interest in doing what's right 
for the children of D.C. As an enthusiastic adoption advocate, 
and believe me, the chairman and I are both in that category, I 
commend the court for its focus on permanency for abused and 
neglected children in the District, and want to reiterate my 
strong support for the Adoption and Safe Families Act as a co-
sponsor of that act and again recognize the chairman's 
leadership.
    As the number of abused and neglected cases filed in the 
court increase, it is imperative that the infrastructure, staff 
support and expertise be in place to ensure that children and 
families are supported throughout the process. I appreciate 
that the courts are working with the Council for Court 
Excellence to develop reform consistent with best practices, 
and I look forward to the possibility of hearing from the 
Council in the future. I encourage you all to reach out to as 
many experts as possible, as we continue to help shape this 
reform.
    In speaking with other jurisdictions, it is also important 
that we not only look at their success, but that we also look 
at the continuing challenges. I am concerned that judges in 
family court sometimes tend to have less resources and as a 
result, can sometimes be neglected. I don't want to see that 
happen here as we shape this reform. We must have the right 
resources to back up whatever we do.
    Further, the court's request for substantial capital funds 
to renovate existing courthouses is notable. You have got to 
have the facilities that help us to carry out these reforms. 
But I also want to stress that it is more than just adequate 
facilities that are going to make this reform successful. The 
court's proposed target, reform target, resources--the court's 
proposed reform targets resources as some of the key areas 
identified by the D.C. Child and Family Services Agency, and 
the Center on Court Excellence.
    I am particularly interested in attempts to alleviate the 
stress on staff by hiring more personnel and training all staff 
to the unique challenges of dealing with children and families 
in crisis. Additionally, I think that a significant investment 
in the court's facilities, as I said, is also necessary in 
balance with the above.
    I also believe it is important that judges, and this might 
be the most important thing to me, that the system that we 
create, that the judges self-select, or enthusiastically 
volunteer to do this service. I think it is important, Mr. 
Chairman, that we have people that really want to do this 
because when you want to do something, you do it very well, and 
are willing to spend whatever time it takes. So I hope that 
whatever reform, we most certainly would put an emphasis on the 
judges being enthusiastic about that role. It is the judges who 
are charged with some of the most difficult of life's decisions 
in these cases. If we do not do all that we can to ensure that 
they have the necessary training and support to help them make 
these decisions, then we are not meeting our obligations 
together trying to help the children that we all want to serve.
    I also think it is important, whatever reform effort that 
we shape, that the court be established in such a way so that 
the cases have consistency of jurisdiction, so that the same 
cases appear before the same judges for as much or as long as 
possible so that the judges have become more and more familiar 
and the cases do not find themselves bumped between judges and 
between courts, which is a problem in my home State, as well as 
in other places.
    Finally, I am glad to see that the court's proposal 
addresses many of the difficulties outlined during this 
subcommittee's first hearing with the child and family services 
agency. Staff shortage, inefficient data tracking system, and 
the challenges for social workers. Let me also reiterate my 
strong support for CASA, Court Appointed Special Advocates, how 
effective I find them to be, visiting with many members of the 
Senate and the House in various jurisdictions. Regardless of 
the way the courts are structured, CASA workers seem to be able 
to do a pretty good job, Mike, wherever they find themselves, 
so I want to be very supportive in our reforms of that 
particular organization.
    So again, I am pleased at the progress of this effort. I 
think that there are many strong points in this proposal, but 
Mr. Chairman, I most certainly look forward to working with you 
in a bipartisan way, in a bicameral way to create the kind of 
reform that will be meaningful for the children that we all 
hope to serve. Thank you all.
    Senator DeWine. Thank you very much. Let me invite our 
three witnesses to come up and as you come up, I will introduce 
you. Judge King, Rufus King, was designated Chief Judge of the 
Superior Court of the District of Columbia in September, 2000. 
He was appointed to the Superior Court in 1984, where he served 
in all divisions of the court. Among his many other D.C. bar 
and core activities, Judge King has chaired the Domestic 
Violence Coordinating Council in the Superior Court Child 
Support Guidance Committee.
    Judge Reggie Walton was appointed to the District of 
Columbia Superior Court bench in 1981. He currently serves as 
the presiding judge of the Superior Court's Family Division. 
Judge Walton has actively worked with the youth of both the 
District and the Nation. He has served as a Big Brother and 
frequently speaks throughout the Nation on problems of drugs, 
crime, and personal responsibility.
    Judge David Grossman, retired May 31, 1998 as presiding 
administrative judge of Hamilton County Juvenile Court, 
Cincinnati, Ohio, where he was a judge since 1976. He is past 
president of the National Council of Juvenile and Family Court 
Judges. He is past President of the Ohio Association of 
Juvenile and Family Court Judges. We welcome the three of you. 
Thank you very much, and Judge King, why don't we start with 
you, and we have your opening statement, which will be made a 
part of the record. And we will ask you to proceed for 5 
minutes or so.

                 STATEMENT OF JUDGE RUFUS G. KING, III

    Judge King. Thank you, Mr. Chairman. Senator Landrieu and 
members of the subcommittee, I am Rufus King, Chief Judge of 
the Superior Court of the District of Columbia, and I am 
joined, as has been noted, by Judge Reggie Walton, presiding 
judge of the Family Division. Thank you for calling this 
important hearing to discuss the issue of the Court's plan for 
reforming the Family Division to enhance the safety of abused 
and neglected children. I am aware that both the chairman and 
the Ranking Member have a special concern for the safety of 
children, and families, and I welcome your interest. The 
Superior Court of the District of Columbia was established as a 
unified court by the District of Columbia Court Reform and 
Criminal Procedures Act of 1970. By statute, the court is 
comprised of 5 major divisions, Civil, Criminal, Family, 
Probate, and Tax.
    Several of the Court's divisions have received national 
recognition. The Civil Delay Reduction project has served as a 
national, and more recently international, model for expediting 
civil cases. The Court's domestic violence unit, combining 
family, civil and criminal cases in one set of calendars was 
awarded the Council of Court Excellence's Justice Potter 
Stewart Award. The Family Division has been selected as a model 
unified court program by the National Council of Juvenile and 
Family Court Judges. Since before taking office as chief judge, 
I have stressed that reform of the Family Division would be the 
highest priority.
    In January, I asked Judge Walton to set up working groups 
to examine the best practices and use around the country for 
serving families, and to consult experts in the field and 
develop recommendation for the Family Division of the Superior 
Court. These working groups consist of members of the bar, 
social workers and other stakeholders. In the mid-1990s, 
neglected and abused children began entering the District of 
Columbia child welfare system in alarming numbers, three times 
higher than a decade earlier, despite a decline in the 
District's population. This disturbing trend is continuing with 
new filings now projected at over 1,600 per year, a 15 percent 
increase over even last year. In addition, the Court is 
responsible for more than 4,500 children in existing cases.
    In addition to reforming the Family Court, we look forward 
to strengthening our working relationships with the new 
director and staff of the District of Columbia Child and Family 
Services Agency, and Mayor Williams, as he assumes control of 
that agency and seeks to improve its performance. The plan we 
are developing calls for a strengthened, unified Family Court 
Division with a new Permanency Branch. This branch will be a 
separate unit located in one part of the courthouse where all 
cases involving abused and neglected children will be heard and 
retained.
    Judges who are now assigned for 1-year terms will be 
assigned for minimum terms of 3 years with the option of 
extending their service indefinitely. Magistrate judges will be 
hired for four-year assignments to the Permanency Branch, again 
with the option of extending indefinitely. We believe this 
structure best addresses the need for extended terms while--
while strengthening our ability to attract lawyers of the 
highest caliber to enter this field of work.

                           PREPARED STATEMENT

    With the support and resources of the Court and the city 
agency, I believe this approach will encourage the emergence of 
leaders in this field who choose to make it their life's work 
and whose efforts are so essential to enhancement of the 
Court's ability to safeguard children and families in trouble. 
The full plan and list of required resources are included with 
my extended remarks for the record. Mr. Chairman, Senator 
Landrieu, thank you for the opportunity to address the Court's 
Family Division reform plan. Judge Walton and I will be happy 
to answer questions in greater detail.
    [The statement follows:]

                Prepared Statement of Rufus G. King, III

    Mr. Chairman, Senator Landrieu, members of the Subcommittee: I am 
Rufus G. King, III, and I am appearing in my capacity as Chief Judge of 
the District of Columbia Superior Court. I am joined today by Judge 
Reggie B. Walton, Presiding Judge of the Family Division.
    Thank you for calling this very important hearing to discuss the 
District of Columbia Superior Court's plan for reform of the Family 
Division to enhance the safety of abused and neglected children. I am 
aware that both the Chairman and Ranking Member have a special 
sensitivity to the matter we are about to discuss, and I welcome their 
interest.
    The Superior Court of the District of Columbia was established in 
its current configuration as a unified court by the District of 
Columbia Court Reform and Criminal Procedure Act of 1970. Statutorily, 
the Court is comprised of 5 major divisions: Civil, Criminal, Family, 
Probate, and Tax. Several of the Court's divisions have received 
national recognition. The Civil Delay Reduction Project has served as a 
national model for expediting civil cases. The Court's Domestic 
Violence Unit, combining family, civil, and criminal cases in one set 
of calendars, was awarded the Council of Court Excellence's Justice 
Potter Stewart Award. The Family Division was selected as a model 
unified court program by the National Council of Family and Juvenile 
Court Judges of the National Judicial College.
    At the time of my investiture as Chief Judge, I indicated that 
reform of the Family Division would be one of my highest priorities. 
Subsequently, I appointed Judge Walton presiding judge of the Family 
Division and asked him to set up working groups to examine the ``best 
practices'' for serving families around the Nation, to consult experts 
in the field, and to develop recommendations for the Family Division at 
the D.C. Superior Court. These working groups consist of members of the 
bar, social workers and other stakeholders. The purpose of my testimony 
today is to relate to you various aspects of the Family Division Reform 
Plan that arose from these working groups. The plan has also been 
presented to the Mayor and the City Council.
    In the mid 1990's, neglected and abused children began entering the 
District of Columbia Child Welfare system in alarming numbers; three 
times higher than a decade earlier, despite a decline in the District's 
population. This disturbing trend is continuing. In addition, in over 
60 percent of cases now being filed, the child is over the age of 
seven, making adoption less likely and the need for special services 
more pressing. Last year, 1,500 children's cases were filed and this 
year a 15 percent increase in new cases is expected. The Court is 
responsible for more than 4,500 children in existing cases.
    The magnitude of this caseload compels me to take steps to address 
the problem as soon as possible. I have therefore determined that some 
steps, which I will discuss shortly, can be taken immediately, within 
existing law and resources.
    In addition to reforms within the Court, we look forward to forging 
new working relationships with the staff of the District of Columbia 
Child and Family Services Agency and Mayor Williams, as he assumes 
control of that Agency and seeks to improve its performance.
                      family division reform plan
    The Reform Plan takes a team management approach, which is proven 
highly successful in other jurisdictions. The teams include 
professionals who will monitor each child's case and expedite its 
progress through the Court. The Reform Plan emphasizes using 
alternative dispute resolution, where safe and appropriate, to place 
each child in a permanent home within ASFA time limits and in a non-
adversarial setting. The Reform Plan also stresses increasing 
accountability on the part of judicial officers for the results in each 
child's case.
    Key elements of the Reform Plan include----
  --Family Court Within a Unified Superior Court.--Comprehensive 
        information about a family, including criminal cases, civil 
        cases, and probate cases is essential for the judge or 
        magistrate to make the best possible decision for each child. 
        Maintaining a unified court optimizes the flow of this vital 
        information, alleviates the judicial burnout that can affect a 
        separate family court, eliminates the costs for duplicative 
        administrative functions, and enhances the Court's ability to 
        provide comprehensive services for the child.
  --Judicial terms in the Family Court.--Voluntary service and 
        renewable three year terms are essential to ensure that Family 
        Court judges are and remain truly interested in family issues 
        and want to dedicate significant time to children. Judges who 
        wish to renew their terms may remain for many years, but those 
        who desire a different assignment may rotate after three years 
        without sacrificing judicial continuity and enhanced 
        specialization within the family court. The ABA stresses that 
        no one model is best for all jurisdictions, and we are aware 
        that court systems in many States provide different terms. The 
        three year, extendable terms in our plan optimize increased 
        specialization and appeal to lawyers considering service as a 
        judge on the Family Court in the District of Columbia.
  --Training.--Enhanced training on abuse and neglect ``best 
        practices,'' case management, and related areas will develop 
        the specialized knowledge base and up-to-date skills judges, 
        magistrate judges, and staff must possess to make the best 
        decisions for each child.
  --Accountability.--Standards will be implemented for case management 
        and for attorney practices. The standards will be based upon 
        leading court performance standards now in use throughout the 
        Nation.
  --Technology.--Critical to the success of the Reform Plan is the 
        establishment of an automated Integrated Justice Information 
        System (IJIS). IJIS will provide comprehensive information on 
        each child's family, including, for example, a parent's (or 
        household member's) pending drug charges. It will also permit 
        the Court to implement more effectively the ``one family, one 
        judge'' concept (assigning all family cases involving a child 
        and his or her family to the same judge) by linking existing 
        cases to new ones related to the same child.
  --Child Protection Mediation.--When mediation is safe and 
        appropriate, involving parents in discussions about their 
        child's future produces better results for the child. Parents 
        are often more cooperative with parenting classes or 
        rehabilitation efforts in a permanency plan that they have 
        helped negotiate. Our preliminary mediations have enjoyed a 
        very high success rate, and the Council for Court Excellence is 
        assisting with grant funds for a larger project.
  --Staff.--The team approach requires additional judges, magistrate 
        judges, special masters, case managers, courtroom clerks, and 
        other support staff with the expertise to work together to make 
        prompt decisions in the best interests of each child.
    We are continuing to refine the Reform Plan. A copy of the current 
draft is attached. A preliminary cost estimate has been transmitted to 
the Committee. It involves approximately $45 million at the outset, 
including $32 million in one-time renovations and equipment purchases 
and a continuing level of funding of $13 million and 74 personnel on an 
annual basis.
Immediate Steps
    Unfortunately, as children age, the possibility of adoption becomes 
increasingly remote. Accordingly, I have taken the following several 
steps, which can be accomplished within existing resources, to expedite 
the Court's Family Division Reform Plan:
  --Judicial Terms
    --I have asked sitting Superior Court judges to volunteer for 
            minimum three-year terms in the Family Court. As volunteers 
            come forward, I will rotate them into the Family Division.
    --I have assigned an additional judge to the Family Division, 
            effective June 11, following specialized family training at 
            the National Judicial College in Reno, Nevada.
  --Training in May, 2001
    --Superior Court judges attended two full days of training on child 
            abuse and neglect law. Numerous experts participated, 
            addressing topics such as assessing risk of abusing 
            parents, the Adoption and Safe Families Act (ASFA), and 
            child development.
    --Family Division staff attended training on meeting ASFA standards 
            and child protection and welfare.
  --Technology.--I have modified the plan for the IJIS system to fully 
        automate the Family Division in the first year of 
        implementation and redirected technology grant funds to support 
        this project. Once funding is available, implementation can 
        begin immediately.
  --Family Waiting Room.--I have directed that space within the 
        Courthouse be reconfigured to provide a child-friendly area for 
        waiting families and social worker conferences.
  --Attorney Practice Standards.--I have directed the development of 
        Attorney Practice Standards for abuse and neglect cases; the 
        standards are under review by the Bar, and after their input 
        has been addressed, they can be implemented within 90 days.
  --National Model Court Project.--I have secured assistance from the 
        National Council of Family and Juvenile Court Judges Model 
        Court Project of the National Judicial College. As a 
        participating model court project, the Superior Court will 
        receive technical assistance with case management techniques, 
        training, and strategic planning.
Children Already in the System
    Most of the 4,500 children for whom the court is responsible are 
unlikely to be adopted, and it will be very difficult to place many of 
them in permanent homes. The majority of children enter the system at 
age seven or older, when adoption is increasingly unlikely. Children 
with special needs (health problems such as neonatal drug addiction and 
HIV, emotional or behavioral issues) and, often, minority children are 
difficult to place in permanent homes at any age.
    The Court's Reform Plan calls for three teams of special masters to 
review all pending children's cases to determine whether a permanent 
placement is possible. Other jurisdictions that have reformed their 
family programs have been able to reduce pending caseloads by about 
half. We will certainly strive for similar results in the District of 
Columbia. In the meantime, their number requires that they be assigned 
to judges who are not in the family division. Many judges have come to 
feel that they are the only constant in the children's lives and want 
to continue to maintain responsibility for their cases. However, in 
order to assure the most effective management and closure of these 
cases, only judges who ask to retain the cases and who are willing to 
take ongoing training will be permitted to do so. The Court believes 
this arrangement will best meet the needs of those children with 
existing cases for whom a permanent home cannot be found.
    In Summary, we believe the Reform Plan will enable the Court to 
better fulfill its role in the safeguarding of children and families. 
The plan will require a substantial increase in resources devoted to 
the Family Court to best provide the attention and supervision of 
services that all District of Columbia children and families need and 
deserve and that are essential to breaking the cycle of abuse and 
neglect, juvenile delinquency, adult criminal behavior and abuse and 
neglect in the next generation. Pending the availability of additional 
resources, the Court will proceed with improvements that can be 
implemented using existing funding and other resources.
    Mr. Chairman, Senator Landrieu, thank you for the opportunity to 
explain the Court's Family Division Reform Plan. Judge Walton and I 
would be happy to answer any questions you may have.
  superior court of the district of columbia family court reform plan 
                                (draft)
                          unified family court
    Maintain and enhance separate, specialized Family Court as a 
division within unified Superior Court to: (1) respond to serious 
concerns recently expressed about tragedies affecting children, (2) 
achieve permanency for children expeditiously and (3) ensure cost 
efficiency by utilizing existing courtwide infrastructure and 
administrative staff.
                              assignments
    Assign judges who volunteer for service in the Family Court for 
three year, extendable terms
    Stagger terms to ensure continuity and expertise
    Appoint magistrate judges to serve four years, which is the 
duration of their term of office, and permit reappointment
    Fill judicial vacancies in Family Court immediately with volunteers 
from other divisions of the Court.
                             specialization
    Establish holistic, team-based approach to abuse and neglect cases 
to secure continuity of care and swift permanency placement: Form three 
case management teams within the Permanency Branch, each consisting of 
one judge and three magistrate judges with expertise in child welfare, 
and assisted by attorney advisors, a psychiatrist or child 
psychologist, law clerks, administrative personnel and special masters.
    Provide space for an office within the Court staffed by 
representatives from District of Columbia agencies which provide needed 
services to abused and neglected children and their families.
    Permanently assign all new abuse and neglect cases to the Family 
Court to enhance family case coordination, quality control and case 
scheduling.
    Support and work with a coordinating council which brings together 
all child welfare stakeholders (including CASAs and bar members) on a 
regular basis to ensure open channels of communication and resolve 
issues regarding the delivery of services to the children and 
community.
                           magistrate judges
    Appoint magistrate judges with expertise in family law and trained 
by court-appointed experts, to be responsible for initial hearings, 
assessing the needs of the children and families, and resolving cases 
assigned to them by the judges presiding over the teams.
    Under the supervision of the judge, oversee the work of case 
management teams and ensure the delivery of court-ordered support 
services.
              4,500 cases currently under review by judges
    Return to the Family Court all cases not retained by judges for 
distribution to special case management teams during transition.
    Divide cases under review into three groups for those judges who 
volunteer to retain their current cases during the transition. Review 
groups to be staffed with special masters and case coordinators to 
assist the judge in achieving ASFA compliance and permanency for the 
child.
    Schedule reviews into specified time periods to accommodate CFSA 
social workers.
                                training
    Require quarterly training for all judges, magistrate judges and 
support professionals on abuse and neglect issues, including ASFA 
compliance, and additional specialized training for those assigned to 
the Family Court.
    Enhance training for court-appointed guardians ad litem (GAL) and 
parents' attorneys by child welfare and trial practice experts.
                       child protection mediation
    Implement expanded child protection mediation among parents, the 
Office of the Corporation Counsel, the District's child welfare agency, 
the GAL and all other relevant parties and representatives, where safe 
and appropriate, to achieve early case resolution.
                         system accountability
    Increase management capability, accountability and reporting 
through enhanced access to data and case outcome information, and the 
adoption of appropriate standards for case resolution.
    Implement integrated case management system to track and monitor 
cases involving family or household members across all court caseloads 
to permit judges and team members access to comprehensive information 
before making placement decisions.
  superior court of the district of columbia family court reform plan
    Growing caseloads, new mandates applicable to courts through the 
passage of the landmark Adoptions and Safe Families Act (ASFA), and 
recent developments have made it incumbent on the Superior Court to 
improve the management, supervision and resolution of cases involving 
children and families in the District of Columbia. The Superior Court 
has developed a comprehensive plan for reform of child abuse and 
neglect cases.
    Abuse and neglect case filings at Superior Court have risen 
steadily over the last two decades. On average, 1,500 cases are filed 
with the Court each year. Moreover, based on case filings since January 
2001, the Court expects an increase of 15 percent this year in the 
abuse and neglect area. In addition, 4,500 cases are subject by law to 
review and represent a substantial workload of the Court.
    This proposal provides an outline of the major components of the 
Superior Court's reform initiative. The Court is committed to achieving 
timely permanency for abused and neglected children. Reform, however, 
is a multi-year process that requires sustained commitment and adequate 
resources.\1\ The Court looks forward to working with Congress and the 
District in implementing needed reforms for the welfare of children.
---------------------------------------------------------------------------
    \1\ According to a recent report of the Council for Court 
Excellence, successful family court reform efforts in Cincinnati, Ohio 
took 10 years and those in Chicago, Illinois have taken six years to-
date.
---------------------------------------------------------------------------
Unified Family Court
    The existing Family Division will be redesignated as the Family 
Court, a division of the Superior Court. The Family Court will consist 
of the following branches: Child Abuse and Neglect/Permanency Branch 
(hereinafter ``Permanency Branch'') (covering abuse and neglect, 
adoption and termination of parental rights (TPR) cases as well as the 
Counsel for Child Abuse and Neglect (CCAN) and a Family Drug Court); 
Domestic Relations Branch (addressing divorce and custody and including 
the Marriage Bureau); Juvenile Offender Branch (juvenile delinquency 
court and Juvenile Drug Court); Mental Health and Retardation Branch; 
and Paternity and Child Support Branch. A Presiding Judge, Deputy 
Presiding Judge and Director will oversee the Family Court for 
administrative purposes.
    The Permanency Branch will be organized into six (6) calendars: 
three (3) for abuse and neglect cases; one calendar for adoptions; one 
for TPR cases; and one calendar for permanent custody and guardianships 
for abused and neglected children (in order to allow these cases to be 
filed and resolved expeditiously, as required by law). A judge and team 
of magistrate judges \2\ will be assigned to each calendar.
---------------------------------------------------------------------------
    \2\ Currently, Court positions of this type are referred to as 
``Hearing Commissioners.''
---------------------------------------------------------------------------
Assignment of Judges
    Judicial assignments to the Family Court will be a minimum of three 
years. This represents a substantial increase in the duration of a 
current assignment to the Superior Court's Family Division. Preference 
will be given to judges who volunteer for the assignment. Judges may 
volunteer to extend their service in the Family Court beyond their 
initial three-year assignment. As resources and support for judges in 
the Family Court are put into place, it is anticipated judges will 
volunteer to serve extended terms, thereby ensuring the involvement of 
those judges most committed to presiding over child welfare matters.
    The Chief Judge retains discretion to re-assign judges in and out 
of the Family Court when extenuating circumstances require and it is in 
the best interests of the children.
    The three-year assignment will be staggered to maintain a 
complement of experienced judges in the Family Court.
Specialization
    Abuse and neglect cases will be assigned to teams of judges, 
magistrate judges and other professionals. Each of the three teams in 
the Permanency Branch will consist of the following individuals with 
expertise in permanency case resolution: the judge, three (3) 
magistrate judges, a special master and a case coordinator.
    The teams will be further assisted by permanent attorney advisors 
and specialized law clerks (to maintain compliance with ASFA, the 
Interstate Compact on Placement of Children (ICPC) and other Federal 
and local statutes), a psychiatrist or psychologist from the Superior 
Court's Child Guidance Clinic, and an appropriate number of 
administrative support personnel (e.g., law clerks, secretaries and 
other clerks). The team approach has been used in other jurisdictions 
as a best practice and has resulted in expedited case resolution, 
improved case monitoring and oversight, and improved communication with 
parties.
    Support professionals assigned to each team will be responsible 
for: (1) monitoring the progress of each abuse and neglect case towards 
permanent resolution; (2) serving as liaisons with CFSA social workers; 
(3) monitoring and verifying compliance with court orders; (4) 
reviewing all court actions for compliance with ASFA and other 
statutes; and (5) filing compliance reports in consultation with 
attorney advisors.
    When a judge's assignment in the Family Court is completed, he/she 
may volunteer to continue in the assignment. If the judge is reassigned 
outside of the Family Court, all cases assigned to him or her will 
remain in the Permanency Branch, except in an extraordinary 
circumstance as approved by the Chief Judge and consistent with ASFA. 
In each such case, the judge will remain part of the original case 
management team in the Permanency Branch.
Magistrate Judges
    Magistrate judges, with expertise in family law and appointed for 
four-year, renewable terms, will be responsible for intake of new cases 
and resolving cases assigned to them by the presiding judge of the 
team. Where agreements cannot be reached, trials will be conducted by 
the judge or magistrate judge, depending on the complexity of the case 
and other circumstances.\3\ Magistrate judges should have the power of 
contempt, which would give them the authority to enforce their own 
court orders.
---------------------------------------------------------------------------
    \3\ Currently legislation governing the authority of hearing 
commissioners requires the consent of the parties before such an 
individual may try a case. The Court recommends that this be changed to 
allow magistrate judges to conduct trials of less complex neglect and 
abuse cases.
---------------------------------------------------------------------------
    Under the supervision of the judge, magistrate judges will oversee 
the work of case management teams and ensure the delivery of court-
ordered support services.
    Until permanency is achieved, the judge, magistrate judges and 
other members of the case management team will hold periodic case 
conferences at least quarterly.
4,500 Cases Currently Under Review by Judges
    During the transition, the pending caseload will be screened to 
identify barriers to permanency and to develop a strategy and timeline 
for resolution. Three (3) special case management teams will be 
established, with each group having approximately the same number of 
cases. If a judge does not volunteer to retain review cases, they will 
be returned to the Permanency Branch and assigned to a case management 
team for resolution.
    Each case management team, consisting of a special master and case 
coordinator, will perform similar functions as are performed for the 
abuse and neglect teams working in the Permanency Branch. Each team 
will be assisted by two attorney advisors and appropriate support 
professionals. They will provide expert advice and support to judges by 
monitoring compliance with ASFA, other applicable laws and court 
orders.
Training
    The Court will expand training for judges, magistrate judges and 
case management personnel who will participate in Court-sponsored, in-
service training on abuse and neglect issues at least quarterly, in 
order to stay abreast of the current state-of-knowledge in the field of 
child welfare, including neglect and abuse. Additionally, judges will 
be encouraged to remain updated in that field through professional 
reading, training at the National Judicial College and other relevant 
workshops. The assistance of expert trainers, such as individuals from 
the National Council of Juvenile and Family Court Judges, the ABA's 
Center for Children and the Law, and the National Model Court Project 
(of which the Superior Court has been selected as a member), will be 
sought to plan and facilitate the training. The Court will participate 
in joint training with CFSA workers, the Office of Corporation Counsel 
and managers.
    Similarly, the Court will assume a leadership role in enhancing the 
court appointed guardian ad litem (GAL) and parents' attorney training. 
Training will be required of all attorneys who practice in this area 
before the Family Court. It will be given by child welfare and trial 
practice experts, and experienced judges. The training will include 
substantive legal areas in the field of neglect and abuse as well as 
the law of evidence and other trial practice issues.
    If funding is available, payments to attorneys will be increased in 
order to retain competent counsel and prevent attrition in the CLAN 
Bar. In an effort to expand the pool of available attorneys, a 
recruitment effort will be undertaken, targeting attorneys with 
expertise in family law, particularly in the area of abuse and neglect. 
The Court will coordinate training programs with area law schools and 
legal clinics in the child abuse and neglect area. In addition, the 
Court will implement a requirement that all attorneys who wish to be 
appointed to a separate panel of GAL attorneys, must first have 
represented parents in a designated number of cases or must have 
completed specified training.
Coordination
    To ensure that information about services is readily available, the 
Court will provide space on site to be staffed by representatives from 
District of Columbia agencies that provide needed services to abused 
and neglected children and their families. This may include, at a 
minimum, representatives of the Office of Corporation Counsel, District 
of Columbia Public Schools, the District of Columbia Housing Authority, 
the Child and Family Services Agency, Court Appointed Special Advocates 
(CASA), District of Columbia Commission on Mental Health and the 
Addiction Prevention and Recovery Administration, or their equivalents.
    Where applicable, a judge or magistrate judge from the Superior 
Court's Domestic Violence Unit will be included on the abuse and 
neglect team in order to enhance the Family Court's multi-disciplinary 
approach to case resolution and to permit better coordination of cases 
involving a family unit.
    Coordination of case management will also occur with the Juvenile 
Offender Branch and a liaison will be developed between the team 
magistrate judge in the Permanency Branch and the Court's Social 
Services Division, (the District's juvenile probation department). The 
purpose is to coordinate all cases in which a child is before both the 
neglect and juvenile systems. This will allow the Family Court to 
choose among the alternatives in both systems.
    The Court will support and work with on a regular basis a 
coordinating council which brings together all child welfare 
stakeholders (including representatives of the Mayor's office, CFSA, 
CASA, and bar members). The Court will work to replicate the success of 
the District's existing Domestic Violence Coordinating Council and the 
Criminal Justice Coordinating Council.
Child Protection Mediation
    To encourage early settlement of dependency cases, the use of child 
protection mediation will be considered for use in all cases, where 
safe and appropriate. The process will include parents, the Office of 
the Corporation Counsel, the District's child welfare agency, the GAL 
and all other relevant parties and representatives.
System Accountability
    To foster informed and effective decisions concerning a child's 
welfare, the Court must have the ability to coordinate information 
concerning a child's status in the juvenile and neglect system with the 
criminal and mental health status of a parent or other person residing 
in the household or with any pending child support or domestic violence 
cases involving either the custodial or non-custodial parent. Such 
interfacing capacity does not currently exist at the Court and has been 
identified as a critical need in a recent extensive study of the 
Superior Court's infrastructure conducted by the National Center for 
State Courts.
    ccordingly, the Court will implement an integrated justice case 
management system (IJIS) to properly track and monitor family and other 
cases in which a family member may be involved in order to ensure that 
all decision-makers within the Court have access to comprehensive 
information to make decisions about placement, child safety and well-
being.
    The needed integrated justice information system also would be 
capable of responding to requests for aggregate information for various 
quality assurance and management reports concerning caseloads and 
workflow.
    The Court will use the National Center for State Court's Trial 
Court Performance Standards (e.g., Access to Justice; Expedition and 
Timeliness; Equality, Fairness and Integrity; Independence and 
Accountability; and Public Trust and Confidence) to guide practice in 
the Family Court. The Court will also examine the use of time standards 
set forth in existing Federal and local law and differentiated case 
management techniques to optimize case processing timeliness and 
effectiveness.
    The Court will establish a working Implementation Committee 
consisting of representatives from the Family Court, Office of the 
Corporation Counsel, CFSA, and the attorneys who represent parties in 
abuse and neglect cases. The Committee will be responsible for 
implementation and oversight of the Court's reforms initiatives.
Scheduling
    To improve calendaring practices and scheduling, the Court will 
work with CFSA to schedule review hearings on days and at times that 
will maximize social workers' time in the field and minimize their time 
in court.
Improved Facilities
    The Court is committed to allocating sufficient space to family 
matters and will request the funding necessary to do so. The Court 
seeks to establish a child-friendly waiting room for families and 
social workers, increase the number of courtrooms for family 
proceedings, and will seek to consolidate all family-related offices 
and functions to a centralized court location (including the Court's 
existing Child Care Center for litigants and witnesses, the Supervised 
Family Visitation Center and the Crime Victims Compensation Program).
Other Initiatives
    The Court will continue to seek funding, under the U.S. Department 
of Justice's Family Drug Court Planning Initiative and Grant Program, 
among other sources, to establish a Family Drug Court to address the 
substance abuse problems which are increasingly associated with parents 
and children involved in abuse and neglect cases, and which serve as a 
barrier to achieving permanency expeditiously for children.
Resources
    A preliminary analysis indicates that a full range of budget 
resources will be needed to institute these reforms. The additional 
resource needs of the Court are outlined in Attachment A.

Attachment A.--Resources for Child Abuse and Neglect/Permanency Branch 
Reforms

Staffing (Recurring Costs):
    Judges and Support Staff:
        3 Judges (i.e., for additional calendars for: 
          Neglect, Guardianships and Permanency in 
          Neglect; TPR/Adoptions).......................        $539,772
        3 Law Clerks....................................         149,865
        3 Judicial Secretaries..........................         164,988
        3 Courtroom Clerks..............................         136,359
        3 Calendar Clerks...............................         111,474
                    --------------------------------------------------------
                    ____________________________________________________
          Total (15)....................................       1,102,458
                    ========================================================
                    ____________________________________________________
    Magistrate Judges and Case Management Teams (3 
      teams):
        9 Magistrate Judges.............................       1,489,770
        3 Special Masters...............................         326,853
        3 Case Coordinators.............................         164,988
        2 Attorney Advisors.............................         156,764
        3 Law Clerks....................................         149,865
        6 Secretaries...................................         272,718
        9 Courtroom Clerks..............................         409,077
        9 Calendar Clerks...............................         334,422
        3 Calendar Coordinators.........................         150,165
                    --------------------------------------------------------
                    ____________________________________________________
          Total (47)....................................       3,454,622
                    ========================================================
                    ____________________________________________________
    Family Court and ADR Support Staff:
        2 Family ADR Case Managers......................          99,910
        2 File Clerks...................................          53,626
        1 Calendar Clerk................................          37,158
        1 CCAN Reappointments Clerk.....................          37,158
        1 CCAN Eligibility Clerk........................          37,158
        1 ADR Secretary.................................          45,453
                    --------------------------------------------------------
                    ____________________________________________________
          Total (8).....................................         310,463
                    ========================================================
                    ____________________________________________________
    IT and Other Support Staff:
        1 Database Administrator........................      \1\ 92,624
        1 Applications Manager..........................          78,382
        1 Database Support/Programmer...................      \1\ 78,382
        1 Statistical Data Analyst......................          54,996
                    --------------------------------------------------------
                    ____________________________________________________
          Total (4).....................................         304,384
                    ========================================================
                    ____________________________________________________
          Total Staffing (74) (Recurring)...............   \2\ 5,171,927
                    ========================================================
                    ____________________________________________________
Contractual and Other (Recurring Costs):
    CCAN Rate Increase..................................     \1\ 797,000
    IRS Database Support and Maintenance................     \1\ 275,000
    Mediator Stipends ($100 per session; 2 sessions per 
      case; 2,500 cases)................................     \3\ 500,000
    Mediator Training (Initial training for 30 new 
      mediators per quarter)............................          50,000
    Training ($12,500 judicial and $3,500 staff per 
      quarter)..........................................          60,000
    Rental Space for Staff Offices......................       6,074,000
    Security............................................         284,000
    Supplies, Postage and Phone ($2,762 per employee per 
      year).............................................         204,388
                    --------------------------------------------------------
                    ____________________________________________________
      Total Contractual and Other (Recurring)...........       8,244,388
                    ========================================================
                    ____________________________________________________
      Subtotal, Recurring Costs.........................      13,416,315
                    ========================================================
                    ____________________________________________________
Less $1,263,006 Recurring Costs included in D.C. Courts' 
    fiscal year 2002 Budget Request.....................      12,153,309
                    ========================================================
                    ____________________________________________________
Space, Furnishings and Equipment (Non-Recurring Costs):
    Construction of Courtrooms, chambers, in Building B.      14,450,000
    Capital Improvements in Buildings A & B.............  \1\ 10,705,000
    Relocation Costs (e.g. furnishings, moving, cabling)       1,200,000
    Renovate space for Family Waiting Room ($23,750 
      financed with fiscal year 2001 funds).............................
    Chambers/Office Furnishings and Equipment ($3,000 
      per employee).....................................         222,000
    Equipment:
        5 Photocopiers at 10,000 each...................          50,000
        5 Fax Machines at $750 each.....................           3,750
    IJIS (Family Module: $2,600,000; Complete System: 
      $7,100,000; minus $1,200,000 in grants)...........   \3\ 5,900,000
                    --------------------------------------------------------
                    ____________________________________________________
        Total Space, Furnishings and Equipment (Non-
          Recurring)....................................      32,530,750
                    ========================================================
                    ____________________________________________________
Less $15,305,000 Non-Recurring Costs included in D.C. 
    Courts' fiscal year 2002 Budget Request.............      17,225,750
                    --------------------------------------------------------
                    ____________________________________________________
      Grand Total.......................................      45,947,065
                    ========================================================
                    ____________________________________________________
Less $16,568,006 included in D.C. Courts' fiscal year 
    2002 Budget Request.................................      29,379,059

\1\ Included in D.C. Courts' fiscal year 2002 Budget Request.
\2\ Staffing costs reflect fiscal year 2001 salary plus fringe benefits 
at 24 percent of salary.
\3\ Portion included in D.C. Courts' fiscal year 2002 Budget Request: 
$20,000 for Mediator Stipends and $4,600,000 for IJIS (of which 
$1,500,000 plus grant funds are to be obligated in fiscal year 2002 for 
the Family module).

    Senator DeWine. Judge King, you set a new record here. You 
are 3\1/2\ minutes. Judge Walton.
    Senator Landrieu. Excellent. Got us off to a great start.
    Senator DeWine. I was shocked. I don't know what to do. Try 
and beat it, Judge.

                       STATEMENT OF REGGIE WALTON

    Judge Walton. Mr. Chairman, Senator Landrieu, it is an 
honor to have the opportunity to be here today to talk about 
the problems confronting all too many of our children here in 
the District of Columbia. I have served as a Superior Court 
judge for over 17 years. When Judge King called me into his 
office and told me he wanted me to take over the position as 
the presiding judge of the Family Division, the assignment was 
not on my radar screen. However, when I thought about the 
importance of what occurs in the Family Division, I had the 
opportunity to serve in the division on a number of occasions, 
I readily concluded that what we do in the Family Division is 
the most important work of the Court, and therefore, more than 
willingly accepted the challenge that Judge King gave to me.
    I proceeded immediately with a plan of trying to assess the 
operations of the division, and to develop reforms. Admittedly, 
the interest and the scrutiny that the Congress has directed at 
us increased the need to move expeditiously with those reforms, 
and I do thank the Congress for that. I will restrict my 
comments to the major components of our reform plan.
    Obviously, there are a lot of different components to it, 
but the major component is the creation of the team approach, 
and I think that is the hallmark of our reform plan. We have 
talked to a lot of experts, not only in the District, but also 
throughout the entire country to try and test what is the best 
practice for handling neglect and abuse cases, and the team 
concept is what we decided would best serve the children and 
families in these cases. I think it ensures that there will be 
one judicial officer responsible for handling these cases, and 
in the event that judge becomes unavailable for some reason, 
for example, for example, illness, death, retirement or 
whatever, with a team approach, our hope is that the other team 
members will be equally aware of that case, and be able to step 
in for that judge and continue the effort to move towards 
permanency and closure of that case.
    Also, we know that it is important to have judges who are 
well qualified to handle these cases, not only well qualified, 
but as has been indicated, who have a desire to handle these 
cases. So the one thing that we obviously will do is to ensure 
that judges who serve in this Permanency Branch are individuals 
who want to be there, and individuals who have an expertise in 
the area, and individuals who have been trained to do the best 
job in this area. The team will consist of one judge, who will 
be in charge of the team.
    There will be three separate teams. Each judge will have 
three magistrate judges working with him or her. Those 
individuals will be specially trained to handle these 
particular types of cases and we also will have support staff 
who will assist the Court in ensuring that we move our cases 
expeditiously through the system with the obvious desire of 
ensuring that we are in compliance with Federal and local laws.
    I will be more than happy to comment further in reference 
to the team approach, but I think it is essential that we 
implement this effort because I think it is the best way to 
ensure that children are appropriately serviced in the system.
    One of the major problems that we have to confront are, is 
the number of older cases that we have. We have approximately 
45 older cases in the system, and we are going to----
    Senator Landrieu. Hundred.
    Judge Walton. I am sorry. 4,500 cases in the system, and we 
are embarking on a process at this time already to try and make 
an assessment as to how we can close those cases, how we can 
bring those cases to some degree of permanency. We already have 
a special master who is looking on those cases, providing 
recommendations to the judges as to how those cases can be 
better addressed and how we can bring closure to those cases.
    Our plan calls for three special masters to be hired by the 
Court, along with a team working with them in order to assist 
the judges in trying to bring closure to those cases. We have 
made an assessment that, while it would be obviously desirable 
to have those cases placed into the Permanency Branch, for the 
time being, it would be important to leave those cases with the 
judges who currently are handling them because many of those 
judges are acutely aware of the particular circumstances in 
those cases. They have a desire to keep those cases. And we 
believe it would be most efficient in trying to resolve those 
cases to leave those cases in their current posture.
    I again, as Chief Judge King indicated, welcome any 
questions you have in reference to the plan. I believe that the 
plan has been well thought out and that it will in fact 
significantly improve the plight of children and families who 
come into the Family Division of the Court.
    Senator DeWine. Judge, thank you very much. Judge Grossman.

                     STATEMENT OF DAVID E. GROSSMAN

    Judge Grossman. Mr. Chairman and Senator Landrieu, it is a 
pleasure to be here and I thank you for the opportunity to 
testify. As you said, Senator, I have long been in the trenches 
in this affair of juvenile and family courts. I started back in 
1959 as a magistrate and spent 16 years as a magistrate and 
then 24 years as a judge. One of the most serious issues that 
we faced in our town and in our jurisdiction was this issue of 
children languishing in foster care, languishing in the system 
and like Washington, D.C., we had about 4,500 in a backlog when 
we first attacked the problem.
    I don't think any of us are on a different page when it 
comes to the necessary things that have to be done and the need 
to do it, so I am not going to spend any time presenting the 
need. We all know what that is. I have some points I would make 
quickly, and then open the matter, of course, to questions for 
all of us. There are four essential pieces, I think, that need 
to be addressed if a court is going to attempt to deal with 
this problem of a number of children who are in foster care 
drift.
    Number one, the court must have sufficient staff and 
sufficient personnel and sufficient magistrate or judge time in 
order to accomplish the task. And I was pleased to hear Judge 
King mention a point that I find is applicable across the 
country when it comes to this problem. A court must concentrate 
a laser-like focus upon the issue of foster care drift in the 
children that are in the system. They can't spread it out 
across a broad section of a court. They have to focus and I 
heard Judge King say he is going to have a permanency unit, 
which will be the dependency unit, and that is an extremely 
important concept and step. If you don't have that, the thing 
tends to get lost.
    In that unit, you must have, as I said, sufficient 
magistrate and sufficient judicial personnel to accomplish the 
task before it. And I hear a large number of filings coming 
into the Washington, D.C. court, an unusual number, considering 
the size of the Washington, D.C. population. It is an unusual 
problem.
    The second thing that needs to be concentrated upon, and I 
heard Senator Landrieu mention this, you need to have space. 
This permanency unit must have a space that is suitable for the 
practice before it, so that families are comfortable there. 
Children can be brought there. There is enough security and 
enough space for lawyers, CASAs and others to consult and 
enough dignified hearing rooms that they can handle these cases 
properly, and these courts, this section again should not be 
spread out in the system. It should be concentrated.
    The third thing that is very important, and I know all of 
us are aware of it, there must be a good information management 
system. There must be a process by which the court, who will 
generate this system, can handle its cases in a careful and 
responsible fashion, knowing the playing field. If you do not 
know the numbers and you do not know the profiles, you cannot 
do anything except rescue emergencies. And with other services 
agencies--but I would stress the point that the system must be 
under the authority of the court and generated by the court for 
the court's purposes.
    And the fourth leg of the whole process, which is one that 
all of us know, you have to supply the court with the resources 
for dispositional purposes to handle the cases before it. If 
you want a court to burn out, a judge to burn out, a magistrate 
to burn out, do not give him the resources. Make him or her 
come to the court every day knowing what the answers ought to 
be when he can't fill them or she can't fill them. That is a 
recipe for frustration, for bitterness, for burnout. I can tell 
you it will happen, so you must give them that, and that 
involves other agencies, service delivery people, placement 
people, all kinds of agencies and services to help the court do 
its job.

                          PREPARED STATEMENTS

    Those are the four legs. Those must be in place. They are 
generic. They can be handled in different ways in different 
jurisdictions, but they all must be there. Thank you.
    [The statements follow:]

                Prepared Statement of David E. Grossman

    Mr. Chairman and members of the Appropriations Subcommittee, thank 
you for this opportunity to testify before you here today. I am David 
E. Grossmann, Retired Presiding Administrative Judge of the Hamilton 
County Juvenile Court in Cincinnati, Ohio. I am here on behalf of the 
National Council of Juvenile and Family Court Judges, where in 1995-
1996, I served as President. I currently serve as Chairman of the 
National Council's Adoption Committee. Honorary Chair for the National 
Council's Adoption Committee is former United States President Gerald 
R. Ford. Ex-Officio member of that Committee is Dave Thomas, CEO of 
Wendy's International.
    We at the National Council of Juvenile and Family Court Judges are 
pleased to have the opportunity to comment on the proposed Family 
Division reform of the Superior Court of the District of Columbia. I 
commend the Subcommittee for their commitment to improving family court 
practice and improve outcomes for children and families in the District 
of Columbia.
        the national council of juvenile and family court judges
    For over 25 years, the National Council of Juvenile and Family 
Court Judges has recognized the need for judicial oversight of child 
abuse and neglect cases. Pointing to rising numbers of children in the 
nation's foster care system and recognizing that thousands of children 
were being raised without the benefit of permanent homes, Congress 
passed key legislation in 1980 to reduce the number of children 
experiencing ``foster care drift'' in the nation's foster care system. 
The passage of Public Law 96-272, the Adoption Assistance and Child 
Welfare Act of 1980, heralded the need for improved practice in 
handling of child abuse and neglect cases. Courts and child welfare 
agencies were given the mandate to place strict 18-month time limits on 
resolution of dependency cases. The system as a whole was required to 
make ``reasonable efforts'' findings and to ensure: (1) Unnecessary 
separation of children and families be avoided; (2) Reunification of 
families when safely possible to do so; and (3) When reunification was 
not feasible, moving forward in finding adoptive or other permanent 
placement alternatives for children.
    As a result of that legislation, courts and child welfare agencies 
nationwide began to examine practice; identify barriers to permanency; 
plan for change; and implement changes in policy, practice and court 
rules. However, soon after the Adoption and Safe Families Act was 
passed, the nation's foster care system began to experience a new 
crisis. Soaring drug use, violence in families, child abuse awareness 
campaigns, and poverty rates began to bring more children into the 
child welfare and court systems than ever before. As a result of 
burgeoning caseloads and limited resources, court and child welfare 
agencies were struggling to meet the new demands placed upon them. 
Numbers of children in the child welfare system once again began to 
rise.
    Thanks to the foresight of Congress, including Senator DeWine and 
many members of this Committee, additional legislation was passed in 
November 1997, which once again required court and child welfare 
agencies to improve practice. The Adoption and Safe Families Act of 
1997 (Public Law 105-89) shortened time frames for dependency cases 
from 18 months to 12 months, and focusing practice on three specific 
outcomes for dependent children: (1) Safety; (2) Permanency; and (3) 
Well-Being.
    In order to implement the Federal legislation in the spirit in 
which it was intended, state courts and child welfare agencies 
refocused their efforts on improving practice in handling of child 
abuse and neglect cases. Several national initiatives to improve 
practice gained new momentum. The Court Improvement Program of the U.S. 
Department of Health and Human Services provides support through state 
supreme courts for states to gather key stakeholders and examine 
practice. Court Improvement Program resources include funding for 
training and technical assistance, and are under way in all 50 states 
and the District of Columbia.
    In 1992, the National Council of Juvenile and Family Court Judges 
initiated a project which would break new ground in guiding courts and 
child welfare systems through their reform efforts. With support from 
the Office of Juvenile Justice and Delinquency Prevention of the U.S. 
Department of Justice, the National Council formed a committee of 
judges, child welfare agency administrators, attorneys, court appointed 
special advocates (CASAs), and others to develop a document which would 
outline best practice for handling of dependency cases. The result of 
this three-year effort was the RESOURCE GUIDELINES: Improving Court 
Practice in Child Abuse & Neglect Cases, published in 1995, and 
endorsed by the Conference of Chief Justices and the American Bar 
Association. This document, which outlines key components of complete 
and fair hearings, is being used as a blueprint for change by Court 
Improvement Programs and individual courts nationwide. Since its first 
printing, over 22,000 copies of the RESOURCE GUIDELINES have been 
disseminated nationwide, with hundreds of additional copies being 
distributed every month.
    Also groundbreaking in its efforts to improve practice, the follow 
up work in development of the RESOURCE GUIDELINES was initiation of the 
Victims Act Model Court Project. In 1995, the National Council began 
work in a number of courts nationwide to put the RESOURCE GUIDELINES 
into practice. Criteria for selection of Model Courts was developed. 
Courts under consideration were asked to make a commitment to change, 
and to implement the RESOURCE GUIDELINES in their change efforts. 
Courts were asked to select a lead judge' whose task it would be to 
guide court improvement efforts in his or her jurisdiction. The lead 
judge' was to select a committee of key stakeholders, who would work 
collaboratively to examine practice, identify barriers, strategically 
plan for change, and implement improvements. Each court was asked to 
sign onto the project for the long term, recognizing that systems 
change is a lengthy and time-consuming process. And, finally, each 
court, as a laboratory for change, was asked to commit to mentoring 
other courts engaged in their own court improvement efforts.
    Since 1995, the number of Model Courts has risen from the original 
four to a current total of 23. Courts range in size from the largest 
metropolitan courts in the nation--Los Angeles, New York City, Chicago, 
Newark, and Miami--to many mid-sized and smaller jurisdictions, 
including Cincinnati, Indianapolis, New Orleans, Salt Lake City, El 
Paso, Honolulu, Des Moines, Charlotte, San Jose, and Reno. Just last 
week, the first Tribal Court, Zuni Pueblo of New Mexico, agreed to 
participate in the project.
    Model Court achievements over the past six years have been many, 
and in some cases, remarkable. The Cook County Juvenile Court--Child 
Protection Division--through leadership of then lead judge, the Hon. 
Nancy Salyers, and in close collaboration with Jess McDonald, Director 
of the Illinois Department of Children and Family Services, implemented 
court and child welfare system reforms. This resulted in a reduction in 
the number of children in out-of-home care in that county alone from 
over 58,000 to under 27,000 in little over three year's time.
    Specific improvements accomplished in many of the Model Courts 
which have resulted in moving dependent children more effectively 
through the child welfare system include the following:
  --Expanded initial, or preliminary protective hearings
  --Focused effort to reduce case backlogs
  --Implementation of one family/one judge court calendars
  --Implementation of front-end diversion programs, including family 
        group conferencing and mediation
  --Scheduling hearings at a time certain
  --Implementation of strict continuance policies
  --Implementation of continuous hearings and trials
  --Setting the next hearing date at the end of the current hearing
  --Distributing copies of orders to all parties at the end of the 
        current hearing
  --Focusing on reducing the number of children in the child welfare 
        system whose parental rights have been terminated and who are 
        awaiting adoptive or other permanent placements
  --Development of court-based data information systems for case 
        tracking and reporting, reporting on aggregate data and trends, 
        calendaring and court records, tracking compliance with the 
        Adoption and Safe Families Act and State mandated time lines.
    In 2000, the Superior Court of the District of Columbia became one 
of the newest Model Courts in the Victims Act Model Court Project. 
Committed to improving practice, the Washington, D.C. Court began to 
identify areas in need of change, and to draw key stakeholders into the 
planning process. The Washington, D.C. Model Court early-on focused on 
a variety of challenges to be addressed: judicial rotation, timely case 
processing, the need for resources both in judicial personnel and court 
personnel, the need for a court-based data information system, 
addressing case backlogs, and development of an effective working 
relationship with the District's child welfare agency were among the 
priorities set by the Family Division of the Superior Court.
    We at the National Council of Juvenile and Family Court Judges have 
supported the improvement efforts of the Family Division of the 
Superior Court of the District of Columbia since that court's 
initiation into the Model Court project, and we are supportive of the 
efforts of Chief Judge Rufus King III and Presiding Family Court Judge 
Reggie Walton. We have committed to providing resources in terms of 
training and technical assistance to enhance the court's ability to 
achieve its goals. We note that there are several issues to be 
addressed which invite further comment.
                            judicial tenure
    Rotation.--The law, social science, and practice issues involved in 
dependency practice are the most challenging of those faced by any 
court today. This is a specialized field, which requires specific 
knowledge and expertise of judicial officers beyond that required of 
many other areas of practice. Throughout the National Council's 
experience in working with Model Courts, and as cited by the 
aforementioned RESOURCE GUIDELINES, it is critical that a judge who 
hears dependency cases be expert in the law, in issues related to child 
development, in current practice, and in the placement and treatment 
resources available within his/her specific jurisdiction.
    In order to gain this critical knowledge and to maintain a 
knowledge of the families within the child welfare system, it is 
extremely important that judicial officers be retained on this bench 
for lengthy periods, and that length of time between judicial rotations 
be increased. One family/one judge, a key component of best practice 
can best be achieved when judicial officers serve for a significant 
period of time.
    Commitment.--A commitment to this case type by judicial officers is 
critical. In order to achieve best practice in this area, it is helpful 
for judges to self-select to this bench. Those who have a desire to sit 
on this bench should be allowed to do so, even beyond the rotation 
schedule set, if requested. Many states currently require that judges 
rotate off the dependency bench, in spite of the desire of judges to 
remain in this work. This does a disservice to the committed judges who 
wish to stay, and to the families whom they serve.
                     judicial officers/magistrates
    The Hamilton County Juvenile Court in Cincinnati has successfully 
operated a magistrate system for a number of years. Early in the last 
decade, when we were first setting about systems reform, we identified 
the need for judicial officers who would be committed to the dependency 
bench and who would make a career of hearing child abuse and neglect 
cases.
    In Hamilton County there are two full-time judges, who oversee the 
work of a number of magistrates. This has led to best practice as 
recognized by the American Bar Association in its publication 
``Judicial Implementation of Permanency Planning Reform: One Court That 
Works.'' \1\ Cases are held timely, parties are held accountable, 
families and children are represented, and permanence for children is 
achieved well within mandated time frames.
---------------------------------------------------------------------------
    \1\ ``Judicial Implementation of Permanency Planning Reform: ONE 
COURT THAT WORKS,'' ABA Center on Children and the Law, National 
Conference of Special Court Judges, Chicago, 1992.
---------------------------------------------------------------------------
                             case backlogs
    In a system with ever-growing case loads and limited resources, it 
is critical for courts to identify a date from which to implement new 
systems reforms, and to begin reviewing and hearing cases which have 
languished in the system for a variety of reasons. Clearing of case 
backlogs has been achieved in different ways in a number of 
jurisdictions.
    Following passage of that state's child welfare reform legislation 
in the mid-1990s, Utah's state legislature funded a number of special 
judge positions with the specific task of clearing case backlogs. Other 
jurisdictions have cleared backlogs by assigning volunteer judges to 
commit to the additional work necessary to review and hear ``old'' 
cases.
    The Strengthening Child Abuse and Neglect Courts Act of 2000 
(Public Law 106-314), introduced by Senator Mike DeWine and supported 
by many members of this committee, will provide some resources to 
courts nationwide to address case backlogs. This type of concerted 
effort will be necessary if the Family Division of the Superior Court 
is to clear backlogs as they now exist.
                               resources
    It is critical that the Superior Court receive the resources 
necessary to achieve success in its court improvement efforts. As noted 
by the Conference of Chief Justices, these courts require adequate 
resources.\2\ These include:
---------------------------------------------------------------------------
    \2\ Resolution 21, ``Statement of Principles Regarding Children and 
Families,'' adopted as proposed by the Courts, Children and Family 
Committee of the Conference of Chief Justices, Baltimore, Maryland, at 
the 24th Midyear Meeting on January 25, 2001 States:
    ``. . . we will seek to assure those [juvenile and family] courts 
and judges the facilities, resources, and statute among their 
colleagues that they need and deserve to have . . .''
---------------------------------------------------------------------------
    Judicial Officers and Staff.--In order to achieve outcomes 
necessary, it is critical that funding for adequate personnel be made 
available to the court. Staff will include judicial officers, clerks, 
case managers, and other system professionals.
                  court-based data information system
    In order for the court to hold itself, and all system players 
accountable, it is critical that the court have a state-of-the art data 
information system in place. Such a system will allow the court to 
track individual cases, aggregate information, record trends in 
practice, record performance of system professionals, improve 
calendaring, more efficiently develop and disseminate court orders, and 
most importantly track ASA time lines.
    The Hamilton County data information system was critical to that 
court's success in identifying barriers to permanency, how effectively 
the system was addressing problem areas, and how successful the system 
was in improving practice.
                               facilities
    It is critical that the Court have access to facilities which will 
provide a safe and efficient working environment for court staff, but 
most importantly provide a respectful and enhanced environment for the 
families it serves. This can include an adequate number of courtrooms, 
family-centered waiting areas, rooms for client/attorney consultation, 
family resource centers, child care services, and secure areas for 
handling of inmates required to appear during dependency hearings.
                                training
    Regular in-service training for judicial officers, case management 
personnel and others, as well as interdisciplinary cross-system 
training is critical in order to facilitate court improvement efforts. 
As a jurisdiction, the District of Columbia should focus on in-house 
training of judicial officers and other court personnel, and also 
gather key stakeholders, including attorneys, child welfare personnel, 
treatment providers, and others to develop strategies for systems 
change.
    Finally, may I comment that even the best efforts of the Family 
Division cannot achieve systems change alone. It is critical that all 
key system personnel be included in this effort. The Bar, the Office of 
Corporation Counsel, the child welfare system--including those assigned 
to handling the ICPC, Court Appointed Special Advocates, service 
providers, treatment providers, and others involved in handling of 
child abuse and neglect cases--must all be brought to the table. Only 
with commitment from all system professionals to improve practice in 
handling of child abuse and neglect cases can better outcomes for the 
families and children in the District of Columbia be achieved.
    In closing, on behalf of the National Council of Juvenile and 
Family Court Judges, I would like to thank you, Mr. Chairman, for 
inviting me to participate in hearings on this important legislation. 
We at the National Council of Juvenile and Family Court Judges believe 
that with adequate resources, commitment of the judiciary, commitment 
of key system players, and a focus on improving practice, that better 
outcomes for families and children can be achieved. We look forward to 
continuing to assist the Family Division of the Superior Court of the 
District of Columbia in its efforts to improve practice in handling of 
child abuse and neglect cases.
    I would be pleased to answer any questions you may have at this 
time.
                                 ______
                                 

                   Prepared Statement of Paul Strauss

    Chairman DeWine, Senator Landrieu and members of the District of 
Columbia Subcommittee on Appropriations, I am Paul Strauss, the shadow 
United States Senator elected by the voters of the District of Columbia 
and an attorney who practices in the family court division of our local 
courts. In that capacity I have made approximately 5 hundred 
appearances in our family court, representing children and families in 
the Abuse and Neglect System.
    I appreciate the opportunity to provide this statement on behalf of 
my constituents in the District of Columbia. The subject of this 
hearing is extremely important to me and to my constituents of 
Washington, D.C. It involves the physical, emotional and psychological 
health and welfare of our children and their need to be protected by a 
strong, well-structured and experienced judiciary. I testify today in 
support of the Family Division Reform Plan, developed by the Chief 
Judge and the Associate Judges of the Superior Court of the District of 
Columbia. Let me add for the record that I personally oppose the 
creation of a totally separate family court, which has been called for 
by the House Majority Whip.
    The issue before this committee is two-fold in nature. The first 
issue surrounds the need to adhere to home rule principles in governing 
the District of Columbia. These principles pertain to the respect for 
local control and decision making maintained under the umbrella of the 
District's home rule charter, and to respect the decision making 
process apparent in our local judiciary. The second issue of even 
greater importance concerns the protection of our community's most 
vulnerable members. These issues involve a choice between the 
strengthening of the District of Columbia's current court structure 
rather than its complete deconstruction.
    As is apparent today, the State of Ohio has developed arguably 
well-managed family court programs. Let me first take this opportunity 
to thank those Judges from Ohio who have traveled to Washington DC to 
share their experiences with us. These beneficial models, which work 
well in given States, will provide valuable guidance to the District of 
Columbia. It does not necessarily follow, however, that the exact same 
structure will serve the specific socio-demographic and economic needs 
of the diverse population situated within the District of Columbia. As 
you know, the District contains an overwhelmingly urban population, and 
we are not provided the same level of resources bestowed upon State 
governments. Due to the current political status of the District, any 
change to our judiciary, such as the proposed Family Court, must be 
carefully implemented by the local professionals who understand and 
appreciate the needs of the population.
    The Family Court is an institution that must protect the District's 
most vulnerable citizens--its children, as well as provide countless 
other, more mundane, legal functions common to every jurisdiction. The 
safety of children should not and will not be compromised due to 
political agendas.
    Let me state for the record that there have been many times when 
the Republican majority, particularly in the U.S. House of 
Representatives, has attempted to substitute its personal and political 
judgments for the democratically expressed wishes of the District of 
Columbia citizens. I have spoken out against those efforts, and 
criticized those who would violate our democratic rights for the sake 
of political expediency. I have no such criticism today.
    It is clear that the House Majority Whip, and his colleagues who 
are pushing the idea of an independent and separate family court, do so 
not to impose any particular ideology on our judiciary, but based on 
their own good faith belief on the best interests of our children and 
legal process.
    There is no Democratic or Republican way to adjudicate cases of 
child abuse and neglect. The District of Columbia's non-State status 
makes it a necessity that any reform must come from this body. While I 
have often resented the actions of a D.C. sub-committee, which 
appropriates money both from and for the District of Columbia in the 
absence of a member from the District of Columbia, I welcome today your 
input and involvement. Our legitimate desire for self-determination 
does not mean that the U.S. Senate should ignore this important issue.
    An important component of this proposal offers judges of the Family 
Court a fixed three-year term with the option of continuing service 
beyond that time period. It is my belief, based upon my own experience, 
that judges who hear nothing but child abuse and neglect cases are 
susceptible to an unusual amount of emotional stress due to their 
exposure to the horrific nature of these cases, which often involve 
great brutality visited amongst helpless innocents. I can appreciate 
and sympathize with these hardships because I too found that after 
years of litigating multiple trials involving abused and neglected 
children, the emotional toll could be quite significant. The Court's 
present proposal allows judges the opportunity to volunteer for such 
assignments, thus allowing them to seek out the special challenges in 
one or more of the family court sectors, but also involves a plan to 
avoid burn-out and frustration.
    The Family Division Trial Lawyers Association of the District of 
Columbia opposes separating the Family Court from the rest of the 
judiciary. All of the major components of the Superior Court's reform 
initiative depict sound modes of achieving enhanced protection to 
abused and neglected children. The comprehensive plan demonstrates the 
most efficient and effectives means of implementing a Family Court. 
Rather than duplicate administrative efforts, the plan concentrates 
upon team management tactics, continual training procedures, judicial 
specializations, and a multi-disciplinary approach to case resolution 
which emphasizes coherent lines of communication. Even more 
importantly, it has the appropriation envisioned to provide real 
reform. Without the requested additional resources, any plan will 
surely fail.
    I urge you in the strongest possible terms to support the Court's 
restructuring plan and to allocate the financial support to make it a 
success. A strong Family Court, united within the existing Superior 
Court, will improve the quality of life and enhance justice.
    On behalf of the citizens of the District of Columbia, I thank you 
for the opportunity to make these comments; I would be happy to answer 
any questions you may have.
                                 ______
                                 

   Prepared Statements of James J. Roberts, President, and Betty E. 
 Sinowitz, Co-Vice President, Family Division Trial Lawyers Association

    Chairman DeWine, Senator Landrieu, Members of the Subcommittee of 
the District of Columbia of the Committee on Appropriations. We are 
James J. Roberts and Betty E. Sinowitz, and we have prepared this 
statement in our capacities as President and Co-Vice President 
respectively, of the Family Division Trial Lawyers Association (FDTLA). 
Previously, we had communicated by letter to Members of the Senate and 
House of Representatives who are most concerned with the District of 
Columbia.
    Thank you for initiating this very important hearing to address the 
District of Columbia Superior Court's plan to reform its Family 
Division to ensure the protection of our abused and neglected children. 
As officers of FDTLA and as citizens of the District of Columbia, we 
fully support the Family Division Reform Plan authored by Chief Judge 
Rufus G. King, III and the Associate Judges of the Superior Court of 
the District of Columbia. We welcome the special interest of both the 
Chairman and the Ranking Member in these matters.
    The Family Division Trial Lawyers Association (FDTLA) is a 
voluntary association of court-appointed attorneys who represent abused 
and neglected children and their family members, juveniles, and 
mentally retarded and mentally ill adults in Superior Court of the 
District of Columbia. Our clients are the District of Columbia's most 
defenseless and vulnerable citizens in need of professional legal 
services.
    FDTLA strongly advocates the maintenance and improvement of the 
unified Family Division that currently exists within the construct of 
the Superior Court of the District of Columbia. FDTLA vigorously 
opposes the establishment of a separate Family Court. FDTLA officers 
and members are working with the Superior Court to suggest reforms, 
some of which have already been implemented.
    Since our members practice every day in the Family Division of the 
Superior Court, FDTLA has a keen interest in current efforts to bring 
about positive changes in the Family Division. We are working with the 
Court, the legal community, Congress, and community groups concerned 
with abuse and neglect and foster care issues, examining both positive 
and negative aspects in the current system.
    Chief Judge Rufus G. King, III brings commitment, intelligence, and 
energy to his recent appointment. Under Chief Judge King and Presiding 
Judge Reggie Walton of the Family Division, FDTLA representatives, as 
well as judges, hearing commissioners, government attorneys, social 
workers, and administrative court personnel have met over the past 
several months to scrutinize the Family Division's current operations 
and embark on an intensive effort to develop a program that will 
rectify problems which had developed.
    FDTLA supports Chief Judge King's reform plan and the appropriation 
of additional and sufficient financial resources to change the existing 
Family Division. An increased budget will enable Chief Judge King to 
implement his plan in the following ways:
  --Adding additional judges and magistrates for adjudicating abuse and 
        neglect cases and termination of parental rights and adoption 
        matters, as well as for the domestic relations, paternity and 
        child support, mental health and mental retardation branches of 
        the current Family Division.
  --Increasing the terms for judges and hearing officers or magistrates 
        in the Family Division to three years, with at least one year 
        per calendar.
  --Utilizing a collaborative team approach, whereby judges, 
        magistrates, court staff attorneys, court staff social workers, 
        and better trained support staff would provide a new approach 
        to case management and the ongoing review of abuse and neglect 
        matters.
  --Enlarging the use of court mediation services for abuse and neglect 
        and other family law cases, as appropriate.
  --Implementing a better coordination system for scheduling hearings, 
        trials, and reviews of open cases in order to cut down court 
        waiting time, so that both attorneys and social workers can 
        spend more time monitoring their cases and securing services 
        for their clients.
  --Modernizing the computer system to enable more effective tracking 
        of cases and coordination of all cases involving the same 
        families in the court system, the child welfare system, the 
        police department, the Office of the Corporation Counsel, and 
        other agencies
  --Providing extensive and ongoing training in abuse and neglect law 
        and policy for judges, magistrates, attorneys, social workers, 
        and administrative personnel.
  --Allocating larger courtrooms and hearing rooms; providing family 
        friendly waiting rooms for witnesses, parties, and children 
        involved in family law cases; and assigning designated 
        conference meeting rooms for attorneys, social workers, and 
        mediators who work with families and children.
  --Filling vacant file room positions in the clerks' offices and 
        adding more administrative support staff for file rooms and 
        courtrooms.
  --Increasing pay rates for court-appointed lawyers and investigators.
    FDTLA strongly asserts that children already traumatized by abuse 
and neglect deserve the full and serious attention of the most 
experienced, committed, and competent judges who have acquired 
expertise and perspective handling a wide range of cases in many areas 
of jurisprudence. The current system of rotating judges should be 
continued, albeit with changes made less frequently. Determinations 
concerning the removal of children from their parents, placements of 
children with relatives or foster parents, return of children to their 
birth parents, termination of parental rights, and adoption; 
institutionalizing children; and the other difficult decisions must be 
made by judges who are not experiencing burnout resulting from their 
exclusively hearing cases involving human tragedy.
    The present inclusion of the Family Division within the Superior 
Court is the best model. It has much merit. This model integrates 
family matters into the overall structure of the court system, thereby 
maintaining equality of commitment with the criminal, civil, and 
probate divisions. Judges rotate among all divisions giving equal time, 
attention, and commitment to whichever division they are assigned.
    Currently, each of 59 Superior Court judges, regardless of their 
current court assignment, conducts periodic reviews 75-90 cases per 
year, thus presiding over approximately two abuse and neglect matters 
per week. If a separate family court were created, each of some 
thirteen judges on such a court would need to review nearly 400 abuse 
and neglect cases per year, in addition to presiding over initial 
hearings, status hearings, trials, show cause hearings, and emergency 
hearings. This is an unworkable and unrealistic proposal.
    In other jurisdictions with separate family courts, the family 
court is frequently referred to as the ``kiddy court.'' Such courts are 
frequently staffed with new judges who are learning the ropes before 
they are assigned to the ``real'' court. Other jurisdictions have found 
it convenient to cut costs in their budgets by staffing this ``kiddy 
court'' with magistrates and commissioners, rather than with judges, 
thereby saving the ``real judges'' for the ``real court'' with ``real 
problems.'' Jurisdictions, such as New York, which have separate family 
courts, are now advocating the establishment of unified courts similar 
to the one existing now in the District of Columbia. Congress will be 
better advised to study this similar metropolitan jurisdiction prior to 
introducing legislation creating a separate family court.
    Although many government leaders decry big government and call for 
less bureaucracy and lower taxes, the proposed creation of a separate 
and distinct ``Family Court'' will cost tens of millions of dollars in 
the first year alone.
    FDTLA opposes the creation of a separate stand-alone family court 
entity for the following reasons:
  --Merely creating a separate family court will not address the 
        important need for systemic reform in the operations of the 
        Child and Family Services Agency (CFSA), the Metropolitan 
        Police Department, the U.S. Attorney's Office, and the Office 
        of the Corporation Counsel. These government agencies are in 
        transition and are in need of further reforms.
  --In addition to the massive additional costs to establish and 
        maintain a separate family court, a separate court is likely to 
        have difficulty in recruiting and retaining highly qualified 
        judges and hearing commissioners to work in what is likely to 
        be regarded a ``lesser'' or ``kiddy'' court.
  --A separate entity will add massive construction costs and 
        duplicative administrative expense for personnel, equipment, 
        and maintenance.
  --A separate family court may siphon already limited judicial 
        resources from the Superior Court.
  --The time involved in the establishment of a separate court would 
        serve to defer the closure of long-standing, pending cases.
  --A separate court would interfere with the operation of the existing 
        domestic violence branches' its innovative, unified approach to 
        civil and criminal proceedings involving intrafamily violence.
    FDTLA recognizes that there have been problems in the protection 
and permanent placement of children in the child abuse and neglect 
system. It is important to note that it is the Child and Family 
Services Agency (CFSA), not the D.C. Superior Court, that failed to 
adequately protect children, properly monitor temporary placements for 
children, recruit adoptive parents and place children in permanent 
homes. CFSA is the agency under a Federal court receivership, not the 
D.C. Superior Court.
    Now, however, the Superior Court, under the leadership of Chief 
Judge King, is taking a leadership role in developing long-term 
solutions to the difficulties that trouble the Family Division, and 
FDTLA trusts that the Court's reforms will result in a less expensive, 
quicker, more flexible, and more comprehensive response to meeting the 
pressing legal needs of the District of Columbia's most vulnerable 
citizens than would be possible if a separate Family Court were 
established. Addressing complex management issues, limited judicial 
resources, and working with other branches of government will do more 
to meet these needs.
    On behalf of FDTLA, we urge you and your congressional colleagues 
to continue your interest in resolving the problems of the D.C. 
Superior Court and in providing it with adequate financial resources to 
accomplish the reforms planned for the Family Division of the D.C. 
Superior Court under its current leadership.
    On behalf of our clients who are citizens of the District of 
Columbia, we thank you for the opportunity to present our comments. We 
would be happy to provide answers to any questions that you may have. 
We additionally request an opportunity to testify at any public hearing 
regarding any congressional proposals concerning either a stand-alone 
or a unified family court.

    Senator DeWine. Great. Great testimony from all three of 
you. Thank you all very much. I really do not know where to 
start. Let me start, I guess, with you, Judge King. Judge King, 
you and I talked about this issue the other day, and I want to 
explore it just a little bit more. I think we all agree that 
one of the objectives has to be to develop the expertise in the 
judge, and the point has been well made, and I think correctly, 
that you have to have people that want to do this. You do not 
want someone in there who you have to pull kicking and 
screaming into the courtroom. You want a judge who wants to be 
there, who wants to do it, and wants to handle this type of 
case. Explain to me a little bit how you envision this working 
with the new change. Let us start with how many judges you 
think are needed in this unit, and what are we calling this 
unit? I want to make sure I get the terminology.
    Judge King. It would be the Permanency Branch of the Family 
Division, or Family Court Division of the Superior Court. But 
it is the Permanency Branch we are focusing on.
    Senator DeWine. Permanency Branch. And how many judges?
    Judge King. The way we look at it within the Permanency 
Branch, we are looking at, as we now see it, 3 judges and 9 
magistrates, divided in teams, so there would be a total of 12 
judicial officers.
    Senator DeWine. Now, let me make sure and again, these are 
some real basic things, and I apologize, but I want to make 
sure I understand. What does the Permanency Branch do?
    Judge King. These are cases involving abused and neglected 
children primarily. And by having the Family Division as a 
unified family court, if you will, when there is a related 
divorce or other support issue and that type of thing, all 
would be before a cadre of judges who are doing this work and 
are talking to each other and working with each other, but the 
Permanency Branch would address the children who have either 
been abandoned or abused or----
    Senator DeWine. So if you have got----
    Senator Landrieu. How many judges are in the big section?
    Senator DeWine. In the Family Division?
    Senator Landrieu. In the Family Division.
    Judge King. In the entire Family Division, we see a need 
for 15 judges.
    Senator DeWine. Total.
    Judge King. And we currently have 11 judges, including what 
will later become the Permanency Branch.
    Senator DeWine. But Judge, excuse me, you envision 15 
total?
    Judge King. 15 judges.
    Senator DeWine. Which means----
    Senator Landrieu. Total.
    Judge King. We now have eight hearing commissioners, two of 
whom I believe, and if I can, if need be, I will correct the 
record before it closes, address these cases now. So there are 
some magistrate judges who would be needed for other things. 
For example, child support is an area that is handled by 
magistrate judges. And that would need to be continued. So we 
see ultimately--ultimately 15 judges and then the existing, and 
the nine new positions.
    Senator DeWine. I am lost.
    Senator Landrieu. I am lost. Yes.
    Senator DeWine. Yes. State--tell me where you want to go. 
Do not tell me what you've got now. We will get to that in a 
minute.
    Judge King. 15 judges.
    Senator Landrieu. You want 15 total?
    Senator DeWine. Total.
    Judge King. In the Family Division.
    Senator DeWine. And three of those 15 are in the Permanency 
Branch?
    Judge King. Correct.
    Senator DeWine. All right. And then you have got nine 
magistrates in the Permanency Branch, and you are going to have 
how many magistrates in the total?
    Judge King. We are going to have, the total would be an 
additional six, I believe, which will cover paternity and 
support.
    Senator DeWine. Now I am lost.
    Judge King. I think you asked about going outside the 
Permanency Branch.
    Senator Landrieu. How many magistrates for the 
nonpermanency family judges?
    Judge King. Six.
    Senator Landrieu. Not six new. How many total? How many 
would you have?
    Judge King. Outside the Permanency Branch.
    Senator Landrieu. You have three times more magistrates 
than the Permanency Branch. Can we assume you need three times 
more magistrates for the other branches? Because that would be 
45.
    Judge King. No. I don't believe that follows.
    Senator Landrieu. All right. How many would we need?
    Judge King. I believe eight, if I may supplement the record 
to be sure that I have got that exactly right.
    Senator DeWine. Well, but that means then there is a total 
of 17 actually then.
    Judge King. That's right.
    Senator DeWine. Seventeen. I mean the totals for the Family 
Division which includes the Permanency Branch is 15 judges, 17 
magistrates.
    Judge King. That's correct.
    Senator DeWine. Total. And then after that you take out of 
that three judges who go in the Permanency Branch and nine 
magistrates?
    Judge King. Correct.
    Senator DeWine. Okay. Tell me, tell me, explain to me, and 
Judge Grossman, I'd like your input on this as well, how it 
works between the judge and the magistrate. Hamilton County, 
for example, had just a few judges, how many did you have?
    Judge Grossman. Two.
    Senator DeWine. Two. So your ratio was phenomenally 
different. And I am not saying one is right or one is wrong. I 
am just curious how it works with the magistrate. I am curious 
how it worked with your system and Judge King, I am curious to 
know how you see it working with your system. Who does what?
    Judge Grossman. In Hamilton County, we have some 29 
magistrates and two judges and the judges act as the reviewing 
authority for those magistrates. But the magistrates have 
rather broad authority to handle their cases. And particularly, 
in the permanency system in our court, the magistrate can take 
the case from start to finish. With the ability to appeal to 
the judge, but that magistrate becomes a tenured person. He is 
a professional who remains with the system for many years. And 
as such, has that ability to carry a case on.
    Senator DeWine. So in reality, with that ratio, in almost 
every case, that is the final?
    Judge Grossman. Yes. Yes. But these magistrates are almost 
as judges, so that you understand.
    Senator DeWine. Sure.
    Judge Grossman. That when they say they have got 15 judges 
and 17 magistrates, that is, that is the same type of thing, 
and they have more business considering their population than 
we have.
    Senator DeWine. Is that right?
    Judge Grossman. Yes.
    Senator Landrieu. And how are the magistrates appointed, 
just to clarify while we are on the subject?
    Judge Grossman. In our court the judge appoints them.
    Senator Landrieu. Judge appoints the magistrates.
    Judge Grossman. The courts control their own magistrates.
    Senator Landrieu. And under your plan, how would you----
    Judge King. The Court, and ultimately the Chief Judge, but 
with the recommendation of a committee which reviews the 
applicants and presents them to the Board of Judges, and then 
all the judges are consulted and then ultimately the Chief 
makes the pick.
    Senator DeWine. Judge King, tell me a little bit about how 
it works.
    Judge King. On your, on your question, we see a slightly 
different alignment for the District of Columbia plan. We see 
the teams as being comprised of a judge and three magistrates. 
All of them will rotate through the intake court and take in 
cases, so that a magistrate, for example, would cover a week of 
intake. We call them new referrals in our system. That case 
then becomes that magistrate's case for the life of the case.
    Senator DeWine. Is that----
    Judge King. It is much like the magistrate in Ohio.
    Senator DeWine. Okay. But that is just in the--for example, 
so that magistrate, he is not taking in criminal cases?
    Judge King. No. Absolutely not. That magistrate is hired up 
front because the open position will be a magistrate in the 
Permanency Branch. People who apply for that job are people who 
want to do that work.
    Senator DeWine. What has been your experience and your 
ability to attract, is there anything comparable now? The 
question is if you had the challenge of going out there and 
seeking out lawyers who want to do this full time----
    Judge King. No. Up until now, the application has been as a 
hearing commissioner whose responsibilities are plenary. We 
want people to come in and be qualified as plenary magistrates, 
but these positions will be what's up for--what's up for 
filling is a position.

                        Filled as a Family Court

    Senator DeWine. When you interview for that job, you know 
that is what you are going to do. If you do not want to do it, 
you shouldn't interview for the job.
    Judge King. Exactly.
    Senator DeWine. Now, you anticipate the ability to fill 
these nine. Let us stay on the magistrates for now.
    Judge King. Yes. I do. I anticipate that with a--first of 
all, as Judge Grossman said so aptly, with, with enough 
resources, this work begins to get very, very satisfying, in 
addition to being challenging and difficult and everything 
else.
    Senator DeWine. Sure. Sure.
    Judge King. It becomes as satisfying as anything a judge 
can do. And I do not anticipate a difficulty in finding people 
who want to do it. If we enter this period and enter these 
reforms without adequate resources, then yes, there will be a 
problem filling those positions.
    Senator DeWine. I think that is a good point. Let us go--
well, let us go back to the, to the 3 judges, and you told me a 
little bit about this the other day in the office. But these 
would be, you envision, these would be terms of 3 years?
    Judge King. Three years as a minimum with an extension by--
--
    Senator DeWine. Self-extension?
    Judge King. That's right. And the reason that I look at 3 
years is for a couple of reasons. The culture here has always 
been 1-year rotations. That obviously is going to have to 
change. We want to change it so that we encourage people who 
are genuinely interested in this area to stay. Yet, we do not 
say up front that you have to know now that you are going to 
commit to 8, 10, 12 years in this area, because we would miss 
highly qualified judges. An example is Judge Walton sitting 
next to me, who is doing terrific work in this area, and might 
not have signed on for a 10-year term. With 3 years, I believe 
that very highly qualified lawyers and then judges will be 
interested in coming on the Court and doing this work. I 
believe the leaders that we need will emerge in that process.
    Senator DeWine. Judge, as a practical matter, how do you 
deal with this situation? These are Presidential appointments, 
correct?
    Judge King. They are.
    Senator DeWine. And how do you make sure the White House 
understands that you are looking for a few good people who want 
to worry about kids all day?
    Judge King. We need a few good men and women. I have 
actually already done that. As you may know, the structure is 
that a local commission selects three candidates for each seat, 
and then the White House has to pick from among those three. I 
went to the commission during the discussion of this process as 
we have been developing this plan, and indicated to them that 
we really needed their support in using interest in family law 
as an important criteria in who they select.
    Senator DeWine. What kind of reception did you get?
    Judge King. We have three names pending at the White House 
now, two of whom have a significant interest in family law and 
family background.
    Senator DeWine. Good. Good.
    Judge King. I believe that process, when we reach a point 
where we need to add some judges, I believe that that process 
can be made to work in the same way. I believe the Commission 
will recruit for applicants. They will get them and I think 
that we will be able to----
    Senator Landrieu. Can I ask a question while we are on that 
point? Do you mind if we go back and forth a little?
    Senator DeWine. No. You go right ahead. Yes.
    Senator Landrieu. While we are on that point can you all 
clarify for us and for the record how many vacancies there are 
now of the 58?
    Judge King. Fifty-nine is the total.
    Senator Landrieu. Fifty-nine total authorized, how many 
current vacancies there are today, and how many do you 
anticipate, let us say in the next 18 months?
    Judge King. I believe it is three now, and one of the facts 
of life for us, I think it is probably just a fact of the 
numbers if you take any cohort of 59 people, somebody is always 
going to another job, retiring, getting sick, doing one thing 
or another. We always have one or two vacancies. I don't 
think----
    Senator Landrieu. A year. One or two a year?
    Judge King. Or at any one time.
    Senator Landrieu. But there are three current openings now?
    Judge King. But now, let us see, there is one pending at 
the White House. Two I believe are pending here in the Senate, 
so they are in the pipeline.
    Senator Landrieu. They are in the pipeline, but there are 
three vacancies?
    Judge King. Correct.
    Senator Landrieu. But these I understand are 15-year terms?
    Judge King. That's correct.
    Senator Landrieu. So we could surely get a list of those 
whose terms are expiring in the next 18 months. Do we know what 
that is? Do we know how many?
    Judge King. It isn't always indicated because many times we 
can renew in a less formal process than the initial 
appointment. There is a judicial tenure commission which 
reviews applications to review the term. So often you'll get 
judges to renew. I have indications that there are two 
retirements that are likely to occur.
    Senator Landrieu. But could you just for the record--I 
think it would be helpful, Mr. Chairman, if just for the record 
we had the absolutely official information.
    Judge King. Absolutely.
    Senator Landrieu. About how many of these terms----
    Judge King. Numbers and terms and when they expire.
    Senator Landrieu. There has got to be an expiration date 
for every judge currently serving, and I think for the record, 
we need to have that so that we can help make the best 
decisions here and if you could provide that for the record not 
today, because you do not, I am sure, have all those details. 
59, but I thought that would be helpful.
    Senator DeWine. That would be great.
    Judge King. Be happy to do that.
    [The Information follows:]

    At the hearing, you also inquired as to the number of 
judges authorized for the Superior Court, the current number of 
vacancies, and the number of judges whose terms expire this 
calendar year. The District of Columbia Code, Section 11-903, 
authorizes 59 judges on the Superior Court. The Superior Court 
currently has 3 judicial vacancies. The Senate confirmed two of 
the three candidates nominated by the President in late May. 
They will be sworn in this July. It is not unusual for there to 
be one or more vacancies on the Court.
    Judge Queen is the only judge whose term will expires this 
calendar year; she is retiring this month. The President's 
nomination to replace Judge Queen is now pending before the 
Senate. In addition, Judge Wynn recently announced her decision 
to leave the bench in October, 2001.

    Senator DeWine. Before we move away from this particular 
issue, let me make sure I understand. Your goal in the 
Permanency Branch is to have three judges, nine magistrates. 
The nine magistrates would basically be hired with the 
understanding that this is what they are going to do. I will 
let you read your notes.
    Judge King. I am--I am pointing out that we have been 
focused on the neglected and abused children in the Permanency 
Branch. There is, of course, also an adoptions calendar, 
termination of parental rights calendar, and a custody 
determination calendar. Those would each have judges. So they 
are actually----
    Senator DeWine. That would be a separate branch?
    Judge King. No. Would be within the permanency branch, but 
they are all related to the neglected and abused children. In 
other words, to achieve permanency, you have to get to adoption 
or----
    Senator DeWine. Right. Right. You couldn't separate those.
    Judge King. Or TPR or you have to do one of those other 
things.
    Senator Landrieu. Well, could we clarify, though, then how 
many total judges we are talking about?
    Judge King. It is still 15 judges and 17 magistrates in the 
Family Division.
    Senator DeWine. How many in the Permanency Branch?
    Judge King. In the Permanency Branch, six judges and then 
the nine magistrates.
    Senator DeWine. Six judges.
    Judge King. Six judges because of these other calendars 
that I frankly wasn't thinking of.
    Senator DeWine. Okay. Wait a minute now. I got the numbers, 
but take a case through for me. Are we switching judges here in 
the middle of the stream here? I mean, Permanency Branch 
covers, give me the list of what you cover. You cover----
    Judge King. Permanency branch is abuse.
    Senator DeWine. Abuse. Adoption. Neglect.
    Judge King. Then have you an adoption calendar. A 
termination of parental rights calendar.
    Senator DeWine. Well, now wait a minute now. The 
termination. You say calendar.
    Judge King. That means a judge presiding over those cases.
    Senator DeWine. Well, how could--why would, why, you mean 
you would have a different judge--let us say a case comes in, 
allegation of a child has been abused, okay. Judge makes a 
determination, got to take the child out of the home for a 
while. Takes the child out of the home. Comes up every so much, 
you review the case. You are working with children's services. 
That judge, Judge X is doing that. Okay. Now, are you saying 
that at some point when you are getting ready to terminate 
rights and that goes to a different judge? I must be confused.
    Judge Walton. It might.
    Senator DeWine. Well, why in the world would that happen?
    Judge Walton. For legal reasons. A party may believe and 
may file a motion for a judge who has handled that matter 
throughout the process to recuse him or herself in reference to 
the termination issue because they may believe that the judge 
has already formed opinions about the parents and therefore the 
parents may feel that they may not receive a fair adjudication 
before that particular judge, so they may move to have that 
judge----
    Senator DeWine. Well, are those automatically granted?
    Judge Walton. They would not automatically be granted.
    Senator DeWine. I would hope not. I mean, it is the one 
person in the court system who knows what's going on. You have 
lived with this mom and dad, who are no good for 4 or 5 years 
and you finally come to the conclusion based on all the 
evidence that they are never going to be any damn good. And 
this kid never can live there.
    Judge Walton. That is very true.
    Senator DeWine. Now, we are going to get another judge. I 
am not blaming you, Judge. I just think it would be absurd if 
they do that.
    Judge Walton. We would hope, we would hope that would not 
be the case. But we also have a Court of Appeals that we have 
to answer to. And we have due process.
    Senator DeWine. But what you are telling me is that would 
not automatically switch over?
    Judge Walton. It would not.
    Judge King. No. The notion of----
    Senator DeWine. So the one judge could take that case 
basically all the way through.
    Judge Walton. We would hope that would be the norm.
    Judge King. That is the desired response.
    Senator DeWine. Okay. I get it.
    Senator Landrieu. Could I jump in here too, and I really 
appreciate the chairman's leeway. Normally we kind of do 
questions 10 minutes and 10 minutes.
    Senator DeWine. It is a lot easier this way.
    Senator Landrieu. It is a lot easier this way. And he and I 
have so many similar views. But I just want to say how 
concerned I am about the statements about--that were just made 
about children moving from either abuse judges then to adoption 
judges, then to termination judges. I think that as we work 
through this process, if we could get back to what Judge 
Grossman said, regardless of whether we have it integrated or 
separated, or how it is established, the most important, one of 
the most important pillars that I understand reform, and I 
could be wrong, but I have done this a lot around the country 
in my own State, is that it is so important for the same case 
to be handled throughout its entire many different stages by 
the same judge. But frequently, there will be cases of abuse 
that turn into cases of adoption or cases of abuse that turn 
into cases of reunification or cases of abuse that turn into 
termination of rights plus adoption and then post-adoption 
services.
    So I hope that we could think, and I know you have spent a 
lot of time thinking about your proposal, but I just have to 
say, Mr. Chairman, that that is worrisome to me. I just have to 
say, Mr. Chairman, that I hope we can revisit the issue of the 
structure so that one goal we reach, whatever the numbers are, 
whatever the training is, whatever the term time of the judges 
and magistrates, is that we try to keep the children in the 
same, before the same judge--the families before the same judge 
so that that 18 months that we have put into effect as law, and 
I want to say to the chairman, I know he feels this way, but I 
have every intention as a co-sponsor of that legislation of 
making that 18 months the outside limit of what a child has to 
go through to be outside their biological family. So they are 
either going to be back with their family and we are going to 
hopefully have services around the country to support it, or 
they are going to be with a new family.
    Senator DeWine. And let me just add, I totally agree with 
your comments. The continuity is absolutely vital in my 
opinion. And I must also, Mary, comment about the time limit. I 
mean, my experience, well, what I have seen is unfortunately 
the time limit is becoming, it flips and instead of being, the 
maximum as we intended it to be, it is sort of like everyone 
says, well, we have got 18 months. And that is just, I am not 
talking about the District. I am talking about around the 
country, and it is a problem and I do not know how we are going 
to deal with that, but I think this Congress frankly has to 
revisit that.
    Judge King. If I may?
    Senator DeWine. It is just becoming, I have seen too many 
counties in my home State of Ohio where it is just, oh, that is 
just 18 months and whatever the time period is, we got that 
long, let us not worry about it.
    Senator Landrieu. Yes.
    Judge King. If I may address, because the concern I 
understand is very real. I do not want to leave here with a 
misunderstanding. Our vision is that a magistrate picks up a 
case and that is, that case belongs to that magistrate until it 
is closed by a permanency decision. But we can't abandon due 
process. We can't abandon the law, and that will require 
sometimes a contested trial.
    Let me also make sure that everybody understands, TPR is 
when you have a contested situation where you may already have, 
for example, an incipient adoption ready to go. You have made 
all those services, but you need to deal with a contested 
termination of parental rights situation.
    Senator DeWine. Right.
    Judge King. Where you may be unable to do it by consent. 
That has to be done and sometimes due process is going to 
require that that be done outside one magistrate. But the 
design is not to have people going from magistrate to 
magistrate or judge to judge.
    Senator Landrieu. So the case would stay with the 
magistrate. It would not be moved, regardless of whether it is 
abuse or neglect, termination, reunification, adoption.
    Senator DeWine. It is the same kid.
    Senator Landrieu. Same kid. Same magistrate. Same family. 
But under your plan, you are proposing they may see a different 
judge at a different calendar, like an adoption calendar.
    Judge King. Yes. If it is necessary for due process reasons 
or because----
    Senator DeWine. But that will not show up automatically. 
That won't flip over automatically?
    Judge King. No.
    Senator DeWine. That would have to be a motion in court. 
Somebody is coming in and saying----
    Judge King. Exactly right.
    Senator DeWine. Obviously Judge King is prejudiced, he has 
ruled against me 18 times in a row, obviously he hates me.
    Judge King. Then if it does go over, far better to have 
that in the Permanency Branch, where you have got judges who 
are still in the work and up to speed and knowing what's going 
on.
    Senator DeWine. Judge Grossman? Just jump in here, all of 
you, Judge Walton, we are pretty informal today.
    Judge Grossman. One thing that will help this Permanency 
Branch concept is if there is one judge who is in fact the 
presiding administrative judge of that branch, one of these six 
is one judge who is in charge and probably envisions being 
there for the long pull.
    Senator DeWine. Why does that matter?
    Judge Grossman. Well, that will add stability and 
responsibility to that section. I hear Judge King saying well, 
you are going to have to have some contested cases that will 
move to a judge. That isn't necessarily the law. You know, 
across the country, we have this same problem, and in fact, 
again, in my own court, the magistrates handle contested, 
uncontested, you name it. It doesn't matter. It is a matter of 
what you clothe them with in the way of authority. So you can 
do this in different ways, but you need to look carefully at 
the authority you have given to the magistrates here in 
Washington, D.C.
    Senator DeWine. Well, let us talk about that a minute. That 
is an interesting question. How much authority do the 
magistrates have? Can they take this case all the way? Is there 
something to stop that from happening? Is there something in 
the law that is written or----
    Judge Walton. We would have to change the law to the extent 
that there would not be a requirement of consent by the parties 
for the magistrate to handle certain matters.
    Senator DeWine. The law is now what? Explain to me what it 
is now. What do you have to have consent for?
    Judge Walton. There has to be consent of the parties for 
the magistrate to handle certain types of matters.
    Senator DeWine. What would those be, Judge?
    Judge Walton. Clearly there would have to be a consent in 
reference to adoption and termination.
    Senator DeWine. What would those--do you know what those 
are, though? Where you have to get, the magistrate can't hear 
the case unless there is consent of the parties?
    Judge Walton. I have to go back specifically and look at 
the legislation.
    Senator DeWine. Judge King?
    Judge King. It would include a contested adoption trial or 
TPR trial. It would include other things unrelated to the civil 
trials and criminal trials.
    Senator DeWine. Let me ask, well, what's your opinion about 
that?
    Judge King. For the Permanency Branch, our expectation is 
we would change so that the magistrate would have full 
authority without consent. Parental consent. I think what Judge 
Grossman has in mind and what we have in mind is very much the 
same.
    Senator DeWine. I mean, quite candidly, I know I will shock 
the judges in this room, but I would assume that the 
magistrates can handle these cases as well as the judges can.
    Senator Landrieu. Do not tell the judges that.
    Judge King. That is probably true.
    Senator DeWine. I mean in all seriousness, if they have got 
the expertise. You hired them. They got to be good.
    Judge Grossman. Mr. Chairman, in my court, that is true. 
The magistrates know their stuff.
    Senator DeWine. I mean that is what they are going to do 
every day. I mean quite frankly, Judge, one of the things that 
I like about this is I get to understand it better, the 
permanency of the magistrates and the expertise of the 
magistrates. It seems to me that that is going to be the saving 
grace even if you have trouble keeping--if it turns out under 
your proposal that no judge can stand it for more than 3 years. 
I mean even assuming you get a lot of movement up here which 
you do not want, but the saving grace is going to be you got 
the magistrates sitting down there who are going to do that 
every day and they are going to develop the expertise and they 
are going to be able to do it, so I guess as we look at what 
you are planning on doing, it seems to me that the more 
flexibility you can give yourselves--I mean, there is nothing 
to stop you from pulling the case up, I guess, but you know, it 
seemed to me that you would want to be in a position where that 
magistrate can handle just the bulk of this stuff, if not all 
of it, and then if you decide that is not working, you want to 
pull some of these up, you can, I suppose, do it. But I would 
let that magistrate have an awful lot of authority.
    Judge King. That is exactly what we have in mind, and in 
fact, what I see, and I think we are still, some of this, you 
understand, we are still refining and looking at and developing 
as we go on.
    Senator DeWine. That is why we are talking.
    Judge King. I appreciate that. What I see is the magistrate 
would ordinarily take the case and we would need the law 
changed to make sure that the magistrate had full authority to 
do that. The judge would take selected cases where there were 
unusual--maybe contempt issues or systemic issues with the 
agency or something like that. But otherwise the magistrate is 
the beginning and end of that case.
    The other thing I did want to point out, if a case did go 
out to a separate adoption or TPR calendar, it doesn't leave 
the magistrate. It goes out there for that contested 
proceeding, but the magistrate remains responsible for the 
supervision of the case. Is the child in the right placement or 
are the right educational services in place, or the right 
counseling services and the like. That all continues under any 
circumstances with the same magistrate.
    Judge Walton. And this would be a new system where the case 
would be handled by one judicial officer from beginning to end, 
and at some point we are going to have to test the waters and 
see what the Court of Appeals will sayif we have an objection.
    Senator DeWine. Sure.
    Judge Walton. And that objection is overruled, to what 
extent the Court of Appeals is going to take a contrary 
position if the judge keeps the case.
    Senator DeWine. Right. I guess my only point is that you 
know as you draft this, the law should be as flexible as 
possible. You always have the Court of Appeals who can look 
down and say well, you know, obviously there is prejudice here 
and there is appearance and they should have gotten a new 
judge. That is life. But you are right. It seems to me to get 
as much flexibility as you can so these cases can remain right 
with that magistrate. Mary, do you have anything else on this?
    Senator Landrieu. No.
    Senator DeWine. If we are done, I want to move to another--
I am very much appreciative of one's indulgence, and I think 
that it looks to me as if with the caveats that I have stated, 
I think that by and large it makes sense, your approach here 
with the magistrates and with the way you have it set up with 
the permanency unit. I mean, obviously what our goal is, 
everyone's goal is to get the continuity and get the expertise. 
It is continuity and expertise.
    Let me talk a little bit or ask you a little bit about 
training. The training that you talk about in the plan, is that 
cross-training? In other words, are you involving the other 
disciplines at the same time?
    Judge King. Yes. In fact we, in fact we just----
    Senator DeWine. I mean all the different players.
    Judge King. That's right. And actually, one of the things 
that we have talked very preliminarily about with some of the 
agency people, and one of the things as you understand, Olivia 
Goldman was just selected as the new head of Child and Family 
Services. She actually assumed her duties yesterday morning, so 
I have not yet had time to set up the lunch that I intend to 
set up to explore with her how we can work together in a way 
that gets us off on a footing to let us do our planning 
together. We have some separation of powers, demarcation lines. 
We'll honor those, but that doesn't prevent us from rolling up 
our sleeves and figuring out how we can do this together.
    Senator DeWine. Do you have the money to do that in this 
proposal?
    Judge King. Some of it will be needed, additional money. We 
have it in the proposal.
    Senator DeWine. You have included that in the----
    Judge King. Yes. That's correct. I particularly picked up 
on your point, on cross-discipline training. We just completed 
training on the psychology and sociology of persons at risk for 
abuse--for abusing children. I think judges and others working 
with children in this context need to have not just legal 
training. We, of course, do need that, but we also need to 
understand the profiles of the human beings who are involved in 
this system and how we can better understand what the dynamics 
are.
    Senator DeWine. Judge Grossman, any comments on training in 
your experience in Hamilton County? Anything to do or not to 
do?
    Judge Grossman. Well, your comment, Mr. Chairman, of cross-
training is extremely important. And the bringing in to this 
process the people that are going to be assisting the court in 
their handling of these cases is very important. There is no 
closer connection that needs to be made between the judges and 
human services than sitting down together on a regular basis. 
We did it in Cincinnati once a week for a long time and now we 
don't have to do it quite so often.
    Just working through the problems of getting the systems to 
mesh, and the only way to do that effectively is for the tops 
on both sides to sit down together and talk frankly about 
what's holding the train up. And then, of course, the training 
will follow under that, and by the way, in the training 
process, as you are going to also develop a sense of who might 
be a good recruit for your court staffs or your court 
magistrates or your court people. You are going to find that, 
you are going to find some good people in that process.
    Senator Landrieu. Could I just jump in and say that this is 
a really, I think it strikes me as a wonderful opportunity with 
Ms. Goldman now coming in as a new leader on basically the 
District side and once, Mr. Chairman, we hopefully will move 
forward and identify the senior judge over this permanency and 
family--to have their chief administrative officers identified 
and work as a team to help us really implement the reforms that 
we hope will be passed and reflected in this legislation, 
because as you know, it is more than just drafting and passing. 
It is the implementation where the rubber really hits the road, 
and I hope we would just keep that in our minds as we move 
forward. That strong administrative support, working together, 
just as you said, to make this new system really come to life 
more quickly, sooner than later because literally lives are at 
stake and we do not have a lot of time. So I am very encouraged 
by that.
    Judge Grossman. Senator, Mr. Chairman, Senator Landrieu, 
there is another advantage. One of the things we found in our 
court when we started our, our pathway to fixing our system is 
the problem of placing blame, and the court had to admit its 
own faults. You cannot try to get other people to do things 
right.
    Senator Landrieu. The blame game doesn't work.
    Judge Grossman. Right. If you are not willing to say look, 
we are part of the problem. And when you get together, you get 
the chiefs together and you say look, it isn't just you that is 
doing it, we are all in this, so the blame game drops out, and 
you start saying hey, we are all in the same track. We need to 
work together. We all have enough problems that we need to look 
at, and that process is helped immeasurably by that.
    Judge King. If I might mention the, current buzz word co-
location; we contemplate providing space for representatives of 
all of the city agencies that would be involved in providing 
necessary services to children and families. That way when you 
are in court deciding, for example, we need an educational 
assessment, instead of saying go talk to a social worker some 
indefinite time in the future, can you say step out of the back 
of the courtroom. If you will turn left the second door on your 
right, go in there, there is a person who will sign you up. Go 
in and get the appointment you need and get the change going. 
We plan to do that with the CFSA, Public Schools, the 
Department of Housing, all of the agencies that are critical.
    Senator Landrieu. That would be excellent if we could 
fashion something like that. How do you want to do the vote?
    Senator DeWine. Well, how much more----
    Senator Landrieu. Why don't you go vote and I stay.
    Senator DeWine. There are 2 votes. Why don't we push ahead 
here for another 5 minutes, see how we can cover----
    Senator Landrieu. I do have a few questions, but go ahead.
    Senator DeWine. Tell me a little bit about the IJIS. Judge, 
you used it in Hamilton County, the system, is that right? And 
Judge, you are into it now?
    Judge Grossman. That's right.
    Senator DeWine. How should it work? What's it do for you?
    Judge Grossman. Our information system?
    Senator DeWine. Yes. What's it do for you?
    Judge Grossman. Well, not only does it keep docketing 
systems in order, it also has case histories and the whole 
background of the individual child, the individual family that 
stands up in front of the sitting magistrate or the sitting 
judge on his screen.
    Every court has computers in it. We are now at the point 
where we actually have cameras in the court where we can 
actually tape the whole process, and get everybody's on a 
videodisc, you know. And I would invite all of you to come and 
kind of look at what we have got because it might be helpful as 
you set up. They are not cheap to start with, about $40,000 a 
courtroom to get everything you need put into it in the way 
that you need in the way of an information system, but once you 
got it, you got it.
    Senator Landrieu. But is this something unique to Ohio, Mr. 
Chairman, or is this a system that has been developed that is 
off the shelf software, pretty much, that many courts are 
using?
    Judge Grossman. No. No. Every court is sufficiently unique, 
every jurisdiction, that they cannot just take it off the 
shelf. You are going to have to do some development on your own 
now. Obviously, you can use some systems as a guide or as a 
base to start with, but do not try to put in a system that is 
going to be one size fits all. It won't work. You need to let 
the Washington, D.C. courts really take the lead in developing 
their system.
    Senator DeWine. Judge, where are you on this?
    Judge King. We are at the point where we actually have had 
a needs analysis done for our entire court system. We are like 
many State courts, we have a patchwork of systems so we have 
got 18 different database systems that do not communicate with 
each other and many of them are difficult to use and outdated. 
We have done a study to set out the parameters, what it is we 
need. The recommendation coming out of that is that we do just 
what Judge Grossman says, take advantage of the off the shelf 
items, which have come a long way, to the extent possible and 
then build on that platform.
    And my commitment from the beginning has been that as soon 
as we are given any funding to proceed with that--we patched it 
together and sort of strung along on grant money, but as soon 
as we are given the serious, I think it is between $1.5 and 
$2.6 million that we need for the Family Division piece of it, 
that is where we will get started. We will get this platform 
built. Ultimately, what I want to see is a system that 
encompasses the entire court system so that a magistrate 
sitting in an abuse case will be able to immediately and easily 
figure out, well, is there a landlord/tenant issue that's 
holding things up here that could be resolved in a way and that 
type of thing.
    Senator DeWine. Judge, Congress did appropriate $2.5 
million for this. Where is that?
    Judge King. It had a--this was, I think a couple of years 
ago. We were zeroed out last year.
    Senator DeWine. 2000 budget.
    Judge King. That's right.
    Senator DeWine. 2000 budget, $2.5 million.
    Judge King. The language said, this is before my tenure, so 
I do not know all of the details, but as I understand it, the 
language read ``up to $2.5 million''. It didn't say 2.5, and 
because we were faced with other emergencies in the CJA 
funding, did not use the money at that point.
    Senator DeWine. Okay, so that money, that $2.5 million was 
never used?
    Judge King. That's right. And it said ``up to'', though, 
and that is the problem. I would hope that in this we would 
have a clear sense of what's earmarked and what's not. If there 
is something earmarked for technology, then that is my wish.
    Senator DeWine. Your total request for this is what, 
though?
    Judge King. For the entire system courtwide is $7.2 million 
from where we are now. Minus some grant money, which I think 
brings it down to maybe $5.9 or $6, somewhere in there.
    Senator Landrieu. But this piece of it is----
    Judge King. Family piece is $2.6 million total, and I think 
we have some grants which will bring that down a little bit in 
order to complete the Family piece, and you understand what I 
want to do is build the----
    Senator Landrieu. Family piece first.
    Judge King. Piece of the platform, but the platform has to 
be consistent with what we are later going to do, so we will 
build the Family out so that is complete and ready to go, but 
we will do it in a way that we can then add on in a consistent 
fashion so that we then end up with the entire system.
    Senator DeWine. We have two votes. I think we better come 
back. What do you want to do? We have got--I have got some more 
questions. Can you all hang with us for a while?
    Senator Landrieu. About 15 minutes. We will take a 15-
minute break.
    Senator DeWine. Mary is a lot more optimistic than I am, 
but----
    Judge King. I have testified, please take your time.
    Senator Landrieu. We will vote fast and we will try to come 
back.
    Senator DeWine. We will see you all in 15 or 20 minutes.
    Senator DeWine. We will get started. Senator Landrieu is on 
her way. I just have a few more questions. Just so I 
understand, Judge, your understanding is that that, the facts 
are that $2.5 million just was never spent at all then?
    Judge King. One thing--it slipped my mind, and in fact I 
was engaged, I was one of the slowdown guys. Part of the reason 
we didn't spend it is we weren't ready. We didn't have the 
planning in place and I have always been an advocate of advance 
planning, we aren't going to spend this money until we can 
spend it wisely, so it was partly we weren't ready to go in 
that direction. We did do some of it. I think we ultimately 
ended up spending $350,000 or something that year. But it was 
spent--I think we had a, an emergency need in the CJA funding, 
for good or ill. Again, this wasn't my decision.
    Senator DeWine. CJA is what?
    Judge King. I am sorry. Criminal Justice Act. Compensating 
lawyers for indigent defense. We had to cover that, and so we 
did.
    Senator DeWine. That is how you did it.
    Judge King. And that is how we did it. So the money was 
spent properly and we apparently misread the intent of the 
language that said ``up to'', and one of the things I am very 
hopeful is that as we go forward from here, now it is my watch, 
and I want to be sure that we stay in touch enough so that if 
there is an intent that we spend that type of money----
    Senator DeWine. But you would be ready to roll fairly 
quickly?
    Judge King. That's correct. We are ready now.

                                BACKLOG

    Senator DeWine. Let me talk about the backlog. I think 
Judge Walton and Judge King, I think you both talked a little 
bit about the backlog, at least in your prepared statement. 
What do you mean by backlog? I mean, what constitutes a backlog 
and what are you going to do about it? But what is it, first of 
all?
    Judge Walton. We do not call it a backlog. The older cases, 
the cases that are currently in the system post-disposition 
that are currently being supervised and reviewed by judges, and 
as I indicated, that number is about 4,500 cases. That is a 
real difficult problem for us to deal with, and we believe that 
to transfer those cases back to the newly created Permanency 
Branch would impede the ability of the new Permanency Branch to 
handle new cases that are coming in.
    Senator DeWine. Give me an example, though. Just make up 
one example.
    Judge Walton. Of a case that is difficult?
    Senator DeWine. Well, of a--Judge King in his prepared 
statement said, let me read it to you. ``Most of the 4,500 
children for whom the court is responsible are unlikely to be 
adopted. It will be very difficult to place many of them in 
permanent homes. The majority of children enter the system at 
age 7 or older, when adoption is unlikely.'' Are these the kids 
we are talking about in this?
    Judge King. If I can jump in, since that is my statement, I 
realized after, as you know, we have been on a very fast track. 
I do not mean by that, that every effort wouldn't be made to 
get them adopted. We certainly go in with the attitude that 
in--any case as far as we are concerned--this case is going to 
reach a permanency closure in a reasonable time. What I meant 
by that statement is that we do need to be realistic that some 
of these cases do have real challenges in them and we shouldn't 
plan on or build a structure that would be overwhelmed if our 
expectation of a very rapid drop in the caseload weren't 
realized because some of the cases are problemmatic.
    I can give you an example of a child who had severe 
learning disabilities who was Hispanic speaking. There was a 
very good foster care situation. The readily available 
resources included a Hispanic school and a special school, but 
not the two together. And so there had to be a very expensive 
private education option taken which could not have been done 
under the existing adoption subsidies.
    So now we are stuck with these foster parents who would 
love to adopt that child and close the case and be on with 
their lives, but out of love for the child, they cannot do that 
because the best interests of the child would be frustrated if 
they did that. So it is that kind of situation where there are 
just issues that aren't necessarily going to neatly get 
packaged up and resolved quickly. But we need to. Obviously 
with more resources, I hope the caseload will drop in half in a 
reasonable period of time. But we do not want to build a 
structure which would have no safety valve or no ability to 
cope with a situation where the caseload didn't drop right 
away, and that it took some time to get it worked out.
    Senator DeWine. Judge Grossman?
    Judge Grossman. I think when you speak about backlog or the 
current cases that are in the pipeline, it will be important, 
first of all, to elect a date upon which your new process 
begins, so that the backlog or the old cases are not simply 
added to it. You do not push more over in that direction, so 
that is the first important step. Set a date. Move your new 
system forward at that date with the new filings.
    The older cases, it has been the experience across the 
country where you start looking carefully at all of those older 
cases and as Judge King says, you start trying to solve them. 
Each one may have a little different glitch in it or little 
different problem, but you try to solve it and work at it, and 
the experience has been that in fact the shrinkage occurs in a 
relatively, I do not want to say fast way, but in a relatively 
efficient way. Those cases are not nearly as intransigent in 
general as the number would seem to indicate. You'll find that 
you can work them to get into some form of permanency, to get 
them into some form of stable situation where they come off the 
court's calendar.
    Senator DeWine. In the example that you gave, are you 
saying that basically the permanent situation is that this 
child is going to be in this home, he is going to be--for 
economic reasons cannot really be adopted, and that child is 
going to be in that home until he or she leaves?
    Judge King. That's right. And now that might be listed as 
an extended foster care situation, but in fact, there is 
bonding, and the child is part of that family.
    Senator DeWine. In fact, you have resolved that case as 
best as you can.
    Judge King. As best as we can. That's correct.
    Senator DeWine. What do you do with it then? You put this 
over in a different category?
    Judge King. Under law, as long as it is in foster care, we 
have to review it twice a year under supervision.
    Judge Grossman. You need a category, like some people call 
it permanent guardianship, some people call it permanent 
custody. There is a system in many States, in ours and many 
others, where you simply have a category that says to this 
family with whom this child has bonded, it is your child. You 
have authority over that child. You have custody permanently, 
and you cut off the court's review.
    Judge Walton. I have a case almost exactly like Judge King 
described. The problem is that the money is available to 
provide the educational resources for this child who also is 
severely learning disabled and in the foster care process, but 
if we went to guardianship or if we went to some other type of 
arrangement, funding at that level would not be available so 
the child could not remain in the most appropriate educational 
setting.
    Senator DeWine. Which also tells those of us in Congress 
that we got a problem with the law, but that is long-term. We 
do.
    Judge King. My thought is that if the different options, 
whether it is permanent guardianship or permanent custody or 
adoption, if they could be rendered revenue neutral, so that 
whatever is available, whatever you do and you close it, the 
revenue is the same for people who step in.
    Senator DeWine. I mean the reality is the local 
jurisdiction ought to have the option to make the decisions, 
whether it is, you know, however you label the child shouldn't 
be the determining factor. The child should be the determining 
factor. We are not going to solve that today, but that is 
obviously the problem.
    In the area of adoption, that really is not your, you are 
not the moving force in that, though? You are the receiving 
player. I mean, in other words, in the D.C. system, it is not 
your responsibility, is it, to go out and find adoptive homes 
for these kids?
    Judge King. No. Of course, it is our responsibility to see 
that that effort is being made.
    Senator DeWine. Well, but what do you do in this area? What 
is your responsibility? Where are the lines drawn? I mean, 
obviously you have to hear the case, but--but what do you do 
beyond that?
    Judge Walton. At the review hearing, we will instruct the 
social worker to advise us as to what efforts have been taken 
to find an appropriate adoptive or preadoptive home for the 
child, and that is really the best that we can do. But we 
cannot initiate adoption proceedings. We cannot go out, as you 
say, and find adoptive parents.
    Senator DeWine. I mean, at the last hearing we did hear 
some statistics about what the District has been doing, but 
that really is not, you are not the moving people there.
    Judge Walton. No. But we do play a role. I mean, we have 
increased the number of adoptions significantly within the 
court system, so the court system does play a role in 
expediting those cases that are actually brought before us for 
adoption. I think we have done a fairly good job at doing that.
    Senator DeWine. Anything else that any of you would like to 
make us aware of today? I think it has been a good hearing, and 
I thank you for coming in. I thank you for your patience. You 
know, we obviously want to work with you, and we obviously want 
to help you try to get the funds to try to get the job done. 
Judge?
    Judge Grossman. Mr. Chairman, I would offer the good 
offices of the National Council of Juvenile Family Court Judges 
for the model courts projects, for all of the work that we have 
done in the area of technical assistance. We stand at the ready 
to help the Washington courts. We stand at the ready to do 
anything we can to be of assistance in furthering this process. 
I know, Senator, you are well aware of that work. I just want 
to make that known.
    Senator DeWine. Well you are a great resource, Judge. You 
are personally. And the organization is, too. But we--we will 
utilize the expertise that you have.
    Judge Walton. I would just like to say publicly that we do 
thank Judge Grossman for his efforts. He has always been 
willing to speak to us and provide us with sound assistance in 
trying to solve our difficulties, and I also want to thank you 
personally, because change sometimes is difficult, and 
sometimes it is painful to reach that point, but I think the 
scrutiny that you have shown to this issue has forced us to 
look critically at what we are doing, and I think ultimately it 
will result in a better product.
    Senator DeWine. Senator Landrieu?
    Senator Landrieu. Thank you, Mr. Chairman. And he was much 
better getting back from this vote than I was. Let the record 
reflect that. But I am glad I was here just to personally thank 
you all for your good work and say how much I look forward to 
working with you, as I said, in my opening statement, I think 
that the document that you have presented is a good working 
document. It is a good step, and as we negotiate this between 
the House and the Senate, and Democrat and Republican, looking 
at this, I think there is a lot of common ground into how we 
will shape this reform.
    We intend, though, for it to be very meaningful, very real, 
have as an immediate impact as possible. I want to assure you 
that with every step of reform that we work with you on, I will 
do my very best to help provide, and I know the chairman will, 
the resources to make that real. And Judge Grossman, I want to 
thank you for giving us some help and expertise and for your 
testimony about there is no magic way, but there are some magic 
principles that need to be adhered to for the courts to work, 
whether it is D.C. or Ohio or Louisiana, and as much as we can 
adhere to those magic principles, I think that those children 
and families of Washington will be well served. And I would 
just hope, Mr. Chairman, we will have some follow-up time.
    But in the record I want to just reiterate my strong 
support for the role of CASA and the workers and the 
volunteers. I wanted to say because I didn't get my questions 
about how important I think it is for mediation by the courts 
and the system to facilitate families, extended families making 
the best decisions for the children and families as possible.
    And I think sometimes across the country, we have used a 
very adversarial approach unnecessarily, and that this is a 
chance for us to create and pioneer in some aspects a new model 
where we are facilitators of helping to strengthen and 
encourage families to make the best decisions for the long-term 
benefit of the children in their care and for the parent or 
parents or guardians involved. So I just think the chairman 
raised some excellent questions about the role of training and 
the role of the magistrates and compensation and term limits of 
the judges and look forward to working with you all in the 
process.
    Judge King. Thank you both, Mr. Chairman, and Senator 
Landrieu. I think the focus by the Congress has been a critical 
element in accelerating the pace, and in extending the depth of 
the reform effort that we are going to be able to undertake, 
and I particularly welcome the signals that you seem to be 
sending that you recognize the importance of resources to do 
this work right. And----
    Senator DeWine. Well Judge, we intend to try to get you the 
resources.

                     ADDITIONAL COMMITTEE QUESTIONS

    Judge King. I very much appreciate that, and I appreciate, 
I also want to say I appreciate the informal ``give and take'' 
of this hearing. I think it is been a very constructive 
dialogue, and I hope we have been able to clarify some of your 
questions.
    Senator DeWine. Good. We will continue to work together.
    Senator Landrieu. Thank you, Judge.

             Questions Submitted to Judge David E. Grossman

               Questions Submitted by Senator Mike DeWine

         reduction in caseload and length of stay for children
    Question. What court practices and resources have had the biggest 
impact on both the caseload reduction and length of time children spend 
in the child welfare system?
    Answer. In the 1980's the Hamilton County Juvenile Court created a 
dependency department and implemented numerous reforms to reduce the 
number of children in agency foster care and their lengths of stay. We 
are not able to empirically separate the impact of individual reforms 
to determine which had the greatest impact. The court, however, views 
the following reforms as foundational to the success achieved.
    The 1980's also marked a major change in the role of the court in 
handling child abuse, neglect and dependency cases. Prior to 
implementing reforms, the court largely rubber-stamped agency requests 
and reviewed cases infrequently. The court played a minor, 
insignificant role in the management of these cases.
    The court shifted from playing a passive role to actively managing 
cases and accepting responsibility to hold itself and other 
stakeholders accountable for achieving the goal of timely permanence 
for children. This was achieved by holding early, substantive hearings 
as well as scheduling frequent and thorough reviews of the cases. The 
purpose of more rigorous court oversight was to make certain that cases 
were adjudicated in a timely manner, that appropriate services were 
provided, and that cases were moved through the system expeditiously.
    With these changes, the court also implemented a system of 
assigning one magistrate to hear each case from beginning to end. The 
principle of ``one family-one magistrate'' was, and continues to be, a 
crucial component of our system. It allows one magistrate to thoroughly 
understand the facts of a case and the needs of the parents and 
children over a series of hearings. It gives each magistrate a sense of 
ownership and accountability for the handling of the case. It also 
allows the court to speak with a single voice and convey consistent 
messages and expectations to the parties.
    Finally, the court worked to develop a collaborative relationship 
with our local child welfare agency. Although reforms were initially 
met with resistance by our local children's services agency, the court 
over time was able to establish a working relationship with the agency 
and this has been important to the achieving successful results. The 
court met frequently with agency administrators over the years to 
address systemic issues and problems that have been identified through 
the hearing process and through the court's management information 
system. The court facilitates quarterly meetings with the judges, court 
administrator and each director of the stakeholder agencies to address 
policy issues that impact the child welfare system. Monthly meetings 
are scheduled with the deputy chief magistrate in dependency and the 
upper level management from each stakeholder agency to address daily, 
systemic issues in effort to achieve best practice in this area.
    Question. What role does information technology play in the 
administration of your court today-specifically in regard to case 
management, accountability and information sharing across agencies? Do 
you follow any specific standards for performance and accountability, 
such as the National Center for State Court's performance standards or 
new mandates of the Adoption and Safe Families Act? What impact has the 
court's information system had on the allocation of support personnel?
    Answer. The court continues to collect an extensive array of data 
concerning each child who enters the court system. The data collected 
includes:
  --identification of the parent and child problems that brought the 
        case to court;
  --identification of each child's demographic profile, as well as the 
        child's psychological, physical and educational needs;
  --tracking of each child's placements; and
  --tracking of how each case moves through the judicial system from 
        the initial adjudication and disposition through changes in 
        legal status until the child leaves the system. The information 
        is tracked for the court as a whole and by individual hearing 
        officer.
    The management information system is used to accomplish the 
following: determine the staffing needs of the court; allocate cases 
among magistrates; monitor compliance with statutory timeframes and 
internal guidelines; hold dependency stakeholders accountable; and 
identify problem areas or barriers to timely permanence for children. 
Our court distributes annual reports to the media, service providers 
and the community, which allows outside sources to evaluate the process 
and to determine resource needs.
    The case information is reviewed periodically. Although the court 
has not adopted specific standards for performance and accountability 
that have been promulgated by other organizations, the court does 
regularly examine the following trends:
  --the number of complaints that are filed and the initial 
        dispositions of those complaints;
  --the number of complaints filed that involve reactivated cases;
  --the number of complaints that are pending for more than 90 days 
        before adjudication and an initial dispositional order is made;
  --the number of motions for termination of parental rights that are 
        pending for more than six months;
  --the number of children in each legal status and whether these 
        numbers are increasing or decreasing;
  --the number of children who enter and leave each legal status, the 
        length of time children remain in each legal status and the 
        outcomes of the case when children leave a legal status;
  --the number of placements children experience; and
  --the parent and child problems that bring cases to court.
    Areas of concern identified through this review process are 
discussed within the court and with agency administrators and other 
stakeholders in regularly scheduled meetings. For example, the court 
recently identified problems with delays in achieving statutory 
timeframes for the initial adjudication and disposition of complaints. 
This court took corrective actions by hiring an additional magistrate. 
In addition, the court worked to increase the number of attorneys 
willing to serve as counsel for parents by persuading the Public 
Defender's Commission to increase the attorneys' fees.
Court Facilities/Space
    It is critical for the court to provide a respectful and enhanced 
environment for the families we serve, and the Hamilton County Juvenile 
Court avoided the use of conventional courtrooms as they may be 
intimidating to the children and families who appear before the court. 
Our court elected to use smaller, more intimate settings for the 
dependency courtrooms in an effort to offer comfort while promoting 
more open dialogue and exchange of information between the parties 
during the hearings. The ``one family-one magistrate'' model allows the 
judicial officer to establish relationships with all the parties 
thereby fostering an environment of cooperation whenever possible. The 
intimate courtroom settings compliment this philosophical approach, and 
it is our belief that this environment is more conducive to the 
development and implementation of timely, permanent plans for children. 
Each courtroom is equipped with a silent buzzer in the event that 
security is need in the courtroom. In an effort to promote privacy and 
to separate the parties from the delinquency cases, Hamilton County 
Juvenile Court has an entire floor with courtrooms that are dedicated 
solely for the use of dependency hearings.
    The courtrooms must have adequate space to accommodate the judicial 
officer, court staff, the agency attorney and social worker, the 
parents, counsel for the parents, and the guardian ad litem. Courtrooms 
are equipped with at least three counsel tables: one for the public 
children service agency; one for the parents; and one for the guardian 
ad litem. Reliable recording devices are imperative to avoid delays in 
obtaining transcripts for objections and appeals. We recently installed 
a state of the art, computerized audio video system in each courtroom.
Coordination of Delinquency and Dependency Cases
    In Hamilton County, a delinquency magistrate would hear the plea 
hearing and adjudication on a delinquency or unruly offense for a child 
who is who is committed to the custody or supervision of the public 
children service agency and subject to the jurisdiction of the court on 
the dependency docket. Following the adjudication, the court would 
transfer the case to the assigned dependency magistrate for the 
dispositional hearing. The assigned dependency magistrate is in the 
best position to impose a sentence and to make decisions concerning 
placement and services for the child. This policy is also consistent 
with the ``one family-one magistrate'' philosophy of our court for the 
following reasons:
  --The dependency magistrate has the long-term perspective of the case 
        and is thoroughly familiar with the needs of the children and 
        the families on the docket;
  --The dependency magistrate is in a better position to identify 
        patterns of behavior over a period of time, to assess the 
        efficacy of interventions employed in the past and to select 
        the most appropriate intervention or consequence for the child 
        on the delinquency or unruly offense that is before the court; 
        and
  --The dependency magistrate is in a position to deliver consistent 
        messages and expectations to the child and the family from the 
        bench.
                                 ______
                                 

             Questions Submitted to Judge Rufus G. KinG III

    Questions Submitted by Senators Mike DeWine and Senator Mary L. 
                                Landrieu

                           permanency branch
    Question. Could you please provide a diagram of judges and 
magistrates for the different branches of the Family Division that was 
discussed during the hearing on May 16, 2001? In the diagram, indicate 
the responsibilities of the different judges as well as the 
magistrates, especially in regard to the Permanency Branch. It would 
also be beneficial if you would provide a cost in salary for the staff 
including judges and magistrates.
    Answer. Attachment A provides a diagram of judges and magistrates 
for the different branches of the Family Division as envisioned by the 
Court's Family Division Reform Plan. Attachment B, estimated resource 
summary included in the Court's Family Division Reform Plan submitted 
to Congress in early May, lists the positions and costs (in salary and 
benefits) for the judicial and non-judicial staff needed to fully 
implement the Plan. As you will note, we estimate approximately $5.2 
million in salaries and benefits will be required.

Attachment B.--Resources for Child Abuse and Neglect/Permanency Branch 
Reforms

Staffing (Recurring Costs):
    Judges and Support Staff:
        3 Judges (i.e., for additional calendars for: 
          Neglect, Guardianships and Permanency in 
          Neglect; TPR/Adoptions).......................        $539,772
        3 Law Clerks....................................         149,865
        3 Judicial Secretaries..........................         164,988
        3 Courtroom Clerks..............................         136,359
        3 Calendar Clerks...............................         111,474
                    --------------------------------------------------------
                    ____________________________________________________
          Total (15)....................................       1,102,458
                    ========================================================
                    ____________________________________________________
    Magistrate Judges and Case Management Teams (3 
      teams):
        9 Magistrate Judges.............................       1,489,770
        3 Special Masters...............................         326,853
        3 Case Coordinators.............................         164,988
        2 Attorney Advisors.............................         156,764
        3 Law Clerks....................................         149,865
        6 Secretaries...................................         272,718
        9 Courtroom Clerks..............................         409,077
        9 Calendar Clerks...............................         334,422
        3 Calendar Coordinators.........................         150,165
                    --------------------------------------------------------
                    ____________________________________________________
          Total (47)....................................       3,454,622
                    ========================================================
                    ____________________________________________________
    Family Court and ADR Support Staff:
        2 Family ADR Case Managers......................          99,910
        2 File Clerks...................................          53,626
        1 Calendar Clerk................................          37,158
        1 CCAN Reappointments Clerk.....................          37,158
        1 CCAN Eligibility Clerk........................          37,158
        1 ADR Secretary.................................          45,453
                    --------------------------------------------------------
                    ____________________________________________________
          Total (8).....................................         310,463
                    ========================================================
                    ____________________________________________________
    IT and Other Support Staff:
        1 Database Administrator........................      \1\ 92,624
        1 Applications Manager..........................          78,382
        1 Database Support/Programmer...................      \1\ 78,382
        1 Statistical Data Analyst......................          54,996
                    --------------------------------------------------------
                    ____________________________________________________
          Total (4).....................................         304,384
                    ========================================================
                    ____________________________________________________
          Total Staffing (74) (Recurring)...............   \2\ 5,171,927
                    ========================================================
                    ____________________________________________________
Contractual and Other (Recurring Costs):
    CCAN Rate Increase..................................     \1\ 797,000
    IRS Database Support and Maintenance................     \1\ 275,000
    Mediator Stipends ($100 per session; 2 sessions per 
      case; 2,500 cases)................................     \3\ 500,000
    Mediator Training (Initial training for 30 new 
      mediators per quarter)............................          50,000
    Training ($12,500 judicial and $3,500 staff per 
      quarter)..........................................          60,000
    Rental Space for Staff Offices......................       6,074,000
    Security............................................         284,000
    Supplies, Postage and Phone ($2,762 per employee per 
      year).............................................         204,388
                    --------------------------------------------------------
                    ____________________________________________________
      Total Contractual and Other (Recurring)...........       8,244,388
                    ========================================================
                    ____________________________________________________
      Subtotal, Recurring Costs.........................      13,416,315
                    ========================================================
                    ____________________________________________________
Less $1,263,006 Recurring Costs included in D.C. Courts' 
    fiscal year 2002 Budget Request.....................      12,153,309
                    ========================================================
                    ____________________________________________________
Space, Furnishings and Equipment (Non-Recurring Costs):
    Construction of Courtrooms, chambers, in Building B.      14,450,000
    Capital Improvements in Buildings A & B.............  \1\ 10,705,000
    Relocation Costs (e.g. furnishings, moving, cabling)       1,200,000
    Renovate space for Family Waiting Room ($23,750 
      financed with fiscal year 2001 funds).............................
    Chambers/Office Furnishings and Equipment ($3,000 
      per employee).....................................         222,000
    Equipment:
        5 Photocopiers at 10,000 each...................          50,000
        5 Fax Machines at $750 each.....................           3,750
    IJIS (Family Module: $2,600,000; Complete System: 
      $7,100,000; minus $1,200,000 in grants)...........   \3\ 5,900,000
                    --------------------------------------------------------
                    ____________________________________________________
        Total Space, Furnishings and Equipment (Non-
          Recurring)....................................      32,530,750
                    ========================================================
                    ____________________________________________________
Less $15,305,000 Non-Recurring Costs included in D.C. 
    Courts' fiscal year 2002 Budget Request.............      17,225,750
                    --------------------------------------------------------
                    ____________________________________________________
      Grand Total.......................................      45,947,065
                    ========================================================
                    ____________________________________________________
Less $16,568,006 included in D.C. Courts' fiscal year 
    2002 Budget Request.................................      29,379,059

\1\ Included in D.C. Courts' fiscal year 2002 Budget Request.
\2\ Staffing costs reflect fiscal year 2001 salary plus fringe benefits 
at 24 percent of salary.
\3\ Portion included in D.C. Courts' fiscal year 2002 Budget Request: 
$20,000 for Mediator Stipends and $4,600,000 for IJIS (of which 
$1,500,000 plus grant funds are to be obligated in fiscal year 2002 for 
the Family module).

    Question. An IJIS will enable the court to track and properly 
monitor family and other cases in which a family member may be 
involved. This ensures that all judges and magistrates have access to 
the information necessary to make the best decisions about placement 
and child safety. For Fiscal year 2000, Congress appropriated $2.5 
million for the IJIS. The fiscal year 2001 appropriations bill required 
you to provide Congress with a plan for implementing this program. 
During the hearing you indicated th[at] around $600,000 of the $2.5 
[million] was used, what was it used for? Has a formal plan for 
implementing the IJIS system for the entire DC Superior Court been 
submitted to Congress? If not, when can we expect to see the plan for 
the IJIS system? What costs will be involved with its implementation?
    Answer. Thank you for giving me the opportunity to clarify. No 
fiscal year 2000 appropriated funds were used for IJIS. To date, only 
grant funds have been used on IJIS. The Court expended $350,000 of 
grant funds in fiscal year 2000 and will obligate $600,000 of grant 
funds later this year.
    Using grant monies, the Court contracted with the National Center 
for State Courts (NCSC) to develop a comprehensive requirements 
analysis for IJIS. In the fall of 2000, the Court submitted copies of 
the multi-volume requirements analysis to Congress. Last month the 
Court submitted to Congressional authorizing and appropriations 
committees the IJIS Request for Proposals (RFP), which provides a 
detailed plan for the system design and requirements.
                             specialization
    Question. In your proposal, when judges rotate out of the Family 
Division, their cases will remain in the Family Division except under 
extraordinary circumstances. What is meant by extraordinary 
circumstances? Furthermore, what safeguards will be implemented to 
ensure that no staffing issues arise due to the crossing over of 
divisions for the cases that a judge maintains?
    Answer. Under the Court's Family Division Reform Plan, all neglect 
and abuse cases will remain in the Family Division and continue to be 
assigned to one of the Permanency Branch teams. We are proposing that 
the judges who rotate out of full time service in the Family Division 
be permitted to retain responsibility for certain children whose cases 
present extraordinary management challenges (listed as ``extraordinary 
circumstances'' below) and where continuity with the judge as the most 
consistent adult in the child's life is necessary.
    It should be noted that the turnover and caseloads of social 
workers in the District of Columbia are far higher than the national 
average and have contributed to the need for judges to remain more 
involved in children's lives for longer periods of time. We anticipate 
that as social worker turnover and caseloads drop, children will 
experience greater consistency of care and fewer cases will need to be 
retained by judges who rotate out of the Family Division.
    If additional training and resources are provided to the guardians 
and Court-Appointed Special Advocates (CASAs), to ensure they maintain 
a bond with the child and are independently versed in the child's 
needs, there will be less need for the judge to remain the one person 
consistently involved with the child.
    ``Extraordinary circumstances'' may include the following:
  --the child is a teenager and permanent placement in a family is 
        difficult;
  --the child is 14 years old or older and exercises his or her 
        statutory right to refuse adoption;
  --the child is parenting a baby;
  --the child is mentally ill, mentally retarded or emotionally 
        disturbed;
  --the child has a substance abuse problem for which no effective 
        treatment is available;
  --the child frequently absconds from placements;
  --the case is nearing permanency and changing judges might delay that 
        goal;
  --the child has been terminated from numerous placements and will be 
        very difficult to place again; and/or,
  --the child has developed a special bond with the judge due to the 
        absence of continuity in other parts of the child's life.
    The number of cases a judge retains would be reduced if permanent 
guardianship were included with adoption and permanent custody as a 
legally permissible option, and if all of them were precisely revenue 
neutral--that is, all services and treatments cost exactly the same 
regardless of the type of placement.
                      cases currently under review
    Question. I understand that there are around 4,500 permanency cases 
under review. How would your plan alleviate the backlog and how long do 
you estimate it would take to properly address the backlog issue? Once 
the backlog gets resolved, how will the system change with regard to 
staffing needs and assignments, so as to avoid future backlog? Would 
new employees need to be hired? Would there be additional costs in 
staff salaries?
    Answer. Thank you for allowing me to clarify the Court's position 
that these cases do not constitute a ``backlog'' in the traditional 
sense of the word. ``Backlog'' implies that these are cases that judges 
have not yet addressed. The cases you refer to are closely followed and 
reviewed periodically, some as often as each month. These cases have 
not reached closure for a number of reasons, which relate directly to 
the best interests of the child in terms of providing long-term 
security and emotional stability.
    To help close these cases, the Court has established a remedial 
project under which a special master has been appointed to review old 
cases for closure opportunities. In addition, we are currently 
undergoing an internal review by all judges of the entire caseload to 
identify those that may be closed within a year.
    The Court's Reform Plan calls for augmenting these efforts by 
appointing three teams of special masters to expedite review of all 
pending children's cases to re-examine whether a permanent placement is 
possible. I am hopeful that as many as half of the cases can be closed 
by a permanent placement within a year.
    In the meantime, the large number of cases pending review requires 
that they be assigned to judges who are not in the Family Division, so 
that Family Division judges can address the ongoing cases in Division. 
However, in order to assure the most effective management and the 
closure of these cases as soon as possible, only judges who ask to 
retain the cases and who are willing to take ongoing training will be 
permitted to do so. I believe this is the best approach using currently 
available personnel and resources to meet the needs of those children 
for whom a permanent home has not been found.
    Under the Family Court Reform Plan, the bulk of the additional 
resources will be directed to the growing number of children coming to 
the Court for the first time. Most of the 74 new employees and 
estimated $45.9 million in the Court's request would be used to staff, 
equip and house teams of judges and magistrates to resolve new cases. 
Attachment B contains a detailed list of the resources necessary to 
implement the Reform Plan. Closely focused attention early in each 
child's case will help expedite permanent placement for these children. 
The requested resources are critical to the success of the Reform Plan.
                          permanency planning
    Question. In your opening statement, you refer to the abundance of 
hard to place children currently in the system--specifically children 
who enter the system at age seven or older, children who are HIV 
positive or neonatal drug-addicted, and children with emotional or 
behavioral issues. For all of these children, it would be difficult to 
find them adoptive homes. If adoption is not an option, what other 
permanency options exist for these children?
    Answer. If adoption is unavailable, permanent custody and 
guardianship are preferred where safe and feasible. However, lack of 
adequate subsidies sometimes make use of these options more difficult. 
Independent living programs, group homes and residential institutions 
are among other alternative options.
    Question. What is the court's plan to expedite establishing 
permanency plans for these children in compliance with the Adoption and 
Safe Families Act (ASFA)?
    Answer. The Court plans to expedite the establishment of permanency 
plans for these children under ASFA by devoting more judicial and staff 
time and attention and by establishing a team-based approach to abuse 
and neglect cases, as proposed in our plan submitted to Congress. We 
also have reviewed all our current procedures with working groups of 
court personnel and other stakeholders to create a more responsive 
Permanency Branch, and to improve the level of coordination with the 
City.
    Question. Appointment and Assignment of Judges: I agree with your 
proposal's emphasis on appointing judges with an interest in Family 
Law. Your proposal would allow judges already on the DC Superior Court 
bench to volunteer for a three-year term in the Family Division. How 
many openings do you foresee in the Family Division? How many judges 
currently sitting on the bench at the DC Superior Court do you expect 
to volunteer for the three-year term? Would you agree that the 
remaining vacancies should be filled with judges who have an interest 
and experience in Family Law?
    Answer. A number of judges have indicated potential interest in 
service in the Family Division as structured in the Court's plan. 
However, it is difficult to determine how many vacancies would occur 
without knowing specifics of the legislation that will be enacted and 
the resources that will be provided to the Family Division. I will 
remain committed to seeing that capable judges with backgrounds and 
interest in family law serve in the new Family Division.
    Question. Space: How many courtrooms and hearing rooms are there at 
the D.C. Superior Court?
    Answer. We currently have 65 courtrooms and 13 hearing rooms for a 
total of 78 forum rooms. Two hearing rooms have recently been converted 
into a family waiting room. The Superior Court has 59 associate judges, 
15 hearing commissioners, and 20 senior judges (who sit part time).
    Question. In the budget, you request $32.5 million in non-recurring 
costs for space, furnishing, and equipment. And it is our understanding 
that the court plans to expand to the Old Courthouse located at 451 
Indiana Avenue. What divisions of the Court do you plan to move?
    Answer. For a number of years, the D.C. Courts have been preparing 
detailed plans for using the Old Courthouse at 451 Indiana Avenue for 
the D.C. Court of Appeals, the court of last resort of the District of 
Columbia. This relocation would free 37,000 square feet in the Moultrie 
Building that could house some of the Civil and Probate Division 
operations displaced when the offices, courtrooms and hearing rooms of 
the Family Division are consolidated on the lower floors of the 
building. In addition, we are considering use of space in buildings at 
515 5th Street, N.W., and 409 4th Street, N.W., as necessary.
    Question. Coordination: The judge's proposal and the current family 
court division consist of a number of branches: Domestic Violence, 
Juvenile Offender, Mental Health and Retardation, to mention a few. How 
would the following hypothetical situation be coordinated in Hamilton 
County? [I take this to mean ``District of Columbia'']
    A 14-year-old boy living in a foster home has an open case in the 
Permanency Branch. If this same teenager were caught stealing, he would 
then have a case pending in the Juvenile Offender Branch. It would seem 
that the judge who has been presiding over his permanency case would be 
the best judge to preside over the charge in the juvenile branch. 
However, under the system in the proposal it would seem that the two 
cases would be before two different judges who would coordinate.
    Can you explain how this coordination would take place?
    Answer. Under the Court's proposed Family Division Reform Plan, the 
two judges would confer over how to best serve the child. If the crime 
was not of a very serious nature (that is, not murder, rape, armed 
robbery or the like), then the permanency branch judge would likely 
handle the case, continuing to work with the child while the juvenile 
judge would either close the case or opt for probation to be 
implemented in the neglect case. If the crime were more serious, the 
permanency branch judge would close the case, because it would not be 
possible to provide effective services for a detained child.
    Question. The proposal indicates the reason for the cases being 
split between different judges is it would allow the Family Court to 
choose among the alternatives in both systems. Can you give me examples 
of some of the alternatives that would not be available among branches 
within the same division? And why does this occur?
    Answer. Typically, more services are available in the neglect 
system than in the juvenile justice system. For example, for a child in 
the juvenile system, the only available housing alternatives may be 
incarceration at the Oak Hill facility or detention in a community-
based group home. However if the juvenile case is closed and the child 
continues in the neglect system, he could return home under 
``protective supervision''; live with a relative deemed fit and willing 
to handle a child with his type of behavioral problems; go into foster 
care; or be moved to a group home.

                          SUBCOMMITTEE RECESS

    Senator DeWine. Thank you all very much. Thanks, Mary.
    [Whereupon, at 12:02 p.m., Wednesday, May 16, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]















        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2002

                              ----------                              


                         TUESDAY, JULY 10, 2001

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:05 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Mary L. Landrieu (chairman) 
presiding.
    Present: Senators Landrieu and DeWine.

                          DISTRICT OF COLUMBIA

                                 Courts

STATEMENTS OF:
        ANNICE M. WAGNER, CHAIR, JOINT COMMITTEE ON JUDICIAL 
            ADMINISTRATION
        RUFUS KING, III, CHIEF JUDGE, SUPERIOR COURT
        CYNTHIA JONES, DIRECTOR, PUBLIC DEFENDER SERVICES
        JASPER ORMOND, INTERIM DIRECTOR, COURT SERVICES AND OFFENDER 
            SUPERVISION AGENCY
        JOHN L. CLARK, CORRECTIONS TRUSTEE

             OPENING STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Good afternoon, everyone, and welcome to 
our committee meeting. Senator DeWine and I are pleased to be 
here. We may be joined by some additional colleagues, and we 
also may be joined by Representative Eleanor Holmes Norton, who 
may come in, but we appreciate the panelists that have been 
asked to and are willing to testify today about several 
different important aspects concerning the District.
    So we will ask you all, if you would, to come forward and 
take your seats, Mr. Clark, Mr. Ormond, Mrs. Jones, Judge King, 
Judge Wagner. I would like to begin with a brief opening 
statement which I will submit to the record, and I am going to 
ask Senator DeWine to begin with his opening statement, and 
then we have, as you know, read and reviewed your statements. 
You can summarize your remarks, and we will try to move this 
hearing along as quickly as we can, but we do have some 
questions to each of you.
    According to the schedule today, it looks as though we are 
going to have votes, several votes between now and 4:00, so we 
may have to take a brief break, go over and vote, try to come 
back if we can, but we will just do, Senator, the best we can. 
Do you want to add anything before I start?
    Senator DeWine. No.
    Senator Landrieu. Let me again take this opportunity to 
thank all of you for being here. I know that each of you and 
the work that you do for the District and really for our whole 
Nation, you are very busy. Your willingness to help us better 
understand the funding needs and remaining challenges for the 
D.C. courts, the Court Services and Offenders Supervision 
Agency, and the Office of Corrections is very much appreciated.
    As we all know, in 1997, in an effort to help the District 
rebound from its financial distress, the previous 
administration worked with us in Congress to enact legislation 
that would shift certain district functions traditionally 
carried out at the State level to the Federal Government.
    We enacted legislation, the D.C. Revitalization Act, 
eliminating the approximate $600 million appropriated by the 
Federal Government to the District. Instead, the act 
transferred several functions of the D.C. Government to Federal 
supervision. It was decided that the Federal Government would 
be fully responsible for two specific areas, and that is what 
our hearing is about this morning.
    The first function transferred the criminal justice 
activities into two main components, the D.C. courts and the 
transitional D.C. Corrections Trustee System. Specifically, the 
following changes were made: federally funding the Superior 
Court, free trial services and defender services, transferring 
sentenced felons from D.C. Lorton Correctional Complex to the 
Bureau of Prisons, and transferring parole decisions from the 
D.C. Parole Board to the U.S. Parole Commission. Also, the 
Court Services and Offender Supervision Agency was established 
as an independent Federal agency.
    Although any criminal justice system faces coordinating 
challenges, this unique structure and funding in which Federal 
and D.C. jurisdictional boundaries are mixed creates additional 
challenges for all of us. Each of you in your respective 
capacities has been faced with overwhelming challenges, and in 
most instances has succeeded remarkably in overcoming many of 
these challenges, yet it is clear that we face some additional 
problems and concerns that are ahead.
    For the Office of Corrections, many of these challenges 
rest in completing the closure of Lorton Complex, which we will 
hear more about today, and the transfer of all adult sentenced 
felons to prisons operated by the bureau. As you well know, 
under the terms of this act, all D.C. felons must be 
transferred from Lorton to various facilities by December 31, 
2001, which is the end of this year. It is my understanding 
that approximately 4,500 of the 8,000 adults have been 
transferred to the permanent custody, but this means that there 
are another 3,500 inmates remaining to be transferred.
    I know the progress has been somewhat restricted by 
overcrowding issues--the problems were highlighted by the 
Youngstown incident--and the consequences of significant staff 
reductions, but there are real challenges that require real 
solutions, and we are anxious, both of us, to hear some of the 
specifics today.
    I am particularly concerned about the relocation of inmates 
who are parents of young children, and that was an issue when 
this was initially crafted and created. I think it remains an 
issue today, and I hope that we will get some additional 
comments on that particular area.
    In fact, this budget blueprint and the President's 
blueprint has included $67 million for a new program that he is 
promoting, mentoring children of prisoners, designed to help 
children of inmates all around the Nation retain intimate 
connections that are necessary between children and their 
parents.
    So I hope, Mr. Clark, particularly in your testimony, you 
will take advantage to focus somewhat on this particular new 
initiative, and how the District could incorporate this new 
directive into what we are trying to do here.
    I am also interested in learning more about the plans for 
the 9,000 acres which currently make up the prison site of 
Lorton. About 5,500 of those acres are already preserved as 
parkland and a national wildlife refuge. I appreciate there are 
plans underway to continue the preservation of the land at 
Mason Neck and the undeveloped peninsula that juts into the 
Potomac, so we will get hopefully some more information.
    In addition, I think the effects of this closure, while 
there are some benefits to it, affect the thousands of 
employees that are currently employed. Overall, the number of 
employees has already been reduced by 46 percent, a reduction 
of about 2,000 employees. While I understand there is a policy 
of priority consideration with the Bureau of Prisons and other 
Federal and District agencies, I believe that a great number of 
people, many have families or other considerations which 
prohibit them from transferring out of this area, so perhaps we 
could get an update.
    With the final closure date fast approaching and the 
prospective reduction of available bed space, the system put in 
place and supervised by the agency is all the more important. 
There will be between 2,500 and 3,000 new cases that will need 
to be processed through the D.C. Department of Corrections and 
transported to Federal prisons. This complicated process 
involves two courts, the U.S. Parole Commission, two offices of 
the U.S. Marshal, the U.S. Attorney's Office, the Federal 
Probation, Federal Bureau of Prisons.
    Existing pretrial halfway houses are at capacity. Also, 
about 100 to 400 District inmates are released from prison each 
month, and the final closure of Lorton will all but eliminate 
overflow space which is now used when the jails reach capacity, 
so these are real problems and issues that need to be dealt 
with.
    But somewhat on the bright side, the research that we have 
received has shown that the use of halfway houses that we have 
tried to focus on recently has created a dramatic positive 
effect in reducing the number of repeat offenders. In fact, in 
D.C. the number of parolees arrested on new charges dropped 
from 158 in 1998 to 42 in 2000, which are very promising 
statistics.
    I would like to commend the Court Services and Offenders 
Supervision Agency for their attention and quick intervention 
in addressing the serious backlog of processing offenders. Yet 
again, there are significant challenges ahead. Further progress 
will require this agency to redress the remaining shortages, 
available halfway house beds and other transitional services 
for inmates that will be released shortly.
    Let me move on to say that I recognize there has been some 
recent controversy about the location of these halfway houses, 
and that is a problem or challenge in every community around 
the Nation. Of course, every community has the right to be 
concerned about the safety and well-being of the residents that 
are already in the neighborhood, but I hope that we can work 
together with the Mayor, with the Council, with the Department 
to work on these issues and to try to strike a balance between 
the need of public safety and the needs of finding proper 
locations for these important services for our community.
    One area of transitional service that in my view requires 
some additional attention is the area of drug treatment. The 
U.S. Department of Justice reports that over 570,000 of the 
Nation's prisoners, 51 percent, reported the use of alcohol or 
drugs while committing their crime. We know this. It is 
evident. It is not necessarily new research, and we know what 
to do about it. We need treatment, effective treatment, and 
funding for such treatment.
    So perhaps in some of your comments you could address the 
successes of the research, which show that when people receive 
adequate treatment and take advantage of the treatment that is 
offered, fully one-third can recover almost completely, another 
one-third can recover with occasional lapses but ultimately 
will kick the habit, if you will, and then a third basically 
remain sort of chronic problem areas which then have to be 
dealt with in other ways, but we know that halfway houses, if 
run, drug treatment, if it works and is effective, can in fact 
work to help us in some of the challenges that are before us.
    Finally, let me move to Chief Judge King, and I thank you 
for the courtesies that you have extended and the time that we 
have spent with the judges in my office, speaking about this 
issue. I want to thank you all for your work with Senator 
DeWine and I in our efforts to reform and strengthen D.C. 
Family Court Division.
    Over the past several months, we have conducted several 
hearings on the recent developments in child welfare. I am 
pleased by the rate of progress that has been made, but we need 
to make a lot more progress, and I think the steps of creating 
and fashioning this specialized court with the right resources 
and right funding will go a long way to help us relieve that 
backlog and move children into permanent placement more 
quickly, which not only helps them but helps their families and 
the whole community.
    Let me also just stress that it is essential that how the 
specific outcome, whether it is 15 judges or 12, whether it is 
separate, or separate calendars, the most important things to 
me are effective and specialized training for judges, for 
magistrates and support staff, so that they can be up-to-date 
and knowledgeable with the best practices and staffed correctly 
so that these reforms can actually take root and we can see 
real progress in that area.
    I would also like to emphasize in my closing the importance 
of the physical surroundings of this new court. There have been 
several great examples around the Nation of courts that have 
reformed and remodeled so that it is a welcoming place for 
children and their families, not sort of the traditional, 
adversarial, overwhelming, can be frightening, sterile court 
environments that we sometimes find.
    But as Senator DeWine knows, who is the father of eight, 
and I as a mother of two and from a family of nine, large 
families, it is important when you are dealing with children 
that are emotional, and their parents and relatives, et cetera, 
that the facilities sort of help us to kind of reach these good 
ends that we hope for these families.
    So I hope in our renovations and our plans for renovation, 
we can create a court that is a credit to this community and to 
the Nation, but also really serves our families, and 
particularly the children, to make them feel comfortable about 
telling the truth and minimize the trauma that is associated in 
many of these horrible situations.
    Finally, on the tracking system for the automation, I have 
said in many speeches on this particular subject that it is 
very frustrating to those of us that have been promoting these 
changes now for many years, in our own States and now here in 
D.C., that we can actually track a crate of apples leaving 
Seattle, for instance, that is being shipped anywhere in the 
world. We can find out who touched the crate last, where it was 
stored overnight, how many apples are in that crate, how many, 
literally, are bruised or not before it is finally delivered, 
but we cannot still keep track of children--living, human, 
breathing children in our system, who seem to get lost all the 
time because of lack of commitment to the kind of data that 
would keep track of them.
    Clearly, the technology is there, because we track crates 
of apples and goods all over the world every second of the day, 
but we need to do a better job of keeping track of children in 
our care, and I hope that we will hear some testimony today 
about the data collection and dispersement and technology that 
we are developing.

                           PREPARED STATEMENT

    With that, I am just looking forward to hearing each of 
you, and let me welcome you again and just say that Senator 
DeWine will have his opening statement, and then before we 
begin your testimony, just to remind you that your entire 
statement will be made part of the record, so you can summarize 
your statement. We would like to limit your statements to 5 
minutes, and then we will take a round of questioning.
    [The statement follows:]

             Prepared Statement of Senator Mary L. Landrieu

    I would like to first take this opportunity to thank all of you for 
being here this afternoon. I know that each and every one of you is 
extremely busy. Your willingness to help us better understand the 
funding needs and remaining challenges for the D.C. Courts, the Court 
Services and Offender Supervision Agency and the Office of Corrections 
is very much appreciated.
    In 1997, in an effort to help the District rebound from its 
financial distress, the Clinton Administration worked with Congress to 
enact legislation that would shift certain district functions, 
traditionally carried out at the State level, to the Federal 
Government. The enacted legislation, the D.C. Revitalization Act of 
1997, eliminated the approximately $600 million appropriated by the 
Federal Government to the District. Instead, the act transferred 
several functions of the D.C. government to Federal supervision. It was 
decided that the Federal Government would be fully responsible for two 
specified areas, criminal justice and district employee pensions.
    The first function transferred, the District's criminal justice 
activities, are divided into two main functions: the D.C. Courts and 
the transitional D.C. Corrections System Trustee. Specifically, the 
following changes were made: federally funding the Superior Court, Pre-
Trial Services and Defender Services; transferring sentenced felons 
from D.C.'s Lorton Correctional Complex to the Bureau of Prisons; and 
transferring parole decisions from the D.C.Parole Board to the U.S. 
Parole Commission. Also, the Court Services and Offender Supervision 
Agency (CSOSA) was established as an independent Federal agency.
    Although any criminal justice system faces coordination challenges, 
the unique structure and funding of the D.C. criminal justice system, 
in which Federal and D.C. jurisdictional boundaries aFfd dues are 
mixed, creates additional challenges. Each of you, in your respective 
capacities, have been faced with these challenges and, in most 
instances, have succeeded in overcoming these challenges. For this. you 
should be commended. Yet, it is clear that there are many challenges 
still ahead.
    For the Office of Corrections, many of these challenges rest in 
completing the closure of the Lorton Complex and the transfer of all 
D.C. adult sentenced felons to prisons operated by the Bureau of 
Prisons. As you well know, under the terms of the Revitalization Act of 
1997, all D.C. adult sentenced felons must be transferred from Lorton 
Correctional Facility to various facilities in the, Federal Bureau of 
Prisons by December 31, 2001. It is my understanding that approximately 
4,500 of the 8,000 adult felony inmates have been transferred to the 
permanent custody of the Bureau of Prisons. This means that 
approximately 2,500 inmates remain to be transferred before this coming 
December.
    I know that the progress in transferring these inmates has been 
somewhat restricted by the overcrowding issues plaguing the Federal 
facilities, the problems highlighted by the Youngstown incidents, and 
the consequences of significant staff reductions. These are real 
challenges and will require innovative solutions. I am anxious to hear 
your thoughts and strategies for the final close-down, the transition 
and the final transfer of the property back to Virginia.
    Specifically, I am sympathetic to those who were concerned that the 
transfer of these inmates, in some instances several hundreds of miles 
away from the District, could potentially have a very negative impact 
on an inmate's ability to reintegrate into the community or, more 
importantly, his or her family. For several families involved in the 
criminal justice system, transportation of this nature would be cost 
prohibitive. As a result, many of the transferred inmates may be 
deprived of the contact necessary to their ultimate reintegration into 
society.
    I am particularly concerned by the relocation of inmates who are 
parents to small children. I would hope that special consideration and 
assistance would be given to inmates who are parents, not necessarily 
for their sake, but for the sake of their children. In fact, in his 
Budget Blueprint, President Bush included $67 million for a new 
program, Mentoring Children of Prisoners, designed to help children of 
inmates retain the intimate connections which are vital to their 
ultimate development as a human being. I hope, Mr. Clark, that you will 
not only take advantage of this Federal focus on preserving families 
but also do what you can to incorporate these notions into your 
transfer policies and inmate services.
    I am also interested in learning more about the plans for 9,000 
acres which currently make up the prison site in Lorton. About 5,500 of 
the 9,000 acres are already preserved as parkland and a national 
wildlife refuge. I appreciate that there are plans underway to continue 
the preservation of the land at Mason Neck, the undeveloped peninsula 
that juts into the Potomac River.
    Finally, Mr. Clark, I am greatly concerned about the effect the 
closure of this prison site may have on the employment opportunities 
for those currently employed by the Lorton facility. Overall, the 
number of employees has already been reduced by 46 percent, a reduction 
of about 2,000 employees. While I understand there is a policy of 
priority consideration with the Bureau of Prisons and other Federal and 
District agencies, I believe that a great number of people may have 
families, or other considerations, which prohibit them from 
transferring out of the area. In fact, in your report, dated April 30, 
2001, you stated that only 20 or so employees had availed themselves on 
the priority consideration program. I hope that you can discuss ways 
that you have been trying minimize the effect on the staff displaced by 
the final closure.
    With the final closure date fast approaching and the prospective 
reduction of available bed space, the systems put in place and 
supervised by the Court Supervision and Offender Services Agency are 
all the more important. Between 2,500 and 3,000 new cases per year will 
need to be processed into the system through the D.C. Department of 
Corrections and transported to Federal prisons. This complicated 
process involves two courts, the U.S. Parole Commission, two offices of 
the U.S. Marshals, the U.S. Attorney's office, CSOSA, Federal 
Probation, and the Federal Bureau of Prisons. Existing pre-trial 
halfway houses are at capacity. Also, about 100 to 400 District inmates 
are released from prison each month, and the final closure of Lorton 
will all but eliminate overflow space which is now used when the D.C. 
jail reaches capacity.
    One of the most important functions of the CSOSA is their role in 
helping parolees reintegrate into society. Research shows that the use 
of halfway houses can have a dramatic effect in reducing the number of 
repeat offenders. In fact, in D.C., the number of D.C. Parolees 
arrested on new charges dropped from 158 in 1998 to 42 in 2000. This 
reduction occurred in large part because of the Federal policy that 
required all parolees to be released into halfway houses.
    I would like to commend the Court Services and Offender Supervision 
Agency for the attention and quick intervention in addressing the 
serious back log of processing offenders. Yet, again there are 
significant challenges still ahead. Further progress will require that 
CSOSA address the remaining shortage of available halfway house beds 
and other transitional services for inmates that will be released into 
the District; developing community education and understanding for the 
need for the expansion of these services and selecting appropriate 
sites for these services.
    I recognize that there has been some recent controversy about the 
location of these halfway houses and the CSOSA treatment center. Of 
course, any community has the right to be concerned about the safety 
and well being of its residents and there are certain locations which 
might put the community and the offender at risk for repeated offenses. 
However, I encourage the Mayor, the Department of Corrections and CSOSA 
to work to strike a balance between the need for public safety and the 
importance of promoting the rehabilitation of previous offenders. 
Perhaps, there are ways, such as tax credits for employing parolees, to 
help involve the community in the rehabilitation process.
    One area of transitional services that, in my view, requires 
additional attention and perhaps resources is in the area of drug 
treatment. The U.S. Department of Justice reports that over 570,000 of 
the Nation's prisoners (51 percent) reported the use of alcohol or 
drugs while committing their offense. For this reason, effective drug 
treatment is critical. Experts report that drug addiction treatment is 
as effective as treatment for other chronic illnesses such as diabetes, 
asthma, and hypertension. The U.S. Department of Health and Human 
Services found that nearly one-third of those in treatment achieve 
permanent abstinence in their first attempt at recovery. An additional 
one-third have periods of relapse but eventually achieve long-term 
abstinence, and one-third have chronic relapses that result in 
premature death from substance abuse and related consequences.
    Despite this, reports indicate that the drug treatment program for 
D.C. parolees is only serving about 30 percent of the population in 
need of such services. I am pleased to learn that CSOSA hopes to expand 
their substance abuse and mental health programs. If used effectively, 
these programs could not only help prevent a crime but also save the 
taxpayers a good deal of money.
    Additionally, the Public Defender Service provides a critical link 
between offenders and the criminal justice system. I commend their 
dedication to ensuring due process is carried out in all cases in the 
District.
    Finally, I would like to commend Chief Judge Rufus King for his 
willingness to work with Senator DeWine and I in our efforts to reform 
the D.C. Court's Family Division. Over the past several months, we have 
conducted several hearings on the recent developments in child welfare 
in D.C. I am pleased by the rate of progress that has been made so far 
and hope that we can continue to move in a positive direction. I have 
reviewed the summary of the Court's requested funding priorities. In 
regards to the Family Court reform, I would like to stress two areas of 
critical importance to the success of this venture.
    First, it is absolutely essential that an effective and specialized 
training program be instituted to ensure that the judges, magistrates 
and support staff are well trained in the areas involving children. 
Last year, I joined with Senator DeWine in calling on Congress to 
approve legislation that would provide State courts with the funding 
necessary to implement such training programs nationwide. The types of 
issues resolved in the family court are unlike any other legal matters 
before the court. If properly trained, a judge is a far more effective 
arbiter of the truth.
    Second, I would like to emphasize the importance of the physical 
surroundings of a family court. Clearly, the first concern is the 
critical space shortage currently facing the D.C. courts. Yet, I would 
like to take this opportunity to encourage the courts to use the 
creation of this new branch to ensure that the courtrooms and waiting 
spaces are as family friendly as the judges, advocates and the support 
staff. Several courtrooms throughout the country have found that an 
inviting infrastructure can be as important to a traumatized child as a 
successful decision.
    Also, I support your efforts to improve the automation and 
collaboration of information between the different divisions in the 
courts. Again, I hope that you will make sincere efforts to ensure that 
these systems are implemented in the family court. Often times, it is 
these courts that are the least and last funded. It has always 
frustrated me that in this day and age, where one can track a crate of 
apples to Taiwan, we cannot keep better track of children and families 
in our child welfare system.
    Again, I am looking forward to hear from each of you and thank you 
for your time.

    Senator Landrieu. Senator DeWine.

                    STATEMENT OF SENATOR MIKE DEWINE

    Senator DeWine. Madam Chairman, thank you very much, and 
congratulations on your first hearing as chairman of this 
subcommittee.
    Since the start of the 107th Congress, when Senator 
Landrieu and I were appointed, and I must say recently 
reappointed to this committee--an interesting time--we have 
emphasized the need to reform the District of Columbia's child 
welfare system and the Family Division of the Superior Court. 
Today, as we examine the District's proposed court budget, we 
are, I believe, at a crossroads. It is a crossroads both in 
terms of responsibility and accountability.
    We are here to analyze from a budgetary perspective what 
the District's resource needs are, and how those investments 
can play a part in helping the District create a court system 
that ultimately puts the safety and health of children first 
above all else.
    In our efforts to match resources with reforms, there are a 
number of issues to be discussed, and right now I would like to 
focus my attention on the plan to reform the family court and 
the court's overall role in the child welfare system.
    Senator Landrieu and I, along with a number of our Senate 
colleagues, have developed a discussion draft of a family court 
bill. We are collaborating with our colleagues in the House to 
draft legislation which we hope to introduce in both the House 
and the Senate later this month.
    Several important and necessary changes must take place as 
the District shifts to a family court system. First, I believe 
it is paramount that the one-judge-one-family concept be the 
center of the court reform. I say this because judicial 
consistency will ensure that families will not be shifted, one 
judge to another. Quite simply, a judge who knows the entire 
history of a family can better protect the interests of the 
children who are involved.
    Second, the judges in family court should specialize in 
family law. This is, of course, simpler said than done, as we 
have found out in the last few months. All judges serving in 
Superior Court oversee a total of approximately 4,000 cases, 
regardless of their current court assignment. They preside over 
approximately two abuse and neglect matters per week, which I 
think brings up the point of how difficult, under the status 
quo, it is for a judge to develop over a long period of time 
the real great expertise that I think is really needed, 
expertise in the area of family court and children and related 
issues.
    Currently, the court assigns 12 judges to the Family 
Division. While they are assigned for 2-year terms, the average 
judicial term is actually about 1 year. This exceptionally high 
rate of turnover means that cases involving children do not 
benefit from judges who have had the experience. Judges who 
serve longer become more familiar with the law, and they are 
better able to more consistently implement the law.
    I think it makes good common sense to say that, and this is 
in no way a reflection on the determination of the judges who 
are in this position. They do a good job. It in no way reflects 
on their capabilities. It simply is, in my opinion, a matter of 
common sense that someone who has done something longer does it 
better, whether it is a teacher, whether it is a welder, 
whether it is a judge who is dealing with the most precious 
thing that we have, and that is our children.
    Third, I believe that we must make sure that the courts in 
the District comply with the permanency time line outlined in 
the 1997 Federal law that I helped write called the Adoption 
and Safe Families Act. Family and Juvenile Courts across the 
country have implemented this law, yet the District still only 
has a plan to implement it. The time for compliance with the 
regulations has long since passed. The District absolutely must 
act, and act now. The lives of children are hanging in the 
balance.
    Fourth, we need to maintain case consistency. The court in 
its budget has requested an additional $5.4 million for 
defender services initiatives, to increase the hourly 
compensation rate for attorneys and investigators. However, 
there are still many unsolved, unresolved issues surrounding 
how and when attorneys or guardians ad litem are compensated, 
which in the end is threatening the adequate representation of 
children. When examining the court's budget, we need, I 
believe, to explore options that could help in this situation.
    Let me conclude by saying that for the best possible 
treatment of families a specialized family court is vital, and 
in creating such a court we must ensure that the resources we 
provide lead to sound structural changes, changes that will 
make a lasting, long-term difference. I fear that a newly 
renovated courthouse and an increased number of judges and 
magistrate judges is simply not enough to fix the systemic 
problem that is plaguing the District's child welfare system.
    I will say that the changes that have been outlined as far 
as the structure are unique and I believe, as the chairman has 
indicated, that they can be integrated into an overall plan of 
change, and that is something that we obviously need to work 
on.
    The children and families in the District I think deserve 
better than they have received. They deserve judges who have 
expertise in family law and who possess a strong and sincere 
concern for their best interests. We owe it to the people, and 
we owe it to the children.
    Madam Chairman, thank you very much.
    Senator Landrieu. Thank you, Senator DeWine, for those 
remarks.
    We have had the votes called and we have three stacked 
votes, and it is usually 15 minutes or more a vote, but 
Congresswoman Eleanor Holmes Norton is here, and I hate for you 
to be delayed. Would you like to make a brief statement now, or 
would you like to stay?
    Ms. Norton. I will stay.
    Senator Landrieu. Should we go vote, and will you all just 
take a break, have some water--I wish we could serve you more 
than that, but that is all we have--and I will be back.
    The meeting will come to order, and we will reconvene, and 
again we apologize, but this is the way these afternoons work 
here in the Senate and the House.
    We will now be prepared for opening statements, so we would 
like you to keep your time, if the panelists would, to 5 
minutes each, and I understand because of the scheduling change 
that, Judge Wagner, you have an engagement, so we would be 
pleased to have you go first.

                  Statement of Judge Annice M. Wagner

    Judge Wagner. Thank you, Madam Chairwoman, and to members 
of the committee, thank you first of all for the opportunity to 
make an oral presentation to the committee. It is my first time 
appearing before you, and I am delighted to see you.
    As you know, the D.C. Courts have submitted a request for 
budgetary resources in a very detailed fashion. I think you 
have a copy of our submission in a white book. I am appearing 
as chair of the Joint Committee on Judicial Administration, 
which is responsible for preparing the budget estimates for the 
Courts, and we approved the submission that was submitted to 
you earlier as our request.
    We comprise, of course, the District of Columbia Court of 
Appeals, the Superior Court of the District of Columbia, and 
the Court System. To support our mission in 2002 we have 
requested $153,046,000, which is divided among the various 
components of the court system in the manner which appears in 
our written submission.
    I wish to emphasize that after we submitted our request for 
review by the President and to the Congress, the Superior Court 
did formulate a family court reform plan some preliminary cost 
estimates. What I want to emphasize is that those cost 
estimates are in addition to the amounts which we have 
requested, except as otherwise indicated.
    I think that Chief Judge King in his statement will get 
into that more, but what our concern is, is that those items 
that we have previously requested are needed to support what we 
have, what exists, and to the extent that something else has to 
be funded, if it has to come from those operations, there is 
the danger of undercutting other functions which must go on in 
the Courts, criminal, civil, tax and other types of cases.
    During the past year, the Courts have taken steps to 
strengthen our budgeting and financial management. This is a 
continuing process. However, we have placed a number of reforms 
in place of which we have kept you apprised. I would just like 
to highlight that for the second year in a row the Courts have 
secured an unqualified opinion from KPMG in an independent 
audit of the fiscal year 2000 financial statements.
    The Courts have also commenced implementation of key 
aspects of the Government Performance and Results Act. The 
Courts' fiscal year 2002 budget request begins to provide 
performance data, and to link budgetary resource increases to 
enhancements in the performance of our Courts. We have 
strengthened our Courts' accounting system, including 
refinements that track expenditures by object classification 
among the Courts divisions, programs, and offices, and we will 
continue to keep the Congress apprised of the Courts' 
enhancement of our financial management operations as we move 
along.
    We have initiated a comprehensive strategic planning and 
reengineering process that will enable us to then focus our 
efforts and resources on measurable results. We are pleased to 
report the beneficial impact that a long-overdue employee pay 
raise has had on our operations, and we really owe a great deal 
of appreciation to this committee, which is the committee that 
supported pay parity for our employees with their Federal 
counterparts in similar jobs in the last budget cycle.
    What we have noticed is that our recruitment efforts have 
improved significantly. We have 20 percent more applicants for 
crucial positions today than in fiscal year 2000, and employee 
morale is noticeably improved.
    Many initiatives and programs that enhance management of 
the courts are underway, including the integrated justice 
information system, in which you have expressed an interest. 
Following a comprehensive requirements analysis by the National 
Center for State Courts, the Courts completed a detailed plan 
for the new case management system which will not only enhance 
case processing and information management, but also provide 
better information for judicial officers and others seeking 
information about court activity. We have submitted that plan 
to you, and we are awaiting approval of this plan so that we 
may proceed with this critical project.
    With the assistance of KPMG experts, we have initiated an 
information technology strategic plan to focus the resources of 
the Information Technology Division and ensure that their 
efforts conform to the larger vision and mission of the Courts 
and the District's justice community.
    The Courts are focused on training in all aspects of the 
law, and in all aspects of our administrative and our court 
processes. We have an extensive training program for judges and 
for staff that offers a variety of courses designed to enhance 
performance.
    The Courts are working with the General Services 
Administration to conduct a building evaluation report, a 
comprehensive assessment of our capital needs to ensure that 
our limited resources can be deployed in a most effective 
manner.
    Senator Landrieu. One minute.
    Judge Wagner. Oh, I have 1 minute left? I have not touched 
my priorities. I did want to touch defender services because 
you mentioned it, but let me just skip to the priorities.
    We basically have three or four priorities this year. One 
is court staffing. Our request includes enough funds to enable 
the Courts to fill vacancies and to staff mission-critical 
functions.
    Our capital infrastructure. We need information technology 
in order to come into the 21st Century. Really the integrated 
justice system will do that.
    The other priority is the Old Courthouse at 451 Indiana 
Avenue. It is a historic treasure. It is a national treasure. 
It was first constructed in 1831. We already have plans to 
develop this site for the Court of Appeals in order to free 
space in the building we are in now so that Superior Court can 
expand and use the entire building. Our building was built for 
44 judges in the trial court. We now have 59, and we also have 
15 hearing commissioners now, which we did not have previously, 
so we really need additional space.

                           PREPARED STATEMENT

    The family court is something, of course--I will just leave 
that to Chief Judge King, and finally, defender services. We 
have devoted particular attention to enhancing that program. 
There is a long overdue rate increase for lawyers, who handle 
all of the cases in both child abuse, neglect, criminal cases, 
and guardianship cases. The lawyers have not had an increase 
for 8 years. The investigators have not had an increase for 13 
years. In order to assure competent counsel in all of our cases 
we feel that this is very essential.
    I wish to thank you for hearing us, and we believe that we 
are taking steps to be fiscally responsible, but adequate 
resources are necessary to meet these critical priorities.
    Thank you.
    [The statement follows:]

              Prepared Statement of Judge Annice M. Wagner

    Madam Chairwoman, Senator DeWine, thank you for this opportunity to 
discuss the District of Columbia Courts' budget request for fiscal year 
2002.
    The Courts have submitted a detailed request for the budgetary 
resources needed in fiscal year 2002. My remarks this afternoon will 
highlight the Courts' most critical priorities.
    Comprised of the Court of Appeals, the Superior Court, and the 
Court System, the District of Columbia Courts constitute the Judicial 
Branch of the District of Columbia government. The Joint Committee on 
Judicial Administration, which I chair, is the policy-making body for 
the Courts. The mission of the District of Columbia Courts is to 
administer justice fairly, promptly, and effectively. Through our 
strategic goals, the Courts strive to provide fair, swift, and 
accessible justice; enhance public safety; and ensure public trust and 
confidence in the justice system.
    To support our mission and strategic goals in fiscal year 2002, the 
D.C. Courts request $153,046,000 for Court operations. Of this amount, 
$8,528,000 is requested for the Court of Appeals; $69,203,000 is 
requested for the Superior Court; $33,945,000 is requested for the 
Court System; and $41,370,000 for capital improvements for courthouse 
facilities. In addition, the Courts request $39,711,000 for the 
Defender Services account.
    Following submission and presidential review of the Courts' fiscal 
year 2002 request, the Superior Court formulated the Family Court 
Reform Plan. Preliminary cost estimates to finance the increased 
judicial and support staff, consolidate the Family Division within the 
Moultrie Courthouse, and provide space for the additional staff are 
$13.4 million for recurring operational costs and approximately $32.5 
million for capital improvements. Of these amounts, $16.5 million is in 
the Courts' budget request, although only $2.1 million of that amount 
was included in the president's recommendation for the Courts.
            strengthening financial management at the courts
    During the past year, the Courts have taken many steps to 
strengthen our budgeting and financial management. Although this is a 
continuing process, we have put into place a set of initiatives and 
reforms that demonstrate our commitment to fiscal integrity and 
responsiveness to Congressional concerns. For example, the Courts 
have--
  --For the second year, secured an ``unqualified'' opinion from KPMG 
        in an independent audit of the fiscal year 2000 financial 
        statements.
  --Implemented a number of recommendations made by the National Center 
        for State Courts, which conducted an independent study of the 
        Courts' financial operations, including an examination of the 
        budget process; expenditure accounting and budget controls; 
        revenue accounting and internal controls; and internal 
        auditing.
  --Commenced implementation of key aspects of the Government 
        Performance and Results Act (GPRA). The Courts' fiscal year 
        2002 budget request begins to provide performance data and to 
        link budgetary resource increases to enhancements in 
        performance. During the past year, upper and mid-level managers 
        participated in a series of GPRA training programs conducted by 
        experts from the Office of Management and Budget, the General 
        Accounting Office, and the Office of Personnel Management.
  --Strengthened the Courts' accounting system, including refinements 
        that track expenditures by object classification among the 
        Courts' divisions, programs, and offices.
    We will continue to keep Congress apprised of the Courts' 
enhancement of our financial management operations.
                     enhancing management practices
    The Courts have initiated a comprehensive strategic planning and 
reengineering process that will enable us to focus our efforts and 
resources on measurable results. The Courts also have initiated major 
reform efforts for family matters, and appreciate the Congressional 
support we are receiving for this work.
    We are pleased to report the beneficial impact that the long 
overdue employee pay raise has had on court operations. Non-judicial 
employee pay parity with Federal counterparts in similar jobs was 
attained with the implementation of an 8.48 percent pay increase 
required by the D.C. Appropriations Act, 2001. The result has been a 
more stable, skilled, and productive workforce: retention of employees 
has been enhanced (employee turnover in the last quarter is down 45 
percent from fiscal year 2000); recruitment has improved significantly 
(we have 20 percent more applicants for crucial positions today than in 
fiscal year 2000); and employee morale is noticeably improved.
    Many initiatives and programs to enhance management of the Courts 
are underway. For example--
  --Integrated Justice Information System.--Following a comprehensive 
        requirements analysis by the National Center for State Courts, 
        the Courts completed a detailed plan for this new case 
        management system, which will not only enhance case processing 
        and information management, but also provide better information 
        for judicial officers and others seeking information about 
        Court activity. We await your approval of this plan so we may 
        proceed with this critical project.
  --Strategic Planning.--Court leaders--both judges and managers--have 
        participated in a series of strategic planning conferences to 
        formulate an updated vision for the Courts' future and to 
        develop plans and priorities to achieve that vision and fulfill 
        the Courts' mission in the community.
  --Electronic Filing Pilot Project.--On May 1, the Superior Court 
        launched a one-year pilot project that requires parties in 
        complex civil cases to file all documents after the initial 
        complaint electronically. E-filing is expected to streamline 
        case management, reduce paper, and provide instant access to 
        case-related documents.
  --Reengineering.--Court managers and staff have participated in 
        training programs on reengineering techniques and philosophies 
        in order to update and streamline the way we conduct 
        operations. For example, a series of clerical jobs has been 
        redesigned, and staff are receiving training to enhance career 
        opportunities, reduce turnover, increase accountability, and 
        provide better service to the community.
  --IT Strategic Plan.--With assistance from KPMG experts, the Courts 
        initiated an IT strategic plan to focus the resources of the IT 
        Division and ensure that their efforts conform to the larger 
        vision and mission of the Courts and the District's justice 
        community.
  --Training.--The Courts have an extensive training program for both 
        judges and staff that offers a variety of courses designed to 
        enhance employee performance. Subjects range from basic 
        computer skills to specific legal areas. For Judicial training, 
        substantive areas of the law are selected and instruction is 
        provided in legal and sociological aspects of the subject. In 
        addition, senior staff and judges attend professional 
        conferences where they have the opportunity to learn best 
        practices from both experts and peers in their fields.
  --Capital Planning.--The Courts are working with GSA to conduct a 
        Building Evaluation Report, a comprehensive assessment of our 
        capital needs to ensure that our limited resources can be 
        deployed in the most effective manner.
  --Human Resources Information System.--The Courts are in the final 
        phases of implementing a new personnel management information 
        system to ensure ready access to detailed personnel 
        information, which will assist managers and policy-makers.
  --Independent Study of Court Staffing Levels.--As recommended by the 
        GAO, the Courts have contracted with experts to conduct a study 
        of staffing requirements. This comprehensive study will provide 
        the data the Courts need to deploy their limited staff 
        resources most effectively and efficiently.
          improving defender services operations at the courts
    One area to which the Courts have devoted particular attention and 
made significant improvements is Defender Services. The nature of the 
defender services programs makes it difficult to predict future costs 
because each year claims are submitted for Criminal Justice Act (CJA), 
Counsel for Child Abuse and Neglect (CCAN), and Guardianship case 
assignments made in previous years.
    During the past year, the Courts began several initiatives designed 
to strengthen management of the Defender Services programs and provide 
better service to the community:
  --Payment time cut in half.--By reengineering procedures to process 
        vouchers, the Courts have reduced the average time from voucher 
        submission to payment from by more than half, resulting in a 29 
        day turnaround time in June 2001.
  --Defender Services obligations tracked automatically.--In fiscal 
        year 2000, the Courts implemented an automated system to track 
        all CJA and CCAN vouchers presented for payment, from receipt 
        at the Courts to payment by the General Services 
        Administration.
  --CJA Plan undergoing revision.--The Joint Committee is considering 
        major revisions to the CJA Plan to streamline the processing of 
        vouchers and set guidelines for the cost of certain types of 
        cases. The Courts solicited comments and recommendations from 
        the legal community on the proposed revisions and are currently 
        working with the Bar to finalize the Plan revisions.
  --Defender Services customer service initiative.--This fiscal year 
        2000 initiative includes (1) providing attorneys with computer 
        access to the voucher tracking and payroll systems, to allow 
        electronic queries on vouchers; (2) a dedicated staff member, 
        or ``duty fees examiner,'' who provides immediate assistance to 
        attorneys with voucher status inquiries; and (3) comment forms, 
        to solicit feedback and suggestions from attorneys for service 
        improvements.
  --Standards for submission of vouchers developed.--The Courts have 
        promulgated revised standards for submission of completed 
        vouchers and the Courts' payment of interest to comply with 
        District of Columbia Appropriations Act, 2001.
                      the courts and the community
    As part of the District of Columbia's criminal justice system, the 
Courts participate in collaborative projects with other agencies, and 
provide many services to benefit the community at large. Some examples 
include:
  --Active participation in the Criminal Justice Coordinating Council 
        (CJCC) which seeks to improve the criminal justice system in 
        the District. The Superior Court is currently utilizing the 
        results of a CJCC-sponsored study in its effort to assist the 
        District in reducing police overtime costs, thereby better 
        using resources throughout the criminal justice system.
  --The District's award-winning Domestic Violence Project, spearheaded 
        by the Superior Court, promotes victim safety and integrates 
        the adjudication of both criminal and civil aspects of domestic 
        violence cases. This project provides one central location for 
        a victim to meet with representatives of various agencies, and 
        permits one specially trained judge to address both civil and 
        criminal aspects of a case.
  --In cooperation with the D.C. Bar Association, the Courts encourage 
        District high school students to reflect on the law with an 
        annual essay contest to celebrate National Law Day. This year, 
        Ms. Lyndsey Williams, of the U.S. Senate Page School, won First 
        Place for her essay on the juvenile justice system.
  --Also in cooperation with the D.C. Bar Association, the Courts 
        participated in the second annual D.C. Youth Law Fair in March 
        2001. More than 200 D.C. school students toured court 
        facilities, participated in a mock trial, and discussed legal 
        issues of interest to youth, including the effect of pop 
        culture on teen violence and teen rights and responsibilities 
        in the workplace.
  --In 1999 the Court established a mentoring program with the U.S. 
        Department of Justice. Justice Department employees volunteer 
        for the program, are screened and then are trained by 
        specialists in the Abuse and Neglect section of the Family 
        Division. Once trained, they serve as mentors to children in 
        the abuse and neglect system, children who all too often have 
        not had a stable, consistent adult influence in their lives.
                 performance measurement at the courts
    As part of our strategic goal of providing fair, swift, and 
accessible justice, we monitor our performance in efficiently 
processing cases in terms of (1) the case clearance rate, or the ratio 
of cases disposed to cases filed in a given year (a standard efficiency 
measure is 100 percent, meaning one case disposed for each case filed); 
and (2) the reduction in cases pending at the end of the year.
  --In fiscal year 2000, the Courts' caseload management practices 
        resulted in a case clearance rate of 107 percent in the Court 
        of Appeals and 113 percent in the Superior Court.
  --In addition, the Court of Appeals reduced its pending cases by 4 
        percent and the Superior Court reduced the number of cases 
        waiting to be resolved by 8 percent in fiscal year 2000.
    In fiscal year 2000, the Court of Appeals saw 1,739 new cases 
filed. Including pending cases and reinstatements, 4,407 cases were on 
appeal in fiscal year 2000. During the same time, in the Superior 
Court, 144,046 new cases were filed. Including reinstated cases and 
pending cases, 209,329 were available for disposition in fiscal year 
2000.
    The Courts look forward to enhancing our performance measurement 
system by moving toward implementation of the strategic planning and 
related strategies of the Government Performance and Results Act in the 
next fiscal year.
            fiscal year 2002 budget priorities of the courts
    The Courts continue to require adequate funds to ensure the prompt 
and fair administration of justice for the citizens of the District of 
Columbia and the many others who must rely on our court system in the 
Nation's capital. I would like to briefly discuss the Courts' four 
highest priorities for which funds are requested in fiscal year 2002.
    Court staffing.--The Courts' current on-board FTE of 1,127 is 9 
percent below the fiscal year 1999 authorized level of 1,239 FTE. The 
fiscal year 2001 appropriation permits the Courts to replace only 41 of 
the 76 FTE lost during fiscal year 2000. The fiscal year 2002 request 
is essential to enable the Courts to fill vacancies and staff mission-
critical functions. At a minimum, key vacancies must be filled in 
fiscal year 2002 to produce court records, process cases timely, and 
support effective court administration.
    Capital infrastructure.--The Courts' physical plant consists of 1.1 
million square feet of space in four buildings located around Judiciary 
Square. The oldest building was constructed in 1820 and the newest in 
1978. The Courts' capital budget has not received adequate funding for 
some time. As a result, many basic capital repairs have been deferred 
and building projects have been delayed. The fiscal year 2002 capital 
request includes funding for health and safety projects, information 
technology, the historic Old Courthouse, and to maintain our aging 
infrastructure. Two critical needs are:
  --Information technology.--The Courts' current information technology 
        infrastructure cannot meet the demands of the 21st century. In 
        1998, the Courts launched the Integrated Justice Information 
        System (IJIS), a major capital initiative to replace 18 
        different computer systems with a unified case management 
        system. In addition, to make financial accounting improvements 
        recommended by KPMG, the Courts' independent auditors, a 
        general ledger system is required. $2.2 million in capital and 
        operating funds is critically needed in fiscal year 2002 to 
        finance these projects.
  --The Old Courthouse at 451 Indiana Avenue.--The Courts face a 
        critical space shortage in the main courthouse at 500 Indiana 
        Avenue, which was built in 1978 for 44 trial judges. Today, 
        with 59 trial judges (34 percent more) and 15 hearing 
        commissioners in the Superior Court, 9 judges in the Court of 
        Appeals and senior judges in both Courts, the main courthouse 
        is filled well beyond capacity. The Courts request $15 million 
        in the fiscal year 2002 budget to continue preservation of the 
        Old Courthouse, a national treasure, and to readapt it for use, 
        once again, as a courthouse, thereby freeing 37,000 sq. ft. for 
        use by the Superior Court in the main court building. The 
        Courts are working closely with GSA and with National Law 
        Enforcement Officers' Memorial Fund, which plans to build a 
        museum near this site. At a minimum, funding is critically 
        needed in fiscal year 2002 to commence design and site 
        preparation work and to prevent further deterioration of the 
        structure.
    Family Court.--The Court is restructuring its Family Division 
operations to meet the critical needs of the increasing number of 
abused and neglected children entering the Court. Our Family Division 
Reform Plan calls for new teams of judges and magistrate judges to 
monitor and process the children's cases toward permanency, increased 
mediation, and enhanced coordination with the District's social 
services agencies. Although not included in the Courts' original budget 
submission, the Court estimates $46 million will be necessary to 
finance the increased judicial and support staff, consolidate the 
Family Division within the Moultrie Courthouse, and provide space for 
the increased staff.
    Defender Services.--In fiscal year 2000, the Courts devoted 
particular attention to improving the financial management of the 
Defender Services programs. The fiscal year 2002 request of $39.7 
million builds on these accomplishments. The request includes $5.4 
million for the first phase of an hourly rate increase for attorneys 
and investigators. This long-overdue rate increase, the first for 
investigators in 13 years and for attorneys in 8 years, is essential to 
ensuring continued high quality legal services to the District's 
indigent population.
    Madam Chairwoman, Senators, the District of Columbia Courts have 
long enjoyed a national reputation for excellence. We are proud of the 
Courts' record of administering justice in a fair, accessible, and 
cost-efficient manner. We believe we are taking the administrative 
steps, as highlighted above, needed to enhance our operations and 
ensure the fair administration of justice in the District of Columbia. 
Adequate funding for the Courts' highest priorities in fiscal year 2002 
is critical to our success, both in the next fiscal year and as we plan 
our strategy to continue to provide high quality service to the 
community in the future. Madam Chairwoman, we look forward to working 
with you throughout the appropriations process, and thank you for the 
opportunity to discuss the Courts' budget request.
    Chief Judge King, Anne Wicks, the Court's Executive Officer, and I 
would be pleased to address any questions.

    Senator Landrieu. Thank you for your testimony. I 
understand you may have to leave, so let me just ask one 
question to clarify, and then you can leave your statement, of 
course, for the record.
    You said you have submitted your budget of $154 million, 
but that does not include the additional funding for the new 
family court.
    Judge Wagner. That is correct.
    Senator Landrieu. Were you or the analyst able to estimate 
of that $154 million in previous years what percentage was sort 
of committed to family work, because while we can add some 
funding for what I think we want to do, it is going to have to 
probably be a combination of some new funding and some current 
funding that was already previously dedicated for this portion 
of the courts' charge, and I do not know if you want to try to 
just answer that generally, and maybe Judge King can----
    Judge Wagner. I think Judge King probably would have the 
details of that. There is a certain amount of our submission 
which includes, obviously, some of the staff and judicial 
personnel who would be devoted to this, and we have come up 
with an estimate of what we believe the operational costs would 
be and also what we believe the capital budget requirements 
would be for new courtrooms and the like, but I think I would 
defer to Judge King to go into detail on that.
    Senator Landrieu. Thank you again.
    Judge.

                   STATEMENT OF JUDGE RUFUS KING, III

    Judge King. Very well. If I may, I will just----
    Senator Landrieu. Would you speak into the mike, Judge? 
Pull that over closer to you.
    Judge King. I will finish that answer briefly, and we can 
go into it in greater detail, but since that is freshly on the 
record. We already have 12 judges in the Family Division. That 
expense and the facilities to accommodate them do not change 
because of the new family reform plan, so that would carry over 
directly.
    The additional funds, and the reason it is so high, is 
because not only do we need to add additional staff, which is 
laid out in our plan--you and your staff have been made aware 
of that--but we are already, as Chief Judge Wagner indicated, 
bursting at the seams. I sometimes now have senior judges who 
want to sit and I am unable to use their services because I do 
not have a courtroom for them, so every additional person that 
we would use in the family court reform plan is going to come 
with a need to build a courtroom, a chambers, and the 
facilities that accommodate the people and the support staff.
    Senator Landrieu. Well, I think we understand there will be 
additional expenses for the physical, the building, courtrooms, 
the equipment, but I was trying to get, as the percentage of 
your current budget that is devoted to or directed, operations 
budget, to sort of the family aspect, so as we try to define it 
more clearly we could build on the budget that is already 
there, but we can come back to that.
    Judge King. Well, I think that--let me just be sure that I 
am expressing myself clearly. The existing budget includes a 
Family Division expense, that is, judges, and courtrooms, and 
chambers.
    Senator Landrieu. In the 154?
    Judge King. In the 154.
    Senator Landrieu. Okay, fine. I am sorry, then.
    Judge King. What we have submitted as our plan is in 
addition to that.
    Senator Landrieu. And it is mostly physical capital 
improvements.
    Judge King. It is building out--there is a capital expense 
that I think works out at about $32 million, and then the 
balance of $12 or $13 million is the cost of additional 
personnel, but those are all pretty easy----
    Senator Landrieu. Thank you for clarifying that.
    Judge King. I mean, to the extent that we have not done 
that, clearly we could derive percentages, but there is already 
a Family Division operation in that.
    Judge Wagner. Would you like us to try to estimate that?
    Senator Landrieu. We can figure the other percentages. 
Thank you.
    Judge King. We would be happy to submit, and if you have 
any questions that would help clarify it, we would be happy to 
do that.
    I will be very brief, then. I want to thank you for the 
opportunity to discuss the budget. I fully support the budget 
request and priorities as stated by Chief Judge Wagner for the 
Courts' infrastructure, including the technology, the increased 
space, and restoration of the Old Courthouse, family court 
reform costs, and a rate increase for attorneys and 
investigators who serve indigent defendants and families.
    This afternoon, I would like to mention the resources 
required for the reform of the Superior Court's Family Division 
which were not included, as we have just been talking about, in 
the fiscal year 2002 budget request. Let me begin by noting the 
Court's appreciation for the courtesy shown by both you, Madam 
Chairwoman, and you, Senator DeWine, and your staffs, in 
discussing your concerns in the Court's plan. Your willingness 
to engage in a constructive and informal dialogue on our shared 
concern for improving service to children and families has, I 
believe, been very helpful to the reform process, and I hope it 
will continue.
    As you know, our Family Division reform plan is centered on 
teams of judges, magistrate judges, and staff to serve the 
increasing number of abused and neglected children coming to 
the Court, and I am delighted to hear of your focused interest 
on areas such as one judge and one family, a concept we 
entirely agree with, and one that we have already been 
substantially implementing with juvenile and neglect cases. We 
are very conscious of the need to expand that and to see that 
it becomes more firmly and strongly established in the rest of 
our family court operations.
    I am also happy to see your interest and receptivity to the 
notion of improved training. We have already undertaken some of 
that, including a recent 2-day conference that expanded the 
training on ASFA requirements and the like, and the 
infrastructure, including the technology infrastructure, are 
critical pieces that we are very much aware of and share your 
concern that they be done in a way that really serves children 
and families in a friendly way.
    The plan was formulated, or the plan that we are working on 
now, and this has been discussed--I see my light.
    Senator Landrieu. Two minutes. I took 2 minutes of your 
time.
    Judge King. Very well. I will be very brief.
    The plan was formulated after submission and presidential 
review of the Courts' fiscal year 2002 budget request, and so 
the cost of just under $46 million has for the most part not 
been included in the Courts' budget request or the President's 
budget, which was prepared before our family division reform 
plan was drafted.
    However, to commence the needed reforms expeditiously, 
resources are required in fiscal year 2002 to hire and train 
judges and staff and to construct additional courtrooms and 
office space to ensure that the plan can be promptly 
implemented.

                           PREPARED STATEMENT

    Madam Chairwoman and Senator DeWine, your support for the 
required resources is critical to the success of the Family 
Division reform plan. We look forward to working with you 
throughout the appropriations process, and thank you for the 
opportunity to discuss the priority in the budget request, and 
I would be happy to address questions.
    [The statement follows:]

              Prepared Statement of Judge Rufus King, III

    Madam Chairwoman, Senator DeWine, I am Rufus G. King, III, and I am 
appearing in my capacity as Chief Judge of the Superior Court of the 
District of Columbia and a member of the Joint Committee on Judicial 
Administration. I thank you for this opportunity to discuss the 
District of Columbia Courts' budget request for fiscal year 2002.
    I fully support the fiscal year 2002 budget priorities Chief Judge 
Wagner outlined-adequate staffing for critical functions; adequate 
funding for the Courts' infrastructure, including technology and 
increased space through restoration of the Old Courthouse; family court 
reform costs; and a rate increase for attorneys and investigators who 
serve indigent defendants.
    This afternoon, I would particularly like to address the resources 
required for reform of the Court's Family Division, which were not 
included in the Courts' fiscal year 2002 budget submission.
    As you know, our Family Division Reform Plan is centered on teams 
of judges, magistrate judges, and staff to serve the increasing number 
of abused and neglected children coming to the Court. Although the plan 
was formulated after submission and presidential review of the Courts' 
fiscal year 2002 budget request, to commence the needed reforms 
expeditiously, resources are required in fiscal year 2002 to hire and 
train judges and staff and to construct additional courtrooms and 
office space to ensure that our Reform Plan can accomplish its goals.
                                staffing
    To create the teams of judges, magistrates and support staff to 
serve the children, the Reform Plan calls for 74 new full-time 
employees. In addition to the judges and magistrate judges and their 
chambers staff, non-judicial employees would form the remainder of the 
case management teams, staff the additional courtroom operations, and 
administer the expanded Child Protection Mediation Program.
                                training
    Specialized training for Family Division judges, magistrate judges, 
and staff is a critical component of the Reform Plan. Building on the 
Courts' existing training program, the increased resources associated 
with the Reform Plan will provide the enhanced specialization needed to 
best serve abused and neglected children.
    Already, the Court has taken steps to build the expertise of judges 
and staff in family issues. In May, Superior Court judges attended two 
full days of comprehensive training on child abuse and neglect law. 
Local and national experts provided information on a variety of 
subjects including--
  --The Adoption and Safe Families Act (ASFA) and judicial 
        responsibility from the initial hearing through permanency;
  --The family unit and how substance abuse fuels the cycle of child 
        abuse and neglect;
  --The role of judges in fostering collaboration and providing 
        leadership in the community;
  --Mental health experts' means to assess the level of risk to a child 
        and how the District's Child and Family Services Administration 
        determines the best residential placement for a child;
  --Child development issues and how they can assist in judicial 
        decision-making;
  --Special education, how the Court may initiate the process, and the 
        responsibility of the District of Columbia Public Schools; and
  --Mental health intervention.
    Family Division staff also attended training on meeting ASFA 
standards, child protection and welfare, and roles and expectations at 
Court hearings.
                              space needs
    The Reform Plan envisions a consolidation of the Family Division 
offices and courtrooms in the Moultrie Courthouse, which is large 
enough to accommodate the expanded Division in a consolidated location. 
Other offices currently located in the Moultrie Courthouse will be 
relocated to two other Court buildings (Bldg. A and Bldg. B), which 
will need to be upgraded and reconfigured. Significant work needs to be 
completed in both Buildings A and B before offices with increased 
public traffic can be moved into the buildings, including--
  --Roof repair and replacement to curtail leaks;
  --Heating, ventilating, and air conditioning (HVAC) repair and 
        replacement of original 1920's vintage air conditioning 
        equipment;
  --Increased electrical capacity to accommodate modern office 
        equipment;
  --Plumbing upgrades;
  --Elevator repair;
  --Fire and security system enhancement;
  --Restroom improvements; and
  --ADA enhancements.
    In addition, to accommodate the increased number of judicial 
officers, additional courtrooms and judicial chambers must be 
constructed in one building. Support operations currently occupying 
Buildings A and B will be moved to leased space in the local area, as 
needed.
    Madam Chairwoman and Senator DeWine, your support for the required 
resources is critical to the success of the Family Division Reform 
Plan. We look forward to working with you throughout the appropriations 
process, and thank you for the opportunity to discuss this important 
priority in the Courts' budget request.
    I would be pleased to address any questions.

    Senator Landrieu. Thank you.
    We could hear from all the panelists, Senator, and then 
come back for a round of questions.
    Ms. Jones.

                       STATEMENT OF CYNTHIA JONES

    Ms. Jones. Good afternoon, Madam Chair and Senator DeWine. 
My name is Cynthia Jones, and I am the Director of the D.C. 
Public Defender Service. I appreciate the opportunity to come 
before you today in support of the agency's fiscal year 2002 
budget request.
    As a result of the revitalization act, PDS was established 
as a federally funded, independent District of Columbia agency. 
The revitalization act requires PDS to transmit its budget and 
receive its appropriation through the Court Services and 
Defender Supervision Agency, but PDS is not a component of 
court services. We have a separate mission.
    The Public Defender Service provides constitutionally 
mandated legal representation to indigent people who are facing 
a loss of liberty in the District of Columbia. PDS shares this 
responsibility with the local court, which is responsible for 
assigning cases to CJA panel attorneys, private lawyers who 
provide indigent legal defense representation under the 
Criminal Justice Act.
    While much of our work is devoted to ensuring no innocent 
person is ever wrongfully convicted of a crime, we also provide 
legal services to mentally ill people who are facing 
involuntary civil commitment, recovering substance abusers 
participating in drug court, juveniles with learning 
disabilities, and many other indigent people facing a 
deprivation of liberty.
    For fiscal year 2002, the Public Defender Services requests 
$20,829,000, and 211 positions in direct authority. Our request 
would allow us to continue to build upon the success of our 
current operations and add one new initiative, a community 
reentry program to educate juvenile and adult defenders of 
their legal rights and their responsibilities upon returning to 
the community. This initiative is aimed at reducing the number 
of offenders who face revocation and reincarceration. To 
support this initiative, we are requesting approximately $1 
million and 10 positions.
    The past year has been very successful for the Public 
Defender Service. We have increased the number of cases we 
handle by approximately 29 percent. We have provided assistance 
to the court in administering the Criminal Justice Act, held 
over 40 training sessions for CJA panel lawyers, and we have 
helped to create a mental health treatment program called 
Options.
    PDS joined forces with the D.C. Pretrial Services Agency 
and the Superior Court and the Corrections Trustee to establish 
a treatment program for mentally ill people charged with minor, 
relatively minor, and nonviolent offenses. As a result, 
mentally ill people who would have been subject to costly 
institutionalization or incarceration without treatment are now 
receiving treatment in a community-based program. We are very 
encouraged by the success of this initiative.
    Madam Chair, one initiative forwarded by the Public 
Defender Service last fiscal year was a Lorton closure 
initiative. With the support of the Court Services and Defender 
Supervision Agency and the U.S. Parole Commission, the Public 
Defender Service requested funding to establish a unit called 
the special litigation unit to represent parolees facing 
revocation. Since August 2000 we have hired 10 lawyers. We have 
handled over 700 cases, approximately 100 percent of all cases 
in which an individual is facing revocation of parole.
    The fiscal year 2002 budget request for the agency will 
allow PDS to continue to partner with the Court Services and 
Defender Supervision Agency and create a community-based legal 
services program to address the legal needs of adults and 
juveniles who regularly face revocation and reincarceration for 
violations of their structured release program.
    Because the Public Defender Service provides legal 
representation to nearly every parolee facing revocation, PDS 
attorneys have been able to see first-hand that in many 
instances parolees who have been incarcerated for over a decade 
require additional legal assistance in order to adjust to their 
structured community release and the profound changes in the 
law that have occurred since their incarceration.
    Under this proposed community reentry program, PDS will 
provide legal assistance to parolees on their legal 
obligations, like payment of child support and compliance with 
community supervision requirements, and educate parolees on the 
critical recent changes in the law, like in the areas of 
domestic violence, victims' rights, violence against women, and 
sex offender registration.
    Similar to their adult counterparts, juveniles who have 
been released, or who are detained in detention facilities, 
require additional services, additional legal services in order 
to successfully transition back into the community. Under this 
proposal, we would provide special education advocacy to 
juveniles in the delinquency system who have learning 
disabilities, and we would provide civil legal services and 
help juveniles and their families attain critical public 
benefits necessary for a successful transition.

                           PREPARED STATEMENT

    PDS is uniquely situated to provide these legal services, 
and the PDS reentry proposal is the perfect companion to the 
community reentry efforts underway by the Court Services and 
Defender Supervision Agency and other criminal justice 
agencies. Consequently, I respectfully request your support of 
this important initiative.
    Thank you very much.
    [The statement follows:]

                  Prepared Statement of Cynthia Jones

    Good Afternoon, Madame Chair and members of the Subcommittee. My 
name is Cynthia Jones, and I am the Director of the Public Defender 
Service for the District of Columbia (PDS). I appreciate this 
opportunity to come before you today in support of the agency's fiscal 
year 2002 budget request.
    As a result of the National Capitol Revitalization and Self-
Government Improvement Act of 1997 (the ``Revitalization Act''), PDS 
was established as a federally-funded, independent District of Columbia 
agency. The Revitalization Act requires PDS to transmit its budget and 
receive its appropriation through the Court Services and Offender 
Supervision Agency (CSOSA), but PDS is not a component of CSOSA. We 
have a separate mission.
    The Public Defender Service provides constitutionally-mandated 
legal representation to indigent people who are facing a loss of 
liberty in the District of Columbia. PDS shares this responsibility 
with the local court, which is responsible for appointing private 
attorneys to provide indigent defense representation under the Criminal 
Justice Act (``CJA panel attorneys'').
    While much of our work is devoted to ensuring that no innocent 
person is ever wrongfully convicted of a crime, we also provide legal 
services to:
  --mentally ill people facing involuntary civil commitment;
  --recovering substance abusers participating in the structured Drug 
        Court treatment program; and
  --juveniles in the delinquency system who have learning disabilities 
        and require special accommodations under the Individuals with 
        Disabilities in Education Act.
    For fiscal year 2002, the Public Defender Service requests 
$20,829,000 and 211 FTE in direct authority. Our fiscal year 2002 
request would allow us to continue to build upon the success of our 
current operations and add one new initiative, a Community Re-Entry 
Program, to educate juvenile and adult offenders of their legal 
responsibilities upon returning to the community. This initiative is 
aimed at reducing the number of offenders who face revocation and re-
incarceration. To support this initiative, we request approximately $1 
million dollars and 10 FTE.
     progress on agency functions and fiscal year 2000 initiatives
    The past year has been a very successful and productive one for the 
Public Defender Service. We have been able to work with other agencies 
to improve the quality of legal services received by indigent people in 
the D.C. criminal justice system.
             increase in number of cases handled by agency
    First, although the legal staff of 100 attorneys at PDS is still 
relatively small in comparison to the 300 CJA panel attorneys and the 
300 attorneys at the local prosecutors office, the agency was able to 
handle almost 1,000 more cases last year than in fiscal year 1999. In 
the largest legal services division of the agency--the Trial Division--
there was a 29 percent increase in the number of cases handled in 
fiscal year 2000. All tolled, the Public Defender Service provided 
legal representation and assistance in over 10,000 legal matters in 
fiscal year 2000. More specifically, we have been able to increase the 
number of resource-intensive and time-consuming serious felony cases 
handled by the agency. Our experienced attorneys are able to draw upon 
the institutional knowledge of our staff and the resources of our 
Investigations and Offender Rehabilitation Divisions, to resolve these 
complex cases in a manner that is far more cost-efficient than if 
handled by CJA panel attorneys.
   assistance to the court in administering the criminal justice act
    The second area where PDS has expanded its services is assisting 
the court in administering the Criminal Justice Act. First, PDS now 
offers a series of training programs to CJA panel attorneys to further 
improve and enhance the quality of legal services rendered to poor 
people in the District of Columbia. In June 2000, PDS instituted the 
Summer Criminal Defender Training Series, a 20-session intensive and 
comprehensive training program that was attended by over 200 CJA panel 
attorneys. The presenters included Superior Court judges, experienced 
attorneys in private practice, as well as local and national experts on 
DNA evidence and related topics. In 2001, we have again offered the 
Summer Training Series and the reviews from CJA panel attorneys have 
been very positive.
    PDS also offered more intense training sessions on juvenile 
matters. In April of this year, we offered a 6-day training program in 
Special Education Advocacy and trained 60 attorneys to provide legal 
representation to children in the delinquency and neglect system who 
suffer from learning disabilities or special education challenges. This 
training program utilized presenters from the Department of Education, 
the DC. Public Schools, area law schools and law firms, as well as PDS 
staff attorneys. Finally, we offered a 5-day intensive juvenile 
delinquency training session that was attended by 40 CJA panel 
attorneys. The participants in this program received instruction from 
Superior Court judges, the D.C. Department of Human Services, local 
practitioners and law professor and PDS staff attorney on all aspects 
of representing children in the delinquency system. Over the course of 
the next year, we hope to work closely with the court to develop an 
intensive training program for the criminal defense investigators who 
work on cases with CJA panel attorneys.
    In addition to training, PDS has been working very closely with the 
court and the Corrections Trustee to institute major improvements in 
the issuance of payment vouchers for CJA legal services. The new 
streamlined, automated procedures should be implemented by the end of 
this fiscal year.
             creation of a mental health treatment program
    The third major project of the Public Defender Service in fiscal 
year 2000 and in fiscal year 2001 was the creation of diversion 
programs in cases involving very minor, low-level crimes. In 
furtherance of this objective, PDS joined forces with the D.C. Pretrial 
Services Agency, the Superior Court and the Corrections Trustee to 
establish OPTIONS, a treatment program for mentally ill people charged 
with minor, non-violent offenses. The OPTIONS program has only been 
underway for a few months, but already it has had a huge impact. 
Mentally ill people who would have been subject to costly 
institutionalization or incarceration without treatment are now 
receiving critically-needed treatment in a community-based program.
             fiscal year 2000 initiative: parole revocation
    Finally, I am pleased to report that the one new initiative for the 
agency in fiscal year 2000, the Lorton Closure Initiative, has been 
fully and successfully implemented. Under the Revitalization Act, all 
of the functions of the former D.C. Board of Parole were transferred to 
the United States Parole Commission (``Commission'') in August 2000. 
With the full support of the Commission and the Court Services and 
Offender Supervision Agency (CSOSA), PDS requested funding to create a 
new unit of lawyers to provide the constitutionally-mandated legal 
representation to parolees facing revocation before the Commission. 
With the increased efficiency and strict accountability measures in 
place by CSOSA, parolees who fall short of their structured supervision 
requirements are quickly identified and brought to the attention of the 
Commission. Since August 2000, PDS has represented over 700 parolees, 
nearly 100 percent of those facing revocation. We estimate that the 
D.C. Superior Court would have incurred costs in excess of $600,000 in 
order to provide this same legal representation through the Criminal 
Justice Act Program.
          fiscal year 2002 budget request: community re-entry
    The fiscal year 2002 budget request for the agency will allow PDS 
to continue to build on the success of its current operations and, in 
partnership with CSOSA, create a community-based legal services program 
to address the legal needs of adult defendants, parolees and 
probationers who regularly face revocation and re-incarceration for 
violations of their structured release program. This initiative will 
also allow PDS to provide the same community transition services for 
juveniles in the delinquency system. The costs associated with parole 
revocation and reincarceration are enormous. Because the Public 
Defender Service provides legal representation to nearly every parolee 
facing revocation before the commission, PDS attorneys have been able 
to see first-hand that, in many instances, parolees who have been 
incarcerated for over a decade require additional transitional legal 
assistance in order to adjust to the a structured communitybased 
supervision program and to the profound changes in the law that have 
occurred since their incarceration. Under this proposed Community Re-
entry Program, PDS will provide legal assistance to parolees on legal 
obligations, like payment of child support and compliance with 
community supervision requirements, and educate parolees on critical 
changes in the law during their period of incarceration, like domestic 
violence, victim's rights, violence against women, sex offender 
registration, as well as other legal changes that have occurred under 
the Revitalization Act ( e.g., truth-in-sentencing changes, abolishment 
of the D.C. Board of Parole).
    Similar to their adult counterparts, juveniles who have been 
released, or who are detained in juvenile detention centers require 
additional services in order to successfully transition back into their 
communities. One very critical, long-standing problem in the D.C. 
criminal justice system is the lack of post-commitment (conviction) 
services for juveniles. CJA panel attorneys are not usually involved in 
a case after the child has been sentenced or institutionalized. PDS, 
through it's Juvenile Services Program, provide some limited legal 
assistance to these children while they are at the Oak Hill Detention 
Facility (representation at institutional disciplinary hearings, street 
law courses, etc.), but there are currently limited resources available 
to assist juveniles with the transition back into the community. Under 
this proposal, PDS would seek to provide:
  --Special Education Advocacy to get children placed back in public 
        school and provide the legal assistance to juveniles who are 
        entitled to special education benefits under the Individuals 
        with Disabilities in Education Act;
  --Civil Legal Services to assist juveniles (and their families) to 
        obtain benefits that the child is entitled to receive (child 
        support, public assistance, social security, food stamps, etc); 
        and
  --educate juveniles under criminal justice supervision, as well as 
        at-risk youth in the community about the law and their 
        responsibilities.
    PDS is uniquely situated to provide these legal services, and the 
PDS Community ReEntry proposal is the perfect companion to the 
community re-entry efforts currently underway by CSOSA and other 
criminal justice agencie. Consequently, I respectfully request your 
support of this important initiative.
    I would like to thank you and the committee members for your time 
and attention to these matters and I would be happy to answer any 
questions the committee might have.

    Senator Landrieu. Thank you.
    Mr. Ormond.

                       STATEMENT OF JASPER ORMOND

    Mr. Ormond. Thank you for the opportunity to appear before 
you, Madam Chair and Senator DeWine. CSOSA is comprised of 
community supervision programs, the pretrial service agency, 
and we also transmit the budget of the Public Defender Service, 
as Ms. Jones indicated.
    CSOSA requests $147 million and 1,167 FTE's in direct 
budget authority this year. Of this amount, $94.1 million is 
requested for our community supervision programs, $32.4 million 
is requested for pretrial services, and $20.8 million is 
requested for D.C. Public Defender Services.
    CSOSA supervises approximately 26,000 individuals, 9,500 
pretrial defendants, 10,900 probationers, and 5,700 parolees. 
The period of supervision varies, approximately 107 days for 
pretrial defendants, 20 months for probationers, and 5 years 
for parolees.
    The typical offender under our supervision shows 
significant educational, employment, and social deficits, as 
well as multiple prior arrests, convictions, and a history of 
substance abuse. Our goal is to reduce recidivism by offenders 
by 50 percent over the next 5 years, and we think these goals 
are very, very achievable by the year fiscal year 2005.
    Our funding request is tied to five strategic objectives, 
critical success factors which define what we must do in order 
to achieve our goal of the 50-percent reduction. I would like 
to discuss briefly our major achievements in this area, and 
introduce our proposed initiatives for this year.
    The first objective is that of improved risk needs 
assessment. We have been able to implement a comprehensive risk 
screener for all probationers and parolees. We are also very 
proud of a state-of-the-art forensic toxicology drug-testing 
laboratory. We have been able to increase drug testing among 
our population by 600 percent. In fiscal year 1999 we had 
50,000 samples. In fiscal year 2001 we have had 300,000 
samples, a 600-percent increase, which is very significant. In 
this regard, our request for this year is for $486,000 to 
increase our efforts for expanded drug-testing.
    In addition, our next major objective is that of close 
supervision, which is our primary mandate, continued reduction 
in probation and parole caseload is very significant to us. We 
have been able to reduce those caseloads by 50 percent over the 
last 3 years, and currently we are looking at a 70 to 1 ratio. 
We still feel our ultimate goal would be one of a 50 to 1 ratio 
in order to do the level of supervision that we propose.
    We have also opened two new field offices in Washington, 
both on Taylor Street and South Capitol Street, which has been 
a significant collaboration with the city. We have implemented 
programs to report reentry, and roughly we are looking at about 
2,000 offenders reentering the community over the next year.
    PSA pretrial services has also established new restrictive 
community supervision programs to support the halfway house 
placements, as well as a new case management system for Federal 
defendants.
    Supervision is the area in which we indicate the majority 
of our resources. Three of our goals or initiatives are 
primarily focused under our close supervision. First, we 
request $13 million and 92 positions to establish a reentry 
sanctions center. We propose expanding our existing assessment 
orientation center, which is on the grounds of Karrick Hall at 
D.C. General Hospital. We have operated the AOC since 1997 very 
successfully. We are seeing an 84-percent completion rate among 
our participants.
    In the expansion of this facility and the new sanctions 
facility we think that we can cover at least 70 percent of 
those folks that are transitioning back into the community, 
which is very, very critical to supplement the halfway house 
issues and resources in the city.
    Our second major initiative under close supervision is $1 
million for expanded space and equipment. Our need to move our 
staff into the community is very, very important. Our 
collaboration with the Metropolitan Police Department and the 
community has shown significant successes, so this $1 million 
will support an expanded field unit within the community.
    We are also occupying current sites that are owned by 
either the court or the D.C. Government, and because of the 
initiatives of the court, we need to really look at expanding 
those spaces.
    Our third major initiative is that of reducing the caseload 
at pretrial services. Now, pretrial services roughly has a 
ratio of 204 to 1, which is not acceptable. We are hoping to 
support a reduction in those caseloads for 84 to 1. $1 million 
would reduce those ratios to 84 to 1 from 204 to 1.
    Our next major initiative is that of treatment and support 
services, which is the core of what we do. Seventy percent of 
the people that we are serving are drug-involved. They have a 
significant history of drug use, and we have found that if 
there is one precipitator, drug use is that precipitator.
    We have been very successful in serving these folks this 
year. Roughly we have resources to serve about 35 percent of 
the population. The request this year of $5.3 million would 
allow us to expand our contract treatment services to serve 
roughly about 70 percent of the population that is in need of 
service, and roughly we have about 7,200 people in need of 
those services.
    Our fourth major initiative is that of partnerships. Again, 
we have developed 30 community-justice partnerships with the 
Metropolitan Police Department. We have trained over 3,000 
Metropolitan Police officers in our form of supervision. It has 
been a very successful outcome for us.
    Our last initiative is that of timely and accurate 
information. The Pretrial Service Agency basically processes 
about 16,000 bail reports throughout the course of the year, 
and we have registered about 499 people in our sex offender 
registration. These data bases are very, very important. In 
order for us to expand these data bases we are requesting 
roughly $4 million to expand our case management offerings.

                           PREPARED STATEMENT

    We really feel that we have significantly impacted close 
supervision in the city. The rearrest rate has fallen by 70 
percent since 1998 of parolees, and in our partnership with the 
police department we have seen a 35-percent decrease in violent 
crimes in those neighborhoods that we have had a full-blown 
partnership.
    Again, we look forward to the support of the committee, and 
thank you very much for your time.
    [The statement follows:]

                  Prepared Statement of Jasper Ormond

    Madam Chairperson and Members of the Subcommittee: Thank you for 
the opportunity to appear before you today in support of the fiscal 
year 2002 budget request for the Court Services and Offender 
Supervision Agency for the District of Columbia (CSOSA).
    CSOSA was established under the National Capital Revitalization and 
Self-Government Improvement Act of 1997 (the Revitalization Act) and 
was certified as an independent Executive Branch Agency on August 4, 
2000. The Agency is comprised of the Community Supervision Program 
(CSP), which supervises offenders on probation and parole, and the 
Pretrial Services Agency (PSA), which supervises defendants released 
pending trial. The Public Defender Service transmits its budget with 
CSOSA's, and it receives a transfer from CSOSA's appropriation.
    For fiscal year 2002, CSOSA requests $147.3 million, and 1,167 FTE 
in direct budget authority to build on our accomplishments to date and 
to continue implementation of our strategic plans. Of this amount, 
$94,112,000 is requested for CSP; $32,359,000 is requested for PSA; and 
$20,829,000 is requested for the D.C. Public Defender Service.
    According to a recent survey, CSOSA monitors or supervises 9,641 
pretrial defendants, 10,988 probationers, and 5,663 parolees. The 
period of supervision varies according to the individual's status. 
Pretrial defendants are typically supervised for approximately 170 
days; probationers, approximately 20 months, and parolees, an average 
of 5 years. Split, sentence probationers typically serve approximately 
two years in prison and three years under probation supervision.
    As in the rest of the Nation, offenders under community supervision 
in the District of Columbia are poorly equipped to establish stable, 
law-abiding lives. The typical offender under CSOSA supervision has 
four prior convictions and nine prior arrests. Two-thirds are 
unemployed. Almost half have no high school diploma or GED. The average 
literacy level is seventh grade. Nearly three-quarters have a history 
of substance abuse, and almost half have 1 current substance abuse 
problems. Forty percent show some evidence of a personality disorder. 
Twenty percent have experienced a major loss of someone close to them 
in the last six months.
    Due to these circumstances, CSOSA is working to maximize 
opportunities for defendants and offenders to succeed and minimize the 
risk of reoffense. Unless current trends are reversed, most released 
offenders will soon return to prison. Nationally, almost two-thirds of 
all parolees are rearrested within three years. In 1998, probation or 
parole violators constituted 36 percent of admissions to state prisons.
    Our mission is to increase public safety, prevent crime, reduce 
recidivism, and support the fair administration of justice in close 
collaboration with the community. Our tools are proven best practices 
grounded in performance-based goals and measurable indicators of 
success. Our goal is to reduce recidivism by offenders under our 
supervision for drug-related and violent crime by 50 percent, as well 
as to reduce rearrest and failure to appear among supervised pretrial 
defendants. This will require maximum performance from both Community 
Supervision and Pretrial Services, but we believe it is achievable by 
fiscal year 2005.
    In the three years since CSOSA was established, we have put in 
place a performance management structure that supports our strategic 
objectives. We have achieved significant progress in changing the way 
defendants and offenders are supervised in the District.
    The Agency's policies and operations are grounded in a cohesive set 
of strategies that define what must be achieved in order for the 
overall goal--the reduction of recidivism--to be met. These strategies 
are the five Critical Success Factors (CSFs):
  --Establish and implement an effective classification system, 
        including Risk and Needs Assessment, case management, drug 
        testing, and ongoing evaluation of our progress. Effective 
        community supervision is grounded in sound decision-making 
        about who should be released, what level of supervision is 
        appropriate, and how much progress the individual under 
        supervision has made. Approximately 11 percent of the fiscal 
        year 2002 budget request is dedicated to activities in this 
        area.
  --Provide Close Supervision of high-risk defendants and offenders, 
        with intermediate graduated sanctions for violations of release 
        conditions. Approximately 53 percent of the fiscal year 2002 
        budget request is dedicated to activities in this area.
  --Provide appropriate Treatment and Support Services, determined by 
        the needs assessment, to assist defendants in complying with 
        release conditions and offenders in reintegrating into the 
        community. Approximately 16 percent of the fiscal year 2002 
        budget request is dedicated to activities in this area.
  --Establish Partnerships with other criminal justice agencies and 
        community organizations. Approximately 2 percent of the fiscal 
        year 2002 budget request is dedicated to activities in this 
        area.
  --Provide Timely and Accurate Information and meaningful 
        recommendations to criminal justice decision-makers consistent 
        with the defendant's or offender's risk and needs profile. 
        Approximately 18 percent of the fiscal year 2002 budget request 
        is dedicated to activities in this area.
    Our efforts to this point have focused mainly on establishing the 
processes and programs through which we will achieve these results. Our 
fiscal year 2002 budget submission contains our first formal 
performance plan. By the end of fiscal year 2002, we believe that we 
will begin to see the benefits from reducing caseloads, increasing drug 
testing and sanctions, expanding treatment services and establishing 
additional partnerships with law enforcement and community service 
organizations. We are confident that our program strategy will result 
in such positive outcomes as reduced rearrests, lower drug use and 
expanded employment among the population we supervise.
                      progress and new initiatives
    CSOSA's fiscal year 2002 budget request builds on our progress 
under each Critical Success Factor. I would like to discuss briefly our 
achievements in each area and introduce our proposed initiatives for 
next year.
    Under CSF 1, Improved Risk and Needs Assessment, we achieved three 
important milestones:
  --CSP is currently standardizing the process of screening all 
        probation and parole cases to ensure the maximum consistency in 
        evaluation the risks and needs of offenders across the 
        supervised population. The University of Maryland is working 
        with us in this capacity.
  --A new state-of-the-art Forensic Toxicology Drug Testing Laboratory 
        was completed and opened in February 2000. The Drug Lab 
        processed over 193,000 samples in fiscal year 2000 and expects 
        to process over 300,000 in fiscal year 2001.
  --CSOSA continues to increase the number and frequency of drug tests 
        of defendants and offenders. The number of offenders tested 
        increased by 41 percent, and the number of samples collected 
        increased by 89 percent over fiscal year 1999 levels.
    For fiscal year 2002, CSOSA requests an additional $486,000 over 
fiscal year 2001 level to increase offender drug testing .
    CSOSA maintains a zero tolerance policy for substance abuse by 
offenders under our supervision. Drug testing is conducted on all 
offenders placed on supervision by the Courts and the U.S. Parole 
Commission to identify those who are using illegal substances and to 
allow for appropriate sanctions and/or treatment interventions. Studies 
show that among offenders, high rates of drug use are associated with 
high rates of criminal activity. Conversely, during periods of relative 
abstinence, criminal activity tends to decline. Drug testing is 
necessary to detect illegal substance use, effect swift sanctioning 
where appropriate, make treatment referrals to ensure the successful 
rehabilitation of offenders, and reduce the risk to the community of 
further criminal conduct.
    Under CSF 2, Close Supervision, we achieved five important 
milestones:
  --PSA created the Restrictive Community Supervision Program to 
        supervise defendants placed by the court in halfway houses.
  --PSA's District Court Unit implemented a new case management system 
        and close supervision for Federal defendants.
  --CSP's current General Supervision caseload is 70 offenders per 
        supervision officer. This represents substantial progress since 
        the Agency's establishment--cutting the active caseload roughly 
        in half.
  --CSP opened two new field offices (Taylor Street and South Capitol 
        Street) to increase supervision officer presence in the 
        community, bringing our total number of field sites to five. We 
        expect to finalize a location for a sixth field site very 
        shortly.
  --CSP implemented Transitional Interventions for Parole Supervision 
        (TIPS), a structured program for offender reentry and a pilot 
        reentry program in Police Service Area 605.
    Three proposed fiscal year 2002 budget initiatives are related to 
this Critical Success Factor:
    First, CSOSA requests $13,234,000 and 92 positions to establish a 
Reentry and Sanctions Center.
    The cornerstone of our reentry strategy is a dedicated facility for 
assessment and residential sanctions. Such a facility greatly increases 
the range of programming and sanctioning options available to judges, 
supervision officers, and treatment staff. We propose expanding the 
existing Assessment and Orientation Center (AOC) program at Karrick 
Hall into a full-fledged Reentry and Sanctions Center.
    CSOSA has operated the AOC program since 1997. It is currently 
funded by CSOSA with grant assistance from the Washington-Baltimore 
High Intensity Drug Trafficking Area (HIDTA) program. The AOC program 
provides intensive assessment and treatment planning for a limited 
number of defendants and offenders with serious criminal histories and 
long-standing substance abuse problems. More than 84 percent of 
participants have completed the program successfully.
    The additional resources requested to renovate the facility will 
enable us to expand the scope of the AOC's operations to include a 
continuum of reentry assessment, treatment, and sanctions programming 
for defendants and offenders under supervision. We also request 
authorization for positions to operate the facility and funding for 
start-up staffing.
    Once the Reentry and Sanctions Center is operational, our three-
phased reentry strategy for parolees can be implemented fully. The 
assessment phase will be followed by intensive supervision and relapse/
recidivism prevention phases, during which the parolee may be placed in 
contract residential treatment for up to 90 days and transitional 
housing for an additional 90 days. As the parolee completes treatment 
and demonstrates progressively responsible behavior, he or she 
progresses to less frequent supervision contacts and drug tests. If the 
parolee violates release conditions, appropriate sanctions (including 
residential placement) will be imposed immediately.
    We estimate that at least 70 percent of returning offenders, or 
approximately 1,250 persons per year, need this assessment and 
transitional programming, but we do not presently have the capacity to 
provide it. That is why we are seeking to expand the AOC and reduce our 
reliance on grant funding for its operation.
    CSOSA also requests $1,000,000 to acquire space and equipment for a 
new supervision field unit. The field unit will relocate CSP staff from 
downtown buildings that are owned or controlled by the D.C. Courts and 
the District Government, as well as relieving overcrowded conditions at 
existing field units.
    These resources will enable CSOSA to acquire space and equipment 
for an additional community supervision field office. Moving CSOSA's 
supervision officers to the neighborhoods where most offenders live is 
an important part of our strategy. In that way, the officers become an 
active public safety presence in District of Columbia neighborhoods. 
They are close to the offenders they supervise. Seeing the supervision 
officer on neighborhood streets reinforces the message of offender 
accountability. This structure also facilitates interaction with the 
police. We have structured our field operations to provide officers 
with the time and support they need to visit offenders at home and at 
work, as well as to interact with the police and the community. Our 
caseloads are assigned according to the Police Service Areas in the 
District, further strengthening the link between community supervision 
and community policing.
    CSOSA requests $1,000,000 to reduce caseloads for higher risk 
felony defendants.
    Caseloads within PSA's General Supervision Branch are approximately 
204 defendants to 1 Pretrial Services Officer (PSO). The funding 
requested for additional PSA positions will lower the caseload ratio 
for higher-risk defendants to approximately 84 to 1. With these 
additional PSOs, the full range of supervision services will be 
provided for higher-risk defendants, including: needs assessments for 
treatment and service referral, electronic monitoring, intermediate 
sanctions for selected violations, and improved coordination with CSP 
on dual supervision and presentence investigations.
    Under CSF 3, Treatment and Support Services, we achieved five 
milestones:
  --We have implemented a continuum of treatment services, including 
        detoxification, inpatient, and outpatient treatment from more 
        than 10 contract providers and in-house staff.
  --PSA created the New Directions Intensive Drug Treatment and 
        Supervision Program to closely supervise and treat drug using 
        defendants.
  --CSOSA placed 527 defendants and 1,165 offenders in contract 
        treatment programs.
  --The CSP Learning Lab at St. Luke Center was dedicated in November 
        2000. The Learning Lab provides educational and job placement 
        services to defendants and offenders. The program was developed 
        through a grant from the Department of Justice's Weed and Seed 
        program.
    For fiscal year 2002, CSOSA requests $5,297,000 to expand 
contractual treatment to meet court-ordered and assessed treatment 
needs of supervised offenders and defendants.
    Sanction-based treatment has proven an effective tool in changing 
the behavior of offenders. The synergistic impact of treatment and 
graduated sanctions together produces better public safety-related 
outcomes than would either approach individually. Gains over and above 
those associated with treatment alone are achieved with the addition of 
swift and certain sanctions that hold defendants and offenders 
accountable for continued drug use or other non-compliant behavior. 
Research performed by the Washington/Baltimore High Intensity Drug 
Trafficking Area project found that involvement in a drug treatment 
program with regular drug testing and immediate sanctions for 
violations resulted in a 70 percent reduction in recidivism 12 months 
following completion of the program.
     CSOSA currently estimates that each year at least 7,200 
individuals under supervision--3,700 defendants and 3,500 offenders--
require placement in an intensive treatment program, such as inpatient 
or outpatient contract treatment. In fiscal year 2000, CSOSA placed 
1,165 offenders and 527 defendants in contract treatment. We will 
increase these placements in fiscal year 2001.
    Under CSF 4, Partnerships, we have achieved four milestones:
  --CSP launched Community Justice Partnerships with the Metropolitan 
        Police Department in 30 Police Service Areas (PSAs).
  --CSP executed 27 agreements with community agencies, providing 
        opportunities for offender community service.
  --CSP established a cross jurisdictional approach to supervision with 
        the Metropolitan Police Department, the Prince George's County, 
        Maryland, Police Department and the Maryland Division of 
        Probation and Parole.
  --PSA restructured the General Supervision Branch to work more 
        closely with the Superior Court.
    Under CSF 5, Timely and Accurate Information, we have three 
important achievements to report:
  --PSA staff completed over 16,000 Bail Reports in fiscal year 2000.
  --CSP staff completed over 4,800 Pre-Sentence Investigation reports 
        in fiscal year 2000.
  --CSP established a secure database for sex offender registration 
        information and has registered 499 offenders to date.
    For fiscal year 2002, CSOSA $4,069,000 for continued work on 
improved case management systems and to complete the Agency's 
Information Technology (IT) infrastructure upgrades.
    The ability to track and analyze performance and results is 
critical for CSOSA to efficiently manage its resources. This year's 
request will ensure the Agency's case management systems are properly 
designed to complement and support the Justice Information System 
(JUSTIS) being developed under the auspices of the Criminal Justice 
Coordinating Council for the District of Columbia.
    The additional resources requested for information system 
development will be used to address significant deficiencies in the 
current system which include: lack of a single data repository, poor 
data integrity, lack of timely information retrieval capacity, lack of 
IT support for the integration of PSA and CSP supervision practices, 
and inability to track data supporting PSA's transition to a 
performance-based organization.
                               conclusion
    In the short time that CSOSA has managed the functions of 
supervised release, probation and parole in the District of Columbia, 
we have seen real progress in terms of both processes and outcomes. We 
have reduced caseloads to levels that are improving supervision and 
contributing to enhanced public safety. More offenders are tested for 
drug use, and we have put in place a system of sanctions and treatment 
for those who test positive.
    Are our strategies working? We are only beginning to measure 
results, but outcomes look promising so far. We have seen the number of 
parolee rearrests fall by nearly 70 percent since May 1998. In a two-
year period, we have seen reported Part I violent crimes reduced by as 
much as 35 percent in the neighborhoods where community supervision and 
police officers collaborate. We have seen the rate of positive drug 
tests begin to fall among supervised offenders. We look forward to 
seeing these positive trends continue and accelerate as our programs 
mature.
    We appreciate the support the Subcommittee has shown us in past 
years, and we hope that support will continue. Thank you for the 
opportunity to share our progress with you. I will be happy to answer 
any questions you may have.

    Senator Landrieu. Thank you, and I really appreciate your 
comments regarding the outcomes of some of our initiatives, and 
the performance and outcomes are important to keep focused on. 
I thank you for that.
    Mr. Clark.

                       STATEMENT OF JOHN L. CLARK

    Mr. Clark. Good afternoon, Madam Chair and Senator DeWine. 
It is a pleasure to appear before you today to report on the 
progress that has occurred in carrying out the mandates of the 
1997 Revitalization Act as it relates to the corrections 
components of the D.C. Government.
    I need also to report on some of the challenges that are 
still remaining. We are a little different than the others, who 
all have initiatives. We are kind of phasing down here.
    Our office, the Corrections Trustee's Office, was 
established by the Revitalization Act for several purposes:
    First, to provide a funding vehicle and consequent 
financial oversight for implementation of the Federal 
Government's responsibilities to the District of Columbia 
Department of Corrections under the act during the period when 
the D.C. felony population is being transferred to the Federal 
prison system.
    Second, to facilitate implementation of aspects of the act 
related to the closure of the Lorton Corrections Complex and 
the transfer of 8,000 felons to the Federal Bureau of Prisons.
    And finally, to provide assistance to the DOC in upgrading 
its operations.
    More recently, the unique role and perspective of our 
office has led to a somewhat broader mandate in terms of 
facilitating interagency communications in the District. This 
role evolved from requests from the Office of the Attorney 
General to investigate and help remedy several problems in the 
District, particularly those involving coordination between 
District, local district and Federal criminal justice agencies, 
and the reengineering of certain interagency processes that 
were altered by the act.
    Madam Chair, I am proud of the way that our office has 
fulfilled these mandates. In particular, just to mention a 
couple of things, for this 4-year fiscal year period between 
1998 and 2001 the Corrections Trustee will have provided the 
Department of Corrections with approximately $640 million in 
operating funds, in addition to having financed necessary 
short-term repairs at the Lorton facilities and certain new 
major initiatives, such as improvement of technology and 
information systems in the Department of Corrections.
    We have also worked closely with the Department of 
Corrections to provide technical assistance, with the goal of 
creating a streamlined, efficient Department of Corrections, 
well-prepared for its new role as a more typical urban jail 
system, responsible primarily for pretrial and misdemeanor 
populations.
    The Corrections Trustee has also prepared several 
investigative reports or reviews at the request of the 
Department of Justice, particularly on the problems at the 
private prison in Youngstown, Ohio, and I did have a chance to 
brief Senator DeWine on that report some months ago.
    Another investigative review for the Justice Department 
focused on problems associated with the District's interagency 
processing of offenders. These reports made a number of 
recommendations which I am proud to say have led to significant 
improvements in both situations.
    And more recently, the trustee has been asked to play a 
role in funding and shepherding several pilot projects, one of 
which Cynthia Jones mentioned, the Options mental health 
treatment program, projects for the larger D.C. justice system 
to improve the case flow processing from the time of arrest 
through movement into custody.
    Let me briefly address, Madam Chair, the progress on 
implementation of the revitalization act, and I must say it 
would be hard to overestimate the magnitude and complexity of 
some of the issues that have been thrust upon not only the 
Department of Corrections, but the other agencies who are 
represented here today, and a number of complex logistical 
issues have come up in the implementation.
    Frankly, these challenges are made even more complex in the 
District, and more cumbersome to an extent, because of the 
unique relationships and responsibilities between the District 
government and the Federal Government in terms of the criminal 
justice operations.
    On the other hand, on the positive side, while there is a 
long way to go to finish the job, I am firmly convinced, after 
4 years in this job, that in the end the operations of the 
local criminal justice system in the District and the public 
safety of the District of Columbia will have been significantly 
enhanced through this process.
    I want to assure the committee that the transition will be 
completed on time, by the end of this year, and hopefully by 
mid-November Lorton will be vacated of inmates, and all the 
prisoners will have been transferred to the Federal Bureau of 
Prisons. As you mentioned already, about 4,600 have been 
transferred.
    Skipping forward just to mention a couple of things, 
looking at the yellow light, I would also point out that 
although by the end of the year all the prisoners will have 
been transferred, the actual transfer of the final portions of 
the Lorton property to GSA will not occur immediately on 
December 31. After the inmates have left, there will be a 
period of decommissioning the property, disposing of extensive 
records and equipment.
    Madam Chair, you have mentioned one area that I would 
emphasize, and that is the particular difficulty impacting upon 
the staff at Lorton and with the Department of Corrections. The 
size of the DOC staffing is being reduced by three-quarters, 
from 3,300 employees to under 800, and again, without going 
into detail at this point, we can all imagine the anxiety and 
disruption that this has caused, although generally the staff 
have adjusted well after the initial shock, and I would say 
that we have developed an interagency task force to provide 
services to the employees. We have set up a career transition 
center at Lorton, and we have implemented the priority 
consideration program which was mandated in the law.

                           PREPARED STATEMENT

    In order to meet all these challenges, finally I will 
mention, that face our office and the Department of Corrections 
in fiscal year 2002, the Corrections Trustee requests a total 
of $32.7 million. This represents a reduction of $101 million 
below our current year level in view of the transfer of most of 
the prisoners to the Federal prisons this year.
    With that, I will conclude and be happy to take any 
questions.
    [The statement follows:]

                  Prepared Statement of John L. Clark

    Good afternoon, Madam Chairwoman and Ranking Member DeWine. I am 
pleased to appear before you today to report the progress that has 
occurred in carrying out the mandates of the National Capital 
Revitalization and Self-Government Improvement Act of 1997 (the Act) 
relating to the Corrections Trustee for the District of Columbia. I 
wish to thank you for the opportunity to share with you the progress we 
have made and challenges still facing our office.
                               background
    The Corrections Trustee was established by the National Capital 
Revitalization and Self-Government Improvement Act of 1997:
  --to provide a funding vehicle and consequent financial oversight for 
        the Federal government's responsibilities under the Act to the 
        District of Columbia Department of Corrections (DOC) during the 
        period when the D.C. adult felony population is being 
        transferred to the Federal Prison System;
  --to facilitate implementation of aspects of the Act related to the 
        closure of the Lorton Correctional Complex and the transition 
        of felons out of DOC; and
  --to provide assistance to DOC in upgrading its operations. However, 
        the Trustee has no operational authority within DOC, since that 
        authority remains with DOC's Director.
    Broadened Mandate.--Although the mission of the Office of the 
Corrections Trustee was originally conceived to be a financial and 
operational partner of DOC during the transition period, the unique 
role and perspective of the Office of the Corrections Trustee led to a 
wider role in terms of facilitating interagency communications. This 
role evolved from requests from the office of the Attorney General to 
investigate and help remedy several problems, particularly those 
involving coordination between District and Federal criminal justice 
agencies, and to foster an interagency re-engineering of the detention-
related processes altered by the Act.
    Financial Support of the District.--For the fiscal years 1998 
through 2001, the Corrections Trustee will have provided DOC with 
approximately $640 million in operating funds, in addition to having 
financed necessary repairs at the Lorton facilities and certain major 
new initiatives such as a new $2.8 million jail management information 
system. The Corrections Trustee allocates funds provided through the 
Federal appropriations process to finance the operations associated 
with the Federal government's responsibilities for District of Columbia 
adult ``sentenced felons,'' as set forth in the May 1997 Memorandum of 
Understanding signed during the development of the Revitalization Act. 
The Federal funding responsibility is limited to the Department of 
Corrections operations related to those felons serving sentences and 
whose legal charges have been fully adjudicated (``State ready''). This 
definition excludes those felons awaiting trial on other charges, 
parole revocation procedures, or other court appearances, which are 
considered to be a local responsibility.
    The Corrections Trustee works closely with the D.C. Department of 
Corrections on its financial operations as well as on critical 
operational issues facing the Department. The Corrections Trustee's 
goal is to assist in the strategic planning process to create a 
streamlined, efficient Department of Corrections prepared for its new 
role as a local correctional authority in the District of Columbia. In 
its new role as a more typical urban jail system, the Department will 
be responsible for its pretrial and misdemeanant inmate population, as 
well as those prisoners held for court-related procedures. The 
Corrections Trustee also works with the Department to ensure the safety 
of all inmates, staff, and the community, including the safety of 
inmates, staff and the community at Lorton, Virginia, where the 
facilities are scheduled to be closed at the end of the transition 
period.
        implementation of the act and the lorton closure process
    It would be hard for me to overstate the magnitude and complexity 
of the implementation tasks thrust upon the various agencies by the 
Revitalization Act, particularly on the D.C. Department of Corrections, 
the Courts, and the Court Services and Offender Supervision Agency. The 
scope of the operational and logistical changes required to be made 
during a relatively brief period is unprecedented in my knowledge. 
Frankly, the challenges are made more complex and cumbersome in the 
District by the unique nature of the responsibilities and relationships 
among local and Federal criminal justice agencies here. Those 
relationships have been significantly altered in the new regime, often 
with consequences which undoubtedly were unforeseen by those involved 
in the formulation of the Act. However, although there is a long way to 
go to finish the job, I am firmly convinced that in the end the 
operations of the local criminal justice system and the public safety 
of the District of Columbia will have been significantly strengthened 
and improved in the process, but not without great effort by many.
    The mandates of the Act to close the Lorton Complex and transfer 
all sentenced D.C. felons to BOP operated or contract prisons by the 
end of this year will be met, due in large part to the hard work and 
cooperative planning of all the involved agencies. The transfer of 
District of Columbia adult felony inmates has been progressing in 
accordance with schedules developed jointly by the Federal Bureau of 
Prisons with the Office of the Corrections Trustee and the Department 
of Corrections. These schedules have been shared with the Subcommittee 
as part of the Trustee's mandated Lorton closure reports submitted in 
1999 and 2000.
    Of the current D.C. inmate population of 10,200 inmates, almost 
8,000 are adult felony inmates, of which about 4,500 have already been 
transferred to the permanent custody of the Federal Bureau of Prisons. 
Since the establishment of the Office of the Corrections Trustee, four 
of the five facilities have closed at Lorton, Virginia: the Occoquan 
Facility in early May 1999, the Minimum Security Facility at the end of 
July 1999, the Youth Facility at the end of January 2000, and the 
Maximum Security Facility at the end of January 2001, two months ahead 
of schedule. This was accomplished in part by the transfer of inmates 
to BOP.
    However, due to the lack of available bedspace in Federal 
facilities during most of the transition period, BOP was unable to 
accept most of the DOC inmate population, especially medium and high 
security inmates which constitute the largest portion of the DOC 
population or about 70 percent. In order to continue the Lorton closure 
process in an orderly fashion, the D.C. Department of Corrections, with 
funding and cooperation from the Trustee's Office, entered into a 
contract with the Commonwealth of Virginia and modified a previous 
contract with the Corrections Corporation of America (CCA) to house 
medium and high security inmates. About 1,350 medium- and high-security 
inmates were placed in Virginia prison facilities, and about 1,500 
inmates were placed in facilities operated by CCA. Only the Central 
Facility currently remains open at the Lorton Correctional Complex, 
housing approximately 1,300 inmates.
    Staying on schedule has been made less arduous in part due to the 
relatively stable size of the District of Columbia inmate population, 
which was about 9,700 in 1997. However, during fiscal year 1999, a very 
large, unanticipated increase of more than 10 percent in the sentenced 
felon population occurred at the same time the DOC was closing the 
Occoquan and the Minimum Security Facilities. The rise in inmate 
population was not due to an increase of new commitments, but rather 
was, in large part, a result of more intensive parole revocation 
procedures, more stringent release procedures that occurred as a result 
of the Revitalization Act, and a court decision on the handling of 
parolees. This increase in the population necessitated the reopening of 
a Modular Unit within the Central Facility in April 1999 to accommodate 
the growth in the number of inmates while closing the Occoquan 
Facility. In fiscal year 2001, the current population has decreased 
slightly and is relatively stable at the present level of 10,200 
inmates, of which close to an estimated 8,000 inmates are a Federal 
responsibility.
    The transfer of inmates to the Federal Bureau of Prisons raised the 
concern that the inmates would be relocated far away from the District 
of Columbia and their families. This concern was reflected in the 
Memorandum of Understanding signed during the development of the 
Revitalization Act which provided that inmates would ``ordinarily 
initially be assigned to institutions located within a 500 mile radius 
of their release residence.'' This is not always feasible due to the 
special requirements in handling certain inmates, such as the 
availability of adequate bedspace at the appropriate security level. 
However, of the current 4,500 D.C. inmates in the Federal Prison 
System, nearly 80 percent are housed in facilities within 500 miles of 
the District.
    Transfer of the Lorton Property.--Although all the adult felony 
inmates will have been transferred to the Federal Bureau of Prisons--
including those in facilities contracted for by the Department of 
Corrections--the actual transfer of property at the Lorton Correctional 
Complex to the General Services Administration will not occur 
immediately on December 31, 2001. After the inmates have left, the 
equipment and property inventory and hundreds of thousands of records 
must be relocated or otherwise disposed of, as well as the transfer of 
certain Lorton-based functions such as the transfer and incorporation 
of warehouse functions, armory, laundry, and staff training to another 
suitable location. In addition, certain clean-up activities, including 
the decommissioning of the sewage treatment plant, must take place 
prior to the land's conveyance. The license plates, furniture, print 
shop, and the Metrobus seat repair prison industry programs at Lorton 
will be discontinued with most of these functions transferred to 
Federal prison facilities.
                   perspectives on current operations
    Difficult Challenges of Downsizing DOC Staff.--The Department of 
Corrections is being confronted with some unique issues and problems as 
its mission is altered and the size of the Department is reduced by 
about three quarters both in funding and in staffing from 3,300 
employees in 1997 to about 800 by the end of the transition later next 
year. The closure of four prisons and the gradual reduction of the 
Department's size over the past four years have been accompanied by a 
steady or even an accelerated rate of natural attrition. In recent 
months, that rate of attrition has slowed significantly. Overall, the 
impact over the past several years of the attrition phenomenon has been 
to minimize the need for conducting large Reductions-in-Force (RIF) 
efforts, though several of modest proportions were necessarily 
implemented by DOC. In certain cases as particular facilities were 
closed, vacancies in uniformed positions at DOC-operated correctional 
facilities were backfilled with staff transferred from closed 
facilities, thus reducing the need to separate some employees and 
reducing the need for a portion of the overtime.
    In contrast, the next six months present a more difficult situation 
since the number of staff who will be required to depart from DOC 
employment will be significant and, in order to live within constrained 
budget levels of the post-Revitalization Act period, RIFs will need to 
be planned well in advance of December 31, 2001, and be implemented 
during the final stages of downsizing and closure of the Lorton 
Correctional Complex. This issue has been complicated by the slow pace 
in carrying out certain previous RIF actions, such as with the recent 
delay in the processing of RIF actions after the closure of the Maximum 
Security Facility which closed at the end of January 2001. Separation 
notices associated with that closure were only recently issued, with 
most to take effect later this month, six months after the closure of 
the Maximum facility.
    The final downsizing needs to occur in a gradual, phased-in fashion 
and requires accelerated planning, including steps to process an 
additional RIF of significant size before September 30 of this year. 
These formal RIF actions are complex endeavors requiring coordination 
among the Department of Corrections, other District entities, and 
District officials. Because of this complexity, there is the strong 
potential for delay in this procedure due to the length of the approval 
process and the number of involved parties both within and beyond the 
Department of Corrections. I have recently reiterated to the Department 
of Corrections my concerns that the pace of separations needs to be 
accelerated to keep pace with the dramatic decline in the inmate 
population under supervision in DOC-operated facilities and the 
associated closing of correctional facilities and various housing units 
within the one remaining Lorton prison. Likewise, there is a 
significant concern that the available financial resources will soon be 
outstripped by the requirements to compensate a pool of employees who 
remain on duty, in spite of the drastic reduction in the requirements 
for on-board staffing corresponding to the diminished inmate 
population. It is incumbent upon the Department of Corrections to take 
the lead to ensure that this process is handled in an orderly and 
timely fashion.
    Employment Assistance for Departing Employees.--The priority 
consideration program and the Career Transition Center at Lorton were 
established by the Corrections Trustee and DOC to assist staff 
scheduled to be separated from the Department of Corrections to 
mitigate the difficulties of these separations. This program continues 
to provide an array of employment-related counseling and other services 
and is coordinated with the Federal Bureau of Prisons, the D.C. Office 
of Personnel, D.C. Department of Employment Services, and the U.S. 
Office of Personnel Management.
    One major benefit available to separated employees is preferential 
consideration for employment with BOP and other Federal and District 
agencies. Although only 20 applicants have been hired by the Bureau of 
Prisons to date both within and outside of the priority consideration 
program, it is expected that applications will increase as we approach 
the final closure of the Lorton Correctional Complex. As always, DOC 
staff are continually encouraged to avail themselves of the Federal 
employment opportunities through the priority consideration program.
    Improvements in Operations at the Department of Corrections.--One 
of the successes initiated by the Corrections Trustee in concert with 
the DOC administration has been in the implementation of a system of 
internal audits and controls within DOC. This system fosters the 
development of policies by which program accountability can be 
assessed. DOC Director Washington has supported this initiative by 
establishing a permanent unit to oversee the development and 
implementation of the new system. The Office of the Corrections Trustee 
instructed Department of Corrections staff on how to develop audit 
standards in 12 areas that will measure policy compliance in core 
correctional practices as well as focus on adherence to national policy 
standards, such as standards of the American Correctional Association, 
the Occupational Safety and Health Administration, and the National 
Commission on Healthcare.
    Likewise, the Trustee's Office has worked with the management of 
the DOC to attempt to remedy a long-standing problem with the lack of 
adequate information systems, a problem which has plagued the 
efficiency of staff operations and the ability of other agencies on a 
daily basis to access necessary accurate information on particular 
offenders. Installation of a state-of-the-art $2.8 million jail 
information system funded by this Office is currently being completed. 
This system should be of great benefit to DOC and its sister agencies. 
Several other technological enhancements have been provided to DOC 
through the assistance of the Trustee's Office.
    Improvements in services and supervision for offenders returning to 
the community after a period of incarceration.--Prior to the 
Revitalization Act and the establishment of the Office of the 
Corrections Trustee, few inmates returning to the community had the 
benefit of a transitional period in a halfway house prior to release. 
We strongly advocated that the prisoner re-entry and halfway house 
program be reinvigorated, and currently nearly all parolees have been 
placed in halfway houses before returning to the community. This 
improvement has resulted in reducing the rate of re-arrest by more than 
50 percent among parolees.
initiatives to improve the criminal justice process within the district 
                              of columbia
    Investigative Reviews of the Youngstown Prison and of the 
District's Interagency Processing of Offenders.--The Corrections 
Trustee has prepared several reports at the request of the Department 
of Justice. The first was a review completed in November 1998 examining 
the very serious, well-publicized problems at a private facility at 
Youngstown, Ohio, operated under a contract with DOC which predated the 
transition mandated by the Revitalization Act. This review led to a 
detailed report with 19 major findings of issues to be addressed along 
with 24 recommendations to ameliorate the problems, directed at both 
DOC and the operations at the private facility. The major issues have 
subsequently been addressed by both entities, leading to significant 
improvements, including the removal of all high-security or disruptive 
prisoners. The Youngstown facility has operated in a much improved 
fashion over the past two and a half years, with no major incidents or 
disruptions.
    The second report requested by the former Deputy Attorney General 
resulted in a 280-page review of a number of other interagency and 
inter-jurisdictional issues and problems unique to D.C.'s current 
transition, including problems associated with the processing of newly 
sentenced inmates and those who are sentenced under both local and 
Federal statutes. The request was in response to an order from the U.S. 
District Court requesting that the Department of Justice investigate 
and remedy the policies and procedures related to these areas. The 
Court's order reflected serious public concerns, including those raised 
in the Congress, regarding the mishandling of the highly publicized 
case of murderer Leo Gonzales Wright, and specifically with the 
commitment processes for Federal and D.C. code cases. This report 
included 24 major recommendations. It was released in October 1999 and 
has been favorably received by both the U.S. District Court and the 
Superior Court, as well as DOC and Department of Justice and its 
component agencies.
    Critical Importance of Interagency Coordination of Case Processing 
to the Courts, Corrections and Department of Justice.--As a result of 
the Leo Gonzales Wright report and the recommendations on interagency 
case processing issues, the former Deputy Attorney General requested 
that the Corrections Trustee coordinate implementation of the report's 
recommendations with all affected agencies of the Federal and District 
governments. Beginning in January 2000, the Office of the Corrections 
Trustee organized an ongoing interagency committee of Federal and 
District criminal justice agencies to improve the coordination and 
logistical planning in various detention related processes. This 
Interagency Detention Work Group meets on a monthly basis and includes 
ranking representatives from 15 Federal and local agencies, including 
Judges from both the District and Superior Courts. Six separate 
committees are working very effectively in resolving a number of 
interagency issues and problems and in improving the coordination of 
interagency processes.
    The progress made and the collaborative approach of the agencies 
involved in this work group were acknowledged in a report released to 
the Congress in March 2001 by the General Accounting Office, a report 
which in many ways was otherwise critical of the lack of adequate 
coordination efforts in the District's criminal justice system.
    Coordination of Re-entry and Halfway House Issues.--In response to 
requests from Congresswoman Eleanor Holmes Norton and the former Deputy 
Attorney General in September 2000, the Trustee's Office coordinated a 
joint effort of several agencies participating in the Interagency 
Detention Work Group to develop and implement a short-term action plan 
to address several immediate problems in the processing of offenders 
being released or those assigned to halfway houses. The collaboration 
resulted in much needed progress in the effective elimination of the 
backlogs of two major categories of inmate cases, those beyond their 
parole dates due to lack of available halfway house beds and those 
ordered to halfway houses by the Court as a condition of pretrial work 
release. Although there continues to be a shortage of halfway house 
beds, the enhanced interagency communication resulted in a responsive 
allocation of available beds.
       fiscal year 2002 budget request of the corrections trustee
    In fiscal year 2002, the Office of the Corrections Trustee requests 
funding to continue reimbursement to DOC for operations associated with 
the adult felony population for the period until the final group of 
inmates is transferred to the Federal Bureau of Prisons, which will be 
no later than December 31, 2001. The last remaining inmates at the 
Lorton Correctional Complex will be housed at the Central Facility, 
where it is estimated that no more than 500 to 600 inmates, and 
hopefully fewer, will be located at the beginning of the fiscal year. 
This facility will be closed on schedule no later than December 31, 
2001.
    The Trustee's office also requests funding to reimburse DOC during 
this period for major support activities related to housing felons, 
such as health services, facilities management, and transportation. For 
a reasonable period beyond December 31, during the period that all 
physical property including records and equipment is being removed in 
preparation for final transfer to the General Services Administration, 
and, ultimately to Fairfax County, I anticipate that there will be some 
diminishing level of funding provided.
    Contract Confinement.--Most secure confinement contract bed spaces 
for the adult felony population will be vacated by the beginning of 
fiscal year 2002, but the Office of the Corrections Trustee requests 
contingency funding to DOC for some higher security bed spaces to be 
made available, as necessary, through contractual arrangement until 
December 31, 2001. Funding is also requested for the same period for a 
limited number of re-entry halfway house beds for prisoners being 
paroled, as the last felons who are under DOC custody are released to 
halfway house bedspace prior to BOP taking over full responsibility.
    Transfer of Lorton-based Activities.--Lorton-based functions that 
are required to continue will be transferred from the Lorton Complex. 
We support the DOC's plan in which it is anticipated that these and 
other administrative functions will be transferred to a single location 
in the District. The warehouse, facilities management, and staff 
training must be relocated from Lorton. Since the relocation is 
directly associated with the closing of the Lorton facility, the 
Trustee's office requests funding to contribute a portion of the total 
costs in the preparation of the new space for the relocated functions.
    Severance Pay.--Prior to the Revitalization Act, DOC employed more 
than 3,300 staff. The current DOC staffing level is about 1,600 
employees, and it is projected that with current attrition, another 140 
employees will separate before the Central Facility closes. Of the 
remaining employees, a significant number must still be separated to 
downsize DOC in accordance with its new, reduced mission. Under the 
pending budget request, the Office of the Corrections Trustee would 
reimburse DOC for severance pay and terminal leave for employees 
released as a result of the closing of the Central Facility, including 
those employees in support operations such as health services, 
transportation, facilities management, and administration.
    Assistance with Broader-based Local Justice Initiative.--In fiscal 
year 2001, in addition to assistance with strictly correctional 
operations, one million dollars in Congressional funding was provided 
through the Trustee's Office to the District's criminal justice system 
for the implementation of caseload and records management improvements. 
The intent of these funds was to quickly begin to implement some 
recommendations of a report then underway for the District by the 
Council for Court Excellence, a report which was released only in the 
past two weeks. The importance of this report and its recommendations 
for the District's criminal case processing was emphasized in the new 
GAO report to the Congress cited above. Four major projects are under 
development among several criminal justice agencies. The projects 
include:
  --Reinvigorating the MPD citation release process and citation 
        caseload management system;
  --Implementing, with a view of future expansion of, the MPD Papering 
        Reform Pilot Project;
  --Implementing a Differentiated Case Management System for 
        Misdemeanors and Traffic offenses at D.C. Superior Court; and
  --Implementing a pilot ``options'' project in coordination with the 
        D.C. Commission on Mental Health Agency and the Pretrial 
        Services Agency to test the value of adding additional mental 
        health services as conditions of pretrial release for 
        appropriate non-violent, non firearm, post-arrest mental health 
        offenders. This type of project is a progressive approach that 
        is being promoted in other State and local governments 
        throughout the Nation.
    The Office of the Corrections Trustee requests continued funding to 
assist in further implementation of criminal justice improvements in 
fiscal year 2002.
                               conclusion
    Madam Chairwoman, this concludes my remarks. I would be pleased to 
respond to any questions.

    Senator Landrieu. Thank you all very much. Senator DeWine 
does have a few questions specifically about the court, so 
since our time is short, Senator, and that is very important to 
us, why don't we go ahead and focus on those questions, and why 
don't you go ahead and you can begin, and I will do a few wrap-
up questions on some of the other points.

                          FAMILY COURT REFORM

    Senator DeWine. Thank you all for coming. We appreciate it. 
Sorry for the delay. Sometimes the Senate does not cooperate 
too well when you are trying to do hearings.
    Judge King, I want to follow up on your comment about the 
one judge one family, and that you are basically doing that 
now, is that correct?
    Judge King. Particularly in the juvenile area, where one 
family or one young person would find himself before the 
neglect and abuse court, and involved in a juvenile case, and 
in that instance by far the predominant practice is for the 
judge who is responsible for the neglect or abuse case, to be 
in contact with the judge to whom the juvenile case came in the 
first instance, and what usually happens is, the juvenile case 
is transferred to the judge with the neglect and abuse case for 
the child.
    In other words, the child remains before one judge, and 
essentially the judge who has the neglect matter is responsible 
for everything.
    Senator DeWine. Judge, I am not sure I am following you. So 
that would mean that the first contact with this family, this 
whatever family, DeWine family, whatever, the first contact 
with this family, that judge would then----
    Judge King. Take other matters that came in relating to 
that family. Informally we do that less--it is less uniform at 
this point, and that is one of the things--I mean, we 
absolutely agree with your emphasis on the importance of one 
family one judge, and one of the things we are working on our 
plan to do is to tighten up that aspect of it, in part in 
respect to our dialogue on that subject.
    Senator DeWine. So you would not have a situation where the 
case just stayed on the docket of one judge but another judge 
was dealing with it.
    Judge King. No. Once a case was--there are clearly two 
cases that ought to be in front of one judge, that child is 
transferred to one judge, and that judge is responsible for all 
the cases. In other words, it does not make any sense to go 
back and forth between judges.
    Senator DeWine. But I guess my question is, it would be 
decided basically on who had the kid first? I mean, whatever 
the case that came up, or how would that work?
    Judge King. No. The usual--in that instance, and as I say, 
this is still a work in progress, but the child in the neglect 
system is the one where the most critical issue is at stake, 
the greatest need for services, so that is likely to be the 
predominant----
    Senator DeWine. So the neglect aspect of it would dominate.
    Judge King. That is right, and one of the things that I 
think we will be looking at down the road, as the rules 
change--I mean, that is easy to address in a rule. We want to 
make sure that we have thought through how the plan is actually 
going to be implemented, what ultimately is the amount of 
resources that we are going to have, and how this process comes 
out, but one of the things that I see as helping this process 
would be a rules change, or a rules procedure.
    Senator Landrieu. Let me just follow up on that for 1 
minute. Senator DeWine and I, as you know, have worked so 
closely on this issue together, and we have conducted these 
meetings at question time a little more informally than some of 
the other committees.
    Judge King. In a very helpful way.
    Senator Landrieu. We hope that this is more helpful, 
because we really want to try to fashion a remedy that really 
works, and what we are struggling with is not so much, if I 
could, one judge one child, but one family one judge, so that 
there is one judge, or one magistrate that understands the 
depth and breadth of the problems facing a particular family.
    It could be drug addiction and criminal behavior by a 
father or a mother, it could be abuse of one child or more, it 
could be truancy by a child, but once that family comes into 
contact with--whichever member of a family to a courtroom, to a 
judge, we are hoping that the system that would result would be 
that that judge would basically be in charge of that family so 
that these cases are not passed from one judge to another, and 
a new judge has to familiarize themselves with the condition of 
the mother, the condition of the father, the brothers and 
sisters, et cetera.
    I realize that every jurisdiction in the country is 
struggling with this. I mean, this is not a problem just with 
the District, but it is a very important problem and challenge 
in the Nation, and that is why the way that you all have 
described to me your docket--you have a divorce docket, I 
think, a termination docket, an abuse docket, a such-and-such 
docket.
    But it is important if you could say for the record either 
what you are doing now, or what we should do in the future, to 
make sure that somebody has their eye on this family unit in an 
attempt to hold it together, which is very important, if 
possible, and then somebody who has got enough information to 
make some tough decisions sometimes about placing those 
children with other families that can raise and nurture them, 
and then providing compassionate but disciplined counseling or 
whatever to parents, and there are different levels of that, 
from counseling to imprisonment, based on what those actions of 
those parents or adults would be.
    So can you just sort of elaborate a little more, and if you 
do not mind, if we could just sort of focus on this for a 
minute.
    Judge King. This has been a constant source of, I think, 
concern for all of us, and I think perhaps maybe I have not 
expressed myself as clearly as I might have, because we really 
do not disagree a bit on the goal and where we ought to go.
    I find sometimes it is frustrating, because I think we all 
would like a simple, two sentences as to how this is all going 
to work, and we have got it, and boom, now we have solved the 
problem. And in my now almost 30 years at the bar I have not 
encountered very many legal problems that are susceptible of 
that kind of approach. It gets complicated when you get to the 
details. That is where the devil is.
    But the short answer to your point, I think, is that most 
cases do not have multiple issues in them, and so it makes 
sense to have judges responsible for divorce cases, for 
example, people who have divorces, because most divorces do not 
have neglect and abuse and all the other things, so in terms of 
organizing a family court and running it day to day, for most 
of the time it makes sense to have judges have areas of 
responsibility where they have the benefit of efficiencies of 
doing cases.
    For example, one of the things you have to work out is, all 
the neglect cases and adoption cases are closed proceedings, 
whereas other family proceedings are open to the public, and so 
that is just some logistics you have to work out in order to 
have all of those matters brought before a judge in a timely 
and sensible way so that people are not kept waiting. That is 
why it makes sense for judges to have one general area of 
responsibility.
    The number of cases that you are addressing that are of 
vital concern but are not that huge in number are ones where 
there are different cases relating to one family, where there 
is a divorce case and a neglect case, or an adoption that is 
going to resolve a neglect case, and in those cases I think we 
can and we are looking at ways to move us to a point where all 
of those cases will be handled by one judge, end of discussion.
    Now, one caveat is that there are a few types--for example, 
if dad is in a criminal case, is in trouble for armed robbery, 
it does not make a lot of sense to bring that into the family 
court, where you have got to then have a whole jury process set 
up.
    Senator Landrieu. I would say that could be the one 
exception.
    Judge King. Things like that, with other exceptions I think 
we can get to a place, and the plan that we have now gets us 
there by the collaboration and, if you will, a rules change 
which would set up the dominant judge given a particular family 
member or child, but that is not the end of our work on it, 
either. Just as you are concerned about it, we are responding 
and trying to look at it again.
    We still have our task forces which were convened in 
January. They are being reconvened to take another look at this 
to see, for example, if there is a way to find out which are 
the cases where duplicate types of litigation are most likely 
to occur, and deal with those separately, maybe do some 
different ways of assigning those responsibilities so that the 
judge will be responsible for all the cases that affect that 
family.
    Senator Landrieu. Well, just to bring this point to a 
close, I am happy to hear that we are all pretty much in 
agreement of where we want to be, and where we think we should 
be, and where we really need to be for the families that are 
involved.
    I mean, it must be extremely frustrating to everyone 
involved to have to start with a new person every week or every 
month, trying to explain to the case workers, to the people in 
the courtroom, to the neighbors, to the friends that are trying 
to help. It has just got to be extraordinarily frustrating, so 
whether we do it by rule or by law, or in what way, and there 
is probably no perfect way, but there are good ways that it can 
be accomplished, we look forward--Senator DeWine will probably 
have a few more questions, and Senator, go right ahead.

                     Courthouse Facility Renovation

    Senator DeWine. Judge King, after the last hearing I asked 
you to identify, or at the last hearing I asked you to identify 
the division or divisions of the court that you plan to move to 
the Old Courthouse, and in your response you indicated that you 
plan to move the Court of Appeals.
    Judge King. Which, of course, is not mine to move, but the 
thinking is that that is the effort.
    Senator DeWine. But in dealing with the big problem that 
one impacts the other.
    Judge King. That is the initiative.
    Senator DeWine. Why would you not move the family court 
there? I mean, it seems that you have a new renovated facility, 
you have the ability to design from scratch, basically, all the 
things that we have talked about with Senator Landrieu, some of 
the things she mentioned in her opening statement, and then 
wouldn't you have, therefore, basically the segregation between 
the criminal, those who have been charged with criminal 
offenses, and the family court?
    Judge King. There are a couple of things there. First of 
all, that building has no cell block facilities or underground 
access to bring prisoners in and out, so that you would have to 
duplicate that apparatus not only for the juveniles who would 
be in the Family Court, but for the incarcerated parents, which 
is enough so that we at least need to think about that problem.
    One of the main reasons is timing.
    Senator DeWine. Whatever you do, it is temporary. We are 
not--I know we have got to follow our standards, but it is a 
temporary holding cell, or temporary holding facility we are 
talking about. We are talking about hours. We are not talking 
about even probably overnight.
    Judge King. No, no, the problem is moving people. For the 
incarcerated parents, it is moving people back and forth across 
the street, and we have had that experience, in having to move 
people in irons.
    Another very important consideration for us is that the 
Court of Appeals may be 3 or 4 years away from going over to 
that building, and I am hoping that we do not have to wait 3 or 
4 years before we can effectively open our new family court 
operations, and let me say that we are looking at three 
possibilities for the Family Court.
    One is to keep it in the Moultrie Building and get 
contiguous space there, displacing other operations needed in 
order to do that. Another is that there is another building, 
Building B, it is called, which was years ago the old civil 
court. It is also in need of renovations. That may be one that 
would be accessible to us early, and it already does have cell 
block facilities, so there would be a leg up.
    The third is that there was some consideration at the time 
the Moultrie Building was built to having additional floors, or 
having capacity for additional floors on it. We want to do, and 
it seems to me the only competent, careful way to do this is to 
complete a building evaluation report on our existing 
facilities and then to do a feasibility report on these various 
things, and we have actually already initiated discussions with 
GSA to begin to look at that so that we will figure out what 
the best solution is.
    Certainly, it is conceivable that they would come back and 
say, the Old Courthouse is the way to go. We are going to 
listen to that, but I think for now we are looking at that as 
maybe untimely, and it seems, at least at first blush, to have 
some problems that the other options do not have.
    Senator DeWine. Thank you very much.
    Senator Landrieu. I just want to follow up on this, and I 
will get the schematics and sketches and brief myself more than 
I was able to today, but I do want to make this point, that if 
there is any way in this sort of redesign that we could have a 
sort of, either a stand-alone or a separate facility for 
parents who are not criminals--these are families that need 
help. These are children who are not criminals. They need help.
    They do not need to literally be walking around where other 
people are in chains, and people have guns. These children are 
traumatized enough already. They need to be in a setting that 
is more conducive to sort of healing and nurturing, so whether 
they are in one building, or on a separate floor, or whether 
they are in a building--I think Senator DeWine and I would be 
very interested in trying to work with you all to figure out 
what is the best place where these situations of abuse and 
neglect and some sort of--not that that is not criminal, but 
the children are not the criminals--in a way that makes sense, 
and so, since we have got some options with these facilities, 
we will continue to work with you, Judge, and see.
    Judge King. We certainly want to do a--as I say, I want to 
do it carefully and competently. If this were my money I was 
chasing, I would want to know what the options were, and I 
would want to have a report in hand.
    The other thing, let me issue an invitation to both you and 
your staffs at any time to come over and I will show you what 
our thinking is.
    Senator Landrieu. And I will. I think I would like to, and 
I think the Senator would like to.
    Judge King. We would be delighted.
    Senator Landrieu. We would love to do that and come see 
what some of the options are, and perhaps our staff could, 
based on what the proposals are, submit some options for this.
    Judge King. Sure.
    Senator Landrieu. Because it is a great opportunity to 
create, as we talked about before, a real model for the Nation, 
because many of the courts around the Nation are trying to use 
this model and have their facilities match the reforms.
    Judge King. May I just add one thing I forgot to mention. 
We have already moved in that direction. We had a hearing room 
which was really so small that it was dangerous to use for the 
use that it was being used, and I have already had that broken 
out and turned into a family-friendly waiting room, so that is 
just using resources we have now, without any additional 
things. We are very conscious of the need to have somewhat less 
chaos and more kind of a sense of safety around the places 
where children and people with the children are going to be 
waiting for court proceedings.

                  LORTON CORRECTIONAL FACILITY CLOSING

    Senator Landrieu. That would be great. Let me follow up 
with you, Mr. Clark, for just a moment on this--and this is 
prior, I think, to my service on this committee, and I am not 
as familiar with the law that established your initiative, but 
your charge is basically just to empty a facility, and to 
transfer these prisoners, all 8,000 to 9,000 to Federal 
jurisdiction. Basically the physical movement of them and the 
closure of the facility is your general charge.
    Mr. Clark. That is the core of our charge, that is correct, 
and to engineer a number of processes that are involved in 
setting up some permanent case processing.
    In other words, we have probably 1,500 cases a year 
sentenced in Superior Court, who in the past have just gone--
they have been in the D.C. Jail, and they have gone to Lorton. 
Now, they will all have to be committed to the Federal Bureau 
of Prisons, which involves the meshing of four or five or six 
agencies, between the court and the court services who develops 
the presentence report, the Marshals, the Bureau of Prisons, so 
there is some of these processes that we have been in the 
middle of trying to reengineer and, say, a thing occurs with 
the parolees----
    Senator Landrieu. Well, the reason I ask is because, you 
know, all States, and I understand that we are trying to help 
the District, and it does help them significantly to relieve 
this financial responsibility. It is a huge responsibility for 
States, and very, very expensive, the criminal justice piece, 
and on moving it we have helped the District in terms of their 
financial management.
    But in addition to basically moving bodies around that 
States do, people in prison, they also have obligations for 
skill development and education, and trying to transfer people 
back into the community, and the human aspects of prisoners and 
their families, contact with their families--is it your agency 
that has responsibility for that, or Mr. Ormond, or Mrs. Jones, 
or who right now--I know you are focused on sort of just the 
movement of them to the Federal system, but once they get in 
the Federal system, then they come under the jurisdiction of 
all of the programs available to Federal prisoners, and 
initiatives with Federal prisoners, and they just come under 
the general Federal prison rules, or----
    Mr. Clark. That is correct.
    Senator Landrieu. And that is clear in the law.
    Mr. Clark. That is clear, that they are to be treated in 
every respect as a Federal prisoner, to have access to all of 
these programs.
    Senator Landrieu. Whatever services are available to 
Federal prisoners, skill development, educational options.
    Mr. Clark. That is correct, and in my walking around, and I 
served for 23 years in the Federal Bureau of Prisons, so I am 
very familiar with that agency, but in my walking around Lorton 
and Youngstown and all the other facilities, to be truthful I 
find that most of the inmates are eager to move to the Federal 
system.
    They are not necessarily eager to be a little further from 
home, although that is not an issue with many of them, but they 
are eager to have access to those kinds of programs, drug 
treatment programs, as you say, skill development programs, 
parenting programs, many of which have not been as available.
    Senator Landrieu. Which are more robust in the Federal 
system than they are in this current system.
    Mr. Clark. That is correct, yes. Yes.
    Senator Landrieu. Are there any things--I have got a few 
other questions, but I could submit some of them in writing, 
and since it is 4:30, is there anything, though, that you all 
wanted to add to the record that you did not get to say in your 
statement, or anything you wanted to bring to my attention or 
emphasize just briefly in a one-minute closing?
    Judge King. I would welcome any written questions that 
would clarify, and I particularly would like to be sure, 
whether it is by staff meetings or a meeting with you, that we 
come to a shared understanding as to the budget that is already 
devoted to family, as opposed to the extra that we will need to 
implement some reform.
    We may not ultimately agree, but I sure would like to know 
that we all see the same reality, and then are dealing with 
that picture, so I will look for an opportunity to do that with 
you or your staff at some point.
    Senator Landrieu. Great. Mrs. Jones.
    Ms. Jones. I do not have any other things I need to add, 
but I would invite any questions you might have about the 
Public Defender Service.
    Mr. Ormond. I would just like to thank you again for the 
opportunity, and we feel very good about the progress we have 
made so far, and the support we have gotten from the committee, 
and we would welcome any further questions for clarification.
    Thank you.
    Mr. Clark. Madam Chair, the only thing that I would 
mention, again, after having spent the last 4 years in this 
process, is how impressed I am with the progress that has been 
made in a number of areas in the District, where the public 
safety of the District is being enhanced by a number of these 
initiatives, and in that same regard I have been impressed by 
the growing sort of communication and coordination among the 
many agencies, maybe as compared to 4 or 5 years ago.
    I mean, we just meet each other coming and going trying to 
work out some of these processes, and trying to make 
improvements in the local system, so we all see each other and 
many other folks from other agencies all the time, so I am just 
impressed that in the District right now there is this energy 
to not only take care of our own agency, but to try to work 
together with the other agencies.

                          subcommittee recess

    Senator Landrieu. Well, that is very good to hear.
    Thank you all, and again I am sorry for the delay, but this 
meeting will be recessed.
    [Whereupon, at 4:30 p.m., Tuesday, July 10, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]




















        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2002

                              ----------                              


                        WEDNESDAY, JULY 11, 2001

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:10 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Mary L. Landrieu (chairman) 
presiding.
    Present: Senators Landrieu and Hutchison.

                          DISTRICT OF COLUMBIA

STATEMENTS OF:
        HON. ANTHONY WILLIAMS, MAYOR
        LINDA M. CROPP, CHAIRMAN, FINANCIAL RESPONSIBILITY AND 
            MANAGEMENT ASSISTANCE AUTHORITY
        DR. ALICE M. RIVLIN, CHAIRMAN, COUNCIL OF THE DISTRICT OF 
            COLUMBIA
        DR. NATWAR M. GAHDHI, CHIEF FINANCIAL OFFICER
ACCOMPANIED BY:
        CAROLYN GRAHAM, DEPUTY MAYOR FOR CHILDREN AND YOUTH SERVICES
        PAUL VANCE, SUPERINTENDENT, D.C. PUBLIC SCHOOLS

             OPENING STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Good afternoon, and if those here would 
take a seat, we will begin. I would like to call the meeting of 
the Appropriations Subcommittee for the District of Columbia to 
order and welcome all of our very, very special guests and our 
panelists today. Particularly to the Mayor of the District of 
Columbia, Mayor Williams, welcome, and Mrs. Cropp and all of 
the administrators for the District.
    It is a pleasure for me to conduct this hearing, and we may 
be joined by one or two of the other members, but as you know, 
there are other subcommittee hearings taking place and bills 
and activity on the floor at this moment. But we may be joined 
by some of our other members.
    Let me just begin by saying that the purpose of this 
hearing is to review the local budget and discuss the policy 
priorities of the District.
    As you all know, I will just remind each of you that your 
entire statement will be made part of the record, so I would 
appreciate it if you could limit your opening statements to 
about 5 minutes. Mr. Mayor, we will give you a little latitude 
here with yours in just a few minutes.
    So, without objection, the record will remain open until 
5:00 p.m., Friday, July 20, for the submission of any 
additional testimony or responses that myself or other members 
may raise.
    So, let me begin, if I could, with an opening statement, 
and then we will take your statements and questions. Hopefully, 
we can finish our work in about an hour and a half, but if need 
be, we can go a little bit further into the afternoon.
    I have already welcomed all of you here but I would 
specifically like to say, Mayor, what a personal honor it is to 
have you here. I have watched your work now very closely as a 
part-time resident of D.C. and back and forth between my home 
State. And to Councilwoman Cropp, for your good work that you 
do here in the District too. I follow the work that you do 
quite closely in the newspaper, not only as a Senator but as a 
resident of the District. If our house can ever get finished, 
Mayor, we will invite both of you over. It is not your fault 
but our fault that it is taking a while right on East Capitol.
    But, Mr. Mayor, you have done a wonderful job, and you are 
supported by a very able city council. You have made a 
tremendous impact, Mayor, in such a short period of time. Much 
to your credit and others and the team that you have assembled 
around you, you have succeeded in streamlining the District's 
management processes, providing better, more efficient services 
to the residents of the District, which we all appreciate. The 
budget, which your office has crafted and which you are here, 
of course, to testify on, truly reflects that your vision is 
for more truth in budgeting, which I appreciate and the members 
of this committee appreciate.
    Since taking office, this Mayor has succeeded in surpassing 
the balanced budget benchmarks set by Congress while 
maintaining a fiscally responsible budget focused on key areas 
and priorities.
    The key to any strong society rests on its ability to 
provide primarily, in my opinion, an education for its youth, 
stability and safety for the least of its members, a strong 
economy, and a clean environment. Under your leadership, Mayor 
Williams, and the City Council, the District has made 
tremendous strides towards building a new and vibrant D.C. With 
an eye towards each of these visions, you have helped to 
improve education, begin the reform of the child welfare 
system, which is so critical to this city and to any city in 
our Nation, to reinvent the capital's parks and recreation 
sites for families everywhere in every neighborhood and for the 
children who desperately need places to run and play and 
recreate and to enjoy all the benefits of childhood, and most 
importantly, unify the city around a shared vision of a better 
tomorrow for the District and its residents.
    I am pleased to find that several of the areas of focus 
within your budget are areas of great importance not only to me 
but members of the committee and things we work on in Louisiana 
every year and for many decades actually, and that is, 
education, child welfare, environmental conservation, and 
recreation have long been cornerstones of my own legislative 
agenda. In each of these areas, the Mayor and the council have 
been faced with a variety of different challenges, some of 
which are unique to the District, but most of which many 
communities around this Nation struggle with each and every 
year. The tremendous efforts you have made will make sure that 
as the Nation's capital, the District is better positioned to 
serve as a model for other cities around the Nation. Again, for 
the thousands, hundreds of thousands of residents, but also the 
millions of people who visit here, it is a very, very special, 
place indeed.
    They say that the test of a true leader is his or her 
ability to surround himself or herself with like-minded 
talented people. I would like to commend you and the leaders 
around you for the work that you have done, specifically 
Carolyn Graham, the Deputy Mayor for Children and Youth; 
Margaret Kellems, Public Safety; John Koskinen, City 
Administrator; Eric Price, Deputy Mayor for Economic Planning; 
and Nat Gandhi, the CFO, who we will hear from in a minute.
    And to you, Ms. Rivlin, I thank you for the commitment that 
you have made in your role with the Control Board and others to 
give guidance through this difficult, but increasingly 
promising situation we find ourselves in.
    I am pleased to know that Superintendent Vance has recently 
agreed to remain as Superintendent through another contract 
term. In his relatively short tenure as the Superintendent of 
D.C. Public Schools, Paul Vance has taken the Mayor's vision of 
education reform to a new level and begun to make it a reality. 
In his recent report to the Board of Education, Mr. Vance said, 
``I came to the D.C. Public Schools because ours is a rare 
opportunity to do for our children today the things that will 
make a difference for their future for today and tomorrow.''
    Might I say that any strengthening of our public schools or 
investment in our children is not only the right and moral 
thing to do for them, but it is the smart economic thing to do 
for this community and for our Nation. We look forward 
particularly to working with you all in that regard.
    I am very interested in the District's efforts to use 
charter schools to help broaden school choice options for D.C. 
students. It is important that students and their parents have 
real choices between several quality educational options. Their 
education will most certainly be benefitted by that.
    While the Nation's charter school movement has been slowed 
somewhat by certain barriers, the District continues to employ 
innovative approaches to increasing the number of charter 
schools and magnet schools. Just last month, the city 
celebrated the dedication of the first new public school to be 
built in over 20 years. The new school is a bilingual 
elementary school constructed at no cost to the taxpayers 
through an innovative community initiative public and private 
development partnership, a real model for many of our 
communities around the Nation. The state-of-the-art Oyster 
School, home to a nationally recognized dual-language immersion 
program in English and Spanish, will provide a unique learning 
experience for its students. It is this type of innovation that 
will allow the District to really move ahead.
    I would also like to encourage the District to do its work 
to implement a District-wide system of assessment and 
accountability. Many cities and many States are moving to very 
rigorous accountability systems in schools. There are different 
measures of testing, some better than others, some more 
rigorous than others. Texas has its own system. Louisiana has 
its own system. But we have met with tremendous success when 
the tests and the measurements of accountability can be 
properly crafted and the right resources match the reform and 
the rhetoric, if you will, to make sure that each child is 
getting a quality education and we are getting the finest 
teachers and focusing on performance as opposed to process.
    In fact, as you know, Mayor and Council Chairman, the 
Senate just recently passed our version of the Elementary and 
Secondary Education Act--and it was a bipartisan effort with 
the President, Democrats, and Republicans--to really be a 
catalyst for this school reform effort nationwide. So, we hope 
that the wind is truly at our back and here in D.C. we can 
catch part of that wind and continue the good work.
    I also want to note in my opening the remarkable success of 
some of the college education programs that have been initiated 
here and the real challenge of not having the university base 
that we have in our own States. So, how do we make a college 
education really available to students here? Through the D.C. 
resident tuition program, which is fully federally funded and 
created by statute in 1998, this gives District residents the 
opportunity for a college education.
    But there is work to do. Let me suggest that one program 
that I helped to start in Louisiana that may serve as a model--
of course, there are many varieties of this around the Nation. 
But we have, to my knowledge, the only sort of 401(k) for 
education in the country. Not only do we have a full 
scholarship program in Louisiana called TOPS, which costs our 
State $100 million a year in Federal dollars, but the result of 
that investment is that every child in Louisiana gets to go to 
college, that has a 2.5 percent average, for free at an in-
state college. That amount of money is applied to out-of-state.
    But to supplement that very robust scholarship program--and 
Georgia has something that is similar, not exactly--we put into 
place--and 3,000 families in Louisiana are taking advantage 
of--a 401(k) match where the poorer the family or the more 
challenged the family is, the greater the match. So, even if 
you can just manage to put up $12.50 a week or $25 a week or 
$50 a month, over the course of 10 or 15 or 20 years saving for 
an education can amount to a serious amount of money, as your 
treasurer can tell you, with the value of compounded interest 
and a direct match from the State. And under this tax bill that 
we just passed, it is federally tax exempt. So, it could be 
quite an astonishing amount of money accumulated. So, I am 
hoping to visit with you all about the possibilities of opening 
some of those options for the children and families here in 
D.C.
    Let me just end my statement by saying, in addition to the 
child welfare system, the education system, that we have made 
great progress on, and the budgetary systems, which will be 
more part of this hearing, I also want to commend you for your 
work on the Anacostia River, the development of parks and 
recreation, which is so important to the families and the 
residents of the District, but to really make this beautiful 
city even more beautiful and a place where our Nation can truly 
celebrate all that is wonderful about being an American. So, to 
you, Mayor, and to your deputy and for all of the leadership 
that you have shown, let me thank you.
    Now, we have a lot of work to do. This budget is in good 
shape, but it could be improved. There are still some very 
sticky wickets, if you will. There are some tough areas that 
still need to be addressed. But I want to just again commend 
you for your good work.
    Let me recognize now my colleague from Texas who will have 
an opening statement, and I am sure some of her remarks will be 
focused on the importance of these reserve funds and how we 
want to work with the city in terms of the budgetary process 
and some other areas that she has worked in. I thank her for 
joining us. Senator Hutchison.

               STATEMENT OF SENATOR KAY BAILEY HUTCHISON

    Senator Hutchison. Well, thank you so much, Senator 
Landrieu, and welcome to your very first committee hearing as a 
subcommittee chairman. That is very exciting.
    I want to say that I found being the chairman of the D.C. 
Subcommittee very rewarding, and I feel so good about all four 
of the people sitting in front of me because I think they are 
turning the District around. I am very proud of what each of 
you have done, Mayor and Ms. Cropp and Ms. Rivlin. You 
certainly have given a lot of time on a volunteer basis. And 
Dr. Gandhi, with whom I have worked since you came on board.
    I would just like to say I asked to stay on the D.C. 
Subcommittee because I am so excited about the progress that is 
being made for our capital city. I am committed to doing the 
right thing, and I love this city and I want it to be the best 
that we have in America. I think we are on our way there.
    Second, I think we have made some great strides in some 
innovative areas.
    I think the tuition scholarship grants that we started so 
that D.C. students would have the opportunity to go to colleges 
and offset some of those college expenses because there is a 
shortage of space in the colleges here.
    Second, I think what you have done in education in the 
charter schools having an option there for parents. The charter 
school that I visited was wonderful and doing a terrific job. I 
think that is a major step in the right direction.
    I think the greatest accomplishment that we have made is in 
fiscal management and responsibility. This has certainly been 
tough for everyone, but I think you have worked so well with me 
in trying to establish real reserves. When I came on board as 
chairman, we had a budget reserve, but that did not seem to be 
strong enough to put us really into the investment grade bond 
arena. And I wanted us to have that in the District.
    So, I started looking at what other cities have in reserve 
that make them fiscally sound and came up with a plan. We are 
in the process now of working into the 4 percent emergency fund 
with a 3 percent contingency. The emergency fund requires a 
very strict test before you can take money from the emergency 
fund; the contingency fund, less so. But it would be one-time 
only expenses, non-recurring. But it is real money in the bank 
that the rating agencies can look at and know that if there 
were a real emergency, D.C. could handle it without worrying 
about taxing their people or coming back to Congress.
    So, I think it is a very good beginning that we have, and 
from what I have understood from the Mayor and Dr. Gandhi, we 
will have that fully funded probably early, hopefully. So, I 
think we are on very sound ground, and I think once it is fully 
funded, the District of Columbia will have the same fiscal 
profile that the good, well-run major cities in America have. 
So, I am very proud of that. I certainly look forward to 
working with you to continue on that program. As long as we 
have the money in the reserves, I think you can start whittling 
away at the budget reserve because the real money would 
certainly be the safe and sound way to have your emergency 
needs met.
    So, with that, I thank you very much and I applaud all of 
you for the leadership that you have shown. Sometimes it has 
been tough, and I appreciate that. But you have always been 
open and responsive and I think we are on the right track. And 
I thank you.
    Senator Landrieu. Thank you.

                   STATEMENT OF HON. ANTHONY WILLIAMS

    Mr. Mayor.
    Mayor Williams. Good morning, Chairman Landrieu and Senator 
Hutchison. I thank both of you. I think this is a very able 
committee since both of you come from financial backgrounds. I 
feel like we are in good company here and we have worked well 
together as partners in moving our city forward.
    I thank Senator Hutchison for her leadership on the reserve 
issues, on her leadership in working with us on economic 
development. We had a major ground breaking today for the Kmart 
and the Home Depot. So, we are very, very proud of that. You 
were there at the initial opening, so we were pleased with the 
support that you have given us.
    And certainly, Senator Landrieu, your support for what we 
are doing not only with children in foster care and adoption 
but also now with the Anacostia River is welcome. We look 
forward to a very strong partnership with you to really make, 
as you say, the Anacostia River a river that unites our city. 
It is really a model waterfront for our Nation, and I thank 
both of you.
    I have with me here John Koskinen, my City Administrator, 
who is sitting to my right, and I am also pleased that with me, 
although he does not really work for me, but in attendance is 
Superintendent Paul Vance of our schools. So, they are 
available to also help us answer any questions that you may 
have.
    The theme of our budget this year is building a city that 
works for everyone, neighborhood by neighborhood. As our city 
moves forward, as both of you have remarked, it is important 
that we move forward together. It is equally important that we 
invest in critical services, most importantly high quality 
education for our children.

                             SCHOOL BUDGET

    I am proud of the fact that our budget includes a $29 
million increase for the D.C. public schools, as well as a $37 
million increase for the D.C. public charter schools. In 
addition, we include $750,000 to launch the Lead Principals 
initiative, a recruiting drive by the superintendent that will 
draw highly talented principals from across the country to our 
lowest performing schools, and $1.2 million for the Teaching 
Fellows program which will help the District recruit and train 
committed new teachers from an array of professional 
backgrounds.
    We appreciate the fact that Congress and President Bush 
also place a high priority on education in the District. We are 
particularly gratified that First Lady Laura Bush was with us 
when we launched the Teaching Fellows program.
    We are even more pleased to report that more than 1,200 
people, including dot-com executives, retired persons, and even 
a few former congressional staffers, have applied for the 
program in its first year. 1,200 people. To me that is a solid 
indication that folks, regular citizens, are willing to invest 
themselves in turning around schools and our school system.
    As you may also know, Washington is home to probably the 
most vibrant, vigorous, robust charter school movement in the 
country. This fall we are going to have 40 charter schools in 
operation. We have not been able to satisfy all needs for 
facilities, but we are working closely with these schools to 
help them and all of our public schools. Between the large 
array of charter schools and liberal out-of-boundary enrollment 
programs in our school system, the District has embraced public 
school choice. Parents in the District in fact, practically 
speaking, have many options. It is our hope to broaden those 
choices, especially for those in chronically low performing 
schools as the superintendent implements his plan to 
reconstitute schools and provide parents with new environments 
within the public school system.
    I think the subcommittee would also be pleased to know 
that, thanks to the tuition assistance grant program, more than 
1,800 District youth received financial assistance to attend 
colleges and universities in 37 States. For many of them, this 
program means a difference between attending and not attending 
college. The number of applicants, grantees, and participating 
schools has far exceeded our expectations.
    With a year's worth of successful operations under our 
belt, the District now needs the Congress to amend the original 
statute and remove the requirement that participants have 
graduated after January 1, 1998 and that they have commenced 
higher education within 3 years of their high school education. 
These restrictions we find needlessly exclude older students 
and others who, for whatever reasons, fall into these 
categories. Financially and administratively, the program can 
withstand this expansion. Congresswoman Norton has drafted a 
bill, H.R. 1499, to effect this change. This bill has been 
passed by the House Subcommittee on the District and is now 
being considered by the full Committee on Government Reform in 
the District of Columbia. And we urge you to also consider and 
we hope approve this initiative.
    To further ensure quality educational opportunities, our 
budget includes $174 million to renovate and build quality 
school buildings for our children. Going forward, we believe 
that we have to pursue every means of supporting our master 
facilities plan, designed with the input council and District 
citizens and under the leadership of our superintendent. As we 
look to the future, we also have to make sure that we fix what 
has not worked in the past, and there are clear indications 
that superintendent Vance has begun turning the facilities 
division around. We need to see the continued vigilance to make 
sure that our school construction projects are starting and 
staying on schedule on a reliable basis.
    As we rebuild our schools, we also have to ensure that 
children and adults receive the support they need beyond school 
walls. To this end, the budget provides for three key 
enhancements.
    First, it includes an expansion of the District's Earned 
Income Tax Credit for low income residents, increasing the 
local credit from 10 percent to 25 percent of the Federal 
level.
    The capital budget, secondly, includes more than $8 million 
for construction of senior wellness centers, and $15 million to 
enhance the infrastructure of information and facilities that 
are critical to delivering human services to our most 
vulnerable residents.
    Third, it invests $62 million in new program funding to 
provide better health care to those citizens who need it most 
through a restructured health delivery system that provides 
more health care to more people at a lower cost.
    But even with these enhancements, our residents cannot 
reach their full potential if they live in unhealthy 
neighborhoods. Children, youth, adults, and families cannot 
thrive unless they live in a clean and safe community, a 
community with jobs, stores, parks, and affordable homes.
    So, toward this goal, our budget enhances Fire Department 
operations with more than $12 million for capital equipment and 
facility upgrades, enhances the Police Department with a $12 
million increase for staffing and equipment, and includes $11 
million for library renovations, $59 million to improve local 
streets, which we all know is clearly needed, and $67 million 
to renovate recreation centers in our city.

                       ANACOSTIA RIVER INITIATIVE

    The capital budget includes $2 million in matching funds to 
take another step in an enormous task of cleaning up the 
Anacostia River. This river has suffered for many, many years 
to the point of becoming a health hazard and a deterrent to 
economic development in some of our most challenged 
communities. My administration is partnering with the Federal 
Government to aggressively begin restoring this river.
    To improve water quality, the District has planted, in 
partnership with the Army Corps of Engineers, 46 acres of 
wetlands and installed several trash traps on the river. We 
have also removed three vessels that were either abandoned or 
sunk in the river, and I am proud of that.
    While these measures are tangible steps, we are also 
working with the Federal Government on a massive effort toward 
a long-term solution, what we call combined sewage overflow. We 
need a system that can remove the toxic materials in the river 
bed and the discharges that contaminate the river.
    Central to this effort is $12 million that Congresswoman 
Norton and I requested from the VA/HUD Appropriations 
Subcommittee in the House in March of this year to begin to 
implement the long-term combined sewage overflow control plan 
design. This plan would mitigate the negative environmental 
impacts from 60-plus discharges of diluted sewage that flow 
into the river annually. We hope that Congress will continue 
and sustain its support with us on the Anacostia River in 
general and certainly on the combined sewage overflow issue in 
particular.

                         FISCAL RESPONSIBILITY

    I want to speak a minute about the area of fiscal 
responsibility because in meeting the benchmarks put forward by 
Congress, we have achieved a high level of fiscal strength that 
many would have thought unthinkable and certainly unattainable 
a few years ago.
    We have now achieved four clean annual financial audits in 
a row. Our accumulated fund balance is projected to exceed $550 
million in fiscal year 2004, and bond ratings reached 
investment grade years ago and continue to improve. Local 
revenues have increased nearly 30 percent, and we have done 
this with fewer full-time employees than we had 20 years ago.
    And the District's success in attracting new economic 
development has been well documented.
    One of the greatest indications of the District's restored 
financial health is our swift progress in building financial 
reserves. Last year Congress challenged the District to 
establish emergency and contingency cash reserves that, when 
fully funded, will equal 7 percent of the total annual 
operating expenditures appropriated from local funds. These 
accounts are to be fully funded at 1 percent a year by fiscal 
year 2007.
    I am pleased to report that the first 1 percent--that is 
$33 million--was set aside in fiscal year 2000. So far this 
year, we have deposited an additional 2 percent, $69 million to 
be exact, for a total of $102 million. At this pace, the 
District will meet the 7 percent target, which we are happy to 
say--and are pleased with--will exceed every other State and 
local jurisdiction in the country, by fiscal year 2003, 4 years 
ahead of schedule. So, we are happy with this reserve 
requirement. We do not complain about this reserve requirement.
    The establishment of these permanent cash reserves should 
eliminate, though, the ongoing need for an additional budget 
reserve. As such, we ask that you include language in this 
year's appropriations bill to amend the existing budget reserve 
requirement. Currently, the $150 million budget reserve is 
scheduled for complete phase-out at the end of fiscal year 
2004. Under our proposal, this phase-out would begin gradually 
in fiscal year 2002, and by fiscal year 2004, the budgeted 
reserve would be replaced by a fully funded operating cash 
reserve in the amount of $50 million. This $50 million reserve 
would be in addition to the approximately $250 million in 
emergency and contingent reserves that will be accumulated by 
this time, as we have discussed above.
    So, we would like to initiate the phaseout in the fiscal 
year 2002 budget with a $30 million reduction in the $150 
million budgeted reserve requirement toward the path, as 
Senator Hutchison suggested, matching where we are with our 
cash emergency and contingency reserve with where we are with 
our budget reserve. I think this is consistent with that 
philosophy and with that principle and moves in that direction.
    I want to emphasize again that as far as I can see--and I 
cannot speak for my colleagues, but I believe we in the 
District are happy because we understand our history, we 
understand our circumstances in context. We do not complain 
with a 7 percent reserve requirement. We are happy to lead the 
rest of the country. We just want to make sure that we are 
mapping the cash requirements with our budget requirements on 
an ongoing basis.
    We have talked about one government, moving our 
receiverships back into the city, and good government. Just a 
word about self-government. We do believe that living in the 
greatest democracy in the world, we as citizens of the capital 
city should be able to elect voting representatives to the 
Congress. On top of this, we should not have to, given the 
circumstance, pay more Federal taxes per capita than any State 
other than Connecticut.
    So, early this spring, the No Taxation Without 
Representation Act of 2001 was introduced in Congress to 
provide D.C. residents full voting representation in Congress. 
This is the first voting rights bill that has been introduced 
simultaneously in the Senate and the House. On behalf of all of 
the citizens in the District who suffer from this taxation 
without representation, I urge the committee to look favorably 
on this bill.
    In addition to no voting representation, we also suffer 
under very limited legislative and budgetary autonomy. Again, 
we are very, very happy with the partnership that we have built 
with the Congress, and we want to continue this partnership. 
But in the Federal appropriations process, Congress reviews our 
local decisions and imposes its will on how we spend our local 
dollars. Likewise, Congress often inserts itself in our 
legislative process by requiring a 30-day review before local 
legislation can take effect. Both of these processes create 
major delays and disruptions at the local level and further 
infringe on rights of citizens to manage local affairs.
    So, along with Congresswoman Norton, we are now advocating 
for a reasonable level of budgetary and legislative autonomy 
for the District. In our recent testimony and discussions with 
Members of the House, members of both parties I should add, 
this proposal has earned a positive reception, and I urge this 
committee to join with its colleagues to provide for well-
deserved legislative and budgetary autonomy for the District.

                           PREPARED STATEMENT

    With that, once again, I would like to thank the committee 
for its efforts on behalf of the District, thank the committee 
for its leadership in a number of key areas, and as always, 
stand willing not only to work with you but to answer, in 
conjunction with my colleagues, any questions you may have.
    [The statement follows:]

              Prepared Statement of Hon. Anthony Williams

    Good morning Chairman Landrieu, Senator DeWine, and members of the 
committee. I'm very pleased to be here today to discuss the District's 
fiscal year 2002 Budget and Financial Plan. The theme of this budget is 
Building a City that Works for Everyone--Neighborhood by Neighborhood. 
This theme reflects the focus of our efforts in the District to date, 
and reflects our vision for the future.
                    investing in critical priorities
    As we invest in critical services, the foremost priority of my 
administration is to ensure that every child has access to a high 
quality education in a safe and healthy school. In fiscal year 2001 I 
committed to full funding for education, and I continue that commitment 
in fiscal year 2002.
    Our budget includes a $29 million increase for the D.C. Public 
Schools and a $37 million increase for the D.C. Public Charter Schools. 
In addition, we include $750,000 to launch the Lead Principals 
initiative--a recruiting drive that will draw highly talented 
principals from across the country to our lowest performing schools--
and $1.2 million for the Teaching Fellows program, which will help the 
District recruit and train committed new teachers from an array of 
professional backgrounds.
    We appreciate the fact that Congress and President Bush also place 
a high priority on education in the District. The city is particularly 
gratified that First Lady Laura Bush helped launch the Teaching Fellows 
program.
    We are even more pleased to report that over 1,200 people--
including ``dot-com'' executives, retired persons, and even a few 
congressional staffers--applied for this program in its first year. 
This is a solid indication that citizens are willing to invest 
themselves in turning around our school system.
    As you know, Washington is home to probably the most vibrant 
charter school movement in the country. This fall we will have 40 
charter schools in operation. We have not been able to satisfy all 
needs for facilities, but we are working with these schools closely to 
help them and all of our public schools. Between the large array of 
charter schools and a liberal out-of-boundary enrollment program, the 
District has embraced public school choice. Parents have many options. 
It is my hope to broaden those choices--especially for those in 
chronically low-performing schools--as DCPS implements plans to 
reconstitute schools and provide parents with new environments within 
the public school system.
    The subcommittee will be happy to know that thanks to the Tuition 
Assistance Grant Program, more than 1,800 District youth received 
financial assistance to attend colleges and universities in 37 states. 
For many of them, this program means the difference between attending 
and not attending college. The number of applicants, grantees, and 
participating schools far exceeded our expectations.
    With a year's worth of successful operations under our belt, the 
District now needs the Congress to amend the original statute and 
remove the requirement that participants have graduated after January 
1, 1998 and that they have commenced higher education within three 
years of their high school graduation. These restrictions needlessly 
exclude older students and others who, for whatever reasons, fall into 
these categories. Financially and administratively the program can 
withstand this expansion. Congresswoman Norton has drafted a bill, H.R. 
1499, to affect this change. This bill has been passed by the House 
Subcommittee on the District of Columbia, and is now being considered 
by the full Committee on Government Reform and the District of 
Columbia. I encourage you to also approve this initiative.
    To further ensure quality educational opportunities, my capital 
budget includes $174 million to renovate and build quality school 
buildings so that our children have safe, functional, inviting 
environments in which to learn. Going forward, we need to pursue every 
means of supporting the proposed Master Facilities Plan, designed with 
the counsel and input of citizens. And, as we look to the future, we 
must also make sure we have fixed what has not worked in the past. 
There are clear indications that Superintendent Vance has started 
turning the facilities division around. We need to see that continued 
vigilance to make sure that school construction projects start and stay 
on schedule.
    While we rebuild our schools, however, we must also ensure that 
children and adults receive the support they need beyond the school 
walls. To that end, this budget provides for three key enhancements.
  --First, it includes an expansion of the District's Earned Income Tax 
        Credit for low-income residents--increasing the local credit 
        from 10 percent to 25 percent of the federal level.
  --Second, the capital budget includes more than $8 million for the 
        construction of senior wellness centers, and $15 million to 
        enhance the infrastructure of information and facilities that 
        are critical to delivering human services to our most 
        vulnerable residents.
  --Third, it invests $62 million in new program funding to provide 
        better health care to those citizens who need it most through a 
        restructured health care delivery system.
    Even with strong schools and quality human services, however, our 
residents cannot reach their potential if they live in unhealthy 
neighborhoods. Children, youth, adults, families, and seniors cannot 
thrive unless they live in a clean and safe community--a community with 
jobs, stores, parks, and affordable homes.
    To move us toward that goal, this budget enhances Fire Department 
operations with more than $12 million for capital equipment and 
facility upgrades, enhances the Police Department with a $12 million 
increase for staffing and equipment, and includes $11 million for 
library renovations, $59 million to improve local streets, and $67 
million to renovate recreation centers.
    The capital budget also includes $2 million in matching funds to 
take another step in the clean up of the Anacostia River. This river 
has suffered for too many years, to the point of becoming a health 
hazard and a deterrent to economic development in one of our most 
challenged communities. My administration has partnered with the 
federal government to aggressively begin restoring this river.
    To improve water quality, the District government has planted, in 
partnership with the Army Corps of Engineers, 46 acres of wetlands and 
installed several trash traps in the river. We have also removed three 
vessels that were either abandoned or sunken in, the river.
    While these measures are tangible steps towards a cleaner river, no 
real victory can be achieved without addressing the long-term solution 
of the Combined Sewer Overflow System, the removal of toxic materials 
in the riverbed, and the removal of silt that clogs the flow of the 
river.
    Central to this effort is the $12 million that Congresswoman Norton 
and I requested from the VA/HUD Appropriations Subcommittee in March of 
this year to begin to implement the long-term Combined Sewer Overflow 
control plan design. This plan would mitigate the negative 
environmental effects from the 60 plus discharges of diluted sewage 
that flow into the river annually. We hope the Congress will support 
the District in this appropriation.
    As we clean up the natural environment, the District is also taking 
great strides to maintain and develop affordable housing. As the 
District economy experiences historic levels of prosperity, we must 
ensure that everyone shares in that prosperity. One key to doing so is 
to help low- and moderate-income residents gain and maintain access to 
affordable homes. Through these investments, the District will continue 
to make great strides in service improvements across the city.
                   maintaining fiscal responsibility
    Even while investing in critical priorities, the District maintains 
high standards of fiscal responsibility. In meeting the benchmarks put 
forth by Congress, we have achieved a level of fiscal strength that 
many would have thought unattainable in such a short period of time.
  --We have achieved four clean annual financial audits in a row.
  --Our accumulated fund balance is projected to exceed $550 million in 
        fiscal year 2004.
  --Our bond ratings reached investment grade years ago, and continue 
        to improve.
  --Our local revenues have increased nearly 30 percent, and we have 
        done this with fewer full-time employees than we had 20 years 
        ago.
  --And the District's success in attracting new economic development 
        has been well documented.
    One of the greatest indications of the District's restored 
financial health is our swift progress in building financial reserves. 
Last year Congress challenged the District to establish emergency and 
contingency cash reserves that--when fully funded--will equal seven 
percent of the total annual operating expenditures appropriated from 
local funds. These accounts are to be fully funded, at one percent per 
year, by fiscal year 2007.
    The first one percent--that's $33 million--was set aside in fiscal 
year 2000. So far this year, we have deposited an additional two 
percent--$69 million to be exact--for a total of $102 million. At this 
pace, the District will meet the seven percent target by fiscal year 
2003--four years ahead of schedule.
    The establishment of these permanent cash reserves should eliminate 
the ongoing need for an additional budget reserve. As such, I ask that 
you include language in this year's appropriations bill to amend the 
existing budget reserve requirement. Currently, the $150 million budget 
reserve is scheduled for complete phase out at the end of fiscal year 
2004. Under our proposal, this phase out would begin gradually in 
fiscal year 2002, and by fiscal year 2004, the budgeted reserve would 
be replaced with a fully funded operating cash reserve in the amount of 
$50 million. This $50 million reserve would be in addition to the 
approximately $250 million in emergency and contingent reserves that 
will be accumulated by this time, as discussed above. We would like to 
initiate the phase out in the fiscal year 2002 budget with a $30 
million reduction in the $150 million budgeted reserve requirement.
    Considerable benefits would be realized by such a restructuring. 
The District would begin to establish budget flexibility through the 
creation of a new cash reserve that it could access for routine budget 
adjustments. At the same time, phasing out the obligation of the 
District to fund the $150 million annual budget reserve will provide 
much needed relief in the fiscal year 2002 and 2003 operating budgets 
helping us to meet critical operating needs while maintaining balanced 
budgets in the immediate post-control period.
          one government, good government, and self-government
    As we invest in critical priorities and maintain fiscal 
responsibility, we continue moving toward one government, good 
government, and self-government. District leaders have demonstrated a 
high level of cooperation and an unprecedented level of responsiveness 
to our citizens.
    We live in the greatest democracy in the world, but ironically, we 
citizens of the capital city cannot elect voting representatives to the 
Congress. On top of this disenfranchisement, District residents pay 
more federal taxes per-capita than any state in the union except for 
Connecticut.
    Early this spring, the No Taxation Without Representation Act of 
2001 was introduced in Congress to provide D.C. residents full voting 
representation in Congress. This is the first voting rights bill that 
has been introduced simultaneously in the Senate and the House. On 
behalf of the more than half a million people in the District who 
suffer taxation without representation, I urge you to pass this bill.
    In addition to no voting representation, the District also suffers 
under very limited legislative and budgetary autonomy. In the federal 
appropriations process, Congress reviews our local decisions and 
imposes its will on how we spend our local dollars. Likewise, Congress 
inserts itself in our legislative process by requiring a 30-day review 
before local legislation can take effect. Both of these processes 
create major delays and disruptions at the local level, and further 
infringe on rights of our citizens to manage local affairs.
    Along with Congresswoman Norton, we are now advocating for a 
reasonable level of budgetary and legislative autonomy for the 
District. In our recent testimony and discussions with members in the 
House--members of both parties I should add--this proposal has earned a 
positive reception. I encourage this committee to join with your 
colleagues to provide this well-deserved autonomy to the District.
    And finally, as part of this commitment to democracy and autonomy 
in the District, I encourage Congress to end the practice of attaching 
riders to our appropriation. This micromanagement is not only an 
affront to home rule, but it disrupts the timely passage and execution 
of our budget. Therefore, it is my hope on behalf of all District 
residents that this Congress will respect local will and pass a clean 
bill that provides the District with the autonomy it deserves.
    This concludes my testimony. I thank you for the opportunity to 
present our priorities to you today, and I would be happy to respond to 
any questions you may have.

    Senator Landrieu. Thank you, Mr. Mayor, for that concise 
statement. We will return in just a moment with questions.
    Mrs. Cropp, Councilwoman, would you like to proceed?

                      STATEMENT OF LINDA M. CROPP

    Ms. Cropp. Thank you very much. Let me say good afternoon, 
Chairman Landrieu and Senator Hutchison. It is indeed a 
pleasure to be here with my colleagues and testify before you 
today on behalf of the 2002 budget.
    Chair Landrieu, let me just say I listened to stories of my 
husband's brother talking about the Anacostia River where they 
grew up near what is called the Eastern Branch, and they used 
to go swimming in that part of the river. Let us hope that we 
can bring it back to that state.
    Senator Landrieu. We can do that hopefully sometime soon. I 
look forward to taking the plunge with you when we can do that.
    Ms. Cropp. Senator Hutchison, I join with the Mayor to be 
able to say the cash is in the bank and we are pleased that 
that has occurred.
    Fiscal year 2002. This is the year that we have all been 
looking forward to with great anticipation. The council, 
together with the Mayor, is pleased to present to Congress our 
2002 budget. Although the budget is another in a series of 
fiscally sound and responsible budgets, it is a turning point 
in our young history of home rule. This budget was accomplished 
without the Financial Authority and came on the heels of 
several major accomplishments of the city.
    We have demonstrated--and there are a lot of ``we's''--that 
as elected leaders, we are ready to govern the city ourselves, 
and that is without the Financial Authority. However, I must 
take this time to personally thank, on behalf of the citizens, 
the work of Chairman Alice Rivlin with the Financial Authority, 
Andrew Brimmer, and the other members who put in an awful lot 
of time and effort on behalf of the city and its citizens.
    We also have exercised sound financial discipline in our 
oversight role by putting safeguards and insurance policies, 
when necessary, and triggers in our budget to make sure that we 
would not overspend.
    We have made remarkable progress in improving our city's 
image and our services.
    We are in good shape economically as seen in our real 
estate market, both private and commercial. Signs do not stay 
up. People automatically offer more money than what people are 
asking.
    We have obtained clean audits for the fourth consecutive 
year.
    We have ended fiscal year 2000 with a healthy accumulated 
surplus of $465 million.
    We are in good fiscal standing and our bond ratings have 
been raised.
    We have a healthy rainy day savings which is projected to 
reach the 7 percent requirement, as the Mayor stated, by 2003, 
way ahead of the schedule that had been anticipated by most.
    We have prepared a spending plan which is our fifth 
consecutive balanced budget.
    As part of the council's reorganization period, the council 
and its committees have established a legislative agenda. Our 
legislative agenda had certain criteria within it. We demand 
fiscal discipline. We are looking at revitalizing our 
neighborhoods. We want to invest in our youth, protect our 
vulnerable residents, oversee the executive performance of 
service delivery, promote continued economic stability and 
growth, and expand home rule and democracy. We are pleased to 
say that the council worked, in conjunction with the Mayor, 
because we all agree that these are very important issues for 
us to address in order to make this city move forward.
    For your information, we will present to you a copy of the 
Council Period XIV Legislative Agenda for your records.

                           LOCAL FUNDS BUDGET

    An integral part of the council budget process is the 
public input, and as such, many hearings on the fiscal year 
2002 budget were held. The process gave citizens and our work 
force an opportunity to comment and critique programmatic and 
funding needs and agency performances throughout the city. This 
feedback is invaluable because it contributed and culminated in 
the decisions and recommendations of each committee in the 
markup of the budget. Following a review for the committee 
recommendations, the committee of the whole made additional 
revisions in order to bring the budget into balance. At the end 
of the process, the council had conducted a total of 61 public 
hearings and, where appropriate, incorporated the findings from 
our citizens and our employees into this budget.
    In May, the council approved the $5.3 billion spending plan 
that provides adequate funding for basic city services and 
programs. Our schools continue to receive full funding. Health 
and neighborhood revitalization programs were funded. For 
example, there is a $2 million pilot for the interim disability 
assistance program for disabled adults, and there is funding 
for more stabilization officers to help abate nuisance 
properties.
    This budget also earmarked $23 million for local road 
repairs, contribution, and maintenance. Of this amount, $11 
million is set aside in contingency funding for freed-up 
appropriations. We ask you to approve the $11 million because 
this is a one-time expenditure and it is critical for the 
District to address the disparity between the excellent Federal 
roads and the poor or fair local roads that we are trying to 
move to that excellent condition also.
    It is my understanding that in recognition of the 
District's accelerated establishment of the 7 percent cash 
reserve, the committee is receptive to recommendations of 
lowering the $150 million budgeted reserve to a more realistic 
level of approximately $120 million for fiscal year 2002. The 
council supports this idea and we will work very closely with 
the Mayor and the CFO and this committee to finalize whatever 
is necessary in order to do this. I concur with the remarks 
made by our Mayor with regard to our reserve. He was certainly 
speaking, I think, on behalf of the council also when he said 
we want to have money in the bank, a cash reserve in the bank. 
It is a safety net and we think that is a fiscally sound 
budgeting process. But once we go over that, we still have 
needs for our community, and we would like to be able to 
support those needs.
    It is worth recalling to you, however, that last year the 
council requested that the Greater Washington Society of CPAs 
analyze the District's purported disproportionate share of 
revenues from Federal grants. Their conclusion was that the 
ratio of Federal grants to the District general fund revenue is 
not high. And there is a table that we have submitted for this. 
In short, the Federal Government is not subsidizing the 
District as generously as many think. When compared to the 
other 50 States, 32 States received a greater portion of the 
Federal funds for their general fund than the District does, 
and that is in table 2. Again, this was done by an independent 
group, the Greater Washington Society of CPAs.
    It is worth recalling that when the 1997 Revitalization Act 
was passed, one recommendation was that since the District no 
longer receives any Federal funds or payments, that the 
Congress would not need to review or approve its budget. At a 
minimum, Congress should no longer approve the local portion of 
the District's budget. We concur wholeheartedly with the 
sentiments of the Mayor with regard to budget and the 
legislative autonomy. We passed an awful lot of emergency 
legislation due to our lay-over period.
    Finally, as you consider our appropriations request, we ask 
that you support and pass in time for the start of the new 
fiscal year this budget. This budget is important for the city 
because it is put together by locally elected leaders. It is 
important to remember that at the end of the budget process, 
both the council and the Mayor found themselves in sync and 
approved the budget that invests in service delivery and basic 
programs. Furthermore, we urge you to pass this budget as is 
without any extraneous riders. This much anticipated fiscal 
year 2002 budget is important because it shows that the Mayor 
and the council can coexist and underscores our commitment to 
make Washington, D.C. one of the best governed cities in the 
world.

                           PREPARED STATEMENT

    Let me also join with the Mayor, in conclusion, in asking 
the committee's support for the No Taxation Without 
Representation as it comes forward. We pay more than $2 billion 
annually in Federal taxes, and we do not have a seat at the 
table. So, we agree with that.
    Thank you so very much for this opportunity.
    [The statement follows:]

                  Prepared Statement of Linda M. Cropp

                              introduction
    Fiscal year 2002 . . . this is THE year that we have been looking 
forward to with great anticipation. The Council, together with the 
Mayor, is pleased to present to Congress our fiscal year 2002 budget. 
Although this budget is another in a series of fiscally sound and 
responsible budgets, it is a turning point in our young history of home 
rule. This budget was accomplished without the Financial Authority and 
came on the heels of several major accomplishments in the city:
  --WE have demonstrated that, as elected leaders, we are ready to 
        govern the city ourselves, that is, without the Financial 
        Authority; (As the control period comes to an end, I would like 
        to take this opportunity to thank Dr. Alice Rivlin, the former 
        Chair Dr. Andrew Brimmer as well as each member of the previous 
        and current Financial Authority for their service and 
        commitment.)
  --WE have exercised sound financial discipline in our oversight role 
        by putting safeguards, ``insurance policy'', and triggers in 
        this year's budget;
  --WE have made remarkable progress in improving the city's image and 
        services;
  --WE are in good shape economically as seen in our real estate market 
        both private and commercial;
  --WE have obtained clean audits for the fourth consecutive year;
  --WE ended fiscal year 2000 with a healthy accumulated surplus of 
        $465 million;
  --WE are in good fiscal standing and our bond ratings have been 
        raised;
  --WE have a healthy rainy day savings which is projected to reach the 
        seven percent by fiscal year 2003, and;
  --WE have prepared a spending plan which is our fifth consecutive 
        balanced budget.
                           council period xiv
    As part of Council reorganization for Period XIV, we have added two 
subcommittees to the existing 10 standing committees.\1\ Our 
legislative agenda also included seven important goals. These are:
---------------------------------------------------------------------------
    \1\ The 10 committees are Government Operations, Economic 
Development, Judiciary, Public Education, Human Services, Public Works, 
Consumer & Regulatory Affairs, Finance & Revenue, Public Service, and 
Committee of the Whole. The 2 subcommittees are Subcommittee on Latino 
Affairs, Human Rights, and Property Management and Subcommittee on 
Labor, Voting Rights, and Redistricting.
---------------------------------------------------------------------------
  --Demand Fiscal Discipline
  --Revitalize our Neighborhoods
  --Invest in our Youth
  --Protect our Vulnerable Residents
  --Oversee Executive Performance of Service Delivery
  --Promote Continued Economic Stability and Growth
  --Expand Home Rule and Democracy.
    For your information, we will send you a copy of the Council Period 
XIV Legislative Agenda when it becomes available.
                    the council-mayor budget process
    In December of last year, the Council passed the fiscal year 2002 
Budget Submission Requirements Resolution of 2000. It established March 
12 as the date by which the Mayor shall submit to the Council the 
proposed budget. The Mayor transmitted his budget on March 12 and the 
Council acted on it within the 50 days as required by the Home Rule 
Charter. During this 50-day period, the Council worked diligently with 
the Mayor in aligning both sets of priorities and, put together a 
fiscally sound and responsible spending plan that will serve our 
citizens well and make the District a better place to live. The 
operating budget funds basic city services and programs. The capital 
budget, as a result of stringent oversight by the Council, was 
realigned by directing funds from non-performing or delayed projects to 
new or existing projects, resulting in a better Capital Improvement 
Plan that will improve the infrastructure of the District and encourage 
economic growth.
    When the Mayor submitted the budget to us on March 12, he had 
proposed a local budget of $3.53 billion, an increase of $95 million or 
2.7 percent over the new fiscal year 2001 budget as amended by the 
supplemental request. An integral part of the Council budget process is 
public input and, as such, many hearings on the fiscal year 2002 budget 
were held. The process gave the citizens and our workforce an 
opportunity to comment and critique programmatic and funding needs and 
agency performances throughout the city. This feedback is invaluable 
because it contributed and culminated in the decisions and 
recommendations of each committee in the mark-up of the budgets. 
Following a review of the committee recommendations, the Committee of 
the Whole made additional revisions in order to bring the budget into 
balance. At the end of this process, the Council had conducted a total 
of 61 public hearings and, where appropriate, incorporated the findings 
from our citizens and employees into this budget.
               highlights of the fiscal year 2002 budget
    On May 1, the Council approved the $5.3 billion spending plan that 
provides adequate funding for basic city services and programs. Schools 
continue to receive full funding. Health and neighborhood 
revitalization programs were funded, for example, there is $2 million 
for a pilot Interim Disability Assistance program for disabled adults, 
and there is funding for more Neighborhood Stabilization Officers to 
help abate nuisance properties. This budget also earmarks $23 million 
for local road repairs, construction, and maintenance. Of this amount, 
$11 million is set aside in contingency funding from the fiscal year 
2001 freed-up appropriations or pending additional revenue 
certification. We ask you to approve this $11 million because this one-
time expenditure is critical for the District to address the disparity 
between the ``excellent federal'' roads and ``poor or fair local'' 
roads in every ward of the city.
    All of this was done without any general tax increase. In fact, we 
are continuing with the phase-in of tax reductions associated with the 
Tax Parity Act passed by the Council in 1999. This Council action will 
bring our taxes more in-line with our neighbors over a five-year 
period. We believe this has contributed to the economic ``renaissance'' 
that our city is experiencing.
                          federal contribution
    Historically, the relationship between the District and the federal 
government has been a unique political and financial arrangement. 
Between 1879 to 1920, the federal government would provide assistance 
by paying half of all District expenditures. Subsequently, given the 
various federal prohibitions on taxing nonresident incomes, federal 
properties, federal purchase of goods and services, the District would 
receive a direct payment. This payment was stopped in 1997 when the 
federal government took over some of the ``unusual'' costs such as 
contributions for the police, firefighters, and teachers' retirement 
plans and various Court services. Last year the Council requested that 
the Greater Washington Society of CPAs (GWS of CPAs) analyze the 
District's purported disproportionate share of revenues from the 
federal grants. Their conclusion was that the ratio of federal grants 
to the District General Fund revenue is not high (see Table 1). In 
short, the federal government is not subsidizing the District as 
generously as many think. When compared to the other 50 states, 32 
states received a greater portion of federal funds for their general 
fund than the District does (see Table 2).
    It is worth recalling that when the 1997 Revitalization Act was 
passed, one recommendation was that since the District no longer 
receives any federal payments, Congress would not need to review or 
approve its budget. At a minimum, Congress should no longer approve the 
local portion of the District's budget. Just like the other 50 states, 
the District would be solely responsible for approving its own local 
spending.
                               conclusion
    Finally, as you consider our appropriations request, we ask that 
you support and pass the budget in time for the start of the new fiscal 
year. This budget is important for the city because it is put together 
by the locally elected leaders. It is important to remember that at the 
end of the budget process, both the Council and the Mayor found 
themselves in sync and approved a budget that invests in service 
delivery and basic programs. Furthermore, we urge you to pass the 
budget as is, without any extraneous riders. This much anticipated 
fiscal year 2002 budget is important because it shows that the Mayor 
and the Council can co-exist together and underscores our commitment to 
make Washington D.C. one of the best governed cities in the world.
    Nonetheless, the Council will continue to oversee executive 
operations and expenditures. We will be responsive to our constituents 
who call the District their home. We will work with the Mayor, 
Congress, and the surrounding governments to achieve mutually shared 
goals. Together with the Mayor, we will produce good responsible 
budgets that invest dollars for the District and leave a legacy for 
future generations. Granted we do not always agree from time to time, 
but we will be at the table to assert ourselves as an institution and 
work for the betterment and future of our citizens.

  TABLE 1.--COMPARISON OF GOVERNMENTAL FUND TYPE REVENUES DC VS. OTHER
                 GOVERNMENTS FOR ACTUAL FISCAL YEAR 2002
                          [Dollars in millions]
------------------------------------------------------------------------
                                                      Prince
                               District   State of   George's   State of
                                  of      Maryland   County,    New York
                               Columbia                 MD
------------------------------------------------------------------------
Federal Grants..............     $1,253     $3,974       $663    $24,004
Federal Pension Costs.......       $182  .........  .........  .........
Federal Reimbursements for         $254  .........  .........  .........
 Restrictions and Unusual
 Costs......................
Taxes.......................     $3,128    $10,405       $854    $37,259
All Other...................       $488     $1,523       $101    $10,474
                             -------------------------------------------
      Total Revenue.........     $5,305    $15,902     $1,618    $71,737
                             ===========================================
Percent Federal Grant                24         25         41         33
 Revenue to Total Revenue...
------------------------------------------------------------------------
Source: District of Columbia Audit Task Force, Greater Washington
  Society of CPAs, District of Columbia Audit Briefing Fiscal Year 2000
  Report



 TABLE 2.--COMPARISON OF FEDERAL FUNDS IN TOTAL GENERAL FUND FOR ACTUAL
                            FISCAL YEAR 1999
                          [Dollars in millions]
------------------------------------------------------------------------
                                                                Percent
                                           Total                federal
                 State                    general    Federal    funds to
                                            fund      funds     total GF
                                          revenue               revenue
------------------------------------------------------------------------
North Dakota...........................     $2,123       $810         38
Alabama................................     13,675      5,152         38
Tennessee..............................     15,772      5,793         37
Montana................................      2,615        954         36
New Hampshire..........................      2,549        923         36
South Dakota...........................      1,959        706         36
Vermont................................      2,020        722         36
West Virginia..........................      6,067      1,980         33
Mississippi............................      8,149      2,643         32
California.............................    109,635     34,375         31
South Carolina.........................     11,121      3,443         31
Oklahoma...............................     10,000      3,094         31
Maine..................................      4,479      1,356         30
Idaho..................................      3,372      1,018         30
Texas..................................     44,700     13,098         29
Pennsylvania...........................     36,863     10,679         29
Kentucky...............................     14,635      4,220         29
New York...............................     74,482     20,937         28
Louisiana..............................     14,984      4,204         28
Rhode Island...........................      4,042      1,120         28
Indiana................................     15,014      4,115         27
Colorado...............................      6,523      1,732         27
Alaska.................................      5,092      1,350         27
Georgia................................     24,218      6,414         26
North Carolina.........................     23,810      6,122         26
Missouri...............................     15,228      3,899         26
Arizona................................     14,803      3,785         26
Michigan...............................     33,180      8,471         26
Nebraska...............................      5,358      1,355         25
Kansas.................................      8,306      2,089         25
New Mexico.............................      7,803      1,959         25
Wyoming................................      2,155        536         25
Iowa...................................     10,649      2,516         24
District of Columbia...................      5,350      1,260         24
Washington.............................     20,357      4,738         23
Utah...................................      6,543      1,479         23
Massachussetts.........................     24,267      5,456         22
Arkansas...............................      9,463      2,050         22
Illinois...............................     31,416      6,675         21
Maryland...............................     17,116      3,533         21
Florida................................     46,213      9,349         20
New Jersey.............................     26,788      5,371         20
Minnesota..............................     17,592      3,444         20
Wisconsin..............................     22,797      4,349         19
Oregon.................................     12,891      2,457         19
Virginia...............................     21,535      3,504         16
Hawaii.................................      6,496      1,015         16
Delaware...............................      4,701        682         15
Nevada.................................      6,947        928         13
Ohio...................................     36,210      4,413         12
Connecticut............................     14,772      1,351          9
------------------------------------------------------------------------
Source: National Association of State Budget Officers, 1999 State
  Expenditure Report.


    Senator Landrieu. Thank you again for that excellent 
statement.
    I'm sorry. The shadow Senator is here, and I did not 
recognize Senator Paul Strauss. Would you stand and be 
recognized please? Thank you very much for your attendance.
    Dr. Rivlin?

                    STATEMENT OF DR. ALICE M. RIVLIN

    Dr. Rivlin. Thank you, Madam Chairman. I am very pleased to 
be here, and I am pleased that it is the last time I will be 
here. I want to join with my colleagues in recognizing not only 
your leadership, Madam Chairman, but the very significant 
contributions of Senator Hutchison when she chaired this 
committee, particularly but not exclusively on the question of 
the cash reserve.
    Senator Hutchison. Dr. Rivlin, I would just say I do not 
know if it is a blessing or a curse, but you have two 
successive State treasurers now as chairman of D.C. Approps. 
So, I think it is good. I do not know if you do.
    Dr. Rivlin. We think so too.
    I appear this time in a limited transitional role. This 
year, as you know, the Authority was required to review but not 
to approve of the District budget, a very significant 
difference. Even last year we played a less active role than in 
prior years. That budget was worked out between the Mayor and 
the council, not without some difficulties, and we played a 
less active role in the process, but approved the budget when 
it came forward to us.
    We also approved the supplemental budget for 2001 and we 
appreciate the subcommittee's support of that measure.
    In 2002, we have reviewed the budget that was put together 
by the Mayor and the council. We have sent a letter to which we 
attached our review of the District's budget for the 
subcommittee's use.
    We believe the budget is a good one, that it is based on 
realistic revenue and expenditure projections.
    The District's financial condition, as has been detailed by 
my colleagues, has improved greatly over the last few years. 
Lots of work does remain to be done.
    The financial management system needs to be fully 
implemented with particular emphasis on training and training 
at the agency level.
    Management reforms and improved operations must continue 
with, we believe, particular emphasis on the procurement 
process.
    The independence of the Chief Financial Officer needs to be 
assured.
    The legislative package passed by the council at its final 
session we believe to be a good one.
    But a law is not enough. The Mayor and the council need to 
work with the Chief Financial Officer to enable the Chief 
Financial Officer and the CFO's at the agency level to build a 
strong, continuing staff of professionals that are respected 
all over the country. That is what it will take to give this 
city the financial credibility on the continuing basis that it 
needs.
    The council too, we believe, needs a stronger professional 
staff, particularly in the area of financial analysis.
    Finally, a couple of points. We strongly support the Mayor 
and the Council in their efforts to regain the city's control 
over the allocation of our own money.

                           PREPARED STATEMENT

    And we believe that the Congress should come back to the 
question of the long-run fiscal viability of the District of 
Columbia. The District of Columbia has a very narrow tax base, 
we believe too narrow, to support the high quality of services 
that the Nation's capital ought to have. There is a very strong 
need to grow the city's tax base by economic development and 
increased population, but in addition, we believe there is a 
need for additional Federal support, either through a payment 
in lieu of taxes or through a tax bill similar to the one 
proposed by Congresswoman Norton. It does not really matter how 
this is accomplished, but the city needs to supplement its 
narrow tax base in order to provide excellent services.
    Thank you, Madam Chairman.
    [The statement follows:]

                 Prepared Statement of Alice M. Rivlin

    Good afternoon, Madame Chairman and members of the Subcommittee. I 
am pleased to be here, today, representing the District of Columbia 
Financial Responsibility and Management Assistance Authority (``the 
Authority''), to present testimony on the proposed fiscal year 2002 
District of Columbia Budget and Financial Plan. I am particularly 
pleased to appear on this panel with my able colleagues, the Mayor of 
the District of Columbia, Anthony Williams, the Chairman of the Council 
of the District of Columbia, Linda Cropp, and the Chief Financial 
Officer (``CFO''), Natwar Gandhi, as you assume leadership of the 
Subcommittee.
    On behalf of the Authority, I want to commend the Mayor and the 
Council, as well as the Chief Financial Officer for an exceptionally 
cooperative and productive approach to developing the District's 
proposed budget for fiscal year 2002. We believe the Mayor and the 
Council have shown an ability to work together on the budget that 
augurs well for future cooperation in the post-control era.
    This is the last time that the Authority will appear before this 
Subcommittee to discuss the proposed District of Columbia Budget and 
Financial Plan, because, as you know, the Authority has fulfilled its 
statutory mission and will sunset at the end of the current fiscal 
year. Indeed, today we already appear in a transitional role that 
differs from our role in previous years.
    In the past, the Authority was required to approve the District's 
budget. The approval (and disapproval) power gave the Authority 
considerable leverage in the formulation of the budget, which it used 
effectively to broker compromises between the Mayor and the Council, 
and to ensure that the budget was solidly in the black. Last year at 
this time, the Authority reported to the Subcommittee that we played a 
less active role in the formulation of the 2001 budget, because we 
believed the District increasingly capable of operating without the 
heavy participation of the Authority. The fiscal year 2001 budget was 
the product of a consensus process in which the Mayor and the Council 
played the leading roles and the Authority provided oversight and final 
approval.
    The Authority also approved the proposed fiscal year 2001 
Supplemental Budget Request for the District of Columbia recently 
submitted for your consideration. This supplemental request allocates 
additional revenues (certified by the Authority) not foreseen in the 
original budget for fiscal year 2001, and the Subcommittee's support 
for this request to use these local resources is very much appreciated.
    Now we have reached a new stage in the District's return to fiscal 
autonomy. Public Law 104-8, the Authority Act, provides that the 
Authority in this last control year simply reviews the District's 
proposed budget and makes appropriate comments to the District 
government, the Congress and the President. That process is complete, 
and the Authority is pleased to have transmitted the findings to the 
Subcommittee, Madame Chairman, as you begin your consideration of the 
fiscal year 2002 Budget and Financial Plan (attachment).
    Traditionally, the Authority has focused its attention to the 
budget process on the operations of the entire District government in 
significant detail. This year, the Authority determined that its most 
useful role would be to narrow our review to major service and cost 
areas. This approach permits us to provide the most useful information, 
and as appropriate, recommendations for policy-makers as management of 
the District's government operations and fiscal affairs return to local 
authorities.
    Overall, the Budget and Financial Plan reflect realistic 
expenditure projections. The figures prepared by the District appear to 
be generally consistent with and supported by available data. The 
Authority has also identified areas in which the District may have an 
opportunity to achieve significant savings relative to the current 
projections.
    The District assumes, for example, in developing budgets for large 
agencies, that the net cost of salary step increases will be offset by 
salary lapses. Although the offset may occur, it is not always the 
case. Consequently, we recommend that the District analyze historical 
data on salary lapses and step increases to determine the 
appropriateness of this practice. The District is now better equipped 
to collect and analyze this type of information allowing it to better 
manage its operations and finances.
    Years ago, however, the District and the public lacked access to 
credible financial information, and by 1995 the government faced a 
fiscal emergency. The Congress and the President responded by enacting 
Public Law 104-8, the District of Columbia Financial Responsibility and 
Management Assistance Authority Act of 1995.
    Since that time, the District has achieved a remarkable financial 
turnaround to which a growing economy and the Revitalization Act of 
1997 have contributed. Much of this success is owed to the numerous 
examples of the District's strong effort to manage its fiscal affairs 
responsibly:
  --The level of District total local source tax collections increased 
        by 28 percent
  --The District and the Authority successfully developed a program to 
        secuntize the proceeds from the tobacco settlement to reduce 
        the District's debt burden
  --With the leadership of Senator Hutchison, the District also worked 
        in fiscal year 2001 to use the debt services savings from the 
        tobacco securitization initiative to build a cash reserve 
        position
  --Following the completion of the Comprehensive Annual Financial 
        Report (``CAFR'') for fiscal year 2001, the Authority certified 
        the District's fourth consecutive balanced budget, and with a 
        significant fund balance a The District has recovered from the 
        fiscal year 1996 cash deficit of over $200 million to 
        dramatically improve its cash position, and reduce dependence 
        upon short term borrowing
  --The District convinced the marketplace that it deserves improved 
        ratings for its bonds--an achievement that will tangibly 
        benefit the District's taxpayers in the future because of lower 
        borrowing costs.
    In a less visible, but critically important area, financial 
management, the District has made progress in improving systems and 
procedures. The unfortunate delay in completing the fiscal year 2000 
CAFR, was the result of a very ambitious but necessary implementation 
schedule for SOAR (the District's financial accounting system) in 
response to Y2K. There have also been difficulties because of 
inadequate staff training SOAR is a financial accounting system, not 
simply a program for issuing financial reports.
    The implementation of SOAR is not yet complete, as GAO has pointed 
out, but there are no magic bullets, just hard work. The District is 
aware of the challenges. It is implementing business process 
improvements and better employee training to capitalize on the 
strengths of the accounting system. Other high priority areas, like 
performance based budgeting, are important works-in-progress.
    Nevertheless, with the exceptions of the former Public Benefit 
Corporation and the University of the District of Columbia, auditors 
have issued clean opinions for the District's overall performance in 
recent years. The District has made progress on cash management, 
budgeting and treasury functions.
    The District has also made progress in managing the delivery of 
municipal services. For example, tax payers are routinely issued 
refunds within a matter of weeks; the Department of Consumer and 
Regulatory Affairs now provides the means for businesses and homeowners 
to pay for and obtain some permits electronically; and wait-times for 
obtaining drivers licenses and related permits have been reduced.
    The District is strongly committed to management reform. The 
management supervisory service and the annual ``score cards'' are 
helping to change the workplace environment by making service agencies 
both aware of and accountable to the public interest in improving the 
quality of service delivery. Elected officials and agency directors now 
understand and support plans to move agency managers and frontline 
employees to a culture of goal setting, performance measurement and 
accountability.
    Voters must ensure the District's commitment to this primary goal 
in the years following the Authority's sunset, but the Authority, the 
Council and the Mayor are working together to prepare for the 
resumption of normal governance.
    Since January 2, 1999, the District Government assumed operational 
control of the government functions in a Memorandum of Agreement (``the 
MOA'') with the Authority (the District's Board of Education resumed 
responsibility for system governance in January, 2001.) So although 
Fiscal 2001 is the last control year, calendar 2001 will actually be 
the third year in which the District has been accountable for managing 
the day-to-day operations of the city. It is extremely important to 
build on the progress of recent years. The essential challenge is to 
assure strong financial management for the District as it returns to 
normal governance.
    One of the most significant weaknesses of the local government 
before 1995 was the lack of information. Information on the 
government's finances must be credible and available to citizens, 
decision-makers, financial markets and the Congress. A chief objective 
for the post control period is ensuring that the District has a 
financial management structure that provides such information.
    Achieving this goal requires a structure that both requires and 
encourages the OCFO to rely upon capable, professional staff to provide 
expert projections, judgement, and analysis without political influence 
or fear of retribution. The District must continue to build such a 
staff with expertise in accounting, costing, budgeting, expenditure 
control, finance and related disciplines. It must attract and retain 
excellent staff, invest in their training and development, and assure 
them of a professional working environment that encourages initiative 
and supports a culture of responsibility with clear accountability. The 
Council also needs strong professional budget and financial staff.
    Recognizing that no structure will work well unless the elected 
leadership of the city works together, and the voters hold the 
leadership responsible for sound financial management and effective 
delivery of services, the structure for carrying out the District's 
financial management functions remains a critically important factor.
    The Mayor, the Council and the Authority have discussed this 
central goal at great length and have developed legislation for 
strengthening the financial management infrastructure in a manner that 
will support these shared goals. The principal provisions of the 
``Independence of the Chief Financial Officer Establishment Act of 
2001'' are that:
  --the District's Mayor appoints the District's CFO to a fixed term 
        with a resolution of the Council (the Mayor may terminate the 
        CFO only for cause and with a two-thirds vote of the Council.)
  --the agency CFOs shall be appointed by the District CFO from a list 
        of qualified candidates developed by the District CFO (the 
        agency head shall measure the agency CFO performance relating 
        to agency mission support)
  --the OCFO must provide a financial impact statement to measure the 
        impact of District contracts that exceed a certain threshold, 
        legislation and regulations.
    Local government enactment of these provisions will help cement the 
District's steady progress in developing and maintaining the structure, 
administration and integrity of the financial management 
infrastructure. Thank you for your interest in these matters, and I 
would be pleased to respond to any questions.

    Senator Landrieu. Thank you.
    Dr. Gandhi?

                   STATEMENT OF DR. NATWAR M. GANDHI

    Dr. Gandhi. Thank you, Madam Chairwoman, Senator Hutchison. 
I am Natwar M. Gandhi, Chief Financial Officer of the District 
of Columbia, and I am here to testify about the District's 
fiscal year 2002 budget.
    Before I turn to the fiscal year 2002 budget, let me thank 
you, Senator Hutchison, the subcommittee, the Senate, and the 
House and House subcommittee for the positive action on the 
District's fiscal year 2001 supplemental.
    In terms of the fiscal year 2002 budget, the total budget, 
as amended, is about $5.3 billion, which represents an increase 
of about $439 million, or about 9 percent over fiscal year 
2001. The total number of positions in fiscal year 2002 from 
all funding sources is about 33,364, which represents a 
decrease of about 1,000 from 2001.
    The budget for the District projects positive net operating 
margins through fiscal year 2005. The projection appears to 
show a positive financial picture and is based on a revenue 
forecast built using realistic economic assumptions generally 
accepted by the forecasting community and used by the Federal 
Government.
    A closer examination of our 5-year plan, however, suggests 
that the District is operating on a tighter financial margin. 
While we believe the costs of maintaining current services can 
be kept within the amounts projected, it is unlikely the 
District will operate over the next several years without 
program initiatives or finding a reason to tap its budget 
reserves. Should either of these likely events occur, the 
District would be operating on a very thin margin indeed. This 
means the District needs to continue to build financial 
diligence in managing its resources and looking for ways to 
contain costs, while improving services through new business 
processes instead of additional spending.
    It also suggests that there is a long-term structural 
imbalance inherent in the city's budget which, if not 
addressed, may eventually precipitate spending in excess of 
revenues or serious cuts in the city's services. The sources of 
this imbalance are well known and documented.
    First, the District provides as much as $227 million in 
public services to support Federal property, which comprises 
over 40 percent of the District property by area.
    Second, the District spends as much as $486 million per 
year on state-like expenditures even after accounting for the 
net contributions for the 1997 Revitalization Act changes.
    Third, the District can tax only 34 percent of the income 
earned in the city.
    And finally, tax exemptions of Federal commercial activity 
reduce District revenues by as much as $193 million.
    The Federal assumption of certain pension and Medicaid 
liabilities, courts, and prison functions was an important step 
in correcting this imbalance, but I believe that even good 
government and fiscal prudence will not be enough in the event 
of a serious sustained economic downturn. The long-term 
solutions to this imbalance are matters to be addressed by 
District and congressional leaders, and there are several 
options. Federal tax incentives may be part of the answer. 
Revising restrictions on the District's local taxing power 
might be another. Congresswoman Norton sponsored legislation in 
the 106th Congress to enact a nonresident wage tax with a 
corresponding Federal tax credit. These funds could be used 
either to equitably compensate the District for services 
provided to the Federal Government or to create an 
infrastructure fund for city improvements. Now is the time, 
while the District is in good financial condition, to begin 
working on this issue and to put a permanent solution in place.
    Now I will turn to a recommendation for a change in the 
District's reserve policy. Today the District has $102 million 
in its cash reserves, an amount projected to grow to nearly 
$260 million by the end of 2003. Now that the District is 
building cash reserves and will have an accumulated fund 
balance of over three-quarters of a billion dollars by fiscal 
year 2005, we would like to revisit the requirement that the 
District have an annual budgeted reserve of $150 million. This 
is prudent because the growing cash reserves lessen the need 
for the budgeted reserve, and because removing the budgeted 
reserve provides the elected leaders with greater flexibility 
to manage the city.
    Existing District requirements, both budgeted and cash 
reserves, total about 11 percent of local funds. By contrast, 
median State reserves are only about 3.5 percent of total 
expenditures and are generally held as fund balances, and a 
common benchmark reserve rate for cities is about 5 percent of 
operating expenditures. Our proposal would ultimately set the 
District's combined cash reserves at over 8 percent.
    The proposal for your consideration is to phase out the 
budgeted reserve beginning with a reduction of fiscal year 2002 
and concluding, as already scheduled, in fiscal year 2004. At 
the same time, we would establish a new $50 million operating 
cash reserve in fiscal year 2004. The new cash reserve would be 
held at the $50 million level and be replenished as needed. 
Funds in this new reserve would be available as certified by 
the Chief Financial Officer.
    We believe this new structure would provide the District 
with much needed financial flexibility for the future, and we 
urge your consideration of it.

                           PREPARED STATEMENT

    Madam Chairwoman, Senator Hutchison, this concludes my 
prepared remarks. I request that this testimony be made part of 
the record. I will be pleased to answer any questions you may 
have. Thank you.
    [The statement follows:]

                 Prepared Statement of Natwar M. Gandhi

    Good afternoon, Madam Chairwoman, Senator DeWine, Congresswoman 
Norton and Members of the Subcommittee. I am Natwar M. Gandhi, Chief 
Financial Officer for the District of Columbia, and I am here to 
testify about the District's fiscal year 2002 budget. My remarks will 
briefly touch on the fiscal year 2001 supplemental, the fiscal year 
2002 budget request and process improvements in its formulation, 
planned improvements for the fiscal year 2003 budget cycle, and two 
proposals that would help improve the District's overall financial 
picture.
                                overview
    When I was confirmed as the Chief Financial Officer just over a 
year ago, I noted three overarching goals that had to be achieved for 
my office to be successful: (1) obtaining a clean opinion on schedule 
from the District's independent auditor for fiscal year 2000 and all 
subsequent years; (2) ensuring a balanced budget; and (3) providing 
effective, efficient financial systems and business methods to support 
the decision processes of District policymakers. Since then, we have 
met the first two goals and made progress on the third, although 
additional improvements are needed and possible. In addition, we have 
completed the securitization of the District's tobacco settlement funds 
and achieved a round of bond upgrades from all three rating agencies.
          the district's fiscal year 2001 budget supplemental
    Before I turn to the fiscal year 2002 budget, let me thank our 
House subcommittees and the House, and our Senate subcommittees and the 
Senate, for your positive action on the District's fiscal year 2001 
supplemental.
                 the district's fiscal year 2002 budget
    Now I will turn to fiscal year 2002. In total, the District's 
budget for fiscal year 2002 as amended is $5.3 billion from all funding 
sources, which represents an increase of about $439 million or 9 
percent over approved fiscal year 2001 levels, or an increase of about 
$283 million or 6 percent over revised fiscal year 2001 levels. The 
total number of positions in fiscal year 2002 from all funding sources 
is 33,364, which represents a decrease of 1,016 positions or 3 percent 
from approved fiscal year 2001 levels.
    The budget for the District projects positive net operating margins 
through fiscal year 2005. This projection appears to show a positive 
financial picture, and is based on a revenue forecast built using 
realistic economic and demographic assumptions generally accepted by 
the forecasting community and used by the federal government. We can 
safely say these estimates represent a professional consensus view.
    But a closer examination suggests the District is operating on a 
much tighter financial margin. While we believe the costs of 
maintaining current services can be kept within the amounts projected, 
it is unlikely the District will operate over the next several years 
without program initiatives or finding a reason to tap its budget 
reserves. Should either of these likely events occur, the District 
would be operating on a very thin positive margin. This means the 
District needs to continue to build financial diligence in managing its 
resources and looking for ways to contain costs, while improving 
services through new business processes instead of additional spending. 
It also suggests a long-term structural imbalance in the budget that 
needs to be addressed, as I will discuss later.
               development of the fiscal year 2002 budget
    The role of the Office of the Chief Financial Officer (OCFO) in the 
budget process is to provide timely, quality analyses and alternatives 
built around the policy interests and directions of elected officials. 
The Office of Budget and Planning (OBP) leads this effort, and was 
quite successful in assisting both the Mayor and the District Council 
in the formulation of the fiscal year 2002 budget now before the 
Subcommittee. This success was the result of many improvements, 
including the following:
  --instituting structured, advance consultation and information-
        sharing with the Mayor and the Council;
  --estimating the effects of key budget drivers, such as salary 
        increases, inflation, and non-recurring items, more precisely;
  --eliminating unspecified savings in favor of identified savings in 
        particular agencies that were achievable and were included in 
        those agencies' baseline budgets; and
  --costing fully program initiatives and legislative changes.
    In addition, and in a larger sense, the Office of Budget and 
Planning has made great strides in working with the Mayor and the City 
Administrator to enhance ``truth in budgeting,'' so that the budgets 
presented to the Council and the Congress are realistic and can be 
delivered for the District's citizens.
              improvements for the fiscal year 2003 budget
    We have already begun planning for additional improvements to the 
budget process for fiscal year 2003. We will devise a plan for Mayoral 
and Council approval that will implement performance budgeting, while 
at the same time streamlining the reprogramming process. A new account 
structure will ensure that we capture accounting information at levels 
necessary to monitor spending effectively and build budgets more 
accurately. This will provide the kinds of information the recent GAO 
report on our financial management system noted are not now available.
    On April 26, the City Administrator and I signed a memorandum to 
all agency directors and agency CFOs officially beginning the 
transition to performance-based budgeting. This multi-year effort will 
begin in the fiscal year 2003 budget cycle. We believe this new 
approach, once implemented, will improve policy development, service 
delivery, and accountability for District programs.
              structural imbalance in the district budget
    I believe there is a structural imbalance inherent in the city's 
budget, which if not addressed may eventually precipitate spending in 
excess of revenues or serious cuts in city services. The sources of 
this imbalance are well known and documented:
  --the District provides as much as $227 million in public services to 
        support federal property, which comprises over 40 percent of 
        District property by area;
  --lacking a state or state-like support from the federal government, 
        the District spends as much as $486 million per year on state-
        like functions, even after accounting for the net contributions 
        of the 1997 Revitalization Act;
  --the District can tax only 34 percent of income earned in the city; 
        and
  --tax exemptions of federal commercial activity reduce District 
        revenues by as much as $193 million.
    The federal assumption of certain pension and Medicaid liabilities, 
courts, and prison functions was an important step in correcting this 
imbalance, but I believe that even good government and fiscal prudence 
will not be enough in the event of a serious or sustained economic 
downturn. The long-term solutions to this imbalance are matters to be 
addressed by District and congressional policy-makers, and there are 
several options. Federal tax incentives may be part of the answer. 
Revising restrictions on the District's local taxing power might be 
another. Congresswoman Norton sponsored legislation in the 106th 
Congress to enact a nonresident wage tax with a corresponding federal 
tax credit. These funds could be used either to equitably compensate 
the District for services provided to the federal government, or to 
create an infrastructure fund for city improvements. Now is the time--
while the District is in good financial condition--to begin working on 
this issue and to put a solution in place.
                change in the district's reserve policy
    Today, the District has $102 million in its cash reserves, an 
amount projected to grow to nearly $260 million by the end of fiscal 
year 2003. Now that the District is building cash reserves, and will 
have an accumulated fund balance (representing an accumulated excess of 
revenues over expenditures) of over \3/4\ of a billion dollars by 
fiscal year 2005, we would like to revisit the requirement that the 
District have an annual budgeted reserve of $150 million. This is 
prudent because the growing cash reserves lessen the need for the 
budgeted reserve, and because removing the budgeted reserve provides 
the elected leaders with greater flexibility to manage the city.
    Existing District reserve requirements--both budgeted and cash--
total about 11 percent of local funds. By contrast, median state 
reserves are only 3.5 percent of total expenditures and are generally 
held as fund balances, and a common benchmark reserve rate for cities 
is 5 percent of operating expenditures. Our proposal would ultimately 
set the District's combined cash reserves at over 8 percent.
    The proposal for your consideration is to phase out the budgeted 
reserve, beginning with a reduction in fiscal year 2002 and concluding 
(as already scheduled) in fiscal year 2004. At the same time, we would 
establish a new $50 million operating cash reserve in fiscal year 2004. 
The new cash reserve would be held at the $50 million level, and be 
replenished as needed. Funds in this new reserve would be available as 
certified by the CFO.
    We believe this new structure would provide the District with much 
needed financial flexibility for the future, and we urge your 
consideration of it.
                               conclusion
    Madam Chairwoman, this concludes my prepared remarks. I request 
that this testimony be made part of the record. I will be pleased to 
answer any questions you or the other Subcommittee Members may have.

    Senator Landrieu. Thank you very much. All of the 
statements will be made part of the record, and I really 
appreciate you all keeping within the time frame.
    I would like to start with just a few questions. Senator, I 
do not know what your time is. I will take about 5 or 6 minutes 
or so, and then we will do a round of questioning. There may be 
some things that you all want to add to your prepared 
testimony.

                              Reserve Fund

    Let me just start with the reserve fund, since there seems 
to be a real consensus about what we need to do to be clear. I 
had, of course, supported and been supportive of the creation 
of the reserve fund under the Senator's leadership. I would 
like to point out, though, that the cash reserve that is 
required, although all of you have testified that you were 
willing to not only live with it, but embrace it and welcome 
it, it most certainly is a good thing. I did want to ask or 
just to get something on the record about the size of it 
compared to other cities and States in the Nation. I think it 
is a good thing that we have it. I think it has been one of the 
things that has helped directly to improve the bond rating.
    Both Senator Hutchison and I, as you said, have served as 
State treasurer, and we have both taken our States from very 
tough circumstances with falling bond ratings higher and were 
engaged in this in a very direct way.
    But we have got a cash reserve of almost 7 percent or a 
goal of that, as well as a $150 million budgetary surplus. 
There any other cities and States that have similar 
requirements. We have not been able to find any that have such 
rigorous requirements. Have we looked in the wrong places, or 
is that true? So, I just wanted to ask any of you all. Because 
what we have found is they range anywhere from 3.5 to 5 percent 
in terms of cash reserves, and most do not have any additional 
budget reserves.
    That is not to say that we do not want to stay the course 
that we have outlined here and generally pretty much all agreed 
to. But I was asking, do you all know of any other city or 
State that has this kind of requirement?
    Dr. Gandhi. If I may answer. We have looked at the State 
budget requirements in terms of the reserves, and there are 
States like, say, Michigan, which had about 12 percent and then 
a State like Minnesota had about 14 percent of the reserve 
requirement. But when you really look into the average, the 
median there is about 3.5 percent for all States. In some 
cities, they do not have anything; in some other cities, there 
are reserves of 6 or 7 percent. But on average it is about 5 
percent.
    But again, I want to point out that given our past history, 
I think the emphasis that Senator Hutchison had put on the 
requirement of a cash reserve is very well taken, very well 
received in the financial markets. As the Mayor and Mrs. Cropp 
and Dr. Rivlin pointed out, we welcome that. I think, as we 
pointed out, we have already accumulated $102 million. We will 
have $260 million-plus in 2003, which as the Senator pointed 
out herself, is about 4 years ahead of time, and we are very 
proud of doing that.
    But at some point you want to wonder that should we be 
accumulating cash or should we use our resources wisely to 
provide services? I think by the year 2004, for example, with 
our adding another $50 million, we will have $317 million all 
in cash. All in cash. So, I think what this would do, the 
phasing out of the reserve, is basically harmonize the reserve 
requirement as it is currently imposed.
    Senator Landrieu. Well, I just wanted to point that out for 
the record. Again, I am supportive of this effort, but there is 
a proper balance and we will work together to make sure that we 
keep that balance. The Senator has gotten us off, I think, to a 
very good start. As you all testified, we are 4 years ahead of 
schedule. We do want to, as a philosophy, not necessarily 
require any more or expect any less than the averages or 
hopefully above the averages. I was just wondering, because I 
know in Louisiana we would be quite envious to have such a cash 
reserve.
    Senator, go ahead.
    Senator Hutchison. If I could just speak. When we were 
trying to do something that would be more concrete than the 
budget reserve, we did call to AAA-rated cities and to bond 
rating agencies and we found that the norm was 5 to 7. There 
were different ways. Sometimes it was a strict 4 percent 
emergency fund and then the contingency was structured a little 
differently. But when we did this, it was never my intention to 
also keep the $150 million budget reserve on top of that. I 
think that may be unusual. That was never my intention because 
I wanted to do away with the budget reserve, although your 
operating cash reserve is a safety net and very prudent. But 
what I wanted was to have real money in the bank for 
emergencies so you would never be up a creek without a paddle 
or you would never be judged by the rating agencies to be in 
peril.
    So, I think your plan of phasing down the budget reserve is 
fine. My only request would be that you never go below $150 
million in real reserves. So, after you reach the $150 million, 
hopefully you will keep moving as you have scheduled for the 
rest of the real reserves, emergency and contingency. But if 
you ever fall below it, then I think you would want to be 
looking at that budget reserve to be there. But I do not think 
you will, from everything that you are doing, and it was never 
my intention to put that on top of the 7 percent.
    Senator Landrieu. Well, that will be very helpful because 
that will provide us some additional room. We will revisit this 
issue in terms of the percentages. Dr. Gandhi, perhaps you 
could outline, based on some of the things that we have said.
    Ms. Cropp. Senator, may I just add one other issue that we 
hope that we could look at in the future? That is the 
District's lack of ability to roll over additional funds into 
the next fiscal year. I do not think you have too many 
businesses or governments that if, in fact, at the end of the 
fiscal year they have dollars left over that they cannot roll 
it over. In many instances, actually it encourages individuals 
possibly not to spend as wisely as they would normally if they 
could roll it over and know that they could use it for programs 
or to pay off debt, if that is what the decision is. So, that 
is something else that is really unique in the District of 
Columbia and I hope that we can look at that.
    Senator Landrieu. I thank you for raising that. I have 
often thought that was even a problem at the Federal level that 
sends out grant money and requires people to spend it or lose 
it by x. That process really sometimes not only does not 
encourage but prevents and really encourages unwise spending 
and quick decisions because of that time limit. So, let us note 
that, and perhaps at another hearing we can get into more 
detail about that. I thank you for raising it.
    Dr. Gandhi. May I add a point to what Chairman Cropp is 
saying? Because of that--that is, everything that is left over 
goes to the bottom line and keeps accumulated--we will have, as 
I pointed out in the testimony, three-quarters of billion 
dollars of fund balance, in addition to a 7 percent reserve. 
So, we simply cannot touch it once it goes to the bottom line 
and it just stays there. So, that is why we are really piling 
up a lot of money, which is simply not touchable. We are kind 
of a reserve-rich, cash-happy jurisdiction.
    Senator Landrieu. Well, I really appreciate that. We want 
to address that because there is a fine balance between being 
fiscally conservative and smart and then being, on the other 
side, too stingy because they have got lots of needs in the 
District in terms of education and transportation and health 
care. So, it is very important to strike that balance, and I 
thank you all for wanting to do that. We will revisit.
    Let me just recognize that Delegate Eleanor Holmes Norton 
has just arrived. Congresswoman, where are you? There you are. 
Thank you very much. Of course, if you have anything to add at 
a later time, we will be happy to hear from you.
    Let me ask another question, and then I will ask Senator 
Hutchison for her questions.

                  ROLE OF THE CHIEF FINANCIAL OFFICER

    One of the important fiscal reforms is this whole issue of 
the status of the Chief Financial Officer, as we move through 
this transition. This is a question I would imagine that every 
city and State has to ask itself. The role of the Chief 
Financial Officer. I have got the schematic here which is right 
under the jurisdiction of the Financial Responsibility 
Management Assistance Authority, which is going out, Dr. 
Rivlin. And then the Chief Financial Officer. It is on the 
schematic chart here independent, which I know we want it to 
remain. But do you all want to comment relative to the way 
other cities, just for the record, function with these 
financial officers and what you all think the best model, if 
you wanted to each do a minute, of how that would work? Because 
you are either going to have an independent agency that is 
equally responsive to the executive or legislative branch, but 
the legislative branch has to sort of have its own resources, 
the executive branch have its own resources. Then do we then 
also need the Chief Financial Officer? And if so, those roles 
and responsibilities. And every jurisdiction struggles with 
this, whether it is New Orleans or the State of Louisiana. We 
have gone through round for round, and every good government 
group has a new idea of how to set it up.
    But what I think is important about it is some of the 
functions, that you have true revenue estimates that are not 
bogus but real, that you have real fiscal notes attached to 
what things will cost so you know ahead of time what they will 
cost. And there are some roles that kind of an independent 
financial officer that needs to give in addition to what the 
executive branch has to rely on their own budget information, 
budget force, and the council.
    So, I do not know, Dr. Rivlin, if you wanted to give a 
minute of opening on this, just to get into the record your 
particular thoughts. I know some of this is in your testimony. 
But as we look out to building in the future, I think this 
cornerstone is a very important cornerstone for the District to 
put down, the role of this financial officer, sort of the 
fiscal discipline of this, because everything else will rest on 
that, whether it is schools or transportation or economic 
development, et cetera.
    Dr. Rivlin. Different cities do it different ways, and I 
think you can get a whole list of options. Some have elected 
comptrollers. Some separate the budget and the control 
function. Some have particular ways of doing the revenue 
estimates.
    I think the District has, out of its catastrophe of the 
mid-1990's, come to what seems to be a very workable solution: 
a Chief Financial Officer with the responsibility for revenue 
and for budgeting and for the comptroller and treasurer 
functions. I guess my view is we have got this working now, and 
we have an able Chief Financial Officer. The most constructive 
move I think at the moment is to keep it going.
    The legislation, which we all discussed, which has recently 
been passed by the council, seems to me to preserve the 
strengths of the existing system while moving the Financial 
Authority out of the way and having a Chief Financial Officer 
who must report to the Mayor and work closely with the Mayor 
and the council--otherwise, nothing good happens--but has a 
measure of independence in that he or she cannot be removed 
arbitrarily. It takes a rather elaborate process to remove the 
Chief Financial Officer. That provides a measure of 
independence.
    As I said in my testimony, it is not the whole thing. Once 
you get the law in place, it will only work if the Chief 
Financial Officer is a very able person with a very good staff, 
and if the Mayor and the council work well with that Chief 
Financial Officer and respect the importance of good numbers.
    Senator Landrieu. Mr. Mayor, would you care to add anything 
or Mrs. Cropp to that?
    Ms. Cropp. Let me say yesterday the council passed 
legislation creating the independent CFO, and in that 
legislation, we are requesting that Congress repeal its current 
law so that it can be legislated locally. Actually that law is 
more enhanced than what had been done initially by Congress. 
The law that was passed by the council is legislation that was 
worked on by the Chief Financial Officer, the Financial 
Authority, the Mayor, and the Council. We all worked together 
on that legislation, even though the chair of the Finance 
Committee and I introduced it. It was a consensus piece. And we 
think it is an excellent piece.
    We all started with the premise and understanding that we 
believe that we needed to continue to have strong financial 
stability in the District of Columbia, and in order to achieve 
that, we needed to have a CFO that had some independence. We 
needed to make sure that we could all believe, trust, and have 
valid revenue estimates. We also strongly believe that we 
needed to make sure that the costs, upon which we were basing 
our budget, ought to be based upon reliable figures. In fact, 
this legislation does that.
    It goes beyond what Federal law had done in that we also 
have the CFO creating standards and procedures by which what we 
call the Deputy CFO's in our agencies will operate under. We 
did not have that in the past, and I think we have had sort of 
a loose method of doing that recently. But this will make sure 
that our agencies are not overspending, that the cost analysis 
that happened there is okay.
    It also very clearly puts out that it is the CFO who deals 
with those financial revenue estimates and gives us the 
appropriate costs. But we also feel very strongly that it is 
the Mayor who sets the policy and the legislative branch who 
sets the policy, and then the CFO would give us the costs of 
it.
    The independence that Dr. Rivlin talked about is there for 
the CFO with the Mayor making a recommendation to the council. 
He can only be removed by a two-thirds majority of the council. 
So, we think that it is an extremely good piece of legislation. 
We will submit that to the committee for your records.
    We also will submit an attachment of a table that I had 
that shows the difference in what the congressional act had 
done and what our legislation does to even strengthen the CFO 
so that we will have more financial stability in the city.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Landrieu. So, currently under the proposal--Mr. 
Mayor, I would like to ask you to comment--the CFO can only be 
removed by two-thirds vote of the council under this new----
    Ms. Cropp. Recommendation by the Mayor.
    Senator Landrieu. By the Mayor and with two-thirds.
    Ms. Cropp. Yes.
    Senator Landrieu. So, it has to take both.
    Ms. Cropp. Yes. A recommendation by the Mayor and then two-
thirds of the council.
    Senator Landrieu. Mr. Mayor, did you want to add anything?
    Mayor Williams. Madam Chair, a couple of things. First of 
all, the legislation that was passed by the council, underway 
at the council, really represents the combined thinking of the 
council, the Mayor, and the board. So, Alice and Linda and I 
are in joint agreement with Nat on what we need to do with the 
CFO office going forward. I certainly believe in almost the 
sanctity of the revenue estimate, on the importance of having 
the budget function with the CFO function so you are reducing a 
lot of duplication. I support a very, very strong, vigorous 
financial and budget function in the council. All of those 
things are very important.
    But when I was in Nat's position, when I was CFO in the 
middle of the mess back in 1996, whenever it was, my view of 
the whole situation was that the District got where it was 
because we had an underpowered, overloaded, badly driven car. 
Now, through better management and people like John Koskinen, 
we are driving the car better through the efforts of this 
council and the control board, certainly with Congresswoman 
Norton and the Revitalization Act, people like Frank Rains, 
President Clinton, needless to say, we have reduced this 
tremendous overloading of the car. So, now we have got a better 
driven car that is properly loaded.
    But what Nat is saying and what Alice is saying is very, 
very important in their official jobs. Excuse me. In their 
official jobs, what the chairman and the CFO is saying is very, 
very important because if we do not do anything to address the 
long-term structural imbalance, we can have a perfect setup for 
the CFO, we can have beautiful cash reserves, beautiful this 
and that kind of reserve, but the long term is a long term. And 
long-term structural imbalance means that sooner or later, if 
we do not do something about it, despite all the best 
intentions and best architecture and design, tragically we 
could end up right back where we started.

                      LONG-TERM STRUCTURAL REFORM

    Senator Landrieu. Well, that is a perfect segue into the 
third question that I wanted to ask, and that has to do with 
the long-term structural reforms. I would like to ask your 
comments. I certainly would be willing to either conduct 
another hearing at an appropriate time where you all could 
suggest to me--yourselves and other experts on this topic that 
could come in and we could spend an afternoon kind of reviewing 
some of this information that I think would be very helpful 
because, again, every city in the Nation struggles with this. I 
think the District has an even more intense, more difficult 
situation which makes it even more important that we address it 
because the Mayor is absolutely right.
    While the situation looks good now, I am mindful what 
President Kennedy said and we say in Louisiana all the time: 
The time to fix the roof is when the sun is shining. And the 
sun is shining now. So, now is the time, not to wait until the 
storm clouds gather again, to get some of this done. It is 
difficult because it requires regional cooperation and all 
sorts of give and take. Back when the model cities program was 
created many, many, many years ago and all the difficult 
versions of that recognized that cities everywhere struggle 
with a shrinking tax base, rising expectations, rising costs, 
and the long-term future will look dim if it is not addressed.
    So, do you all like the idea of another committee time, or 
would you like to comment for the record now?
    Mayor Williams. I personally think, Madam Chair, it is a 
level of importance that I would welcome a separate session on 
the matter of long-term structural balance or viability of the 
finances of the District.
    Ms. Cropp. Madam Chair, if I could just make one comment. I 
concur with the Mayor, but I must take this opportunity to make 
one comment. Not unlike any other major city in this country, 
the District's population is older, sicker, and poorer. One big 
difference. Usually the surrounding, more affluent suburban 
jurisdictions help to offset the costs of that urban poor. In 
the District of Columbia, we are totally different. We have a 
different State, the Commonwealth of Virginia and the State of 
Maryland. In fact, the citizens of the District of Columbia 
help to offset their urban areas because more than 60 percent 
of the folks who work for the District of Columbia, not the 
Federal Government, not the private sector, but people who work 
for the District of Columbia, take the money outside of the 
District of Columbia to help pay for the urban problems of 
Maryland and Virginia. It is an untenable position for us to be 
in, in addition to the fact that 50 percent or more of our tax 
base we cannot tax in the District for many reasons and we have 
revenue denied in the District for many reasons.
    Congresswoman Eleanor Holmes Norton has introduced 
legislation, that I hope the committee will look at and can 
support, that would at least provide us an opportunity to 
address this issue where we can get some of the money that we 
send outside of the District back.
    But, yes, I concur. We do need to have a separate hearing. 
It is a very crucial issue that can send us belly up if we do 
not address it.
    Senator Landrieu. Go ahead, Dr. Rivlin.
    Dr. Rivlin. I think you have got a consensus here. It would 
make a subject for a very good hearing and one at which I would 
be delighted to appear.
    But I do think Ms. Cropp has an important point. The 
District has in common with other cities some serious urban 
problems, but we are different. There is not any other city 
that does not have a State and there is not any other city that 
has the prohibition on the taxation of non-resident income that 
we have.
    Dr. Gandhi. I strongly endorse this idea. The only thing 
that I would suggest here is that, as was pointed out earlier, 
that practically every major city generally is subsidized by 
its own State, in the case of Philadelphia, Pennsylvania; 
Baltimore, Maryland. The question is, who is going to subsidize 
the District? As Mrs. Cropp has pointed out, the subsidy here 
is in the reverse fashion.
    The other thing we want to keep in mind here is that 
because of the limited tax base that we have, our expenditures 
are rising faster than our revenues. That is a fundamental 
fact, and we will not be able to get away from it. The Mayor is 
exactly right. You can have as much cash reserve as you want to 
have, and we would always try to maintain our expenditures with 
lower revenues because we never want to generate a deficit and 
have a control board again.
    The point here is, though, is that a good government? Is 
that a good government?
    Senator Landrieu. Thank you. Well, we will work with you 
all and perhaps use the Congresswoman's bill as a basis for 
some sort of hearing and hopefully we can do that.

                       EDUCATION IN THE DISTRICT

    Let me move to education, if I could, just for a moment. I 
am particularly interested, Mr. Mayor, from your perspective, 
and because the Superintendent is here, he may want to address 
this, and he is welcome to. How is the city positioning 
itself--maybe the top two or three issues--regarding education 
reform? I use that term broadly because reform can mean 
different things to different communities.
    But generally, as you know, there is a great move across 
this Nation, and it expressed itself in congressional action 
just recently for cities everywhere, led in many cases by the 
mayors of those cities. Mayor Morial is leading this effort in 
New Orleans, Mayor Daley in Chicago. You have got former 
Governor Romer even taking over the L.A. situation in Los 
Angeles, trying to be part of this effort to try to bring our 
urban schools that are, in many instances, lacking a lot of the 
resources--but sometimes it can be often management 
difficulties--to a level so that every child really gets a 
quality education in a quality facility in ways that the city 
and the parents can have some knowledge about the 
accountability, how well the schools are doing, identifying 
schools that are not doing well, making the changes necessary, 
really focusing on the results and performance, believing every 
child can learn and not just saying it, but actually having it 
happen.
    Teachers all over the Nation are complaining. Obviously, 
they do not get enough pay. They do not get enough support. 
They have difficulty with discipline in their classrooms 
because of maybe local or Federal regulations.
    So, with that, would you like to just comment about the one 
or two things or steps you are taking, particularly on the 
accountability issue? How are we stepping forward to assure 
people here in the District? In your budget you start by 
indicating more support, which is good, a substantial increase 
in funding. But, as you know, some critics will say you just 
cannot throw money at a problem. Money without reform can be a 
waste of time. Reform without resources can be a futile effort. 
So, you need both the reform and the resources. So, could you 
comment about that and then maybe the others might want to for 
the record on education?
    Mayor Williams. Yes, Senator. If I could just answer very, 
very briefly and introduce Superintendent Vance and let him 
really answer the substance of the question.
    I really consider it my most important role as Mayor. I 
want to say, incidentally, that I am proud of our city for 
voting to change our school board, even where we do not have 
full representation. The vote to actually reduce the number of 
elected positions took a lot of courage by our citizens because 
we believe very, very strongly that we need to have a first-
rate school board that supports our Superintendent.
    I consider it our first order of business. The schools are 
going to be coming out with a business plan in July. We really 
consider it our first order of business to work with the 
schools and support the schools and their facilities plans, 
support the schools where it comes to, for example, what we are 
doing with our parks and recreation, with what we are doing 
with our libraries, with what they are doing with schools.
    I will give you another statistic. Support the schools in 
the following sense. In a normal city, you may have 4 or 5 
percent of your youth in mental health. In the District, we 
have .5 percent of our youth in the mental health system.
    Senator Landrieu. I am sorry. I did not hear it. How much?
    Mayor Williams. .5 percent are in the mental health system 
here, whereas it tends to be 4 or 5 percent in a normal city, a 
normal place.
    What that means is this is feeding and driving this huge, 
exorbitant increase in folks into special ed at very, very high 
cost for the school system. That is an area where we need to 
combine. So, I consider it our highest priority to work with 
the superintendent in the business plan that he is creating to 
see that he is successful.
    Let me cede the rest of my time, to the extent I have it, 
to him, if I could.
    Senator Landrieu. Go right ahead.
    Mr. Vance. Thank you, Mayor Williams, and good afternoon, 
Senator.
    Very briefly, the major focus, as you have indicated, has 
to be on low performing schools. This year we have identified 
19 such schools, and 9 of the schools will undergo what we call 
a complete transformation; that is, the administrative teams 
and the entire staffs will be replaced. There will be those 
staff members who are eligible who will be able to reapply for 
their positions. The principal and the divisional 
superintendent will be able to select those whom they care to. 
Those schools will receive a complete overhaul, both with an 
imposed curriculum and other appropriate activities.
    Working with the departments of the city, we are developing 
plans for what we call wraparound activities, which will 
provide opportunities for preschool, starting at 6:30 and 7 
o'clock in the morning, going through after school activities, 
6:30 and 7 o'clock in the evening for the youngsters.
    We are establishing these schools with a set curriculum and 
we are imposing high standards on them over a period of 3 
years. We have established marks for each school to achieve 
during the first, second, and third years.
    There are 10 other schools where we have decided that, in 
spite of considerable support, both monetary and personnel, 
they have not progressed, but the failure to progress was 
primarily the fault of the administrative leadership. In 10 of 
those schools, we are replacing those administrative teams.
    We have recruited both internally throughout the 
metropolitan area and nationally. Thanks to the Lead Principal 
initiative and the additional funds in the budget, we have been 
able to create a salary scale, again based on performance, that 
we feel is competitive, at least with those administrative 
positions in this metropolitan area.
    Here again, we have established standards. All of these 
schools, of course, will have new models for parent and 
community involvement, and there will be a movement to improve 
the physical facilities in those schools.
    On the broader range, as the Mayor has indicated, we have 
had the good fortune for the past 4 months to have, pro bono, 
four associates from McKenzie and Company working with us in 
the school system on the creation of what we have decided to 
call a business plan. That business plan is, in effect, a 3- to 
5-year educational reform plan for the school system which will 
touch every aspect and component of our school system before we 
are finished, particularly in multi-year budgeting, greatly 
related to those aspects of student achievement and the 
complete transformation of our central office and its 
operations.
    Finally, our major input also, as the Mayor has indicated, 
is in the area of special education. Special education for the 
District is costly. It is more costly than normally what it is 
in urban and suburban areas in the school district. We are 
working with the Federal court system and the appointed court 
masters to exit from two very costly class action suits that we 
have been in for the past 6 years: the Pettys and the Blackman-
Jones. We are within 8 to 10 months of exiting from Pettys and 
Blackman.
    At the point that we are able to do that, we will be able 
again to redirect much of the money spent for transportation 
and placement of those youngsters in private settings in three 
States outside of the District because we will be able to 
provide for them within our school district. Those youngsters 
have a right, as well as any youngsters, to attend schools in 
their community in programs that are appropriately designed and 
perfected for them.
    If there are other questions, I certainly will be glad to 
respond to them.
    Built into all this, I would just like to say, which 
closely corresponds with the national thrust in assessments, we 
have expanded our curriculum. Up to this point, we had what was 
known as a content standards approach. We will inaugurate this 
September a pre-K through 12 curriculum which subsumes the 
content standards, but also expands into enrichment in other 
activities. That will be highly directive. So, in our 
assessment of schools in the future, we will not only look at 
results from the norm of reference, SAT-9 test, but 
increasingly we will be looking at what we call criterion 
reference testing and their results, which in effect evaluate 
and test student progress based on the curriculum which has 
been designed for the school system.
    Senator Landrieu. Well, I thank you for that. The reason I 
ask is it is not just because it is an important issue for 
education, but given that we have agreed now to have this 
follow-up meeting about the long-term stability and economic 
development expanding the tax base of the city, I would submit 
that having a first-class education system is one of the most 
important steps to encourage people to stay in this District, 
have their children educated in the District, to really put 
forward our best efforts. You all are seemingly moving inthe 
right direction.
    But this whole issue, even cities that are not of this mind 
are going to be of this mind if this Federal legislation passes 
because I was very vigorous in my support of it. But there are 
some pretty tough time lines about the kinds of tests that have 
to be given, about the consequences, about requirements for 
certified teachers.
    Just to give you a reference point, if Kathleen will tell 
me, in Louisiana what is our--we have 30,000 teachers in 
Louisiana. We have got a population, just to give you a 
reference, of 4.5 million people. We have 30,000 teachers that 
are not certified in the traditional certification.
    Under the bill that we just passed, every district in the 
city, in the State, including the District of Columbia, will 
have to have teachers fully certified by 2005. I say every 
district. Actually the compromise was the schools with 50 
percent of poverty or greater have to have certified teachers 
by 2005.
    So, this is going to be a tough hurdle for everyone in the 
Nation, one that we need to try to reach this goal. But it is 
going to take a lot of effort and a lot of resources and a lot 
of innovative moving teachers in from non-traditional roles, 
looking at alternative certifications, because you want to have 
really qualified teachers in the classroom. Maybe we need to 
revisit how specifically they are certified. But it is going to 
be a challenge. But I hope and think that we are all up to it 
because it is important to make sure that we provide students 
with regular teachers who are certified, the opportunity to 
have discipline in those classrooms so learning can actually 
take place.
    Does anybody want to add anything on education? I was going 
to move to the child welfare.
    Mr. Vance. Just one closing comment on your last comments. 
I do not want to come across as seeming overly optimistic or 
disregarding what the national statistics show us on teacher 
recruitment. But this past year, we have had a very aggressive 
national recruitment program. We are very pleased with the 
results of that. As the Mayor mentioned earlier, we also 
initiated the teaching fellows program this year where we got 
close to 1,200 applicants. It was a pleasure to narrow that 
list down to the 137 vacancies which we knew we were going to 
have.
    We worked closely with American and George Washington 
Universities, and initially they were telling us we just do not 
think you are going to get candidates for your more eclectic 
and esoteric areas. Well, we got some of the finest candidates 
possible in math, science, microbiology, physics, English 
speaking for other languages, and special education. We have a 
2-year program at an institute which will be conducting for 
these teaching candidates with American and George Washington 
and our own institute to better train them in terms of the 
pedagogy and the methodology of teaching.
    We recently, as the papers indicated, released 531 
provisional teachers who had up to 3 years, some 4 years to 
become certified. They had not become certified, and because we 
were so confident in our recruitment and the quality of the 
persons we were bringing in the school system, we felt able to 
release them.
    Our goal is by July 17 to have every classroom in our 
school system filled. In talking with our Director of Human 
Resources last night, we are currently at the 217 mark, but we 
had 217 vacancies to fill with over 800 positions and 
applicants to choose from. So, we are moving right along.
    Senator Landrieu. That is truly quite encouraging. I can 
say, as a person who has been actively engaged in this debate 
here, that those statistics are better than most communities 
that I have heard about and know about and been privileged 
really to work with on this issue. That really is 
extraordinary. But it is a testimony to, if you have the right 
kind of administration, there are people that not only want to 
do this work, you have got to pay them a decent wage. But 
people do not teach for the money. They would be doing 
something else, but to join with an effort, you will have any 
number of qualified individuals, and I really commend you for 
that.
    Let me move on to the next question. Really, after this, if 
there are other things that you want to add--as I said, I was 
hoping we could finish by 4:00.

                             CHILD WELFARE

    On the child reform issue, Mr. Mayor, this has been in the 
headlines, and in many years, some really tough cases that have 
come to the public's eye on this child abuse and neglect and 
the need to really streamline our system and have a better 
management here. This budget reflects your commitment and the 
council's commitment in terms of additional resources to that 
effort.
    Mayor, you yourself have been an outstanding role model, as 
a person who began in foster care and then to come into the 
wonderful family that you are in now, and have been quite 
wonderful about sharing your time as a role model for people 
all over this country in foster care and for policy makers in 
terms of what is possible.
    So, would you just comment for the record about some of the 
things in this budget that you have put as a priority? I would 
ask the City Council perhaps to do the same, any comments on 
the proposal the judges have made. Judge King was here just 
yesterday giving remarks about their restructuring because it 
is complicated to streamline. Some of it is under the 
jurisdiction of the city. Some of it is the courts. It is not 
just the judges and the magistrates, but the case workers, the 
whole system.
    Can you give us just a brief, maybe 2 or 3 minutes, on how 
you feel this is working, some of the challenges that are still 
out there? And is there anything that we can do or that I can 
do to facilitate this reform and expedite these changes?
    Mayor Williams. Let us see. Two minutes on child welfare.
    Senator Landrieu. Well, go ahead and take 5.
    Mayor Williams. One thing, Senator, I am very, very proud 
that we are now in the process and will be shortly completing 
and will be getting results from a commission that I 
established on juvenile justice in the city. It is headed up by 
Judge Gene Hamilton who, you will be pleased to know, was with 
me at the White House a couple of years ago at that adoption 
ceremony. Judge Hamilton I think has either fostered or adopted 
something like what? Fifteen children? Forty? Good Lord, 40-
something children. When you talk about role models, he is a 
tremendous role model.
    We put together a first-rate group of citizens with funding 
from the Casey Foundation to do a study of where we are with 
juvenile justice with the expectation that they are going to 
find that we are nowhere near where we need to be, and a body 
of recommendations of what we need to put in place to set 
ourselves right both in terms of operations and also in terms 
of capital dollars because if you go out to Oxon Hill where we 
have our juvenile justice facilities--and I invite you to go 
out there with me--it would break your heart. It is a sad 
situation not because of the lack of effort by our employees, 
but just another one of these stories of just years and years 
and years of capital neglect. And now our children are 
suffering for it.
    Another area that I am pleased to say--in all humility, I 
will put it this way. The illumination I was able to give to 
the issue as an adopted son myself, we have increased adoptions 
in this city now over the last year period around 60 percent 
and are still climbing to greater effort in bringing more 
families into the realm of adoption by everything, by 
cooperating with other jurisdictions better, removing 
regulatory barriers, supporting our court counsel to support 
this effort better. That is moving along.
    Our child receivership has recently come back into the 
District. Not only has it come into the District--and I want to 
thank Carolyn Graham, our Deputy Mayor, and Grace Lopes, who is 
a special counsel to the Mayor for receiverships and other 
stuff, to have worked to bring this back in--but we have now 
working with us as the head of our Child and Family Services 
Agency, Olivia Golden who has a tremendous background in this 
area. Olivia Golden was head of children and family services 
for the Children's Defense Fund. She did the same thing with 
Donna Shalala. Secretary Shalala, at HHS, ended up being 
Assistant Secretary. She is now bringing that wealth of skill 
and ability to setting things right and really getting our 
program for Child and Family Services going in the right way.
    Finally, we insisted for a long, long time in open 
information, freedom of information, when it comes to getting 
our records out and information out, insisted for a long, long 
time in coordinating all of the different areas of government, 
including our Police Department when it involves the 
investigation of child abuse and neglect. While we have had 
some challenges there and some problems there, I believe that 
we are making headway in that effort.
    To wrap up, in terms of coordination when it comes to the 
family court, my philosophy I think is consistent with the 
philosophy of Congresswoman Norton and the leadership of the 
city, and that is to create in practice and to create in 
practical effect for families and children all the benefits of 
a family court without necessarily creating legally and every 
other way with all the associated costs of a family court 
itself, which means putting the right kinds of resources, to 
reducing the backlog, making sure that judges who are 
overseeing these cases have the right kind of expertise and 
continuity to make sure that cases are not falling through the 
cracks. Despite some controversy, I believe that that effort is 
taking shape, and I believe that there are only some small 
areas of disagreement that remain. I believe that we are going 
to get to our joint goal both up here in the Congress and down 
in the District and over in the Superior Court to see that the 
court is serving our children.
    Senator Landrieu. Maybe Mrs. Graham would like to come 
forward and just make a brief statement, if you want to add 
anything to that because of your good work.
    I would welcome any comments in writing about that specific 
proposal. As you know, there have been several bills filed 
about the establishment of a court. Senator DeWine and I are 
right in the middle of those negotiations now with 
Congresswoman Holmes Norton that is here and Congressman DeLay 
who is primary sponsor on the House side. So, any comments from 
the city or the council would be very welcome as to what your 
views are on the specifics because the devil is in the details 
here. While we all have this general idea, there are some 
conflicts about how this is going to be tackled. But it is very 
important again that we get this piece right.
    I do not know if you all are aware, Mayor, and you would be 
particularly happy to know that the Congress just passed an 
international treaty on adoption that for the first time 
establishes in the world, which is not an easy feat for 
countries of different cultures and different backgrounds to 
come together on the basic notion that every child deserves a 
family to call their own, preferably two parents, but at least 
one caring, loving adult--the children cannot raise 
themselves--that every child has a right, the treaty says, to 
remain in the family to which they were born, unless there are 
extenuating circumstances. In many cases there are terrible 
circumstances. And in that, the treaty goes on to say, the 
children will then be placed with the closest kin, responsible 
relative; if not, in the community then to which they were 
born; and if not, to find someplace in the world for them to 
be.
    This is an extraordinary treaty, if you think about it, 
because there are countries that say we do not care if our 
children grow up on the street. They are not going to go 
anywhere but here. There are States that say we do not care if 
children literally die in an institution. We do not believe 
that. But taking this step of faith and belief that every child 
deserves a family is no small accomplishment. We just passed 
that last year. So, literally every city and town and hamlet 
and village around this world is going to be, hopefully, in the 
next few years, working on this simple but profound notion.
    It is kind of like Habitat for Humanity has this idea. 
Every family deserves shelter. Every family deserves a home. 
Well, every child deserves a family, and we have lived for a 
long, long time in this world without thinking. They can grow 
up in orphanages. They can live on the street. Well, that is 
not the way God created this world.
    So, I am very excited about this and think it will have 
long-term, profound effects in many positive ways for our whole 
community and our Nation.
    So, I thank you for the part that you are playing in that 
here, but to know that every city and community is struggling 
with this. If you wanted to add anything to that, Mrs. Graham.
    Ms. Graham. Thank you so much for this opportunity. At the 
local level, Senator Landrieu, one of the issues I think for us 
in this metropolitan area is to work out the kind of 
arrangements with Maryland and Virginia that will allow ease of 
access for our children across these borders. I know that in 
discussions with Mrs. Norton, she certainly supports that, and 
we are going to be looking at some of the border agreements 
that are in place in various parts of this country right now 
that allow for this very thing. We will be working with her 
staff to design such an agreement that may be addressed in the 
family court legislation. So, we would ask that you be on the 
lookout for that when the legislation moves forward, as we move 
it into final form.
    Senator Landrieu. Thank you. In conclusion, this area is so 
important as we get this idea of one judge, one family so that 
families do not get lost in the system, that children do not 
get lost in the system, that parents and relatives are not 
frustrated, that we create a seamless, efficient way to help 
families deal with some of these very difficult issues. But 
even though the issues are difficult, there needs to be a 
definitive resolution not just going on and on and on and on 
because no one wants to make a decision because these decisions 
are tough. Well, they are tough, but some tough decisions have 
to be made in these cases or you have the tragedies that result 
when the system is not built in a way that can make not quick 
and not untimely, but timely, deliberative, but tough decisions 
so that children can be raised in the most nurturing 
environment possible because, over the long run, it is probably 
the most significant thing a government can do to ensure its 
own long-term health, for its children to be nurtured well. And 
they cannot do that by themselves. That is why we have prisons 
that are full and budgets that are overrun and a great deal of 
pain and suffering.
    So, while a lot of people do not like to focus on this 
issue or think it is soft, I think it is a very hard issue. It 
is a hard-cutting issue, and it needs a lot more attention than 
it gets in these walls. I hopefully can continue to try to stay 
focused on this for all of us, and we will help you to do that.
    Ms. Cropp. Senator?
    Senator Landrieu. Yes.
    Ms. Cropp. The council yesterday passed a resolution with 
regard to the family court and we will forward it to your 
office.
    Senator Landrieu. Thank you very much.
    We are about to wrap up. Does anybody have anything for the 
record?
    Let me just ask the staff if there is anything I need to 
put in the record.
    The record will be open until the 20th, if anybody wants to 
add anything to this record.
    Any closing comments?

                         conclusion of hearings

    Mr. Mayor, thank you all. It has been a good hearing and 
the meeting is concluded.
    [Whereupon, at 3:58 p.m., Wednesday, July 11, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]




















       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
Clark, John L., Corrections Trustee, Courts, District of Columbia   129
    Prepared statement...........................................   160
    Statement of.................................................   158
Cropp, Linda M., Chairman, Financial Responsibility and 
  Management Assistance Authority, District of Columbia..........   173
    Prepared statement...........................................   188
    Statement of.................................................   185
DeLay, Hon. Tom, Majority Whip, U.S. Representative from Texas, 
  statement of...................................................     9
DeWine, Hon. Mike, U.S. Senator from Ohio:
    Opening statements........................................... 1, 77
    Questions submitted by.............................51, 68, 121, 123
    Statement of.................................................   136

Gahdhi, Dr. Natwar M., Chief Financial Officer, District of 
  Columbia.......................................................   173
    Prepared statement...........................................   197
    Statement of.................................................   195
Graham, Carolyn, Deputy Mayor for Children and Youth Services, 
  District of Columbia...........................................   173
    Prepared statement...........................................    13
    Questions submitted to.......................................    49
    Statement of.................................................    10
Grossman, Hon. David E., Court of Common Pleas, Juvenile Court 
  Division, Cincinnati, Ohio.....................................    77
    Prepared statement...........................................    95
    Questions submitted to.......................................   121
    Statement of.................................................    94

Hutchison, Hon. Kay Bailey, U.S. Senator from Texas, statement of   177

Jackson, Sondra, Acting Chief, Child and Family Services Agency, 
  District of Columbia:
    Prepared statement...........................................    17
    Questions submitted to.......................................    51
    Statement of.................................................    16
Jones, Cynthia, Director, Public Defender Services, Courts, 
  District of Columbia...........................................   129
    Prepared statement...........................................   149
    Statement of.................................................   148

King, Hon. Rufus G. III, Chief Judge, D.C. Superior Court, 
  District of Columbia:
    Prepared statements.........................................84, 146
    Questions submitted to.......................................   123
    Statements of......................................77, 82, 129, 144

Landrieu, Hon. Mary L., U.S. Senator from Louisiana:
    Opening statements of......................................129, 173
    Prepared statements..........................................7, 133
    Questions submitted by..........................49, 67, 70, 71, 123
    Statements of................................................ 6, 80

Meltzer, Judith, Deputy Director, Center for the Study of Social 
  Policy:
    Prepared statement...........................................    23
    Questions submitted to.......................................    71
    Statement of.................................................    21

Ormond, Jasper, Interim Director, Court Services and Offender 
  Supervision Agency, Courts, District of Columbia...............   129
    Prepared statement...........................................   154
    Statement of.................................................   152

Rivlin, Dr. Alice M., Chairman, Council of the District of 
  Columbia, District of Columbia.................................   173
    Prepared statement...........................................   193
    Statement of.................................................   192
Roberts, James, President, Family Division Trial Lawyers 
  Association, prepared statement................................   100

Sinowitz, Betty E., Co-Vice President, Family Division Trial 
  Lawyers Association, prepared statement........................   100
Strauss, Paul, statement of......................................    99

Thompson, Eric, Staff Attorney, Children's Rights, Inc.:
    Prepared statement...........................................    29
    Questions submitted to.......................................    68
    Statement of.................................................    28

Vance, Paul, Superintendent, D.C. Public Schools, District of 
  Columbia.......................................................   173

Wagner, Annice M., Chair, Joint Committee on Judicial 
  Administration, Courts, District of Columbia...................   129
    Prepared statement...........................................   140
    Statement of.................................................   138
Walton, Hon. Reggie, Presiding Judge, Family Division, D.C. 
  Superior Court, District of Columbia...........................    77
    Statement of.................................................    92
Williams, Hon. Anthony, Mayor, District of Columbia..............   173
    Prepared statement...........................................   182
    Statement of.................................................   178

























                             SUBJECT INDEX

                              ----------                              

                 Child and Family Services Receivership

                                                                   Page
Abuse and neglect, consolidating.................................    31
Additional committee questions...................................    48
Adequate:
    Funding......................................................    30
    Legal counsel................................................    31
Adoption and Safe Families Act...................................  4, 9
At-risk children.................................................     2
Authority over agency-related functions..........................    30
Caseworkers/social workers.......................................    55
CFSA:
    Accomplishments..............................................    18
    Information management system................................    12
    Update on role in the transition.............................    20
Challenges.......................................................    16
Children in the system...........................................    53
Child welfare:
    Steps to regaining administration of.........................    28
    System.......................................................    21
D.C. Child Welfare System........................................     1
Faces............................................................    12
Fiscal year 2001 highlights......................................    19
GAO report.......................................................     2
LaShawn:
    Decree.......................................................    21
    Order........................................................23, 29
Mayor's reform plan..............................................    11
Progress report on implementation of October 23, 2000 consent 
  order governing transition of the LaShawn receivership.........    25
Receivership..................................................... 2, 11
Reforming the system............................................. 5, 10
Reporting and investigation......................................    57
Sexual abuse, reports of.........................................     5
Structure of the agency..........................................    30
Transition:
    Order........................................................    22
    Out of receivership..........................................    28
    Prerequisite for.............................................    22

                          DISTRICT OF COLUMBIA

Anacostia River initiative.......................................   180
Chief Financial Officer, role of the.............................   202
Child welfare....................................................   216
Council period XIV...............................................   188
Council-Mayor budget process, the................................   189
Budget:
    Development of the fiscal year 2002..........................   198
    District's fiscal year 2001 budget supplemental, the.........   197
    District's fiscal year 2002..................................   198
    Highlights of the fiscal year 2002...........................   189
    Improvements for the fiscal year 2003........................   198
    Structural imbalance in the District.........................   198
District's reserve policy, change in the.........................   199
Education in the District........................................   212
Federal contribution.............................................   189
Fiscal responsibility............................................   181
Investing in critical priorities.................................   183
One government, good government, and self-government.............   185
Local funds budget...............................................   186
Long-term structural reform......................................   210
Maintaining fiscal responsibility................................   184
School budget....................................................   178
Reserve fund.....................................................   199

                                 Courts

Background.......................................................   160
Cases handled by agency, increase in number of...................   150
Courthouse facility renovation...................................   168
Courts:
    And the community............................................   142
    Improving defender services operations at the................   142
    Performance measurement at the...............................   143
Criminal Justice Act, assistance to the court in administering 
  the............................................................   150
Criminal justice process, initiatives to improve the within the 
  District of Columbia...........................................   163
Enhancing management practices...................................   141
Family court reform..............................................   165
Fiscal year:
    2000 initiative: parole revocation...........................   151
    2002 budget:
        Priorities of the courts.................................   143
        Request:
            Community re-entry...................................   153
            Of the corrections trustee...........................   164
Implementation of the act and the Lorton closure process.........   161
Lorton Correctional Facility closing.............................   170
Mental health treatment program, creation of a...................   151
Progress and new initiatives.....................................   155
Progress on agency functions and fiscal year 2000 initiatives....   150
Space needs......................................................   147
Staffing.........................................................   147
Perspectives on current operations...............................   162
Strengthening financial management at the Courts.................   140
Training.........................................................   147

                          D.C. Superior Court

                                                                     79
Additional committee questions...................................   121
Assignments......................................................    86
Backlog..........................................................   117
Case backlogs....................................................    98
Cases currently under review.....................................   126
Child protection mediation.......................................    87
Court-based data information system..............................    98
Family division reform plan......................................    84
Filled as a family court.........................................   105
4,500 cases currently under review by judges.....................    87
Judicial:
    Officers/magistrates.........................................    97
    Tenure.......................................................    97
Facilities.......................................................    98
Magistrate judges................................................    87
National Council of Juvenile and Family Court Judges.............    95
Permanency Branch................................................   123
Planning.........................................................   126
Reduction in caseload and length of stay for children............   121
Resources........................................................    98
Specialization.................................................86,  125
Superior Court of the District of Columbia Family Court Reform 
  Plan (DRAFT)..................................................86,  87
System accountability............................................    87
Training........................................................87,  98
Unified family court.............................................    86

                                   - 

</pre></body></html>
